                          COMPENDIUM OF AUDITS OF THE
                          FEDERAL TECHNOLOGY SERVICE
                        REGIONAL CLIENT SUPPORT CENTERS

                                 DECEMBER 14, 2004 *




* Various technical revisions were made to this Compendium on January 10, 2005 regarding
  specific vendor data. None of the revisions in any way changes the findings and points
  presented.
                                       COMPENDIUM OF AUDITS OF THE
                                       FEDERAL TECHNOLOGY SERVICE
                                     REGIONAL CLIENT SUPPORT CENTERS

                                                   TABLE OF CONTENTS
                                                                                                                        Page
INTRODUCTION .............................................................................................................. 1
          Background ......................................................................................................... 1
          Objectives, Scope, and Methodology ............................................................... 3

SUMMARY RESULTS...................................................................................................... 5
          Inadequate Competition ..................................................................................... 5
          Misuse of Contract Vehicle ................................................................................ 6
          Improper Contracting Actions ........................................................................... 6
          Frequent Use of Time and Materials Task Orders ........................................... 7
          Inadequate Support for Fair and Reasonable Pricing ..................................... 7
          Inappropriate Use of the IT Fund ....................................................................... 8
          Inadequate File Documentation ......................................................................... 8
          Inadequate Contract Administration and Project Management...................... 8
          Causes of Improper Procurement Practices .................................................... 9
          Review of FY 2004 Procurement Actions and Controls .................................. 9
          Recommendations .............................................................................................. 9
          Management Response .................................................................................... 11

SECTIONS
          New England Region ........................................................................................... I
          Northeast and Caribbean Region ...................................................................... II
          Mid-Atlantic Region ........................................................................................... III
          Southeast Sunbelt Region ................................................................................IV
          Great Lakes Region ............................................................................................V
          Heartland Region ...............................................................................................VI
          Greater Southwest Region ...............................................................................VII
          Rocky Mountain Region ..................................................................................VIII
          Northwest/Arctic Region ....................................................................................X
          National Capital Region .....................................................................................XI
                                COMPENDIUM OF AUDITS OF THE
                                FEDERAL TECHNOLOGY SERVICE
                              REGIONAL CLIENT SUPPORT CENTERS


                                              INTRODUCTION


This compendium relates the results of the audits performed by the General Services
Administration, Office of Inspector General at the Federal Technology Service’s Client
Support Centers nationwide. These reviews were conducted at the request of the
Administrator, General Services Administration, as an expansion of our January 2004
audit report1 that identified a number of improper contracting practices in three of the
Client Support Centers. Reports on the outcome of each individual Client Support
Center were issued to the Commissioner, Federal Technology Service and the respective
Regional Administrator.

Background

The Information Technology (IT) Solutions business line within the General Services
Administration’s (GSA) Federal Technology Service (FTS) assists Federal agencies in
identifying technology solutions and acquiring, deploying, managing and using them. It
provides a comprehensive range of IT products and assisted services to the Federal IT
community on a fully cost-reimbursable basis through contracts with industry partners.

In each of GSA’s 11 regions, Client Support Centers (CSCs) issue and manage task and
delivery orders against existing contracts, manage projects, and maintain a staff of IT
managers and project managers. They rely on a variety of contract vehicles to engage
private sector services to satisfy client agency requirements, including FTS contracts,2
Federal Supply Service (FSS) Schedules, and Government-wide contracts awarded and
managed by the contracting offices of GSA and other agencies.

CSCs perform direct interface with customer agencies to define requirements, identify
sources of the needed products or services, prepare task and delivery orders, and
manage projects, depending on the level or support that the client requires. They are
authorized to maintain their own contracting staffs and to award small contracts (under
$5 million) and blanket purchase agreements for specific clients wherein the client
agency pays for all contracting and acquisition costs. The CSCs also have profit and
loss responsibility. They assess fees, generally ranging from one to four percent of
product or service cost, to client agencies for the services provided.

The level of contracting activity varies among the regional CSCs, as shown below. For
example, fiscal year (FY) 2004 revenues ranged from $175 million in Region 2 to nearly
$1 billion in Region 4. Likewise, FY 2002 funded full time equivalent employees ranged
from 10.8 in Region 1 to 62 in the National Capital Region.

1
 Audit of Federal Technology Service’s Client Support Centers, Report Number A020144/T/5/Z04002, dated
January 8, 2004.
2
  FTS provided Solution Development Centers (SDCs) as centers of contracting expertise that the regional CSCs can
rely on. As an example, the Small Business SDC provides a suite of competitively awarded contracts set aside for
8(a) program certified small and disadvantaged businesses. (FTS SDCs are now part of the Federal Supply Service.)



                                                       1
Total CSC procurements have increased in recent years: $3.8 billion in fiscal year (FY)
2001, $4.7 billion in FY 2002, $5.8 billion in FY 2003, and $5.4 billion in FY 2004. The
Department of Defense (DOD) customers represent over 85 percent of the business of
the regional CSCs, and the majority (60 percent) of CSC task and delivery orders are
issued against FSS Schedules on a dollar basis. Tasks for services represent the
majority of CSC business.


                                                REVENUE
                                          REGION    FY 2004
                                             1     $203,658,500
                                             2      175,071,800
                                             3      355,851,600
                                             4      962,904,700
                                             5      340,626,800
                                             6      687,364,000
                                             7      706,625,600
                                             8      284,394,200
                                             9      731,377,800
                                            10      314,976,200
                                            11      569,943,000
                                           CO 3      74,917,300
                                          TOTAL $5,407,711,500


We performed a prior audit of the CSCs located in Regions 4, 6, and 10 and reported our
results in Audit Report Number A020144/T/5/Z04002, dated January 8, 2004.4 In that
audit, we identified numerous improper task order and contract awards and
inappropriate contracting practices, including improper sole source awards, misuse of
small business contracts, ordering work outside the contract scope, improper order
modifications, frequent inappropriate use of time and materials task orders, and not
enforcing contract provisions. Based on these findings, the Administrator, in November
2003, requested reviews of FY 2003 task orders and modifications in the other eight
regional CSCs.5 The FTS Commissioner subsequently requested that we also perform a
limited review of recent control improvements underway and FY 2004 task orders and
modifications in all 11 regional CSCs.

In addition to our audits of CSCs, the DOD Inspector General (DOD-IG) performed several
audits during 2002 and 2003 of DOD purchases from GSA. The DOD-IG identified
problems in: contracting for professional, administration and management support; use
and control of Military Interdepartmental Purchase Requests; contract actions awarded
to small businesses; and procurement of the Seat Management initiative.


3
  Central Office.
4
  An Alert Report on Audit of Federal Technology Service’s Client Support Centers, Audit Report Number
A020144/T/5/W03001, was issued on March 6, 2003, to alert FTS management of the significant inappropriate
contracting practices and misuses of the Information Technology Fund that were disclosed during our audit of the
Northwest/Artic (Region 10) CSC.
5
  The Regional Administrator, Pacific Rim Region had requested our audit office to perform a review of his region in
May 2003. Accordingly, the audit of this region was in process prior to the Administrator’s request.



                                                          2
Objectives, Scope, and Methodology

The objective of these reviews was to determine whether the CSCs conduct and
administer procurements in accordance with the Federal Acquisition Regulation (FAR)
and the terms and conditions of the contracts utilized, for actions occurring in FY 2003 6
for Regions 1, 2, 3, 5, 7, 8, 9, and NCR, and a limited review of the implementation of
enhanced management controls implemented in 2004 over the procurement process for
all Regional CSCs.

In accomplishing these objectives, we reviewed:

                 Fiscal Year      No. of Task Orders 7             Value
                     2003                 227                  $3,209,289,564
                     2004                 105                  $1,390,029,986
                    Totals                332                  $4,599,319,550

Risk-based judgmental samples (not representing statistical samples) of FY 2003 task
orders exceeding $100,000 were selected at each CSC location. Procurement actions in
FY 2004 occurring during the three-month period, March through May 2004, were also
judgmentally selected in each Region for a limited review of control improvements. We
analyzed relevant procurement and funding documentation, and conducted interviews
with client agencies, contracting officials, and Information Technology Managers, as
appropriate. For our limited review of FY 2004 task orders, we limited our analysis to
determine if control improvements were implemented and whether major weaknesses
were identified and corrected prior to the awards. Our reviews of FY 2003 task orders
focused on procurements made during fiscal year 2003,8 however, in some instances,
client projects were followed back to 1998 and forward into fiscal year 2004.

These audits, performed in accordance with generally accepted Government auditing
standards, were conducted during the period December 20039 through August 2004.




6
  Our review of the Pacific Rim Region was requested by the Regional Administrator, Region 9 in May 2003 and thus,
we reviewed Region 9 task orders and modifications for the 18-month period ending March 31, 2003 and for the
three-month period, July through September 2003.
7
  For the Pacific Rim Region, we reviewed an additional 36 non-IT related, FY 1999 – 2003 task orders valued at
$15,511,465.
8
  The prior audit focused on procurements made in FY 2002 and in some instances, client projects were followed
back to FY 1997 and through FY 2003.
9
  The review of the Pacific Rim Region began in June 2003.



                                                        3
BLANK PAGE




    4
                                 SUMMARY RESULTS


Our audits of FY 2003 procurements identified a number of improper contract and task
order awards involving millions of dollars that did not comply with procurement laws and
regulations. Our findings identified numerous instances of inappropriate contracting
practices, such as misuse of contracting vehicles, inadequate competition, nonexistent
or ineffective contract administration, poor or non-existent support for fair and
reasonable pricing, misleading descriptions of work, persistent and unsupported use of
time and materials task orders, misuse of the IT Fund, and purchase of “open market”
items without negotiation or price evaluation.

Our limited reviews of FY 2004 procurement actions generally indicated some
improvement overall from recent enhanced management controls put in place in the
Regions. However, in some regions, we found several of the same issues identified in
our reviews of 2003 procurements, such as improper contracting actions, inadequate
competition, and insufficient documentation of price reasonableness. We will perform
more comprehensive audit tests of the CSC program management controls during FY
2005 to further assess the Regions’ improvement efforts.

Several factors contributed to the problems noted, including, an ineffective system of
internal management controls: an environment that emphasized client agency
satisfaction and a culture that emphasized revenue growth. As a result, there is no
reasonable assurance that goods and services were procured at fair and reasonable
prices, and the fundamental objectives underlying the Federal procurement process were
not achieved.

Though procurement irregularities were observed in all Regions, the significance and
prevalence of the deficiencies varied by Region, as did the progress of improvement
actions. Our detailed findings on each individual Region were summarized in individual
audit reports on each Region and issued to the FTS Commissioner and the respective
Regional Administrator. These reports and their appendices, including management
responses, are included in their entirety in sections I through XI that follow after this
Summary Results section.

Inadequate Competition

The CSCs were not proactive in maintaining a competitive environment for task orders
and, as a consequence, the Government did not obtain the benefits of competition and
potentially lower costs. Of the 204 task orders we reviewed that required competition,
118 (58 percent) were awarded without adequate competition. These task orders were
awarded sole source to incumbent contractors, or to other vendors referred by the client
agency, with only a single offer, or without justification. In some instances, the CSCs
accepted a client’s justification to restrict competition to one FSS Schedule contractor
and not seek other vendors that may have the capability to perform the work.
Additionally, a number of the task orders for services exceeded the maximum order
threshold (MOT) at which point regulations direct that the Government should seek
quotes from additional contractors that offer services that will meet the client’s needs.




                                           5
FSS Schedule service orders, requiring a statement of work and expected to exceed
$2,500 (the micro-purchase threshold), require that the ordering office send the
statement of work to a minimum of three Schedule contractors for competitive quotes. In
2002, Congress reaffirmed the importance of optimizing competition by enacting
legislation10 to require ordering agencies to obtain a minimum of three offers for DOD
professional services orders expected to exceed $100,000 that are placed under multiple
award contracts, including FSS Schedule contracts. These provisions also apply to non-
DOD agencies placing orders on behalf of DOD. Unrestricted use of sole source
justifications undermines these competitive procedures.

Misuse of Contract Vehicle

For some of the task orders we reviewed, the majority of the work was performed by a
different contractor from the awardee; contractors were asked to perform work or
provide equipment and materials that were not within the scope of their contract
vehicles; and the small business 8(a) sole source authority was not appropriately used.

Pass-Through Contracting. We identified 8 instances in which the CSCs awarded task
orders to vendors who would not be performing the work or very little of the actual work.
In some cases, the client was really interested in another contractor performing the work,
but for convenience, used an existing contract vehicle as essentially a “pass-through”
contract. This contracting practice results in the Government paying unnecessary fees
and markups. One of these awards resulted in $23 million in fees.

Open Market Purchases.         For some task orders reviewed, contractors purchased
equipment or materials not included in the FSS Schedule contract (or related Blanket
Purchase Agreement on which the task order was awarded. Further, there was little
evidence that the pricing of these items was evaluated and determined to be reasonable.
In one $7.4 million task order, more than $5.2 million of material costs, primarily for
computer equipment, were included with no evidence of price evaluation.

Small Business 8(a) Sole Source Authority. In two cases, Small Business authority was
not properly utilized. One involved a “pass-through” wherein the small business acted
as a middleman and the vast majority of the work was performed by a large business. In
the second instance, the small business teamed with a large business that performed the
work. The FAR requires the small business to supply a minimum of 50 percent of the
effort.

Improper Contracting Actions

We identified task order awards that were improper or questionable including, adding
work outside the scope of the statement of work; vague or ill defined statements of work;
extending the task performance period without justification; leases, construction, or
acquisition of real property, which are outside of FTS’ contracting authority; improper
modifications; and split procurement. Highlights of several of these actions are
highlighted below.

Work Outside Contract Scope:       Twenty task orders were awarded for services,
equipment, or materials that were not within the base contract scope. For example, a

10
     Section 803 of the National Defense Authorization Act of 2002, Public Law 107-107.



                                                           6
project to implement a Gigabit Ethernet network, also included through modifications
valued at approximately $1.5 million, replacing lead cable, setting up a wireless local area
network for a convention, installing a voice over internet protocol network, and other
work outside the original scope of work.

Statements of Work (SOW): Ineffective statements of work were found in several of the
regions. Some were of little practical use for soliciting offers or for determining that
defined deliverables were received. In one region, the SOW was vague, citing in several
instances “as required” rather than specifying defined deliverables.

Work Outside of FTS’ Authority: Nineteen task orders were awarded for construction
services, lease, or acquisition of real property. These substantial costs were usually
invoiced and paid as Other Direct Costs.

Split Procurement: Some of the task orders we reviewed resulted from the contracting
officer splitting a requirement that exceeded the $3 million limitation for awarding an
uncompeted task order to a small business 8(a) contractor, into multiple orders that
would each fall below the limitation. For example, the client submitted a single
requirement with two SOWs. One SOW for 16 privacy officers and two project managers
was $9.7 million over 5 years and the other SOW for 16 administrative assistants was
$4.7 million over 5 years. Rather than combining these two SOWs into one task order,
the contracting officer independently processed the SOWs, and for less than the total
number of support staff needed, utilizing the client’s “preferred vendor.” For example,
the contractor’s $944,193 proposal for one privacy officer for 5 years instead of 16 for 5
years was accepted. However, modifications adding more privacy officers were issued 2
weeks later with funding documents dated one day and three days after the initial award.

Frequent Use of Time and Materials Task Orders

Overall, CSCs used time and materials type orders rather than fixed-price task orders.
The FAR discourages the use of time-and-materials contracting and warns that a time-
and-materials contract provides no incentive for a contractor to control costs and
operate efficiently and places all the risk on the Government.

Our review showed that in the majority of cases, the need for a time-and-materials task
order was not documented with a Determination and Findings, as required. Also, a
number of the tasks did not specify the maximum amount of funds (ceiling) to be
expended on the project. There were also billing issues wherein incorrect or higher
billing rates were used. For example, a task order for refinement of conceptual work
anticipated to span a period of two months was awarded for $203,762 with no option
periods and no ceiling price.     Some four years later, and after nine improper
modifications extending the period of performance, the task order had grown to more
than $81 million.

Inadequate Support for Fair and Reasonable Pricing

For 64 percent of orders and modifications we reviewed, required documentation
supporting that the Government received fair and reasonable prices was absent or not
sufficient. Documentation did not show how CSC officials followed FSS Ordering
Procedures for Services to ensure fair and reasonable prices, or whether and how the
CSCs attempted to negotiate better pricing when processing and awarding orders,


                                             7
especially when orders exceeded the Maximum Order Thresholds of the underlying FSS
Schedule contract. The inadequacy of support for fair and reasonable prices is of
particular concern given that a number of the orders were awarded for substantial value
without benefit of competitive bids.

FSS Schedule contracts procedures include provisions for obtaining competition for task
orders, as well as giving consideration to the level of effort and labor mix when making a
determination on whether the total price is fair and reasonable. The CSCs’ contract
documentation did not always reflect an evaluation of labor mix and level of effort.

Inappropriate Use of the IT Fund

The majority of the CSCs engaged in inappropriate contracting practices to procure, on
behalf of clients, services which did not meet the intent of the IT Fund or FAR definitions.
The statute (40 USC Section 322) creating the IT Fund, states that it is available “for
expenses, including personal services and other costs, and for procurement (by lease,
purchase, transfer, or otherwise) to efficiently provide information technology resources
to federal agencies and to efficiently manage, coordinate, operate, and use those
resources … Information technology resources provided under this section include
information processing and transmission equipment, software, systems, operating
facilities, supplies, and related services including maintenance and repair.” We
identified 38 task orders, with a total value exceeding $571 million, of inappropriate use
of the IT Fund.        These task orders involved such non-IT related services as
environmental clean up; administration; training on procurement and accounting of
materials; and consulting and financial management activities. For example, six task
orders valued at almost $13 million were issued to one contractor for job categories that
were not IT-related, such as firearms instructors, medical technicians, and warehouse
personnel. Several of these also had deficiencies relative to sole source award, split
procurement, and improper task order modification, and billing.

Inadequate File Documentation

The majority of the contract files did not contain significant documents, such as
necessary Acquisition Plans; independent government estimates; required letters of
designation for the Contracting Officer’s Representative that documents the
understanding and acceptance of their assigned duties and responsibilities relative to
the task order; justifications for task order modifications, especially extensions of the
period of performance; and exercise of Contract Options.

Inadequate Contract Administration and Project Management

The CSCs' lack of oversight over task orders resulted in several questionable practices
involving the clients and contractors. Payments were made for: substandard work; work
that was incomplete or never delivered to the Government; bills that contained incorrect
labor rates or did not adhere to the base contract pricing terms; unsubstantiated costs;
and equipment substitutions with substantial markup costs. Two task orders reflected
conflicts of interest as the successful contractor drafted or participated in drafting the
statement of work. There were improper extensions to the period of performance and
significant cost growth on a number of task orders.




                                             8
There were 15 task orders involving national security work of a classified and highly
sensitive nature. Because CSC contracting personnel did not possess the required
security clearances, they were not able to access the classified data during the
procurement, award, and execution phases of the contracts and had to rely on others for
proposal evaluation and other contract management duties, such as verifying contract
deliverables and billings.

Causes of Improper Procurement Practices

Our audit work indicated that several factors contributed to the improper contracting
practices identified: an ineffective system of internal management controls; CSC
personnel sacrificing adherence to proper procurement procedures in order to
accommodate customer preferences; and an excessive focus on customer satisfaction
and revenue growth. Some customers were motivated to use the CSCs because they
knew they could obtain supplies and services (some of which had little or no relationship
to IT) from the vendors that they preferred in an expeditious manner. Additionally, CSC
personnel were not generally familiar with prescribed ordering procedures, contracting
officers did not always adhere to proper procurement procedures designed to ensure the
Government receives the best value, and CSC personnel generally lacked the expertise
to properly evaluate contractor proposals.

Review of FY 2004 Procurement Actions and Controls

Our limited review of FY 2004 procurement actions in each of the 11 Regions generally
indicated some overall improvement from enhanced management controls being put into
place in the Regions, with the degree of improvement varying by Region and some still a
“work in process.” However, our limited review of FY 2004 procurement actions showed
that in several regions, some of the same deficiencies identified in the FY 2003
procurement actions still persist, such as: inadequate competition; lack of support for
fair and reasonable pricing; improper task order modifications; unsubstantiated costs;
and continued preference for time-and-materials contracts.

In July 2004, the Administrator initiated the “Get It Right” Plan and GSA’s strong
commitment to: (a) ensuring the proper use of GSA contracting vehicles and services in
order to be in full compliance with Federal Acquisition Regulation and best practices;
and (b) improving the Federal acquisition process to enable agencies to obtain best
value when acquiring products and services needed to accomplish their mission. The
five major objectives emphasize: (i) best value for Federal agencies, (ii) making
acquisition policies, regulations, and procedures clear and explicit, (iii) complying with
policies and regulations, (iv) training for the acquisition workforce, and (v)
communication with the acquisition community.

Recommendations

In our January 2004 audit report on the Regions 4, 6, and 10 CSCs, we stated that we
believe steps needed to remedy CSC procurement problems require a comprehensive,
broad-based strategy that focuses on the structure, operations, and mission of the CSCs
as well as the control environment. Based on the comprehensive recommendations
contained in that report, and the Administrator’s agency-wide “Get It Right” initiative, no
further overall recommendations are deemed necessary at this time. The Office of Audits



                                            9
will conduct a more comprehensive testing of management controls throughout the CSC
program during fiscal year 2005.

Management Response

In response to the individual regional reports, the Administrator stated that the agency
intends to use these results as a useful learning and management tool to continue
improving the Agency’s contracting operations and further its promotion of a culture of
acquisition excellence throughout the Agency with GSA’s “Get It Right” plan. The
Administrator’s response in its entirety follows on the succeeding pages. The Regional
Administrators generally concurred with our findings and conclusions, and described
the comprehensive steps they have initiated and planned for future implementation.
Several Regional Administrators also provided specific comments on the individual task
orders tested. Regional responses are included in their entirety, and our response,
within the individual Regional audit reports in sections I through XI.




                                          10
ADMINISTRATOR’S RESPONSE




           11
BLANK PAGE




    12
13
14
15
16
17
18
19
20
SECTIONS
AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
          NEW ENGLAND REGION
   REPORT NUMBER A040096/T/1/Z05001
             December 9, 2004




                  I
                   AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                           CLIENT SUPPORT CENTER
                             NEW ENGLAND REGION
                      REPORT NUMBER A040096/T/1/Z05001

                                  TABLE OF CONTENTS
                                                                Page

RESULTS OF AUDIT                                                 I-1

     Inadequate Competition                                      I-1

     Documentation Lacking to Assure Reasonable Pricing          I-3

     Misuse of Contract Vehicle                                  I-4

     Questionable Contract Practices                             I-6

     Frequent Use of Time and Materials Tasks                    I-8

     Causes of Improper Procurement Practices                    I-8

     Impact of Recently Implemented Management Controls          I-9

     Conclusions                                                I-11

     Recommendations                                            I-12

     Management Response                                        I-12

INTERNAL CONTROLS                                               I-12

APPENDICES

     A. Schedule of Orders Received in the New England Region   A-1

     B. Response to the Draft Audit Report                      B-1
                                              RESULTS OF AUDIT

The audit identified a number of improper procurement practices used in task order awards, such
as sole source awards without justification; inadequate competition; lack of price reasonableness
determination; purchases of “open market items” without negotiation or price evaluation;
improper order modification; use of time and materials contracting without justification; lack of
monitoring task order billings and receipt of service. We noted instances where national security
work of a classified nature was procured without contracting officials being privy to the nature of
the task order. For some orders reviewed, awards were made to contractors that did little more
than act as a “middle-man” in the transaction, adding unnecessary costs to the task.

Competition, or otherwise permitting vendors a fair opportunity to be considered for award was
absent from many of the transactions examined. As a result, the procurements did not provide
reasonable assurance that the Government received supplies and services at a fair and reasonable
price, and the fundamental objectives underlying the federal procurement process were not
achieved.

Several factors contributed to the problems we identified: an ineffective system of internal
management controls; the CSC sacrificing adherence to proper procurement procedures in order
to accommodate customer preferences; and a culture that emphasized revenue growth.
Therefore, we concluded that the internal controls that were established were not always
effective and did not provide assurance that Government funds were reasonably protected.

Our evaluation of the impact of recent enhanced management controls put in place in the Region,
as evidenced by discussions with CSC management, directives and instructions given to the
procurement teams, as well as our review of 10 selected task orders, is inconclusive. Some
improvement in the control environment, as well as task order management, is evident. The
impact of some controls most recently implemented can’t be evaluated until the Region has had
some time to perform under their guidance.

Inadequate Competition

The Region 1 CSC preference in awarding task orders was through FSS Multiple Award
Schedule (MAS) contracts. Of the 31 orders in our sample, 27 used the MAS vehicle.1 We
found that 20 of these 27 tasks were issued on a “sole-source” basis; 14 of these were awarded
without any justification.2

Recent legislation and FSS ordering procedures specify the need to obtain a minimum of three
offers for most orders to ensure fair and reasonable prices. For most of the sole-source awards
we reviewed, we concluded that the client generally had a vendor in mind before coming to
GSA, and the prevalence of single source award (and when present, justifications) suggests that

1
 Of the 4 remaining orders, 3 were awarded using a Government-Wide Acquisition Contract (GWAC); and 1 was
an open market purchase.
2
  Even when justification for a sole-source award was presented, the CSC accepted the client’s justification without
scrutiny or effort to obtain additional sources. The CSC did not request any substantiation for assertions in the
justifications, nor did it choose to make any further inquiries as to other Schedule contractors’ ability to perform this
work.


                                                          I-1
many clients were not interested in competing the requirement. The CSCs were not proactive
toward expanding the competitive environment for task orders. As a result, the Government did
not obtain the benefits of competition and potentially lower costs.

Why adequate competition was not achieved, and in most cases not sought, is a not so complex
question to answer. Client agencies generally came to the CSC knowing what contractor they
wanted. (Indeed, we found 8 specific instances in our sample where the contractor actually
brought the client to the CSC.) One method the CSC used to fulfill clients requests was an
expedited procurement strategy that they felt would serve the clients interest, as well as fulfill
their contracting responsibilities (to include providing adequate competition and reasonable
pricing). A number of Blanket Purchase Agreements (BPAs) were set up with the contractors
that clients wanted to do business with, contractors that held current MAS contracts (either on
MAS ADP Schedule 70, or the Professional Engineering Services (PES) Schedule).

      •   One contractor, ACS Defense, had 4 separate BPA agreements in effect during our
          review period, (effective dates going back to March 2000). Our sample included 12 task
          awards under these BPAs. We consider these awards sole source, without proper
          justification.

      •   Another contractor, Anteon, was awarded 2 task orders in our sample, under their BPA.
          We consider these awards sole source, without proper justification.

Contractors awarded BPAs did not have to compete for the award. BPAs, particularly those
awarded during CY2000 and CY2001, were given to pre-selected companies who were asked to
submit pricing for items (in these instances labor categories for ADP or PES disciplines) that
were included on their respective MAS contract. Some contractors offered further discounts
from their MAS contracts.

Once a BPA was awarded, it was the CSC’s policy to consider procurement requirements
regarding competition to be fulfilled, and additional companies need not be solicited. In
addition, the CSC’s position regarding price reasonableness was that the MAS contract award
was a determination that the offered pricing was reasonable, and no further negotiation of price
was required. Acquisition plans did not have to be prepared.

FSS Schedule service orders (that include a statement of work) expected to exceed $2,500,3
require the ordering office to send the statement of work to a minimum of three Schedule
contractors for competitive quotes. Orders expected to exceed the maximum order threshold
require that the ordering office request quotes from additional Schedule contractors that offer
services that will meet the agency’s needs. Clearly this practice was not being followed in the
Region 1 CSC for orders placed under BPAs, or for other orders placed as sole-source
procurements. In addition, the region was not following the FSS ordering procedures regarding
price reasonableness (see following report section).

In 2002, the Congress reaffirmed the importance of optimizing competition by enacting
legislation (Section 803 of the National Defense Authorization Act of 2002, Public Law 107-
107) which requires ordering agencies to obtain a minimum of three offers for DOD orders for
professional services expected to exceed $100,000 that are placed under multiple award
3
    The micro-purchase threshold is $2,500.

                                                I-2
contracts, including FSS Schedule contracts4. The provisions of Section 803 apply not only to
orders placed by DOD, but also to orders placed by non-DOD agencies on behalf of DOD.
Unrestricted use of sole source justifications undermines these competitive procedures. (Of the
orders we selected for review, 22 were for DOD activities.)

Documentation Lacking to Assure Reasonable Pricing

All 31 task orders selected in our review were for services. For a majority of these orders (24
task orders), we could not find documentation supporting that the Government received a fair
and reasonable price. The documentation did not show how FTS officials followed FSS
Ordering Procedures for Services to ensure fair and reasonable price, or how the CSC made an
attempt to negotiate better pricing when processing and awarding orders. We (generally) found
no Independent Government Estimates (IGE), and only infrequent evidence in the file that client
agencies held any meaningful negotiations with contractors. Of particular concern is the fact that
20 of the 31 orders we selected for review were sole-source awards, lacking any competition;
that the CSC held the position that having an MAS contract award itself was evidence of price
reasonableness; and the fact that for several orders selected in our review significant (in value)
“open market” items were purchased, and these items were not included on the MAS contracts
used as the procurement vehicle (see finding below).

FSS has developed a set of ordering procedures for services placed against its Schedule
contracts, which includes provisions for obtaining competition for task orders, as well as
considering the level of effort and labor mix in making a determination as to whether the total
price is fair and reasonable. Excerpts from these procedures follow:

          ORDERING PROCEDURES FOR SERVICES (Requiring a Statement of Work)

          “FAR 8.402 contemplates that GSA may occasionally find it necessary to establish special
          ordering procedures for individual Federal Supply Schedules or for some Special Item
          Numbers (SINs) within a Schedule. GSA has established special ordering procedures for
          services that require a Statement of Work. These special ordering procedures take
          precedence over the procedures in FAR 8.404 (b)(2) through (b)(3).

          GSA has determined that the prices for services contained in the contractor's price list
          applicable to this Schedule are fair and reasonable. However, the ordering office using this
          contract is responsible for considering the level of effort and mix of labor proposed to
          perform a specific task being ordered and for making a determination that the total firm-
          fixed price or ceiling price is fair and reasonable.

          The request should be provided to three (3) contractors if the proposed order is estimated to
          exceed the micro-purchase threshold, but not exceed the maximum order threshold. For
          proposed orders exceeding the maximum order threshold, the request should be provided to
          additional contractors that offer services that will meet the agency’s needs.

          For agency requirements in excess of the micro-purchase threshold, the order file should
          document the evaluation of Schedule contractors’ quotes that formed the basis for the
          selection of the contractor that received the order and the rationale for any trade-offs made
          in making the selection.”


4
    The legislation affects DOD orders placed under multiple award contracts on or after October 25, 2002.

                                                         I-3
The CSCs did not ensure compliance with the special ordering procedures. Specifically, the
CSCs did not ensure that task order documentation reflected an evaluation of labor mix and level
of effort.

Our conclusion concerning lack of price reasonableness determination holds true not only for the
initial task order award process, but also for modifications that were processed for these tasks.
Nearly all of the modifications that we reviewed that involved an increase in task value,
(particularly when the increase did not involve exercising a previously negotiated amount),
lacked evidence of price evaluation, negotiation, IGE, or other means to determine price
reasonableness. Some of the instances we found involved significant sums. For example:

      •   Task Order #R1PD972120125 grew from an initial award of $3.3 million to more than
          $8.5 million by modifications that lacked any pricing evaluation. The bulk (nearly 80%)
          of the initial task, and subsequent additions, were consultant costs not included in the
          MAS contract used as the contracting vehicle. This task was succeeded by Task Order #
          R1PD97213035, a task that grew even more dramatically (from $9.7 million to $31.4
          million). Circumstances were the same, in that no pricing evaluation is evident for the
          purchase of essentially “open market items”.

      •   Task Order #R19701135 grew from an initial award of $293,174 to more than $8.6
          million by modifications that lacked any pricing evaluation. The bulk of the initial task
          (95%) was for a consultant’s fee, and subsequent additions contain predominantly
          consultant costs. Modifications 9 and 10 added more than $1.6 million of materials costs
          with no evidence of price evaluation. This task was succeeded by Task Order
          #R1PD97093009, a $27.9 million task wherein 59% of the value is for consultant costs.
          We found no evidence of price evaluation for this task.

Misuse of Contract Vehicle

As stated, most of the task orders we selected for review were awarded with an MAS contract as
its basic contract platform. We evaluated each task order Statement of Work (SOW) using the
premise that what the selected contractor was asked to do was a work item that the contractor
had received an MAS contract award to do. Further, that the procurement procedures outlined
by FSS (for purchases that required a SOW) were followed (discussed elsewhere in this report).
We found that for some task orders reviewed, the CSC was asking contractors to do work, or
provide equipment or materials, that were not included in their contract vehicles.

Open Market Items Purchased

For many of the task orders reviewed, contractors purchased equipment or materials. The
purchase of these items was not included in the MAS contract (or related BPA) that was used as
the contract vehicle upon which the task was awarded. Further (and as stated previously in this
report), we found little evidence that the pricing of these items was evaluated and determined to
be reasonable. Some of the purchases were substantial, for example:




5
    Reference our Appendix A, Note #1.

                                                 I-4
   •   Task Order #R1JC57170201, more than 95 percent ($3.7 million) of the original order
       was for “test stations” (materials) supplied by a subcontractor. There was no evidence of
       price evaluation.

   •   Task Order #R1PD15252011, more than 65 percent (nearly $1 million) of the original
       order was for materials. There was no evidence of price evaluation.

   •   Task Order #R11501355, more than $5.2 million of materials costs were included on this
       order with no evidence of price evaluation.

   •   Task Order #R19701135, Modifications 9 and 10 added more than $1.6 million of
       materials costs with no evidence of price evaluation.

We conclude that the manner used to purchase materials and equipment on these and other task
orders reviewed did not follow proper procurement regulations. As a result, the Government
may have paid more for the items than necessary.

Pass-Through Contracting

For 5 of the task orders reviewed, award was made to a contractor who did little work on the
project. Client agencies were really interested in having another contractor do the work, but for
the sake of convenience, used an existing contract vehicle as essentially a “pass-through”
contract. For example:

   •   Task Order #R1JC57170201, award made to Anteon “…because they had a contract
       (BPA) with GSA.” The client agency wanted a Teledyne product, but could not contract
       with Teledyne because there was no existing contract vehicle. Anteon acted as a
       “middleman”, providing only some labor related to product testing and installation.

   •   Task Order #R1PD97003013, award made to ACS Defense. Nearly 83 percent ($3.3
       million) of the award amount was subcontractor costs. Per discussion with the client
       agency, ACS was selected “as a middleman”. The client wanted another contractor,
       Decisive Analytics Corporation (DAC). However, ACS Defense was used because of an
       existing MAS BPA, which facilitated this contracting action.

We conclude that procurement regulations were circumvented in these 5 circumstances, we feel
because the client agency was directing sole source procurements without providing justification.
The Government may have paid more than necessary under this method of procurement. Task
order file documentation limits our ability to be definitive as to amount. As price evaluation,
negotiation, etc. was not evident in file documentation; price reasonableness could not be
determined.




                                               I-5
Questionable Contracting Practices

Our review noted several contracting practices that affected the CSCs abilities to ensure that
client agencies were receiving services intended at prices considered fair and reasonable. We
found the following:

Ineffective Statement of Work (SOW)

For 6 task orders we reviewed, the client-prepared SOW was vague, ill defined in scope, and we
conclude of little practical use for soliciting offers (pre contract award), or for determining that
defined deliverables were received (post contract award). All 6 tasks were sole-source awarded
to contractors holding BPA agreements with the CSC. These tasks were all non-competitive
awards, without price reasonableness evaluations. For 4 tasks, there was significant cost growth.
It is our opinion that well-defined SOWs are essential for competitive contracting efforts and
also essential for effectively measuring receipt of service. Even in non-competitive situations,
well-defined SOWs provide the essential basis for price proposal evaluation. (We should note
that our review of these 6 task order files gave us every indication that client agencies did not
feel the need to define services; these tasks were generally of the “build as you go” variety, and
as the client never intended competition in the award process, a defined SOW was no importance
to them.) (See Appendix A for details.)

Lack of Contract Monitoring

The CSC does not monitor delivery of service after contract award, or verify billings against
contract terms and conditions. During our review, we contacted (or at least attempted to make
contact) client agencies to determine what actions they were taking to ensure delivery of service
and correct invoicing. Results were mixed. For example:

    •   Task Order #R1JC17070313, client U.S. Navy, determined a very intensive review
        process, for both service delivery and invoice verification. This process in fact found
        significant billing discrepancies during this past year resulting in corrective action by the
        contractor (Anteon).6

    •   Task Order #R15701201, client DOD, client professed having a review process, but
        failed to provide evidence (when requested) that invoices were reviewed. It appeared
        likely (to us) that substantive reviews of invoicing and receipt of service was not being
        performed.

    •   Task Order #R1PD97093009, client DOD, client was not evaluating contractor (ACS
        Defense) billings at all, at least since February 2004. (Process in effect prior to that date
        could not be determined – employees retired, no records left behind.) Responsibilities
        were split between parties for deliverable receipt and invoice verification.

Another matter of concern in this area is the fact that, for several orders we reviewed, task orders
were modified – increased in value – without any documentation from the client, without any

6
  Client commented that they were not receiving value for the 4 percent administrative fee paid to GSA, after
evaluating all of the administrative effort they themselves had to go through in reconciling contractor billings. At
the time of our review, they were considering using another procurement source for their needs.

                                                        I-6
submission by the subject contractor, and without any evidence that the CSC performed any
evaluation of the reasons for increase in task value. For instance:

   •   Task Order #R1PD97212012, client DOD, Modifications #2, #4, and #5 increased the
       value of the order by a total of $7 million, without any essential documentation as to why
       the order was being increased.

   •   Task Order #R1PD97213035, client DOD, (continuation of above order), Modifications
       #2, #3, and #4 increased the value of the order by a total of $21.6 million, without any
       essential documentation as to why the order was being increased.

A third issue concerns extending task Period of Performance (POP); and also exercising options
periods, without justification. This appeared to be a common practice at the CSC. It is our
position that when a contract modification extends the POP (when extended option periods were
not included in the original SOW – and not price negotiated), the extension is tantamount to a
sole source award that should be justified, and priced after negotiations that ensure price
reasonableness. When option years (that were provided for under the SOW) are exercised,
contracting officials must still ensure that exercising the option is in the best interest of the
Government and so state in a justification. (FAR 17.207(d)).

We conclude that the CSC is not performing the needed monitoring functions of task orders to
ensure delivery of service. The CSC needs to ensure that when tasks are modified, it is clear that
increases in task value and POP extensions are reasonably priced and are justified as being in the
Government best interest.

One indication we observed that the CSC contracting practices needs to be strengthened is the
cost growth of task orders selected for review. For example:

                       Task Order # Initial Award Current Value
                       R1PD97213035      $630,000  $31,424,922
                       R1JC57170201       $49,000  $10,477,666
                       R19701135         $293,174   $8,620,626
                       R19701134        1,405,510   $8,472,557

For these orders – and others, there was a general absence of a connection between the client
agencies SOW, solicitation of offer, price reasonableness determination, and meaningful price
negotiations. Not only at the initial award phase of the project, but as the projects grew over
time. Indeed, several of the tasks we reviewed were characterized as “build as you go” projects
where definitive SOWs were not developed initially or during the projects life span, making the
contracting process difficult at best.

National Security Tasks Not Properly Negotiated/Awarded

Three of the task orders we reviewed were classified projects. Contracting officials did not have
the proper clearance to view the specific information necessary to make an informed
procurement. Yet the contract documents were signed and contracts awarded, with contracting
officials relying on the evaluations done by others. All three awards were made on a sole source


                                               I-7
basis. We consider these awards lacked evidence of proper contracting procedure (i.e.
solicitation, offer evaluation, negotiation) by warranted, contracting officials.

Frequent Use of Time and Materials Tasks

We found that the CSC exclusively used time-and-materials tasks versus fixed-price task orders.
Of the 31 orders for services that we reviewed, all were solicited as time-and-materials type
tasks.7 Reasons why this method of contracting was used – documented in a determination and
findings statement – were not prepared for any of the task awards. In all but one case, contract
award documents failed to define the contract as a “time and materials” award, and all (but one)
failed to define the contract ceiling amount (not to exceed amount).

A time and materials contract provides for acquiring services on the basis of direct labor hours at
fixed hourly rates and materials at cost. Time-and-materials task orders are expressly disfavored
under the FAR. The FAR states that a time-and-materials contract provides no incentive to the
contractor for cost control or labor efficiency, and thus appropriate Government surveillance of
contractor performance is required to give reasonable assurance that efficient methods and
effective cost controls are being used.

FAR 16.601 states, in part:

        “A time-and-materials contract may be used only when it is not possible at the
        time of placing the contract to estimate accurately the extent or duration of the
        work or to anticipate costs with any reasonable degree of confidence, and

        A time-and-materials contract may be used (1) only after the contracting officer
        executes a determination and findings that no other contract type is suitable; and
        (2) only if the contract includes a ceiling price that the contractor exceeds at its
        own risk. The contracting officer shall document the contract file to justify the
        reasons for and amount of any subsequent change in the ceiling price.”

Our discussions with CSC contracting officials indicated that the use of time and materials
contracting is a long-standing, preferred practice fostered by Regional FTS officials. Further,
that most client agencies that come to the CSC prefer that method be used. (Indeed, many of the
SOW’s we reviewed that were developed by the clients stated specifically that the proposal be
made on that basis.) However, when time-and-materials contracts are improperly awarded and
managed, unrestrained cost growth can occur, as illustrated in the time-and-materials task orders
described throughout this report.

Causes of Improper Procurement Practices

Our audit work indicated that several factors contributed to the improper contracting practices
we identified: an ineffective system of internal management controls, CSC personnel sacrificing
adherence to proper procurement procedures in order to accommodate client agency preferences,
and an excessive focus on customer satisfaction and revenue growth. Some clients were
motivated to use CSC because they knew that they could obtain supplies and services from the

7
  One of the orders selected and reviewed curiously was solicited as a time and materials task; the contractor
submitted an offer based on cost plus fixed fee; and the CSC accepted the contractor’s basis of award.

                                                     I-8
contractors they preferred in an expeditious manner. Also, CSC personnel were not generally
familiar with prescribed ordering procedures, and contracting officers did not always adhere to
proper procurement procedures designed to ensure the Government receives the best value.

Lack of management oversight at the CSC was most strongly evidenced by an environment of
client-driven decisions. The CSC relied upon client agencies for proposal evaluations and task
administration, including the propriety of task modifications that increased costs or extended the
period for completion of the task. This environment undermined the authority of contracting
officials. Effective management controls should have existed to prevent this from happening.

Our audit work indicated that the CSC contracting officials were not familiar with FSS’s special
ordering procedures for services under the Schedules program. This single issue, more than all
others, we feel caused contracting officials to follow practices that did not ensure adequate
competition and price reasonableness.

(In November 2000, the General Accounting Office (GAO) reported similar findings and
recommended that the Office of Federal Procurement Policy (OFPP) revise the FAR to
incorporate the requirements in GSA’s ordering procedures for services to obtain competitive
quotes. GAO also stated in their report that the FAR should clarify the procedures for placing
sole-source orders using Schedules. The proposed FAR rule has recently been finalized.)

ITMs and contracting officers also told us that they did not have the expertise to evaluate
contractor proposals for best value; accordingly, they relied on the client to make this
determination. We recognize that FTS contracting officials should involve the client during the
procurement process, including proposal evaluations. However, as the procurement office, the
CSC is still responsible for the evaluations and ensuring that they are sufficiently supported.

Impact of Recently Implemented Management Controls

We expanded our audit scope to include an evaluation of the implementation of enhanced
management controls over the procurement process put in place in the Region over the last
several months. As part of that evaluation, we reviewed a selection of procurement actions that
occurred during the 3-month period March through May 2004. We selected 10 task orders as
follows: (Note: As with our initial order selection method, we selected a risk-based judgmental
sample of orders, which did not represent a statistical sample.)

               Task Order #    New Task Value Mod. to Task Value
               R1PD97213035                           $8,970,874
               R11701701                                 837,160
               R1JC57170201                                    0
               R1PD97093009                            5,103,112
               R1PNS03047                              1,343,255
               R1AD96770475         $ 980,683
               R1PNS04037            2,775,056
               R1JC17070417            479,997
               R1PD97004015          1,166,209
               R1PD97004016          1,443,966
                   Total Value     $7,345,910        $16,254,400

                                               I-9
For these selected orders, we performed the same general audit steps – although not as in depth -
as those followed during our initial review. We relied more heavily on information contained in
the ITSS database, and supplemental electronic files maintained (by task order). We held
discussions with CSC officials, contracting Officers and ITMs as necessary, in order to reach an
understanding of how the procurement administration process has changed along with a change
in the control environment. We used our review of the selected procurement actions as one
measure of how effective the controls are.

Our review of selected task orders, along with discussions concerning new management controls
and policy statements imparted on the CSC procurement staff, have drawn us to conclude that
“work in progress” is the most reasonable characterization of the situation. We found some new
controls are being followed, and are successful; others have been delayed in implementation and
should be evaluated in the future. Some specific issues we found present in our selected sample
are as follows:

   •   Contract Management Review Panel (CMRP) – was not an effective management control
       during the March – May 2004 time period. Definitive operating procedures did not go
       into effect until June 2004; a final charter of the panels operations became effective in
       July 2004. Most of the procurement actions selected in our sample did not pass through
       the CMRP for review. We reviewed the July 2004 charter and discussed its contents with
       Regional Officials. It appears to offer a reasonable plan to monitor procurement activity
       and requires documentation of the process for post evaluation purposes.

   •   Acquisition Checklists – although required, were not included in some of the task order
       files, or were not adequately filled out. The Region needs to reemphasize this
       requirement. This element of task order file documentation will be specifically addressed
       during CMRP review.

   •   Sole-Source Awards – 4 of the 5 new task orders reviewed were sole-source
       procurements. The ITMs/Contracting Officers could have more aggressively evaluated
       justifications provided by the client agencies. The justifications should have been signed
       (or signed off on) by the GSA Contracting Officers. The Region needs to further
       emphasize the need to seek competition to the maximum extent possible.

   •   Modification Documentation – modifications selected and reviewed generally
       demonstrated the same shortcomings noted in our initial review of task orders. However,
       it should be noted that 4 of the task modifications selected are for tasks included in our
       original sample of task orders. This element of task order file documentation will be
       specifically addressed during CMRP review, as modifications now are specifically to be
       addressed during that review process.

Some of the controls/actions taken by the Region that have been implemented include the
following:

   •   Actions concerning Implementation Sec. 803 - The procurement staff, at the least, have
       become acutely aware of this directive. CSC management has emphasized adherence to
       its requirements; the CMRP will specifically address compliance.


                                              I-10
   •   Legal Review - Regional legal review has been in practice since shortly after October
       2003. Our discussions with the legal staff and CSC management, along with an analysis
       of documentation of recent reviews, indicate that the process is in effect.

   •   Regional Reorganization - Operations in the CSC have been substantially reorganized.
       Several significant changes that effect the management control environment should lead
       to more effective over-site of procurement actions. Some vacancies remain; actions are
       underway to fill these positions.

   •   CSC Management Plan - The Region submitted a plan; its implementation is ongoing.
       Our sense of management’s commitment to the process is that there is a serious effort to
       improve performance and adhere to good procurement practice; and a serious effort is
       underway to follow a defined plan of action.

   •   Procurement Training – A significant amount of training – both formal and informal –
       has taken place over the last several months. All members of the procurement team have
       participated. Training topics included such topics as use of BPAs; acquisition planning;
       performance-based contracting; developing SOWs and contract administration
       procedures.

   •   BPA Review - All BPAs that were put into effect by the Region over the last several years
       have been reviewed, and according to CSC officials, are no longer to be used in awarding
       task orders. Client agencies affected by this action have been notified that alternative
       contracting vehicles will be necessary.

   •   CSC Procurement Practice Binder - Each member of the procurement team received -
       and signed for receipt – of a binder containing relevant procurement policy directions,
       regulations, instructions, sample forms, etc. CSC officials intend to keep the contents of
       the binder current. It provides ready reference of the practices CSC officials state they
       expect from their procurement team.

In summary, some progress has been made over the past few months in improving the
management control environment in the Region, and in the quality of procurement actions taken
by the CSC staff. This “work in progress” effort, optimistically, will continue to evolve over the
next several months. The effectiveness of controls during the period we reviewed was still
problematical.


Conclusions

We have concluded that the CSC did not provide reasonable assurance that client agencies
received the most cost-effective solution and best value, and the fundamental objectives
underlying the federal procurement process were not achieved. The CSC made little attempt to
secure competition, overly relied on client agencies for proposal evaluations and task
administration, improperly modified orders, and frequently used time and materials task orders
inappropriately.



                                              I-11
The factors contributing to these circumstances are fundamental weaknesses within the CSC
involving ineffective management controls, CSC personnel sacrificing adherence to proper
procurement procedures in order to accommodate customer preferences, and a culture that
stressed client satisfaction and revenue generation over adherence to proper procurement
procedures. An overemphasis on revenue growth and permitting clients to unduly influence task
order awards, without commensurate attention to procurement laws and regulations, increased
the vulnerability of the program to fraud, waste and abuse.

We believe that steps to remedy these problems require a comprehensive, broad-based strategy
that focuses on the structure, operations and mission of the CSC as well as the control
environment. (See Audit Report Number A020144/T/5/Z04002 for additional details.) This
Region has been asked to take such steps. Implementation is an ongoing process.


Recommendations

Based on the comprehensive recommendations contained in Audit Report Number
A020144/T/5/Z04002, dated January 8, 2004, no further recommendations are deemed necessary
at this time.


Management Response

In response to our draft audit report (see Appendix B), the Regional Administrator generally
agreed with our findings and conclusions. The response sets out in some detail the
comprehensive steps the Region has taken, and will take, to correct identified procurement
deficiencies. The Region intends to monitor the impact these initiatives are having over the
coming months. The response also lists FTS Central Office initiatives that address matters from
a national perspective.


                                   INTERNAL CONTROLS

It was evident from our work that the internal control structure was not effective. We identified
a number of improper procurement practices (outlined in our report details). We believe that an
effective internal control structure, which has the on-going endorsement of management, would
have identified and prohibited many of these actions. During the past several months, the
Region began to intensively focus on improving the internal control environment by
implementing a series of national and regional measures. Once successfully adopted, these
measures should address the internal control concerns cited in this report. The Office of Audits
will conduct a more comprehensive testing of internal controls throughout the CSC program
during fiscal year 2005.




                                              I-12
                                                                                                                        APPENDIX A

                    SCHEDULE OF ORDERS REVIEWED IN NEW ENGLAND REGION

    Order Number       Order Date            Client      Contract Type        Contractor          Contract/BPA Number     Task Value8     Notes
                                                                                                 GS-35F-4039G, BPA#
R1PD97212012             07/31/02     DOD                MAS/BPA             ACS Defense         GS00T99SJA0697           $   8,510,684    1
                                                                                                 GS-35F-4039G, BPA #
R15701201                04/05/01     DOD                MAS/BPA             ACS Defense         GS01K00BKM0014           $ 33,477,806     2
                                                                                                 GS-35F-4039G, BPA#
R1PD97213035             09/02/03     DOD                MAS/BPA             ACS Defense         GS00T99SJA0697           $ 31,424,922     3
                                                                         Analysis & Technology GS-23F-0076K, BPA#
R1JC57170201             11/02/01     Air Force          MAS/BPA               (Anteon)        GS01K01BKM0016             $ 10,477,666     4
                                                                                                 GS-23F-0232K, BPA #
R1PD97093009             02/23/03     DOD                MAS/BPA             ACS Defense         T0102B0002               $ 27,909,597     5
                                      Nat'l Inst.of                                              GS-35F-4039G, BPA#
R1150180                 06/11/00     Justice            MAS/BPA             ACS Defense         GS01K00BKM0014           $   2,157,572    6
                                      Nat'l Inst.of                                               GS-35F-4039G, BPA#
R11501180                01/17/01     Justice            MAS/BPA             ACS Defense         GS01K00BKM0014           $ 16,192,426     7
R1PD15003033             09/24/03     DOJ                MAS                 ACS Defense         GS-23F-0232K             $ 45,012,545     8
                                                                                                 GS-35F-4039G, BPA#
R1PD97003013             01/31/03     Air Force          MAS/BPA             ACS Defense         T0103B0001               $   3,999,982    9
R19701134                06/01/01     DOD                MAS                 Oracle Corp.        GS-35F-0108J             $   8,472,557    10
                                                                                                 GS-23F-0232K, BPA#
R19701135                07/13/01     DOD                MAS/BPA             ACS Defense         GS01K01BKM0072           $   8,620,626    11
                                                                                                 GS-35F-4039G, BPA#
R1PD97003042             09/11/03     Air Force          MAS/BPA             ACS Defense         T0103B0001               $ 10,252,410     12
                                                                                                 GS-23F-0232K, BPA#
R1PD15252011             08/23/02     Marshall Service MAS/BPA               ACS Defense         GS01K01BKM0072           $   3,578,073    13
                                                                                                 GS-35F-4039G, BPA#
R11501355                11/15/00     Marshall Service MAS/BPA               ACS Defense         GS01K00BKM0014           $   7,437,922    14
                                                                                                 GS-23F-0232K, BPA#
R1PD15253028             08/29/03     Marshall Service MAS/BPA               ACS Defense         GS01K01BKM0072           $   5,392,761    15
                                                                                                 GS-23F-0232K, BPA#
R1PD97003036             09/12/03     Navy               MAS/BPA             ACS Defense         T0102B0002               $ 12,197,396     16
R1ST57000316             05/01/03     Air Force          MAS                 ACS Defense         GS-23F-0232K             $ 13,299,855     17
R1ST57000236             12/20/02     DOD                MAS                  Autometric         GS-23F-0264L             $   2,488,062    18
R1PD97002002             10/22/01     DOD                MAS                 Synergy, Inc.       GS-35F-4657G             $   4,824,081    19
R1JC17070352             03/31/03     Navy               MAS                 Anteon Corp.        GS-23F-0076K             $   4,268,874    20
R15700312                02/10/00     Air Force          MAS                  TASC, Inc.         GS-35F-4597G             $   2,053,772    21
R1JC17070301             09/24/02     Navy               MAS               GEO-CENTERS           GS-35F-5176H             $ 11,738,869     22
R1PNS03047               04/11/03     Navy               MAS              Defense Systems Inc    GS-35F-0209J             $ 18,610,877     23
                                                                                                 GS-23F-0076K, BPA#
R1JC17070313             12/03/02     Navy               MAS/BPA             Anteon Corp.        GS01K01BKM0016           $   1,293,580    24
                                      US Corps of                                                GS-35F-4039G, BPA#
R1AD96200362             09/08/03     Engineers          MAS/BPA             ACS Defense         GS00T99SJA0697           $     462,077    25
                                      US Corps of                                                GS-35F-4039G, BPA#
R1AD96200210             01/09/02     Engineers          MAS/BPA             ACS Defense         GS00T99SJA0697           $     245,915    26
R1JC17070307             01/24/03     Navy               Open Mkt          Univ. of Rochester    GS01T03BKM5000           $     400,000    27
                                                                                                 GS-23F-0232K, BPA#
R1PD15252013             09/19/02     Marshall Service MAS/BPA               ACS Defense         GS01K01BKM0072           $     254,223    28
R1PD97003050             09/30/03     Navy               GWAC             Innovative Decisions   GS-10F-0303M             $     647,803    29
R1ST57000304             09/30/02     Air Force          GWAC                    TRW             GS07T00BGD0066           $ 10,900,109     30
R1JC17070356             09/12/03     Navy               GWAC                Anteon Corp.        GS07T00BGD0029           $     658,654    31



8
    Represents total value of task through July 2004 per audit.

                                                                     A-1
                                                                                                                               APPENDIX A

                  SCHEDULE OF ORDERS REVIEWED IN NEW ENGLAND REGION
                                          (Continued)
                           Notes for Schedule of Task Orders Reviewed

1. This was a sole-source award, time and materials task awarded to ACS Defense (ACS) through the “Safeguard
BPA Program”9. The client selected ACS without competition with other “Safeguard” contractors. Sole-source
justification cited “Unusual and Compelling Urgency” and appeared adequate to support the action. However, we
found no support for price reasonableness; no Independent Government Estimate (IGE); no indication that a
negotiation of price took place; no determination finding that a time and materials contract was warranted. The
contractor developed the Statement of Work (SOW). Of the original task order (of $3.3 million), 79% was for non-
ACS costs, (to include consultants, materials, equipment, and travel expense) with the bulk of the dollars earmarked
for consultant costs. These costs were not included in the “Safeguard” BPA or Schedule 70 MAS contract; we
consider them open market purchase, without price reasonableness determination. This task order is classified. The
GSA contracting officer signed the award (and latter modifications) without adequate knowledge of the task order -
the contracting officer did not have the required security clearance. GSA took no post award actions relative to
receipt of service or invoice verification.

2. This task order was issued to ACS through BPA # GS01K00BKM0014.10 The contractor approached GSA on
behalf of the client, stating that ACS had been performing preliminary work for the client and needed to get a
contract vehicle in place as the then current contract vehicle was expiring. The SOW for this project stated that this
project would be for 1 year with 5 option years yet the RFQ was only for the initial year. This task order has shown
a large cost growth (initial quote for $17.7 million for initial year, growing to over $37 million over a 3-year period);
the project was not priced out fully initially but as option years were exercised, a RFQ was sent to ACS. We found
no support for price reasonableness, no IGE, no indications that negotiations took place and no determination that a
time and materials contract was warranted. There was no price reasonableness performed for other direct costs (i.e.
computer materials,), which are not covered by the BPA. For this task order, the client is responsible for
verification/receipt of goods and services; however, we were not able to verify receipt of other direct sub-contractor
cost charged on various invoices. According to the client, periodic checks are made for receipt of services; however,
documents we received to verify some charges were inconclusive and could not be traced back to specific charges.
This task has since been set up with a new task order number (R1PD97003042) for the OSD/C3I office (responsible
for the CISA program) which consist of two major components: Architectural programs undertaken in direct support
of Unified Commands and support for defining the Global Information Grid (GIG) which enables Net Centric
Operations world-wide.

3. This task order replaced #R1PD97212012 (see #1 above). The reason is not clear. ACS continued as the
selected contractor (sole-source carried forward from predecessor award), at the client’s request. Funding for this
task grew from $9.1 million (the amount transferred in from the prior task) to its current value of $31.4 million,
without benefit of a revised SOW, IGE, contractor proposal(s), price negotiation(s) or price reasonableness
determination(s). The task order is time and materials based (no justification). The bulk of the task order value
continued to be consultant costs. The GSA contracting officer continued to sign award documents without adequate
knowledge of this classified task order. GSA continued to take no post award actions relative to receipt of service or
invoice verification.

4. This sole source award, time and materials task order was issued to Anteon under BPA# GS01K01BKM0016.16
This award was initiated when Anteon suggested that the client approach GSA because Anteon had a contract with
GSA, and Anteon could act as the “middleman” for the task order. (Anteon did no substantive work on this task.)
GSA accepted this task order with a vague and scope less SOW. The Air Force at the time of the initial order did
not have a handle on the scope of the project although they knew it would be massive. This project involved
updating hardware and software associated with an automated test system refereed to as the Minute Man Missile

9
   The “Safeguard BPA Program” began in July 1999 to provide a vehicle to meet customized, efficient solutions for meeting all security and
information assurance-related directives and regulations. The program was created by the Center for Information Security Services (CISS), FTS,
and was administered jointly by that office in Washington, D.C. and the FTS field office in Region 9. The program signed BPA’s with 27
contractors holding Schedule 70 MAS contracts, and operated similar to a GWAC. That is, all 27 contractors were notified/solicited when the
procurement of a task order was processed through the program. This program is to end in October 2004.
10
   It is our opinion that the method used to award this BPA was improper and results in our determination that this task order constitutes a sole-
source award without proper justification. (See report narrative on page 7.)




                                                                      A-2
                                                                                                                                  APPENDIX A

System. This system was 20 years old and at the end of its life cycle. This task has grown tremendously over time;
the task is not competed; the majority of costs are for test stations that were sole sourced to a subcontractor,
Teledyne; file does not show that any price reasonableness was determined; and no IGE is on file. The file does not
indicate any justification for utilizing a time and material contract. This task order began with a promissory Military
Interdepartmental Purchase Request (MIPR) for $49,000 and quickly grew to over $11 million. (Note: It was not
until Mod. 2 (dated 3/20/02) that a quote was even received for the project, reflecting a price of $3.9 million.) This
project continues to grow in size; completion time continues to get extended. Eventually (December 2003) the
project was re-competed via E-Buy and another task order was created to continue the project.

5. This task order succeeded #R19701135 (see #11 below). This task order was issued to ACS through BPA #
T0102B0002.11 Our discussions with CSC personnel indicated that this task continued a (essentially) research and
development project, a “build as you go” effort being directed by the client. Nearly 59% of the $27.9 million
proposal submitted by the contractor was for consultant costs. As with its predecessor task order, we found no IGE,
price negotiation(s) or price reasonableness determination(s). This task is a time and materials award without
justification. As with other task orders reviewed, GSA took no post award actions relative to receipt of service or
invoice verification. Of note on this task is that the fact that our discussions with client agency representatives
indicated that since February 2004, the client agency was taking no actions to ensure delivery of task requirements.12
The contractor was not even submitting detailed invoices for review and approval.

6. This task order was the original order for the Department of Justice. The task was competed with ACS winning
the award. Award was for a 9-month period ending in December 2000 with one option year. From the limited
paperwork found, it appears that DOJ evaluated the offers received and selected ACS. However, the file does not
adequately show if negotiations were held in order to get a better price; there was no IGE in the file. In December
2000, this order was closed down and monies transferred to the new task order #R11501180. A new task order was
set up because FTS’ fee was reduced.

7. This task order was the new task set up, in January 2001, because of a surcharge reduction. The task started by
exercising the option year originally under task order R1150180 (see #6 above). Shortly after exercising the option
year, a quote went out for consultant services relating to personal protection standards including body armor and
weapons. Shortly thereafter, the CSC purchased approximately $52,000 of ballistic test panels used to test software
included under the task. This task was extended through September 2003 without competition, (reportedly to allow
time for a re-competition) and additional work was added. The file did not always have supporting documentation
to follow what happened; no IGE found in file, no price reasonableness documentation, and no justification for this
time and material award. As with its predecessor task, GSA continued to take no post award actions relative to
receipt of service or invoice verification. The client is responsible for reviewing invoices.

8. This task order is the re-competition of the above task (see #7 above) for DOJ’s ongoing requirements through
FY 2008. DOJ, with some help from FTS, selected the contractors to solicit for this effort. Only the incumbent,
ACS responded to the RFQ. The client did remark that (she) received two calls asking if DOJ was going to award to
someone other than the incumbent, which DOJ stated that if another contractor met the qualifications they would
award to a contractor other than the incumbent. The client stated that (she) evaluated ACS’s offer, however the file
does not reflect this and we were unable to get supporting documentation from the client. The IGE on file only
shows detail for the first 15 months of the task, and does not reflect cost for the 4 option years. The file does not
reflect that an evaluation or negotiation of price was performed. ACS is now billing the client on a lump sum basis,
making verification of rates impossible. The client could not provide any documentation to demonstrate that an
evaluation of rates could be performed.

9. The task was awarded, at the client’s request, to ACS through a client specific, sole sourced BPA # T0103B0001.
The file does not reflect a price reasonableness determination and there is no IGE in the file. This task is a time and
materials award without justification. The SOW was vague, in several instances citing “…as required” rather than
defined deliverables. The contractor’s estimate contains a number of questionable add-ons. Award was made at the
amount proposed by the contractor. Nearly 83% ($3.3 million) of the award amount was for subcontractor costs; no
detail was on file to support the award amount/contractor proposal for these costs. Discussions with client agency

11
   Although it is not clear why this task order was issued to replace its predecessor, it is apparent that the CSC placed importance on the fact that
this order was placed under what they considered to be a competed, client specific BPA.
12
  The client stated that what transpired prior to February 2004 could not be ascertained, as those officials cognizant of service receipt had retired
and left no documentation as to what steps they took in this matter.

                                                                       A-3
                                                                                                                                APPENDIX A

determined that ACS “…was simply paid to be the middleman” as the client agency really wanted the subcontractor
used on the project (Decisive Analytics Corporation). GSA took no post award actions relative to receipt of service
or invoice verification. Inquiries as to what the client agency was doing to ensure delivery of service went
unanswered.

10. This task order was a sole source award to Oracle Corporation. The project was originally for a one year period
but quickly grew from $1.4 million to over $10 million (obligated amount) before this task was cancelled and a new
task was set up to continue the project for DOD (task # R1PD970943040) which again was sole sourced to Oracle
Corporation. There were no price negotiations, no indication that labor mix was evaluated, no IGE on file, and no
findings and determination or price reasonableness determination made when the contract was extended. This task
is a time and materials award without justification.

11. The task was awarded to ACS through BPA# GS01KBKM0072. This contractor apparently “brought” this
client to the CSC in Region 1. The base task order award (of $293,174) is essentially a sole-source award - directed
by the client - to a subcontractor (Applied Solutions, Inc.), as 95% of the order value is earmarked for this
subcontractor. The value of this task grew from $293,174 to $8,620,626, without benefit of a revised SOW, IGE,
contractor proposal(s), price negotiation(s) or price reasonableness determination(s). Several of the modifications
added value/funding to the task without any documentation concerning SOW or price justification. (We noted that
Modifications 9 and 10 added a total of $1,639,267 to the task based on an ACS submission for materials purchased
during the prior calendar year. This amount was added to the contract value without a price reasonableness
determination, negotiation, verification of equipment receipt, or justification of need. Equipment is not included in
the BPA or referenced MAS contract with ACS, and is considered an “open market” item). This task is a time and
materials award without justification. GSA took no post award actions relative to receipt of service or invoice
verification.

12. This task is the follow-on to task #R15701201 (see #2 above). A new task order was set to split up the project
so that the CO, ITM and client could better manage this massive, ongoing effort. This task order was sole sourced
to the contractor (ACS) selected by the client, under BPA# T0103B0001.13 This task is a time and materials award
without justification. GSA took no post award actions relative to receipt of service or invoice verification.

13. This task order is a follow-on to #R11501355 (see #14 below). ACS continued as the selected contractor (sole-
source carried forward from predecessor award), at the client’s request. The bulk of the initial task order value was
materials costs. The initial SOW called for a performance period of 3 months (4/3/01 through 6/30/01); the
contractor’s proposal, accepted without evidence of negotiation, considered a 12-month period (8/1/02 through
9/30/03). The contractor’s accepted cost proposal contained no details concerning labor hours, mix of employees, or
labor rates for the labor costs. Funding for this task grew from $1.5 million to $3.5 million without benefit of a
revised SOW, IGE, contractor proposal(s), price negotiation(s) or price reasonableness determination(s). The task
was described by the ITM as a “build as you go” project. The task order is time and materials based but contained
no determination that a time and materials contract was warranted. GSA continued to take no post award actions
relative to receipt of service or invoice verification.14

14. This task order was issued on a time and materials basis to ACS through BPA #GS01K00BKM0014. The
contractor “brought” this client to the CSC. We consider the task a sole source award, without justification. The
SOW for this project was very limited and of little practical use. The ACS submission was accepted without
evidence of negotiation. We found no support for price reasonableness, no IGE, and no determination that a time
and materials contract was warranted. The task order grew from an initial amount of $29,307, to more than $7.4
million, again without benefit of a price reasonableness determination, IGE, or evidence of price negotiation. There
was no price reasonableness performed for other direct costs (primarily computer equipment – pricing for which is
not covered by the BPA or referenced MAS contract). Approximately $5.2 million of equipment was charged by

13
   We were informed that the CSC in Region 1 was instructed by FTS Central Office that generalized BPAs (those available for use by all
customer agencies) had to be replaced by client specific BPAs. Thus the CO awarded “a sole source BPA” to ACS (BPA# T0103B0001). The
file does indicate that the CSC negotiated a reduced rate (from the ACS’s MAS contract rates), however, as the contractor is billing the client in
lump sum and no detail could be provided to show rates billed, this could not be verified.
14
  It should be noted that we attempted to discuss i.e. verification of receipt of service, invoice review/processing, employee qualifications, etc.
with the client agency. We were informed by the current client agency representative that all of the client employees who dealt with this task
order have since left the agency; and there are no records available to demonstrate what actions they were taking regarding these post award
activities. Or, for that matter, what pre-award actions they had taken.



                                                                      A-4
                                                                                                        APPENDIX A

the contractor on this task order without price support. (Note: Included in the amount for materials are
G&A/Material Handling Costs added on by the contractor. These costs are unsupported.) GSA took no post award
actions relative to receipt of service or invoice verification.

15. This task order is a follow-on to #R11501355 (see #14 above) and #R1PD15252011 (see #13 above). ACS
continued as the selected contractor (sole-source carried forward from predecessor awards), at the client’s request.
The SOW for this task was detailed. There was evidence of negotiations (conducted by the client agency). A
statement of price reasonableness was not in the file, nor an IGE. Our discussions with the client representative
indicated that this task, and (his) over-site of it, represented a reigning in of a “…build as you go” project … “out of
control”. The task order is time and materials based but contained no determination that a time and materials
contract was warranted. GSA continued to take no post award actions relative to receipt of service or invoice
verification. Although not in the ITSS, the client representative offered evidence of modification negotiation and
price reasonableness determination, to include materials and equipment purchases. (As noted on the predecessor
tasks, materials and equipment are not included in the BPA or referenced MAS contract with ACS, and should be
considered “open market”.) The client representative offered that a lesser fee was negotiated with GSA to reflect the
actions he is performing on the task.

16. The task was awarded to ACS through BPA# T0102B0002. This contractor “brought” this client to the CSC.
(Note: This task is related to Task Order #R19701135 (see #11 above).) The file does not contain a sole source
justification, or reflect that any price reasonableness was determined; there is no IGE, no obvious price negotiation.
This task is a time and materials award without justification. GSA took no post award actions relative to receipt of
service or invoice verification. Efforts to discuss this task with the client agency did not meet with success.

17. This task was competed among three vendors with all three returning bids. The client, Department of Air Force,
evaluated all three offers based on technical approach, transition plan and past performance. ACS won the task
order. A comparison of price by task was also done by the Air Force, however, there is no indication that further
negotiations of price was done, no IGE in file, and no determination and finding was found for the option year
exercised. According to the client representative, (she) looks at monthly reports provided by the contractor and as
long as ACS is within the “burn rate”, she does not verify individual rates. This task order is to provide “bodies” to
keep specific systems up and running 24/7.

18. This task was awarded as a sole source, time and materials task to Autometric Inc. The project has grown in
size over time. It appears from the file that the contractor proposed starting labor price before offered discount is
much higher than their published MAS schedule prices. Numerous attempts to get MAS pricing were unsuccessful.
The file does not indicate that a price reasonableness determination of the contractor’s proposal was performed, no
IGE, and no indication that ODC were reviewed for price reasonableness. The task was awarded for the initial
period of date of award thru April 2003. The initial RFQ called for a firm fixed price award, whereas the proposal
from the contractor was as a time and material award. (According to the ITM, the RFQ should have reflected time
and material contract.) This task is being extended by modifications without valid findings and determinations. The
latest period of performance is thru 9/30/04. Invoices verified reflect rates per quote, however, the rates and
disciplines per Autometric’s MAS contract do not reflect what they offered in their quote. We were not able to
verify disciplines and rates to the MAS contract rates provided.

19. This task order was awarded to Synergy, Inc. as a sole source; however, a formal sole source document was
never prepared. Task continues to grow with no competition; has been in effect since 2001 and is expected to
continue past 2004 as long as funding is made available. The file does not show that price was evaluated; or that
negotiations were held; and there is no IGE on file. Rates charged on invoices are lower than Synergy’s MAS
Schedule Contract rates.

20. This task was a sole source award to Anteon using appropriated monies for the FY03 defense budget to provide
acceleration of a submarine fleet-wide modernization upgrade to tactical control and information systems. The file
does not contain evidence of price negotiation, price reasonableness, and there is no IGE. The task contains
substantial ODC’s, considered “open market” items, as they are not included on Anteon’s MAS contract. The client
receives reports so that he can verify that they do not spend more money than they have. Invoices are paid unless
the client calls up.




                                                         A-5
                                                                                                       APPENDIX A

21. This task was a sole source award to TASC, Inc. The file does not contain evidence of price negotiations, price
reasonableness and there is no IGE. The SOW is vague; period of performance is extended and the obligated
amount of the task appears to be higher than what the contract is worth. The file appears to have substantial files
missing like RFQs, revised SOWs, and quotes for additional work. The ITM provided quote documentation but the
information was not adequate to substantiate what appears to be missing documents.

22. This task was awarded to GEO-CENTERS (incumbent and only contractor to respond to RFQ). The file does
not reflect any indication of price reasonableness determination; no IGE; no price negotiation memorandum; no
finding and determination performed when the option year was exercised.

23. This task order was awarded under a sole source justification prepared by the client. The justification was
adequate. The file does not demonstrate price reasonableness was evaluated and no finding and determination was
prepared when option year 1 was exercised.

24. This task was a “directed buy” that was considered “critical in winning additional work from strategic new
client”. The task was awarded without competition or sole source justification to Anteon under their BPA#
GS01K01BKM0016. The file does not reflect that price reasonableness was determined; that any further
negotiations were held; there was no IGE; and no findings and determination performed on extension period.
According to the client, the Navy performed an evaluation of price and hours; however, we were not able to get
copies from the client.

25. This task order constitutes an option under task order #R1AD96200210 (see #26 below). Our audit comments
are the same in nature.

26. This task order was competed under the “Safeguard” BPA program, awarded to ACS. We found no issues
involving the award of this task order, although it is clear that the GSA contracting officer had limited involvement.
This task is a time and materials award (as stipulated by the client) without justification. The client agency
developed the SOW. We noted that the ITSS file did not adequately document modifications made to the contract
as options were exercised, and GSA had no involvement in managing the task. We found that Modification #8 to
the project added a subtask that was clearly outside the scope of the SOW. GSA took no post award actions relative
to receipt of service or invoice verification. Discussions with client agency representatives indicated that they
provided substantial post award effort, observing work being done, evaluating on an ongoing basis the deliverables;
and verifying invoiced costs.

27. This task was awarded to the University of Rochester and appears to be R&D. Three vendors were solicited;
only one response was received. We found no support for price reasonableness; no IGE; no indication that a
negotiation of price took place and no determination finding that a time and materials contract was warranted. We
could not verify invoice pricing to contract vehicle (appears that award vehicle was a grant which does not break
down rates just allocates lump sum dollars per year). GSA took no post award actions relative to receipt of service
or invoice verification.

28. This was a sole-source award, time and materials task awarded to ACS (at the client’s request) through BPA#
GS01KBKM0072. There was no sole-source justification in the file. We found no support for price reasonableness;
no IGE; no indication that a negotiation of price took place and no determination finding that a time and materials
contract was warranted. Of the task order, more than 50% was for non-ACS costs, with the bulk of the dollars
earmarked for subcontract costs. These costs were not included in the cited BPA or referenced MAS contract; we
consider them open market purchase, without price reasonableness determination. This task order is classified. The
GSA contracting officer signed the award without adequate knowledge of the task order - the contracting officer did
not have the required security clearance. GSA took no post award actions relative to receipt of service or invoice
verification.

29. This task was a sole source award to Innovative Decisions, Inc. through a MOBIS contract. The client
completed the IGE, SOW, and sole source justification. No negotiations were held with the contractor; current
MOBIS rates were accepted. It was determined by the ITM and CO (without justification) that a time and materials
contract would be the best fit.




                                                        A-6
                                                                                                       APPENDIX A

30. This task order was competed under the Millennia Lite Contract. The contracting officer for Millennia Lite
evaluated the original offer and deemed the pricing acceptable, however, when additional work was added on Mod.
8 effective September 2003, acceptance of costs was performed by the agency client representative (although the file
does not reflect a price reasonableness documentation). This task was accepted as a cost plus fixed fee contract.
Neither GSA nor the client is verifying individual cost; rather, the client looks at the overall “burn rate” so as not
exceed what has been obligated to date.

31. This task was competed under the Millennia Lite contract. No negotiations were performed because the
contractor offered rates that were discounted from their Millennia Lite scheduled rates. Although a price
reasonableness determination was not on file, an IGE (not very detailed) was included in the file.




                                                        A-7
                                        APPENDIX B
              GSA/FTS
        NEW ENGLAND REGION
             RESPONSE

                  To

AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
    REPORT NUMBER A040096/T/1/Z04---

           September 24, 2004




                   B
                                                                           APPENDIX B
                                          RESPONSE
                           AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                                   CLIENT SUPPORT CENTER
                                     NEW ENGLAND REGION
                               REPORT NUMBER A040096/T/1/Z04---

                                          TABLE OF CONTENTS
                                                                    Page

REPORT LETTER                                                        3

     Background                                                      4

            Duties and Responsibilities                              5

            Funding                                                  5


ACTIONS INITIATED IN ADVANCE OF AUDIT FINDINGS                       5

AUDIT FINDINGS/ACTIONS TAKEN                                         8

     Inadequate Competition                                          8

     Documentation Lacking to Assure Reasonable Pricing              8

     Misuse of Contract Vehicle                                      9

     Questionable Contract Practices                                 9

     Frequent Use of Time and Materials Tasks                        9

     Causes of Improper Procurement Practices                       10

     Impact of Recently Implemented Management Controls             10

     Audit Issues List                                              11


APPENDICES

     Appendix A – Report of the Region 1 Acquisition Executive      12

     Appendix B – Charter of the Contract Management Review Panel   15

     Appendix C – FTS Action Plan                                   17




                                                   2
                                                                                                     APPENDIX B

September 24, 2004



MEMORANDUM FOR               JOSEPH B. LELAND
                             REGIONAL INSPECTOR GENERAL FOR AUDITING (JA-1)

FROM:                        DENNIS R. SMITH
                             REGIONAL ADMINISTRATOR


SUBJECT:                     Audit of Federal Technology Service’s
                             Client Support Center
                             New England Region
                             Report Number A040096/T/1/Z04---


GSA’s Regional leadership team has reviewed the draft report of the Office of Inspector General’s audit of Federal
Technology Service’s Client Support Center in Region 1 conducted in response to the request from GSA
Administrator, Stephen A. Perry.

We would like to express our appreciation to the Inspector General’s Region 1 team for its comprehensive
assessment of the Client Support Center’s administration of procurements in accordance with the Federal
Acquisition Regulations (FAR). The report has provided specific information that has been useful to the Region in
identifying the existence of both knowledge and process gaps that require immediate closure and planned action.

This report expands upon the earlier findings of the Regional Acquisition Executive (APPENDIX A) in his
assessment and report issued on October 29, 2003) initiated at the request of the Acting Assistant Regional
Administrator following the concerns raised in Region 10.

The following response details the actions taken by the New England Region to address, mitigate and correct the
deficiencies identified in Report Number A040096/T/1/Z04.



Cc: Sandra N. Bates




                                                        3
                                                                                                      APPENDIX B

                              AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                                      CLIENT SUPPORT CENTER
                                        NEW ENGLAND REGION
                                  REPORT NUMBER A040096/T/1/Z04---



Background

Concerns regarding the competency and leadership capabilities of the regional FTS Management Staff had begun
to become evident in the spring of 2003. The Senior Leadership team initiated discussions with the Assistant
Regional Administrator to obtain answers to questions regarding the nature and types of management controls
employed within FTS. Subsequently, the Assistant Regional Administrator transferred to Central Office in August
of 2003 and retired in March of 2004.

This departure placed the Chief of Staff in the position of Acting Assistant Regional Administrator coincident with
the beginning of the Inspector General’s review. This vantage point provided the Chief of Staff with the
opportunity to begin the process of conducting an in depth assessment of the organizational deficiencies that were
the root cause of many of the issues to be later identified and documented in the report of the Inspector General.

The deficiencies identified included:

   1)   Insufficient human resources
   2)   Misaligned organization
   3)   Deficient senior management within the FTS organization
   4)   Absence of management controls
   5)   Poorly trained associates and contracting officers

Action plans were developed to address these immediate and pressing issues. One of the outcomes was the
development and proposal for reorganization for FTS New England. This plan was ultimately approved by the
Commissioner in May of 2004. Recruitment of associates with the requisite skills to lead the transformation of the
service was also aggressively undertaken.

This has resulted in nearly 100% replacement of the FTS management team. As referenced in the report, a
permanent ARA was appointed on April 19th, 2004. The CSC IT Solutions Director continues to be on extended
leave since December 2003, but a number of new strategic hires at the management and working levels have been
made that have assisted in the transformation of the CSC management of operations and process improvements
continue to evolve.




                                                        4
                                                                                                        APPENDIX B
Duties and Responsibilities


Work has been ongoing with associates to clearly define and emphasize the full scope of their roles and
responsibilities. The process will be facilitated with the implementation of APPAS, the provision of updated
Position Descriptions, delivery of critical elements and customization and development of individual associate
performance plans which will be linked directly to the GSA/FTS Regional Goals.

In order to address individual skills gaps, the performance plan is outlining necessary development for each
associate for 2005 to ensure their success within their organizational role.

Funding

CSCs have profit and loss responsibility. The CSCs assess fees to client agencies for the services provided.
Management has made financial accountability a top priority and goal for 2005 for all FTS associates. The newly
hired Business Manager reports weekly on outstanding invoices by associate. Associates are tasked with reporting
to their respective managers on the reasons invoices remain unpaid. 0% is the goal established for FTS in 2005
with regard to interest penalties or un-recovered expense.

Emphasis has been placed on the process for accepting customer funding documents to ensure that contracting
officers and account managers work closely with their customers to fully understand the nature of the governing
appropriations and to clearly identify funds to a bona fide requirement as part of the acceptance process.


                         ACTIONS INITIATED IN ADVANCE OF AUDIT FINDINGS

Once management investigated and determined the nature of the issues, we implemented a comprehensive
management approach to address the situation. Actions taken by the region include:

   •   Receipt and implementation of the FTS Action Plan for task order transactions in November of 2003. This
       plan established a national standard governing internal control for task order acquisition activities. A copy
       of the plan and the progress made against the plan is attached as Appendix C.

   •   Implementation of an Associate Communications Strategy, that included monthly FTS Forums to keep
       everyone well informed of the progress of major initiatives such as the implementation of the
       reorganization, “Get It Right Plan”, the Procurement Management Review, APPAS, associate coffee hours
       and weekly staff meetings.

   •   Actions concerning Implementation Sec. 803 – The procurement staff are acutely aware of this directive.
       CSC management has emphasized adherence to its requirements; the CMRP is specifically addressing
       compliance.

   •   Legal Review – Regional legal review has been in practice since shortly after October 2003. The FTS
       acquisition process necessitates legal review both pre-solicitation and pre-award for complex tasks and for
       tasks that meet or exceed the $5,000,000 threshold as a prescribed and required step in the acquisition
       process.

   •   Regional Reorganization – Recruitment and hiring of a new management team. Operations in the CSC
       have been substantially reorganized. Several significant changes that effect the management control

                                                         5
                                                                                                       APPENDIX B
        environment are leading to more effective oversight of procurement actions. Some vacancies remain;
        actions are underway to fill these positions.

   •    CSC Management Plan – The Region is aggressively working toward the fulfillment of all deliverables
        comprising the CSC Management plan; implementation is ongoing. FTS Management is strongly
        committed to continuous process improvement and the creation of a first in class acquisition organization.
        Serious effort to improve performance and adhere to good procurement practice has been underway since
        mid-May 2004 and standardized procedures will be implemented across all aspects of the acquisition life
        cycle to ensure consistency and quality. Back-end quality reviews are planned for implementation in 2005.

   •    Procurement Training –a significant amount of training – both formal and informal – has taken place over
        the last several months. All members of the procurement team have participated. Training included such
        topics as use of BPAs; acquisition planning; performance-based contracting; developing SOWs; and
        contract administration procedures.

   •    BPA Review – All BPAs that were put into effect by the Region over the last several years have been
        reviewed. The three active BPAs are in the process of being closed down through competition of the
        underlying tasks and allowing the tasks to expire as a means of preventing the government from incurring
        significant termination for convenience charges. Support and assistance in correcting these improper sole
        source awards is being provided by FTS Central Office Contracting and Legal. The amount of work and
        periods of performance for some of these tasks will require that the clean-up efforts extend into FY2005.

   •    CSC Procurement Practice Binder – each member of the procurement team received and signed for receipt
        of a binder containing relevant procurement policy directions, regulations, instructions, sample forms, etc.
        CSC officials intend to keep the contents of the binder current. A session is planned for late September to
        review all associate questions regarding the review of the materials provided. Written Q&A will be a
        deliverable of this session which will also be provided to associates for inclusion in the reference guides.

   •    Outreach to our customers to educate them in the “Get It Right” program.


An additional action step taken to impose much needed management controls was the creation and establishment
of the Contract Management Review Panel. The team first convened on March 8, 2004. The initial team was
comprised of the Acting Service Delivery Managers, Program Management Director and Acting IT
Solutions/Network Director. Membership has been expanded to include the Assistant Regional Administrator and
Lead Contracting Officer.




An excerpt for the Charter of the CRMP is as follows:

       a. The purpose of this charter is to establish an internal management review process for Region 1
       contracting actions.

       b. The prime objective of the Contract Management Review Panel (CMRP) is to ensure that contracting
       actions are accomplished in compliance with established laws, regulations, policies, procedures and
       directives.


                                                         6
                                                                                                        APPENDIX B
     c. The second objective is that the CMRP will provide Region 1 management with an ongoing quality
     assurance and improvement program. The CMRP will constantly analyze the region’s acquisition processes
     and will ascertain problem areas and weaknesses. This will allow Region 1 Management to direct corrective
     actions in order to ensure that the best possible assisted services are being provided to Region One’s clients.


The full text of the CMRP Charter is attached (APPENDIX B).

Process

The CMRP process has evolved over the past months since its inception to address any noted process gaps. Each
task valued at $100,000 or greater must be reviewed by the CRMP
pre-solicitation and pre-award. This process is helping to reinforce “best acquisition practice” and to ensure the
elimination of improper procurement practices identified in this report.

Work with our largest customers to educate them on what it means to “Get It Right” has been under taken by the
Regional FTS Management team. This education program is critical to change the culture and behavior of
GSA/FTS customers in recognizing the inherent benefit to their agencies mission and the government through
increased competition.

Invitations to the joint web cast of Administrator Perry and Department of Defense Chief Acquisition Officer
Deidre Lee were extended to our DoD customers. This presentation was attended by all FTS staff.

Senior management has made it a priority to schedule meetings with our larger DoD customers to explain the
benefits and the requirement for us to partner and embrace the policies and practices associated with Get It Right.
These meetings have been largely successful and will be continued and expanded in the coming year.




AUDIT FINDINGS/ACTIONS TAKEN

Inadequate Competition

The goal established is to maximize competition regardless of the dollar threshold. In addition, in order to better
align or procurement practices with that of the DoD, all task orders valued at $100,000 or greater are required to be
Performance Based. This is a metric that we are tracking and will be reporting on as part of the PMT. Since all
such tasks must be brought before the CMRP prior to solicitation and award, this procedure will prevent any
unjustifiable sole source procurements from being awarded.

All inadequately competed tasks are being systematically addressed. All BPA’s for Region 1 are being closed out
and the underlying tasks are in the process of being examined. In situations where the government may be subject
to termination for convenience liability, the tasks are being allowed to expire and successor tasks to satisfy the
requirement are in the process of being developed and prepared for competitive solicitation.

This transition process is complex since FTS can not just cut off these flawed acquisition vehicles without
providing a bridge to fulfilling the customers’ requirement. We have been working very closely with customers
to assist in the development of performance based Statements of Work to sequentially replace the problematic task
orders. News of the need to close out these long standing tasks has been met with some resistance by our

                                                         7
                                                                                                      APPENDIX B
customers who have expressed concern with the amount of time and effort they may have to invest in order to “Get
It Right.” We continue to work with them to over come some of this anxiety.

Documentation Lacking to Assure Reasonable Pricing

As part of the CMRP review of tasks, the panel checks for the completion of an Acquisition Plan developed using
the Acquisition Wizard as defined by monetary thresholds, the acquisition checklist has been prepared and for the
completion of an Independent Government estimate. If the nature of the task recommended is Time and Materials
that the Determination and Findings has been completed.

Prior to approving the award of a task, evidence of price negotiation and price evaluation must be present in the
recommendation for award.

To minimize and eliminate the “Build as You Go” approach identified with development tasks, the recommended
approach is to uncouple the architectural definition portion of the requirement and compete the task separately.
Once the architecture has been defined, a subsequent task for the build could then be solicited with the clearly
defined architecture as the source of information for the Statement of Work. This will greatly reduce the cost to
the government of this type of project.
       .
All modifications including requests for incremental funding that are valued at $100,000 or greater must be
reviewed by the CMRP. This will curtail the kind of exponential unchecked growth of tasks previously evidenced.


Misuse of Contract Vehicle

The joint review process established with the CMRP in addition to extensive training offered to all associates
engaged in the acquisition process will ensure that appropriate contract vehicles are used. Some of the training
provided to associates includes use of BPAs; acquisition planning; performance-based contracting; developing
SOWs; and schedules training.

Pass-Through Contracting

Elimination of the use of BPA’s and working with our customers early in the acquisition cycle to develop well
defined Statements of Work will prevent this practice on a going forward basis.

Questionable Contracting Practices

Ineffective Statement of Work (SOW)

This issue has been addressed above under Pass-Through Contracting.

Lack of Contract Monitoring

Responsibility for contract monitoring has been defined for both the contract officers and account managers. It is
part of the critical elements of each of these position descriptions and performance against these responsibilities
will be assessed through Customer Satisfaction Surveys, performance of contract surveillance and the financial
management responsibilities that relate to the acceptance and prompt processing of vendor generated invoices.

A process for the managing the Periods of Performance has recently been implemented. Managers are reviewing
reports that provide information on task expiration. Currently the service is using this reporting to manage and
                                                        8
                                                                                                          APPENDIX B
address sole source tasks for which the base period will expire at the end of this fiscal year. For sole source tasks,
the option years will not be exercised. Transition to competed vehicles is the goal for all such tasks with time and
resources permitting. Going forward these reports will be used to assist in planning and proactively managing the
Center’s workload.

National Security Tasks Not Properly Negotiated/Awarded

All classified tasks have been transferred to FTS Central Office until such time that the Region 1 staff acquires the
necessary skills and clearances to be able to perform this category of work. Remediation of flawed classified tasks
is in process.

Frequent Use of Time and Materials Tasks

All tasks of $100,000 or greater must be performance based and firm fixed price. D&F’s must accompany any
recommendation for T&M tasks going forward.



Causes of Improper Procurement Practices

We concur with the conclusions of the Office of Inspector General as to the factors contributing to the improper
contracting practices:

   1) Ineffective system of internal management controls
   2) CSC personnel sacrificing adherence to proper procurement procedures in order to accommodate client
      agency preferences
   3) An excessive focus on customer satisfaction and revenue growth
   4) CSC personnel were not generally familiar with prescribed ordering procedures
   5) Contracting officers did not always adhere to proper procurement procedures designed to ensure the
      Government receives the best value.
   6) ITMs and contracting officers did not have the expertise to evaluate contractor proposals for best value

Impact of Recently Implemented Management Controls

Based upon the gaps that existed in the FTS management organization at the time of the subsequent review and
due to the developmental nature of the relatively immature review process in place during the March to early May
timeframe, a review of the 10 tasks revealed that 40% of them were not presented to the CMRP for review. We do
not feel that the review at this point in time is a true measure of the effectiveness of the process put into place.

Further, the process has continued to evolve and improve as the team acquires much needed resource and
experience. The regional office is still not at full staffing and is continuing its efforts to recruit and fill against
critical vacancies.

A review of tasks completed in the October/November timeframe will likely provide a more representative
example of the quality improvements made against the initiatives described.

In spite of many obstacles and challenges, significant progress has been made and will continue to be made in the
coming months as critical vacancies are filled and additional repeatable processes are created and established. Any
organization committed to quality principles understands that continuous improvement is a journey and not a

                                                          9
                                                                                                                    APPENDIX B
destination.

The efforts of FTS New England represent “work in progress” and the CSC will continue to improve over the next
several months.

The following table lists the issues identified in the report of the Office of Inspector General with the corrective
action taken or planned to address noted deficiencies




                                                   AUDIT ISSUES LIST



                                                                                                        SCHEDULE
                                              ACTIONS                                                   FOR
                    ISSUE                      TAKEN                     ACTIONS PLANNED IN 2005        COMPLETION
                                                                   ASSOCIATES PERFORMANCE PLANS WILL
                                                                   CONTAIN OBJECTIVES AND MEASURES FOR
                                            CRMP REVIEW            ADHERENCE TO PRESCRIBED ACQUISITION
        Inadequate Competition               CASD FORM             PROCEDURES.                         OCT. 2005
                                            CRMP REVIEW            CREATIION AND IMPLEMENTATION OF
        Documentation Lacking                CASD FORM             A BACK-END QUALITY REVIEW PROCESS    DEC. 2005
                                              TRAINING
        Pricing Reasonableness              CRMP REVIEW            CRMP REVIEW , ONGOING TRAINING       Ongoing
                                          TRAINING AND CRMP
        Misuse of Contract Vehicle             REVIEW              CRMP REVIEW, ONGOING TRAINING        Ongoing

                                              TRAINING                       ETHICS TRAINING
        Questionable Contract Practices     CRMP REVIEW                                                 SEPT. 2004
                                                   TRAINING
        Use of Time and Materials                CRMP REVIEW           CRMP REVIEW, ONGOING TRAINING    Ongoing
                                                APPAS DEFINED
                                                  ASSOCIATE            MONITOR PERFORMANCE AGAINST PLAN
        Inadequately Trained Associates PERFORMANCE AND TRAINING PLANS QUARTERLY REVIEWS                Ongoing




In conclusion, we concur with the findings and appreciate the personal attention and understand that many of the
deficiencies cited in the report of the Inspector General are not unique to Region 1.




                                                              10
                                                                                                         APPENDIX B




                                                                                    Appendix A


                                                   FTS REPORT


BACKGROUND              At the request of the Acting Assistant Regional Administrator for the Federal Technology
Service New England a procurement review was conducted of the procurement operation for the Region 1 FTS .
This request was in response to an Alert Report issued by the IG Office identifying serious concerns with FTS
procurement practices in Region 10.
         The majority of acquisitions accomplished by the R1 FTS are task or delivery orders issued for Information
Technology products or services against the FSS Multiple Award Schedule 70 in support of various military and
civilian agencies located not only in New England but nationally as well as worldwide. Many of these orders are
for IT support services, an area of acquisition that has experienced rapid growth in recent years given the trend of
contracting-out prior government operations to the private sector.
         The review was conducted by reviewing contract files and by interviewing contracting support staff. It
should be noted that the IG’s office earlier conducted a survey of the Region 1 FTS procurement operation as part
of their nationwide FTS review with no apparent findings issued.


OBSERVATIONS and RECOMMENDATIONS

        The FTS procurement staff should be commended for accomplishing the amount of acquisitions
transacted as well as achieving a high level of customer satisfaction with the limited resources available. It should
be noted that there were no observations of inappropriate use of funding; the finding that precipitated the IG Alert
Report issued for Region 10.
        There were however some important areas in the acquisition process that need improvement especially
given the high dollar value and complexity for many of these procurements. These areas concern accomplishing
and documenting acquisition planing and market research, source selection evaluation and documentation, and
improving the levels of competition.

         Acquisition Planning and Market Research Accomplishing and documenting acquisition planning and the
market research that is an important part of developing the acquisition strategy needs to be improved. More
recent FAR guidance emphasizes the need for market research and acquisition planning. These initiatives
provide the opportunity to develop technical evaluation factors, discuss the type of contract to be used, consider
firm fixed price versus a labor hour or time and material arrangement, develop a independent government
estimate, and identify realistic supply or service sources Although the Federal Supply Service markets the
Multiple Award Schedule (MAS) program as a streamlined method of acquisition there are still a number of
important steps that should be accomplished; especially for high valued technically complex IT service contracts.




                                                         11
                                                                                                      APPENDIX B


                                                                          Appendix A

        Source Selection Decision Although a formal source selection plan may not be necessary the
acquisition team led by the Contracting Officer needs to establish technical evaluation factors and determine the
relative importance of those factors relative to other technical factors as well as to cost and price. Technical
factors to be considered need to be included in the RFQ and the source selection decision should be based on
those identified factors with appropriate documentation included in the contract file as to why the selected
contractor provides the best value to the government. Past performance should always be considered as a
technical factor. Other factors that may be appropriate for service contracts include technical qualifications,
experience, and approach to accomplishing the required work.

       Competition Observed more than expected non-competitive (directed) acquisitions including a long term
non-competitive Blanket Purchase Agreement with ACS Defense Inc. With over 3,000 vendors available for
Special Item Number (SIN) 132-51 on MAS Schedule 70 it is difficult to understand why there were as many
directed acquisitions. Guidance for use of MAS schedules requires soliciting 3 or more vendors and if the
requirement exceeds the maximum order threshold at least 4 contractors should be sent RFQ’s. There appears to
be a gaping hole in the implementation of CICA in that multimillion dollar acquisitions are being accomplished
through the MAS program with no competition and with no review beyond the Contracting Officer level. Customer
convenience for vendor continuity is not an acceptable justification. Improved acquisition planning and market
research should improve the level of competition and translate into improved pricing arrangements for the
customer. Strongly recommended that all non-competitively issued BPA’s be canceled. BPA’s are designed to
administratively streamline the issuing of orders and never intended to avoid competition requirements.


Part of the above mentioned concerns can be attributed to the lack of training and guidance made available to the
FTS procurement staff specific to awarding large valued task orders for IT services. The recently developed
online course by FSS University of Multiple Award Schedules (UMAS) should be helpful and does provide some
general guidance on the process and the level of documentation that is appropriate. It is recommended that not
only the GS-1102 Contract Specialists, but all associates involved in the acquisition team take that course.
Included in the course reference material and appendices are suggested levels of acquisition planning, market
research, and best value technical factors. These tasks when meaningfully accomplished provide for a better
procurement allowing for improved business judgment, improved value for the customer, and therefore a better
value to the taxpayer. They do, however, take time and resources.
        In addition to the UMAS course it is recommended that the FTS National Office develop additional training
specifically concerning the issuing of task orders for IT services from Multiple Award Schedules focusing on
developing performance based SOW’s and incorporating appropriate technical factors and identifying adequate
levels of documentation. An evaluation of national transaction data by region shows comparable if not greater
performance totals in other regions suggesting the concerns mentioned above may be issues there as well.




                                                        12
                                                                                                     APPENDIX B


                                                                  Appendix A

SUMMARY

        The FTS procurement operation processes a large number of transactions with a large dollar value with
minimum documentation. Given the existing performance measures it is predictable that revenue generation and
customer satisfaction achievements score well while there has been little management attention or controls
concerning the acquisition system other than perhaps “Clinger-Cohen” compliance. These issues go beyond the
New England Region FTS procurement operation and need national attention. Recent IG findings suggest there
is a problem. Improved training opportunities and development and inclusion of performance standards and
measures that reflect the importance of acquisition performance and business judgment are essential to balance
the current efforts to maximize revenues. With these revenue generating opportunities comes the responsibility to
insure adequate training, management controls, and performance standards and measures to provide a system
not only responsive to the customer but also to the integrity of the acquisition system.




Report of Regional Acquisition Executive, Greg Bowman (since retired)
Issued October 28, 2003




                                                       13
                                                                                                         APPENDIX B
                                                                    Appendix B

July 2, 2004

                           CONTRACT MANAGEMENT REVIEW PANEL

                                                   CHARTER

1.   OVERVIEW

     a. The purpose of this charter is to establish an internal management review process for Region 1
     contracting actions.

     b. The prime objective of the Contract Management Review Panel (CMRP) is to ensure that contracting
     actions are accomplished in compliance with established laws, regulations, policies, procedures and
     directives.

     c. The second objective is that the CMRP will provide Region 1 management with an ongoing quality
     assurance and improvement program. The CMRP will constantly analyze the region’s acquisition processes
     and will ascertain problem areas and weaknesses. This will allow Region 1 Management to direct corrective
     actions in order to ensure that the best possible assisted services are being provided to Region One’s
     clients.


2.   Membership of the CMRP:

The CMRP will be comprised of the two Service Delivery Managers, the Contracting Team Leader, the Director of
Program Management, and the Director I.T. Solutions and will be chaired by the Contracting Team Leader.

3.   Meeting Times:

The CMRP will meet on Tuesdays at 1:00 pm and on Thursdays at 1:00 pm and will provide a maximum 72 hour
turnaround. Deadline for submission for the Tuesday CMRP is COB on the previous Friday. Deadline for the
Thursday is COB the previous Tuesday

4.   CMRP Reviews:

       a. All contracting actions $100,000 or greater are subject to review prior to solicitation issuance, and then
       again, prior to award. The following are the only exceptions:
               1. Incremental funding modifications need only be reviewed once, prior to award.
               2. No-cost administrative modifications are exempt from CMRP review
               3. De-obligation modifications are exempt from CMRP review.
       b. Review by the CMRP will entail a review of the Contract File to ensure compliance with laws,
       regulations, policies, procedures, and directives. The CMRP and the project team will each use the
       current version of the Acquisition Checklists to ensure compliance. (See attachments 1 through 4).

5.   CMRP Actions:


     a. After a review is completed, the CMRP will complete a Contract Action Status Document (CASD) which
     will include approval, comments, approval with revisions, rejection. This form with the panel’s findings will
     be sent to the Contracting Officer and ITM.

                                                         14
                                                                                                        APPENDIX B
     b. If the CMRP cannot resolve a contracting action issue, the chairperson will elevate it to the ARA for final
     resolution.

6.   CMRP Reporting:

The CMRP will submit a monthly report to the ARA. This report will contain the CMRP’s overall findings for the
previous month along with the associated performance measurement results.

References:

Region One Management Plan
Acquisition Checklists
CMRP Procedures
FAR Part 8
FAR Part 15
GSAM




                                                         15
                                                                                                                                                   APPENDIX B




                                  FTS                        Management                  Plan


                                                             New England

                                                                                                  Responsible
Methods                           Measure                    Test                        Target   Associate      Due Date   Status   Comments

1. CSC Self Assessment



                                The ARA will conduct a
                                random sample of 20 task
                                orders (at a minimum) to
                                ensure compliance with   Submit report of
                                applicable laws and      reviewed contract                                                           Implemented
a. Review Task Orders and Mods. regulations.             actions with findings.                   CSC Director   03/04      C        03/08/04




                                   Conduct self-assessment
                                   using FTS "Internal
                                   Control Management and
b. Conduct annual assessment of Evaluation Tool". Selected
selected areas to provide evidence areas to include           Submit report of
that management controls are       Acquisition, Financial and reviewed areas with
working properly.                  Administration.            findings.                           ARA            09/04      P

2. CSC Management Review




                                                                                    16
                                                                                                                                      APPENDIX B




                                      Critical Elements include
                                      compliance with
                                      acquisition and financial
                                      procedures, policy and
                                      guidelines, Contract
                                      Administration and close
                                      out requirements.
                                      Additional revisions
a. Establish critical elements of     pending revised             Provide performance
Associate Performance Plans to        Performance Appraisal       plan for personnel.
ensure quality acquisitions.          System.                     i.e. CO, ITM, FM           CSC Director   10/04   P



b. Establish award plan for each
business units based on balanced      Review award plan and
score cards, to include performance   recognition policies to
measures for customers, associate,    ensure they meet                                                                  Implemented
financials and processes.             performance measures.       Provide award plan.        ARA            10/04   P   9/17/04




                                                                                        17
                                                                                                                     APPENDIX B




                                   Implement Formal
                                   "standardized" Training
                                   Plans. Associates should
                                   have competency-based
                                   IDP's, ethics training,
                                   section 503 and section
                                   508. Acquisition
                                   associates should follow
                                   the OPM qualification
                                   standards for 1102's and
                                   PM's should follow the
                                   approved FTS-ACT
                                   program in accordance
                                   with the CIO
c. Associate Training - annual     Memorandum:
ethics training, section 803 and   Accelerated FTS-ACT          Provide associates
508, GSA Acquisition Letter MV     (PM) Training, dated         completed training
04-03, and IDP training.           November 20, 2003.           records.                  CSC Director   09/04   P
                                   Directors shall conduct
                                   annual assessments of their
                                   associates to record
                                   completed training courses,
                                   assess whether associates
                                   meet the qualifications
                                   needed to perform their
                                   work, determine future
                                   training requirements, and
                                   revise training accordingly.




3. Procurement Management
Review                                                                                    TQ             07/04   C

                                                                                     18
                                           APPENDIX B




a. Triennial Procurement
Management Review (Office of
Acquisition). In accordance with
November 14, 2003 "Guidance
concerning PMR Program for FTS
Acquisition Matters.
   i. Compliance with FTS
Policy/Internal Controls
   ii. Local Contracting Policies
and Procedures
   iii. Contracting Activity Review
Process
  iv. Extent of Competition
Achieved
   v. Justification and Approval
Process
   vi. Use of Appropriate Contract
Clauses
  vii. Use of Performance-based
Services Acquisition
   viii. Pricing

  ix. Administration of Contracts
  x. Simplified Acquisition
  xi. Management of the
Contracting Function
   xii. Training - Mandatory and
In-house

   xiii. Special Interest Items
(Program or "Hot Topic" specific)

  xiv. Small Business Program




                                      19
                                                                                                                                      APPENDIX B




                                                             Provide results of annual
                                                             review. Report should
                                 A Sample review of all or include actions on all
                                 20 (whichever is less) task legal concurrences and
                                 orders > $5M will be        non-concurrences with
b. Legal Review: TOs >$5 Million reviewed.                   explanations.                   ARA            10/03   C   Implemented 10/03



                                    ARA/AC will check panels Provide results of PMR                                     Implemented
c. Utilize Contract Review Panel.   work twice a year.       or semi-annual report.          ARA            10/03   C   03/08/04



                                    The ARA will conduct a
                                    random sample of at least
                                    20 TO's to ensure          Submit report of
d. Employ Standard Acquisition      compliance with applicable reviewed contract
checklist.                          laws and regulations.      actions with findings.        ARA            10/03   C   Implemented 10/03



e. Develop Acquisition Plan and
Source Selection Criteria to        The ARA will conduct a
accompany SOW for schedules and     random sample of at least
GWACs services > $500K, and         20 TO's to ensure          Submit a list of the
develop acquisitions strategy for   compliance with applicable actions reviewed by CRP                                  Implemented use of
commodity buys > $1M.               laws and regulations.      annually.                     ARA            05/04   C   Acquisition Wizard

4. ITS Management Review


a. Assign work to CO's and Project
Managers, taking into account their                            Submit analysis of ITS
experience with the complexity of Results of ITS               Management Study
the work.                           Management Study           recommendations.              CSC Director   04/04   C




                                                                                        20
                                                                                                                             APPENDIX B




b. Determine the appropriate ratio                         Submit analysis of ITS
of Project Managers to Contracting Results of ITS          Management Study
Officers.                          Management Study        recommendations.         CSC Director   06/04   C   annually




c. Review Client Support Center
organizational structure to ensure
management controls are in place
to support the operations for the                          Submit analysis of ITS
business unit (ITS Management        Results of ITS        Management Study                                    Study completed
Study - Independent Report).         Management Study      recommendations.         ARA            09/04   P   July 20, 2004



                                     Results of FTS
d. Performance Measure Study         Performance Measure   Submit analysis of FTS
(Gartner)                            Study                 Performance Measures.    ARA            06/04   T



e. Benchmark New Measures in
FY05                                                                                               10/04   P



f. Implement New Measures in
FY06                                                                                               10/05   P

5. Financial Review




                                                                               21
                                                                                                                              APPENDIX B




a. National Financial Guidance on
Revolving Funds/IT vs. Non-IT
Matrix issued 6/7/04. CSCs to          ARA will provide a copy
distribute guidance to all associates. of memo to all associates.                           ARA        06/04   C


b. Submit Written Closeout            Submit Written Closeout                               ARA/CSC
Procedures                            Procedures                                            Director   06/04   C

c. Review/Approve Written
Closeout Procedures                   Approval to CSC                                       AC         06/04   C

d. Implement Written Closeout         Publish Closeout                                      ARA/CSC
Procedures                            Procedures                                            Director   06/04   C

e. Submit Quarterly Report on         In accordance with                                    ARA/CSC
Closeouts                             approved plan                 Quarterly report        Director   10/04   P   On-going




                                                                                       22
AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
  NORTHEAST AND CARIBBEAN REGION
   REPORT NUMBER A040123/T/2/Z05006

           DECEMBER 9, 2004




                   II
                  AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                          CLIENT SUPPORT CENTER
                    NORTHEAST AND CARIBBEAN REGION
                     REPORT NUMBER A040123/T/2/Z05006

                                TABLE OF CONTENTS
                                                                        PAGE

RESULTS OF AUDIT                                                         II-1

     Inadequate Competition                                              II-1

     Inadequate Support for Fair and Reasonable Pricing                  II-2

     Independent Government Cost Estimates                               II-3

     Other Direct Costs                                                  II-4

     Inappropriate Use of the IT Fund                                    II-4

     Frequent Use of Time and Materials Tasks                            II-5

     Questionable Use of Contract Vehicle                                II-5

     Need for Increased Invoicing Oversight                              II-6

     Causes of Procurement and Task Order Administration Deficiencies    II-6

     Impact of Recently Implemented Management Controls                  II-7

CONCLUSION                                                               II-9

RECOMMENDATIONS                                                          II-9

MANAGEMENT’S RESPONSE                                                    II-9

INTERNAL CONTROLS                                                       II-10

APPENDICES
     Schedule of FY03 Task Order Awards and Modifications Reviewed
     In The Northeast and Caribbean Region                               A-1

     Schedule of FY04 Task Order Awards and Modifications Reviewed
     In The Northeast and Caribbean Region                               B-1

     Regional Administrator’s Response to Draft Report                   C-1
                                               RESULTS OF AUDIT

The audit identified a number of deficient procurement practices used in task order awards, such as sole
source awards without justification; inadequate competition; deficient price reasonableness determinations;
inappropriate use of the IT fund, use of time-and-materials contracting without justification, questionable use
of a “pass-through” contractor and inadequate monitoring of task order billing and receipt of service. Please
refer to Appendix A-1 for details of task orders reviewed. During the second half of FY04, regional officials
began to focus on improving the control environment in order to prevent further occurrences of deficiencies
such as these. The impact of this effort cannot be assessed until FTS has had some time to ensure that the
intended changes have been effectuated. If successfully adopted, these new measures should address the
internal control concerns cited in this report.

The factors that appear to have contributed to the identified problems included: an inadequate system of
internal management controls, CSC personnel sacrificing adherence to proper procurement procedures to
accommodate customer preferences, an over-reliance on client agencies, excessive focus on customer
satisfaction and a national overall culture of revenue growth within FTS. In addition, regional officials cited
the need for additional staffing and training of the existing procurement staff.

Our evaluation of the impact of recent enhanced management controls implemented in the Region is
inconclusive. Our review of selected task orders (please refer to Appendix B-1), in conjunction with related
discussions concerning new management controls and regional policy statements, have led us to conclude
that the control environment can best be characterized as a “work in process”. We found some new controls
were being followed, while others had delayed or partial implementation. The Office of Audits will conduct
a more comprehensive testing of internal controls throughout the CSC program during fiscal year 2005.


Inadequate Competition

The CSC was not proactive toward expanding the competitive environment for task orders. As a result, the
Government did not obtain the benefit of competition and potentially lower costs.

The following table summarizes the extent of competition for the task orders in our FY03 audit sample:


           Indefinite Delivery/Indefinite Quantity (IDIQ)                  4
           FAST 8(A)                                                       2
           Sole Source                                                     5
           Single Bid Received                                            14
           Multiple Bids Received                                          5
                                Total Sample                              30


As seen above, the sample included 24 FSS Schedule orders that did not involve an IDIQ or an 8(A) set-
aside award. The CSC awarded 19 (79%) of these orders without the benefit of competition. Out of 19
sample task orders where the CSC solicited more than one vendor, 14 awards were based on a single offer.
Nine of those 14 single offer awards were made to an incumbent contractor.

Recent legislation and FSS ordering procedures specify the need to obtain a minimum of three offers for
most orders to ensure fair and reasonable prices. For most of the non-competitive procurements reviewed,

                                                     II-1
we concluded that the client generally had a particular vendor in mind before coming to GSA, particularly
when the order involved an incumbent contractor. This was reflected in client MIPRs and statement of work
transmittal letters that directly referred to the incumbent.

FSS Schedule services orders (that include a statement of work) expected to exceed $2,500, require the
ordering office to send the statement of work to a minimum of three Schedule contractors for competitive
quotes. Orders expected to exceed the maximum order threshold (MOT), require that the ordering office
request quotes from additional Schedule contractors that offer services that will meet the agency’s needs.

On certain older orders, the CSC placed reliance on the FAR 8.404 provision that GSA had already
determined the prices of items and services under schedule contracts to be fair and reasonable and therefore,
did not seek more than one quote. For more recent orders, contracting officials generally solicited offers
from only three vendors, including the incumbent, regardless of the size and complexity of the procurement.
Additionally, the task order files did not include sufficient support documentation concerning market
research efforts by the ITMs. This made it difficult for us to ascertain who determined which contractors
were to receive Request For Quotes (RFQs) and the basis of this selection.

In 2002, Congress reaffirmed the importance of optimizing competition by enacting legislation (Section 803
of the National Defense Authorization Act of 2002, Public Law 107-107) which requires ordering agencies
to obtain a minimum of three offers for Department of Defense (DOD) orders for professional services
expected to exceed $100,000 that are placed under multiple award contracts, including FSS schedule
contracts. The provisions of Section 803 apply not only to orders placed by DOD, but also to orders placed
by non-DOD agencies on behalf of DOD. While most of the task orders in our sample predated the October
25, 2002 effective date of this legislation, the limited extent of competition is troublesome, in view of our
observations concerning CSC price reasonableness determinations and the lack of support for fair and
reasonable pricing, discussed below.


Inadequate Support for Fair and Reasonable Pricing

For the majority of the orders for IT services that we reviewed, there was insufficient documentation to
support that the Government received a fair and reasonable price. The task
order files did not show how CSC officials followed FSS Ordering Procedures for Services to ensure fair and
reasonable pricing, or whether they attempted to negotiate better pricing when processing and awarding
orders, particularly when orders exceeded the MOTs of the underlying GSA schedule contract.

FSS has developed a set of procedures for services orders placed against its schedule contracts. These
procedures include provisions for obtaining competition for task orders, as well as giving consideration to
the level of effort and labor mix when making a price reasonableness determination. FAR 8.405-2 (d)
provides that:

“The ordering activity shall evaluate all responses received using the evaluation criteria provided to the
schedule contractors. The ordering activity is responsible for considering the level of effort and the mix of
labor proposed to perform a specific task being ordered, and for determining that the total price is
reasonable.”

The CSC generally did not ensure that task order documentation reflected a proper evaluation of labor mix
and level of effort. The price reasonableness determination was often based on labor rate comparisons with
other schedule contractors, without consideration of the proposed level of effort or labor mix.

                                                    II-2
Independent Government Cost Estimates

Due to the complexity of the task orders being processed, the CSC placed great reliance on the technical
expertise of the requiring agency, especially with regard to the preparation of independent government cost
estimates (IGCEs). However, the CSC incorporated the estimates into the Justification For Awards (JFAs)
without establishing the validity of the amounts. The IGCEs were often undated and without an identified
preparer. In several instances, the IGCE consisted of total amounts, without underlying support. We were
particularly concerned about estimates that exactly matched or closely approximated the proposed amounts.
One example involved task order 02FM213706 awarded to Dataline, Inc., an 8(a) Federal Acquisition
Service for Technology (FAST) contractor that had provided hardware to the client agency under two
previous task orders. Dataline submitted a proposal on February 20, 2003, the same date that FTS issued the
RFQ. Although the RFQ was based on a February 11, 2003 request from the client agency, Dataline had
already forwarded a price quote to the client on February 3, 2003. In fact, the client agency’s IGCE, dated
February 12, 2003, was nothing more than a copy of the contractor’s proposal. The JFA referred to this
“independent” estimate but did not address the total price reasonableness of the proposal.

Although the FAR does not require IGCEs, FSS’ Ordering Procedures for the FAST contract aptly points out
that it is advisable for contracting officials to have an IGCE, particularly when negotiating task orders that
are sole source or when there has been no similar or predecessor task from which to draw information. The
guidelines provide that the estimate must address the resources necessary to accomplish the task
requirements and a narrative in support of the hours and skill levels estimated. Moreover, the guidelines
state that “ Since the main purpose of the
IGCE is to provide a tool to evaluate the contractor’s proposal to determine if the price is fair and reasonable
and the contents show a thorough understanding of the task to be accomplished, the IGCE will be prepared
prior to, and independent of, the contractor’s proposal.”

An example of the CSCs' seeming over-reliance on the client-prepared IGCE involved a large task order
(02FM213631) awarded to Sytex, Inc. The JFA for this task order incorporated IGCEs that were single line
item amounts, without detailed support. We could not determine which client official prepared the estimates
and the date they were prepared. Moreover, we noted that the ITM’s cost evaluation used incorrect
estimated amounts. For Contract Line Item Number (CLIN) 10, involving Data Seat Management, the ITM
compared the contractor’s proposal to a $54,922,590 estimated amount, when correctly determining that the
offer was lower. However, the ITM mistakenly used the same IGCE amount for CLIN 8, involving video
conferencing seat management. The correct IGCE for CLIN 8 was $24,750,000. As a result, the ITM
incorrectly determined that the contractor’s proposal was lower than the IGCE, when it was actually higher.




                                                      II-3
Other Direct Costs

Several task orders in our sample included a significant amount of other direct costs (ODCs) that were not
addressed in the underlying multiple award schedule (MAS) or IDIQ contracts. The contracting officer did
not prepare a separate price reasonableness determination for such costs. In addition, the contractors
generally invoiced the ODCs as a single line, without detailed support, leaving the CSC without any
knowledge of what the contractor was purchasing with the client’s funds. As an example, task order
02KP21102 was awarded with proposed ODCs totaling $1,127,679, without the contracting officer making a
separate price reasonableness determination. CSC officials concurred with the cited weakness in the
acquisition process relating to ODCs under MAS and IDIQ contracts. They cited the limited overall
guidance concerning ODCs, as well as past regional ODC management policies that proved to be ineffective.


Inappropriate Use of the IT Fund

Our review of FY04 task order modifications identified a task order that represented an inappropriate use of
the IT Fund. The CSC awarded task order number 02KC21102 to Maden Tech Consulting, Inc. (MTCI) on
January 25, 2001. The task order, having a quoted value of $267,706, was awarded under the contractor’s
FAST 8(a) contract. The 8(a) FAST is a small business set-aside contract vehicle for technology solutions,
with a unique Special Item Code (SIC) 7373- Computer Integrated Systems Design. The labor categories
under MTCI’s FAST contract were computer systems analyst, computer programmer, LAN Technician,
Technician and Program Manager. Although a FAST contract modification permitted additional labor
categories, the work has to be consistent with SIC 7373. Although the task order specified a Junior Systems
Analyst, the awarded labor category was Staff Assistant I, derived from MTCI’s GSA Schedule 70 contract,
rather than the FAST contract. According to MTCI’s own labor category description, the Staff Assistant’s
responsibilities could include word-processing and general and clerical and secretarial functions.

According to the task order statement of work, the client agency (United States Army, Program Executive
Office for Command, Control and Communications, Human Resources Office) required a Junior Systems
Analyst/Equipment Manager to be in charge of property and equipment. The client specifically requested
MTCI because they were employing the individual who had already been performing the required task. The
duties covered by the task order included scheduling conference room reservations, assisting the Security
Manager with the distribution of badges, distributing mail, faxing, answering telephones and preparing and
mailing FedEx packages. While the position also included maintaining an inventory of automation
equipment, even this work item would not fall under the FAST contract labor categories.

The task order scope of work did not meet the intent of the IT Fund. 40 USC Section 322 (the statute
creating the Information Technology Fund) states that, “in operating the Fund, the Administrator may enter
into multiyear contracts, not longer than 5 years, to provide information technology hardware, software, or
services…” (40 USC Section 322 (e)(1)). Further, the IT Fund is available “for expenses, including personal
services and other costs, and for procurement (by lease, purchase, transfer, or otherwise) to efficiently
provide information technology resources to federal agencies and to efficiently manage, coordinate, operate,
and use those resources… Information technology resources provided under this section include information
processing and transmission equipment, software, systems, operating facilities, supplies, and related services
including maintenance and repair.” (40 USC Section 322(c)(1)&(2)).

In reviewing sample task order invoices, we noted that at some point before March 2003, MTCI had begun
billing at an unapproved Administrative Assistant III rate instead of the awarded Staff Assistant I rate

                                                     II-4
($37.90). In addition, the March 2003 invoice included 152 hours for a second Administrative III position
when the task only called for one position.

In addition to the award and billing concerns, we also noted the absence in the files of critical documents
such as the RFQ, JFA, Findings and Determination (F&D) for a Time-and-Materials procurement and the
task order award. The noted deficiencies went undetected when the CSC added $34,466 to the task order by
issuing contract modification Number four on April 23, 2004.


Frequent Use of Time-and-Materials Tasks

We found that the CSC almost exclusively used time-and-materials tasks versus fixed-price task orders. Of
the 29 orders for services that we reviewed, 23 were solicited as time-and-materials type tasks. A time-and-
materials contract provides for acquiring services on the basis of direct labor hours at fixed hourly rates and
materials at cost. Time-and-materials task orders are expressly disfavored under the FAR. The FAR states
that a time-and-materials contract provides no incentive to the contractor for cost control or labor efficiency,
and thus appropriate Government surveillance of contractor performance is required to give reasonable
assurance that efficient methods and cost controls are being used.

FAR 16.601 states, in part:

       “A time-and-materials contract may be used only when it is not possible at the
       time of placing the contract to estimate accurately the extent or duration of the
       work or to anticipate costs with any reasonable degree of confidence, and

       A time-and-materials contract may be used (1) only after the contracting officer
       executes a determination and findings that no other contract type is suitable; and
       (2) only if the contract includes a ceiling price that the contractor exceeds at its
       own risk. The contracting officer shall document the contract file to justify the
       reasons for and amount of any change in the ceiling price.”

Our review identified five task orders where the contracting officer did not prepare a determination and
findings concerning the use of time-and-materials awards. In addition, we noted that the task order ceiling
prices were derived from the contractors’ base year proposals (e.g. 02FM212512 and 02FM212625). In
view of the noted lack of competition and our previously discussed concerns regarding IGCEs and price
reasonableness determination deficiencies, it is not clear that the contractors were actually taking on any
risks under these time-and-materials task orders.


Questionable Use of Contract Vehicle

The CSC awarded a sole-source task order, with a potential value of $8,180,648, to BAE on February 26,
2001. The task order work entailed repairing communications equipment. According to the client agency’s
sole-source justification, BAE’s subcontractor, Talla-Tech, was the main producer of much of the equipment
that needed repair and the Government-furnished test equipment needed for the repairs was in Talla-Tech’s
possession. The task order file did not address BAE’s role in this procurement. According to the ITM,
Talla-Tech lacked its own GSA schedule contract and therefore needed to serve as a subcontractor to a GSA
schedule contract holder, such as BAE, who would manage the contract. By taking the approach of using
BAE as a “pass through”, instead of awarding an open market contract to Talla-Tech, the CSC caused the

                                                      II-5
client agency to expend significant management support costs that were likely unnecessary. BAE accounted
for approximately $650,000 of the proposed $1,566,860 base year costs.

The task order file did not include an IGCE. According to CSC officials, the client estimated the annual cost
to be approximately $1,000,000 and, at the time of award, CSC policy did not require detailed estimates.
The officials informed us that the use of an IGCE was not sufficient, in and of itself, and a price comparison
with existing contracts was the prime determinant of fair and reasonable pricing. However, in this instance,
such a comparison would not have been possible since the Talla-Tech portion of the proposal was presented
as a single “subcontracting” line item. The BAE invoices billed Talla-Tech’s work in a similar manner.


Need For Increased Invoicing Oversight

The CSC did not have sufficient controls in place to ensure that contractor billings were accurate and in
sufficient detail to permit a verification of goods or services received. Until recently, the
FTS invoice approval function was being performed at the Region 3 FTS Financial Service Center and the
client representatives did not even have to validate that the invoiced goods and services had been received in
accordance with the terms and conditions of the task order.

Our review noted three instances where incorrect labor rate billings by the contractor went undetected. In
addition, contractors were permitted to invoice subcontractor labor as a separate line item, without detailed
support. According to CSC officials, the prime contractor should have invoiced the subcontractor labor as if
their own staff had performed the work.


Causes of Procurement and Task Order Administration Deficiencies

A previous OIG Audit Report (A020144/T/5/Z04002, dated January 8, 2004), attributed procurement and
task order administration deficiencies in other regional CSCs to factors such as: an inadequate system of
internal management controls, CSC personnel sacrificing adherence to proper procurement procedures to
accommodate customer preferences, an over-reliance on client agencies, excessive focus on customer
satisfaction and an overall culture of revenue growth within FTS, nationally. Although the procurement
deficiencies were not as egregious as those discussed in the prior report, our findings suggest that a similar
control environment existed in the Region 2 CSC. Regional FTS officials also cited the lack of sufficient
staffing to accomplish the workload and critical need for staff training.

Our audit work indicated that CSC contracting officials were either not familiar with, or were not following,
FSS’ special ordering procedures for services under the Schedules program and, as a result, they followed
practices that did not ensure adequate competition and price reasonableness.

(In November 2000, the General Accounting Office (GAO) reported similar findings and recommended that
the Office of Federal Procurement (OFPP) revise the FAR to incorporate the requirements in GSA’s ordering
procedures for services to obtain competitive quotes. GAO also stated in their report that the FAR should
clarify the procedures for placing sole-source orders using Schedules. The proposed FAR rule has recently
been finalized.)

With regard to our concern about reliance on client agencies, regional FTS officials indicated that
participation of the client’s technical experts is a vital and prudent standard of action. They cited that FAR
15.404-1(e)(1) Technical analysis provides that “The contracting officer may request that personnel having

                                                     II-6
specialized knowledge, skills, experience or capability in engineering, science, or management perform a
technical analysis of the proposed types and quantities of materials, labor, processes, … and other associated
factors set forth in the proposal(s) in order to determine the need for and reasonableness of the proposed
resources, assuming reasonable economy and efficiency.” However, FAR 15.404-1(e)(2) provides that, at a
minimum, the technical analysis should examine the types and quantities of material proposed and the need
for the types and quantities of labor hours and the labor mix.

We recognize that FTS contracting officials should involve the client during the procurement process,
including proposal evaluations. However, as the procurement office, the CSC is still responsible for the
evaluations and ensuring that they are sufficiently supported.

Impact of Recently Implemented Management Controls

We expanded our audit scope to include an evaluation of the implementation of enhanced management
controls over the procurement process that the Region put in place over the last several months. As part of
that evaluation, we reviewed a selection of procurement actions that occurred during the 3-month period
from March through May 2004. For those selected orders (please refer to Appendix B), we performed the
same general audit steps, although our analysis was not in all cases as extensive as it was for the review of
FY2003 task orders. We held discussions with CSC officials in order to reach an understanding of how the
procurement administration process had changed relative to the enhanced control environment. We used our
review of the selected procurement actions to measure the effectiveness of the controls.

Our review of selected task orders, in conjunction with related discussions concerning new management
controls and regional policy statements, has led us to conclude that the control environment can best be
characterized as a “work in process”. We found some new controls were being followed, while others had
delayed or partial implementation. Some specific issues found present in our selected audit sample are as
follows:

    •   Acquisition Checklists – Although required, were not included in some of the task order files, or
        were not adequately filled out.

    •   Documentation – the modifications and new task orders generally demonstrated some of the same
        shortcomings noted in our initial review of task orders.

    •   Implementation of Section 803- our review demonstrated that CSC procurement staff are aware of
        this directive, although task order justifications for exceptions to this policy were somewhat lacking.

    •   Legal Review – in conjunction with Regional Counsel, the CSC has implemented a legal review
        process with a Regional attorney assigned to review new task orders and task order modifications in
        excess of $5 million. However, the attorney did not review one of the FY04 task orders that
        exceeded this threshold and another order apparently had verbal legal concurrence.

The Region is in the process of implementing the following internal control measures that are in addition to
those mandated by Central Office:

   •    Regional Contract Review Panel – this Panel, chaired by the Deputy Director for the IT Solutions
        Division, will review all incoming projects to determine the appropriateness of the task, the
        applicable business line and project team members assignments for the task.

                                                     II-7
•   The Region has prepared a draft charter for the Panel and is Beta testing a Lotus Notes Acquisition e-
    Approval document traffic system with a common drive on LAN to facilitate the review process.


•   DAH Consulting Review – the Region hired this contractor to document the applicable Regional and
    national acquisition policy, procedures and related guidance concerning the FTS business lines.

•   Internal Study- the Region is augmenting the DAH review with an internal work flow study followed
    by intensive training concerning procurement regulations and responsibilities.

•   Acquisition Handbook- the Region has issued a draft revised acquisition handbook to reflect current
    policy and guidance.

•   ODC Policy – in response to matters raised by this audit, the Region established a policy that limits
    ODCs to $2,500 per task order and requires that ODCs be clearly defined and priced with a separate
    fair and reasonableness determination. The Region is reviewing all active task orders to determine
    whether it is necessary to issue modifications to remove ODCs, in view of this policy.

•   Invoicing Procedures/Receiving Report - as of November 2003, the CSC suspended the invoice
    approval authorization that was previously issued to the Financial Center in Region 3. The current
    Regional policy requires that the ITM obtain validation from the client agency that the products or
    services have been received in accordance with the terms and conditions of the order. In the past, this
    did not occur. In response to audit observations, the CSC has revised the task order invoicing
    requirements to ensure that contractors provide sufficient details to clearly delineate the products and
    services being billed. In addition, the ITM is responsible for ensuring that order pricing does not
    exceed the pricing allowable under the base contract. While the Region intends to modify existing
    task orders to reflect the detailed invoicing requirement, this had not yet been done for the FY 04
    orders in our control review sample. In addition, the Region is creating a new Invoice Resolution
    Manager position.

•   Training Curriculum – the Region is in the process of developing a mandatory training curriculum for
    all FTS associates.

•   Acquisition Policies Memorandum- on June 9, 2004, the IT Division Director issued a memorandum
    that provided an overview of existing and recently implemented policies. In addition to previously
    discussed controls, the memorandum provided for market research documentation and validation of
    information forwarded by client agencies.

•   Personnel – the Region intends to hire additional contracting staff in order to be better able to
    accomplish the existing workload.




                                                  II-8
Conclusion

The audit identified a number of deficient procurement practices used in task order awards, such as sole
source awards without justification; inadequate competition; deficient price reasonableness determinations;
inappropriate use of the IT fund, use of time-and-materials contracting without justification, questionable use
of a “pass-through” contractor and inadequate monitoring of task order billing and receipt of service. As a
result, for the orders reviewed, the CSC could not provide reasonable assurance that client agencies received
the most cost effective solution and best value and the fundamental objectives underlying the federal
procurement process were not achieved. During the second half of FY04, regional officials began to focus
on improving the control environment in order to prevent further occurrences of deficiencies such as these.
The impact of this effort cannot be assessed until FTS has had some time to ensure that the intended changes
have been effectuated. If successfully adopted, these new measures should address the internal control
concerns cited in this report.

The factors that appear to have contributed to the identified problems included: an inadequate system of
internal management controls, CSC personnel sacrificing adherence to proper procurement procedures to
accommodate customer preferences, an over-reliance on client agencies, excessive focus on customer
satisfaction and an overall culture of revenue growth within FTS, nationally. In addition, regional officials
cited the need for additional staffing and training of the existing procurement staff.

Our evaluation of the impact of recent enhanced management controls implemented in the Region is
inconclusive. Our review of selected task orders, in conjunction with related discussions concerning new
management controls and Regional policy statements, have led us to conclude that the control environment
can best be characterized as a “work in process”. We found some new controls were being followed, while
others had delayed or partial implementation.


Recommendations

Based on the comprehensive recommendations contained in Audit Report Number A020144/T/5/Z04002,
dated January 8, 2004, no further recommendations are deemed necessary at this time.


Management’s Response

The Regional Administrator generally concurred with our findings. The response, which is presented in full
in Appendix D-1, stated that the Region recognized that there were areas where previous management
controls within the CSC needed to be strengthened. The Regional Administrator expressed confidence that
the management controls now in place, the Region’s commitment to strengthening those controls and the
OIG’s continuing efforts will ensure that the CSC acquisition process will be efficient, effective and provide
the best value with the highest level of integrity.

The response included comments on certain audit report findings. Concerning independent Government cost
estimates, the Region acknowledged the need for more independent and reliable cost data and is taking
actions to improve the estimate validation and approval process through revised market research procedures.
With regard to the audit finding concerning the limited extent of competition, our primary concern had been
the number of FY03 task orders that were awarded based on a single bid. Although the response indicated
that 29 schedule vendors had been solicited for one of these orders, the normal practice during this time

                                                     II-9
frame had been to solicit three vendors, including the incumbent. However, the Regional response correctly
noted that the reviewed task orders from March through May 2004 were all in compliance with DOD Section
803.

While concurring with the numerous deficiencies associated with task order 02KC21102, the Regional
response disagreed with our characterization of this order as an inappropriate use of the IT fund. The
response took into consideration the prevailing guidance at the time of the award and the customer agency’s
affirmation that a primary requirement of the task order was to maintain the inventory of automation
equipment. We continue to believe that the scope of work for this task order did not meet the intent of the IT
Fund. The required duties were that of an administrative assistant, as indicated by the contractor’s own labor
category description for the position billed under this task order.

Internal Controls

It was evident from our work that the existing internal control structure was not effective. We identified
deficient procurement and administrative actions (outlined in our report details). We believe that an effective
internal control structure, having the on-going endorsement of management, would have identified and
prohibited many of these actions. During the past several months, the Region began to intensively focus on
improving the internal control environment by implementing a series of national and regional measures.
Once successfully adopted, these measures should address the internal control concerns cited in this report.
The Office of Audits will conduct a more comprehensive testing of internal controls throughout the CSC
program during fiscal year 2005.




                                                     II-10
                                          AUDIT OF FEDERAL TECHNOLOGY SERVICE'S
                                                      CLIENT SUPPORT CENTER
                                               NORTHEAST AND CARIBBEAN REGION
                                                REPORT NUMBER A040123/T/2/Z05006


                                SCHEDULE OF FY03 TASK ORDER AWARDS AND MODIFICATIONS
                                     REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION


                                          Service (S) or
      Order                   Client       Commodity        Acquis.                                                      Projected
     Number     Order Date Organization        (C)          Vehicle                           Contractor                Value of Task Notes
 1 02FM213631     1/7/2003    Army           S&C             MAS        Sytex, Inc.                                      $130,843,619 ( 1 )
 2 02FM212523   12/17/2001    Army              S            MAS        Booz-Allen Hamilton                               $56,615,316 ( 2 )
 3 02FM211120    7/13/2001    Army              S            MAS        Nations Inc., a BTG Company                       $35,757,845 ( 3 )
 4 02FM213687    1/10/2003    Army              S            IDIQ       General Dynamics Gov't                             $5,394,832 ( 4 )
                                                            Contract    Systems Corp
 5 02FM212616    7/30/2002    Army           S&C             MAS        Galaxy Scientific Corp.                           $10,870,719 ( 5 )
 6 02FM212625    8/12/2002    Army           S&C             MAS        JB Management Inc.                               $142,218,161 ( 6 )
 7 02KP21102     4/10/2001    Army           S&C             MAS        TRW Systems and Information Technology Group      $17,723,141 ( 7 )
 8 02DM21111     1/16/2001    Army              S             PES       Booz-Allen Hamilton                               $10,792,177 ( 8 )
 9 02FM212502    2/14/2002    Army           S&C             IDIQ       General Dynamics Gov't                             $6,593,372 ( 9 )
10 02DM21005    12/15/2000    Army              S            MAS        BAE Systems Applied                               $53,561,589 ( 10 )
11 02MC21101     1/31/2001    Army              S            MAS        Titan Systems Corp.                               $12,741,599 ( 11 )
                                                                        ( Lincom Division)
12 02FM212519   11/20/2001    Army              S            MAS        BAE Systems Applied                               $13,342,155 ( 12 )
13 02FM212581    4/24/2002    Army              S           GWAC        Signal Corporation/                                $4,785,167 ( 13 )
                                                           (Millennia Veridian IT Sevices, Inc.
                                                             Lite)      as of 12/23/02
14 02FM213706    2/21/2003    Army           S&C           FAST 8(a) Dataline, Inc.                                        $1,407,908 ( 14 )
15 02JC473101    8/30/2002     GSA              S            MAS        Management Technology, Inc.                       $30,928,461 ( 15 )
16 02DM21107      1/4/2001    Army              S            MAS        Information Technology and Applications Corp.     $10,695,174 ( 16 )
17 02FM572633   11/12/2002   Air Force       S&C             MAS        Northrup Grumann/Logicon                           $1,637,500 ( 17 )
18 02FM212512    6/12/2002    Army           S&C             MAS        VertexRSI                                         $12,682,207 ( 18 )
19 02DM21108      1/2/2001    Army           S&C              PES       BAE Systems Applied                               $27,160,693 ( 19 )
20 02JC683101    8/29/2002     EPA              S            MAS        Management Technology, Inc.                       $25,622,350 ( 20 )
21 02MT21132     2/16/2001    Army              S            MAS        Systems Integration and                            $2,625,711 ( 21 )
                                                                        Research Inc. (Subsidiary
                                                                        of C-Cubed Corporation)
22 02FM213691    2/17/2003    Army              S            IDIQ       General Dynamics Gov't                               $868,228 ( 22 )
23 02MT213008    5/14/2003    Army           S&C           FAST 8(a) Dynamic Technology                                      $781,941 ( 23 )
                                                                        Systems, Inc.
24 02FM212510     6/6/2002    Army              S            IDIQ       General Dynamics Gov't                             $3,111,121 ( 24 )
                                                            Contract    Systems Corp
25 02FM211535     8/2/2001    Army              S            MAS        Titan/Semcor/Advanced Communications               $2,795,794 ( 25 )
26 02EN21116     2/26/2001    Army           S&C              PES       BAE/Tall-Tech                                      $8,180,648 ( 26 )
27 02PH75108      2/5/2002     HHS              S           GWAC        Booz-Allen Hamilton                                $1,780,903 ( 27 )
28 02PH573010      3/38/03   Air Force          C            MAS        Vindicator Technologies                              $299,191 ( 28 )
29 02FM212564    6/30/2002    Army           S&C            MOBIS       Navigator Development Group                        $2,709,479 ( 29 )
30 02FM213720    8/13/2003    Army              S            MAS        Riverside Research Institute                         $839,055 ( 30 )

                                                                       A-1
            SCHEDULE OF FY03 TASK ORDER AWARDS AND MODIFICATIONS
               REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                   (Continued)

NOTES:

(1)      This task, performed at the request of the Program Manager Defense Communications
         and Army Transmission System, located at Fort Monmouth, New Jersey, related to the
         relocation of the Army Material Command Headquarters (AMCH) from leased space to
         Fort Belvoir, Virginia, in order to afford the Commander and staff the force protection
         required for an Army Major Subordinate Command. The AMCH operates a 24-hour
         operations center to meet the worldwide requirements to support the war fighting
         Combatant Commanders.

      The CSC, employing a teaming arrangement under the FSS Schedules Program, issued RFQs
      to nine vendors; however, Sytex was the only firm to submit a proposal. The CSC did not
      prepare a written determination, required by Section 803, that no additional contractors that
      could fulfill the requirements could be identified despite reasonable efforts to do so.
      Although Section 803 was already in effect at the time of the order, the Region had not yet
      implemented the guidelines.

      While the CSC was aware that Sytex’s FSS schedule contract did not include the appropriate
      Special Item Number (SIN) to accomplish this task order, due to an oversight, no corrective
      action was taken to rectify the situation.

         This was a complex task involving both IT and non-IT efforts, with input provided by
         PBS, FSS and Regional and Central Counsel. The CSC coordinated the effort with the
         Regional FSS office, as the overall requirements included both IT and non-IT items,
         necessitating an allocation between the IT Fund and the General Supply Fund. However,
         the proper allocation did not always occur. While the modular buildings were funded
         through the General Supply Fund, the $1,540,000 delivery charges were paid with IT
         funds. In addition, ODCs were paid with IT funds and the $1,985,635 ODC total was
         well above the task order’s $500,000 Not To Exceed amount. Furthermore, over
         $500,000 of space planning costs were paid with IT funds.

(2)      This task order represented a consolidation of the software requirements for the Army
         Battle Command System. The client agency requested that the CSC issue an RFQ to the
         five vendors who had been performing the work under separate task orders; Booz-Allen
         & Hamilton (BAH) and SAIC were the only vendors that submitted proposals. SAIC’s
         base year proposal was lower than BAH’s $10,450,426 proposal. The client’s task
         evaluation summary noted that although the BAH proposal was “slightly higher” than the
         SAIC submission, BAH offered the best value and better met the requirements.
         However, when factoring in the four option periods, the total cost difference between the
         two proposals was notable The IGCE for this task order was $45,850,000.



                                                A-2
         SCHEDULE OF FY03 TASK ORDER AWARDS AND MODIFICATIONS
            REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                (Continued)

NOTES:

(3)   This was a sole source procurement in the form of a repetitive follow-on to previous task
      orders. There was no determination of overall price reasonableness. Contract
      modification number 16 increased the ceiling price for the four option years due to
      several factors, including ongoing combat efforts. The client agency representative’s
      request letter for this modification presented increased ceiling amounts as the adjusted
      IGCE, with no detailed support. The requested ceiling amounts almost exactly matched
      the contractor’s proposal as seen below:

                                           Per Client            Per Proposal

                    Option Year 1          $8,316,838            $8,306,753
                    Option Year 2          $9,001,613            $9,001,182
                    Option Year 3          $9,244,525            $9,244,288
                    Option Year 4          $9,494,723            $9,490,065

      The contractor’s proposals for the base task order and modification number 16 only
      provided for discounts on certain disciplines; the ITM did not request discounts on the
      remaining disciplines. The task order file did not include a statement from the client
      concerning the contractor’s performance during the base year and the continuing need for
      the contractor’s services prior to the exercise of option year one.

(4)   This task order was awarded against a single award IDIQ contract held by General
      Dynamics. The task order, providing for an upgrade from a single band to a broad base
      band communications switch node, was awarded on January 10, 2003, on a price to be
      determined basis, with a not-to-exceed (NTE) ceiling of $1,463,414. On May 8, 2003,
      modification one increased the NTE amount to $2,926,829. While the justification for
      the modification stated that the initial Government estimate was $4,000,000, the files did
      not include a formal IGCE in support of this amount. On July 30, 2003, General
      Dynamics submitted a proposal in the amount of $5,594,832 which became the task
      order’s new NTE ceiling when the contracting officer issued modification two on
      September 2, 2003. Once again, there was no formal estimate on file to support the
      increased amount and the justification for award did not address total price
      reasonableness.

      The invoices against this task order did not provide sufficient detail (e.g. rates, hours,
      quantities) to permit an evaluation of billing accuracy. Using Invoice Number 983687,
      dated October 13, 2003 as an example, the following are some of the task order charges
      that were not broken out in detail:




                                             A-3
          SCHEDULE OF FY03 TASK ORDER AWARDS AND MODIFICATIONS
             REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                 (Continued)

NOTES:
(4)
           Materials                        $ 45,935
           Section Engineering Labor         155,779
           Sector Field Labor                 44,836

   Being particularly concerned about the nature of charges such as excess addback and fee, we
   requested that the CSC obtain supporting documentation for these items. This information
   was not provided.

(5) FTS awarded this $10,870,719 task order to incumbent contractor Galaxy Scientific
    Corporation on July 30, 2002. None of the other four solicited vendors submitted a proposal.
    The IGCE was undated and did not identify the preparer. Approximately 65% of the base
    year costs were for material costs, most of which were computer hardware purchases. The
    ITM’s price reasonableness determination was based on a requirement that the contractor
    contact three sources for quotes. However, there was no support that this condition was met.

   We identified two invoices where the contractor incorrectly billed the higher contractor site
   rate for work performed at the Government facility.

(6) The CSC awarded this task order to JB Management (JBM), with a potential value of
    $142,218,161 over five years, on August 12, 2002. The task order objective included
    obtaining software development, software integration, configuration management, testing,
    program management, training and systems engineering support to aid the Project Manager,
    Ground Combat Command and Control at Fort Monmouth. For an order of this magnitude,
    the CSC solicited a total of three contractors, two of which were small businesses, including
    the incumbent contractor, JBM. One of the contractors submitted a no bid response and
    another elected to team with JBM as a subcontractor. The task order files did not include
    details of any market research efforts that led to these particular contractors being solicited
    and CSC officials were unable to provide any further information.

   Although the task order file made reference to an IGCE, the actual estimate document was
   unavailable for our review. We therefore could not determine who prepared the estimate and
   the basis of the comparison with the JBM proposal. JBM’s schedule contract had a
   Maximum Order Threshold of only $500,000. Yet, despite the significant potential order




                                               A-4
         SCHEDULE OF FY03 TASK ORDER AWARDS AND MODIFICATIONS
            REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                (Continued)

NOTES:
(6)
     value, the contractor proposed the schedule contract labor rates without any discounts.
     The task order file gave no indication that the contracting officer attempted to negotiate
     any price improvements.

       JBM’s underlying Multiple Award Schedule (MAS) contract was not specific with
       regards to ODCs. The contracting officer did not prepare a separate price reasonableness
       determination for the proposed $8,146,035 of ODCs and apparently did not consider a
       separate competitive procurement, despite the significant potential cost.

       JBM’s invoices did not provide sufficient detail to permit a determination as to whether
       the ODCs and subcontractor costs were fair and reasonable, as these two cost items were
       invoiced as summary line items. At $1,404,484, subcontract costs accounted for
       approximately 34 percent of the $4,105,982 total task order billings through
       December 31, 2003. In addition, although the task order only provided for an indirect
       handling charge against long distance travel, JBM inappropriately applied a material
       handling charge against ODCs and subcontract costs, which included labor performed by
       Booz Allen & Hamilton. The resultant overcharge was considerable.

(7)    The CSC awarded this $17,723,141 task order for Army Battle Command System
       Foundation Infrastructure to incumbent contractor TRW Systems and Information
       Technology (TRW) on April 10, 2001.

       The MIPR, dated February 28, 2001, identified TRW as the contractor even though the
       RFQ was not issued until March 12, 2001. Although three other contractors were
       solicited, the incumbent was the sole offeror. The ITM did not prepare an Acquisition
       Plan and FTS was unable to provide information as to the market research that led to
       these contractors being issued RFQs. The price reasonableness determination was based
       on a comparison of the FSS Schedule contract rates for TRW, General Dynamics and
       Information Systems Support, who were not included among the contractors solicited for
       this task order. These two contractors had lower rates for several labor categories.
       ODCs, which were not specifically addressed in TRW’s contract, totaled $1,127,679.

(8)    This task order, valued at $10,792,177, was awarded to the incumbent contractor BAH on
       January 16, 2001, without the benefit of competition. The ITM did not prepare an
       Acquisition Plan or a sole source justification for this task order. CSC officials contend
       that orders placed during this time frame were accomplished in accordance with
       prevailing CSC policy, prior to the Section 803 legislation. They cited FAR 8.404, which
       provides that an order placed against an MAS contract was to be considered as having
       been issued using full and open competition and that GSA had already determined that



                                              A-5
         SCHEDULE OF FY03 TASK ORDER AWARDS AND MODIFICATIONS
            REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                (Continued)

NOTES:
(8)
     the prices of schedule contract items to be fair and reasonable. However, FTS never
     addressed the reasonableness of the proposed labor hours. There was no IGCE and the
     CSC accepted the proposal without negotiation, even though the task order was well in
     excess of the contract’s $750,000 maximum order threshold. The JFA indicated that the
     ITM had performed a price analysis against two other schedule contracts but the analysis
     was not included in the task order files. ODCs, which were not specifically addressed in
     BAH’s contract, totaled $412,967.

(9)    This task order, valued at $6,593,372, was a directed buy to General Dynamics for
       tactical high-speed data networking. At a total of $2,506,143, ODCs constituted a
       significant portion of the contractor’s proposal. The General Dynamics contract was not
       specific with regards to ODC pricing and the contracting officer did not perform an
       analysis to determine whether these costs were fair and reasonable.

(10)   The task order was awarded to BAE Systems Applied Technologies Inc. (BAE), the
       incumbent for the prior five years under an Army contract.

       On October 23, 2000, the client agency’s representative forwarded a request letter,
       including a statement of work and a support cost estimate, for the purpose of initiating a
       delivery order with BAE. The MIPR issued that same day also identified BAE as the
       contractor.

       The ITM, who did not prepare an acquisition plan, solicited two small-business
       contractors who declined to submit a proposal. The file did not include information as to
       how these particular two contractors were selected to receive RFQs. CSC officials
       indicated that this represented an effort to encourage small business participation;
       however, the two contractors would have had to compete against a large business
       incumbent.

       The estimate that the client agency forwarded on October 23, 2000, totaled $53,560,733
       for the base year and four option years. On December 8, 2000, BAE submitted a
       proposal in the total amount of $53,561,589. The estimator’s almost exact approximation
       of the eventual proposal was remarkable in view of the RFQ having been issued without
       any predetermined labor hours. In fact, the contractor’s proposal showed one overall lot
       for annual labor hours, whereas the estimate broke out hours by individual labor
       category. The JFA did not include a comparison of the IGCE and the proposal and did
       not address total price reasonableness.




                                              A-6
         SCHEDULE OF FY03 TASK ORDER AWARDS AND MODIFICATIONS
            REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                (Continued)

NOTES:

(11)   The CSC awarded this task order to the Lincom Division of Titan Systems Corporation
       (Titan) on January 31, 2001. Titan had been the incumbent contractor since 1996. The
       client agency’s November 28, 2000 letter, forwarding the statement of work and the
       IGCE, identified Lincom as the prospective contractor. The ITM, who did not prepare an
       acquisition plan, issued RFQs to two other contractors who declined to submit a proposal.
       The JFA addressed the reasonableness of Titan’s unit prices through a comparison with
       two other, non-solicited, schedule contractors; however, the ITM did not address the
       reasonableness of the proposed hours. The IGCE presented costs in a summary manner,
       without addressing the labor mix.

       The CSC exercised three option years without the benefit of an IGCE. Contract
       modification number 20 added software maintenance support for option years as follows:

                              Year 2         $ 933,324
                              Year 3         $ 988,651
                              Year 4         $1,047,271

       While the client did not prepare a formal estimate for this modification, the task order file
       included an e-mail wherein the client estimated that the cost would range from $500,000
       to $900,000.

       Our review determined that the contractor had been over-billing the Government by
       invoicing at rates that exceeded those included in the FSS contract. Although the
       awarded task order included option year rates that were adjusted for escalation, the FSS
       Contracting Officer had never approved an economic price adjustment for the underlying
       schedule contract. The CSC has taken corrective action concerning the over-billing.

(12)   The CSC did not prepare an acquisition plan for this task order and the client agency did
       not provide an IGCE for the base year and option period. The JFA did not address total
       price reasonableness and supporting documentation was unavailable concerning the price
       reasonableness of material costs invoiced under this task order.

(13)   The RFQ, issued to more than 10 vendors under the Millenia Lite government-wide
       acquisition contract, included a notification statement that “Signal has been the
       incumbent for the past five years and has successfully led the systems engineering team
       and met all the requirements of the customer ”. The incumbent was the sole contractor to
       submit a proposal. The IGCE presented labor costs as a single $500,000 total without
       addressing the labor mix and the JFA did not address the option years when comparing
       the offer to the estimate.



                                               A-7
         SCHEDULE OF FY03 TASK ORDER AWARDS AND MODIFICATIONS
            REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                (Continued)

NOTES:
(13)
     CLIN 5 (development activities) was added to the contract at $750,000 per annum for
     option years one through four. The task order file did not include an IGCE, a quote or
     even a detailed description of the nature of this work item.

       The awarded task order included schedule contract materials and incidental materials for
       the base year and first option year. The task order files did not include information, such
       as providers, contract numbers and line item details, to enable a fair and reasonable price
       determination.

(14)   Our concerns about the IGCE for this task order are discussed in detail in the body of the
       report. In addition, the JFA for modification number 2, which added $257,312 of labor to
       this task order, did not address the labor mix.

(15)   The IGCE was undated and did not identify the preparer. The JFA included a
       comparison between the estimate and the quotes for the base year. The price
       reasonableness determination should have addressed the four option periods as well.

(16)   This task order, valued at $10,695,174, was awarded to the incumbent contractor
       Information Technology & Applications Corporation (ITAC) on January 4, 2001, without
       the benefit of competition. The ITM did not prepare an Acquisition Plan, JFA or a
       Findings and Determination (F&D) for this task order. The CSC contends that this order
       was placed in accordance with prevailing CSC policy at the time, prior to the Section 803
       legislation. They cited FAR 8.404, which provides that an order placed against an MAS
       contract was to be considered as having been issued using full and open competition and
       that GSA had already determined that the prices of schedule contract items to be fair and
       reasonable. However, the ITM never addressed the reasonableness of the proposed labor
       hours. The contractor’s proposal was accepted without negotiation, even though the task
       order was well in excess of the contract’s $500,000 maximum order threshold. In
       addition, the client agency’s IGCE, dated October 19, 2000, showed a total cost of
       $5,826,714 for the base year and first three option years. The awarded task order amount
       for the same period totaled $8,436,004 with the difference largely attributable to a much
       greater number of labor hours in the contractor’s proposal.

(17)   The JFA refers to an IGCE but the estimate document was not included in the task order
       file.

(18)   This technical support services task order, with a potential value of $12,682,207, was
       awarded to Vertex RSI on June 12, 2002. Although two other contractors were solicited,



                                              A-8
         SCHEDULE OF FY03 TASK ORDER AWARDS AND MODIFICATIONS
            REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                (Continued)

NOTES:
(18)
     Vertex was the sole offeror. The IGCE, which the client agency forwarded to the
     contracting officer on January 2, 2002, used Vertex’s labor rates even though the RFQ
     was not issued until February 5, 2002. Thus, it appears that the client was anticipating an
     award to Vertex.

       The estimated amounts in the contracting officer’s comparative review between the IGCE
       and the proposal did not tie back to the IGCE document. The review showed an
       estimated cost total of $14,477,500, whereas the IGCE total was $8,342,622 total. The
       client agency’s technical evaluation even noted that the proposed labor costs exceeded
       the IGCE for all years.

       It appears that Vertex was invoicing at escalated rates prior to the FSS contracting
       officer’s approval of an economic price adjustment.

(19)   On October 23, 2000, the client agency forwarded a statement of work and an IGCE for a
       task order covering the integration, testing and fielding of the Ultrahigh Frequency
       Satellite Communications On The Move, a program that was intended to provide satellite
       range extension of the tactical Internet. The client’s letter specifically requested that the
       CSC initiate the delivery order with BAE. In fact, the IGCE, which was undated and did
       not identify the preparer, incorporated BAE’s schedule contract rates.

       On December 5, 2000, the CSC issued an RFQ to BAE and two small business
       contractors. One contractor declined to bid and the other never responded to the RFQ.
       The Vice President of the latter company informed us that his firm had no record of
       having received the RFQ, and after hearing the project requirements, he stated that his
       company lacked the expertise to perform the task order. The task order file did not
       document the market research that led to these particular firms being solicited. In
       addition, the file did not include an Acquisition Plan. CSC officials indicated that the
       absence of other key documents, such as the BAE proposal and the ITM’s comparative
       analysis, was due to problems experienced during the data migration to the new ITSS.

       On January 2, 2001, the CSC awarded this task order, having a potential value of
       $27,839,803, to BAE. The awarded amount was strikingly similar to the IGCE. The
       award totaled $5,123,664 while the IGCE totaled $5,126,045.




                                               A-9
         SCHEDULE OF FY03 TASK ORDER AWARDS AND MODIFICATIONS
            REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                (Continued)

NOTES:
(19)
       With regard to the material costs, on December 12, 2000, FTS’ technical expert, upon
       reviewing the proposal, notified the contracting officer that the material costs were not
       acceptable, without back-up documentation. We found no supplemental data request in
       the files.

(20)   The IGCE was undated and did not identify the preparer. The JFA included a
       comparison between the estimate and the quotes for the base year. The price
       reasonableness determination should have addressed the four option periods as well.

(21)   The ITM did not prepare a formal RFQ and formal task order. In lieu of a JFA, the ITM
       prepared a decision document that did not address total price reasonableness. Other than
       informal or “cuff” notes, there was no record concerning contractors solicited and other
       bids that may have been received. In addition, the IGCE was undated and did not
       identify the preparer.

(22)   This task order, with a potential value of $868,228, was a directed buy to General
       Dynamics for the development and conduct of training and operational/contingency
       planning related to communications switches. The General Dynamics contract was not
       specific with respect to ODC and material pricing and the contracting officer did not
       perform an analysis to determine whether these costs were fair and reasonable. The task
       order file did not include an IGCE and the invoices did not provide sufficient detail to
       enable us to determine whether the contractor had been properly billing at the
       contractually agreed upon rates.

(23)   The IGCE was undated and did not identify the preparer. In addition, the IGCE
       referenced the contractor’s proposed unit quantities but only showed a lump sum total
       ($626,000) for hardware. At $621,671, hardware costs accounted for 80% of the
       awarded task order.

(24)   The task order was awarded against General Dynamics’ single award IDIQ contract. The
       CSC did not request IGCEs for the original task order award and the contract
       modifications and the JFA did not address total price reasonableness.




                                             A-10
         SCHEDULE OF FY03 TASK ORDER AWARDS AND MODIFICATIONS
            REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                (Continued)

NOTES:

(25)   This logistical support task order was awarded to the incumbent contractor on August 2,
       2001 based on an RFQ with a three-day response turnaround. The other two solicited
       contractors elected not to submit a proposal. The task order file did not include a
       findings and determination justifying a time-and-materials procurement or an overall
       JFA. E-mail from the client agency’s representatives referred to an IGCE for the base
       year but the estimate was not included in the task order files.

       (26)   This task order is discussed in the body of the report.

(27)   This task order, having a potential value of $1,780,903, was awarded to BAH on
       February 5, 2002. According to the JFA, the stated objective of the procurement was to
       obtain management, administrative and technical support for the Department of Health
       and Human Services’ Head Start program by providing high-quality grants management
       and programmatic services. BAH had been performing similar work for other regional
       Head Start Bureaus.

       The statement of work included certain administrative tasks that appear to be non-IT
       related such as audit resolution and grant closeout activities. Other tasks involving
       internal systems support were more of an IT nature. The IGCE did not address the four
       option periods.

(28)   This was a directed buy for the purchase and installation of an Air Force approved
       integrated automated access control and intrusion detection system. The ITM’s market
       analysis document compared a proposed cost line item breakdown to a Government
       estimate total. The task order file did not include support for this estimate.

(29)   On February 26, 2002, the U.S. Army Air Maneuver Battle Lab forwarded a statement of
       work for a task order calling for the development, refinement, and documentation of
       Objective Force war fighting scenarios for modeling and simulation. On February 27,
       2002, the client agency representative offered to prepare a sole source justification for a
       task order award to Navigator Development Group (Navigator) at an estimated annual
       cost of $1,000,000. The client did not provide a detailed IGCE to the CSC.




                                              A-11
         SCHEDULE OF FY03 TASK ORDER AWARDS AND MODIFICATIONS
            REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                (Continued)

NOTES:
(29)
     On April 2, 2002, the CSC contracting officer issued an RFQ to three contractors,
     including Navigator, who was the only vendor to respond with a proposal. The task order
     file did not address the market research that led to these contractors being solicited. The
     President of one of the firms declining to bid informed us that a key factor in reaching
     that decision was that they would have had to compete against large companies and/or a
     large incumbent.

       The contracting officer’s analysis noted that Navigator’s $521,992 proposed base year
       costs came in 47% lower than the Government estimate because the client overestimated
       the labor required for this task. While the $2,709,479 potential order value exceeded the
       MOT of Navigator’s contract, the task file gave no indication that the contracting officer
       attempted to negotiate discounted prices. The JFA indicated that the contracting officer
       had performed a comparison and determined that Navigator’s pricing was comparable to
       other vendors. We saw a comparison with only one (non-solicited) vendor whose rates
       were actually lower in two out of three categories.

(30)   The CSC awarded this task order, having a potential value of $839,055, to Riverside
       Research Institute (RRI) on August 13, 2003. The task order required the contractor to
       conduct Measurement And Signature Intelligence Phenomenology studies to support
       Army Science and Technology, requirements development and system evaluation and
       material for future Army multi-sensor programs. This appears to be a research oriented
       task that would have been more appropriately funded through the General Supply Fund.

       Incumbent contractor RRI was the only one of the 23 solicited contractors to submit a
       proposal. We surveyed eight contractors who had declined to submit an offer; five
       indicated that they lacked the necessary subject matter expertise.

       Although the JFA compared RRI’s proposal to an IGCE summary, the actual estimate
       document could not be found. Without the IGCE, we could not evaluate the contracting
       officer’s price reasonableness determination that RRI’s proposal was 10 to 20% lower
       than the IGCE for the base year and option periods, respectively.




                                             A-12
                                                AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                                                        CLIENT SUPPORT CENTER
                                                  NORTHEAST AND CARIBBEAN REGION
                                                  REPORT NUMBER A040123/T/2/Z05006

                                 SCHEDULE OF FY04 TASK ORDER AWARDS AND MODIFICATIONS
                                    REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION


                                                            Service (S)                                                                 Projected
      Order               Order           Client                or      Acquisition                                                       Value
     Number               Date         Organization        Commodity(C)   Vehicle                           Contractor                   of Task        Notes
          2

1 02FM214526            04/27/04            Army                  S&C                MAS          DLT Solutions, Inc                    $2,160,000          (1)
                                                                                                  CounterTrade Products, Inc.
2 02FM214525            03/22/04            Army                    C                MAS          d.b.a. CEWinc.com                         161,785         (2)
                                                                                                  Information Systems
3 02KP2110314           04/21/04            Army                   S                BPA           Support Inc.                             455,000           (3)
4 02FM214517            04/08/04            Army                   S               MAS            Titan Systems Corporation              5,170,306           (4)
5 02PA213773            03/25/04            Army                   S               MAS            Robbins-Gioia                          1,991,075           (5)
6 02FM213725            09/30/03            Army                   S               MAS            Booz – Allen Hamilton Inc.           141,424,641           (6)
7 02FM211081            12/31/01            Army                   S               MAIQ           Logicon Inc.                          83,417,226           (7)
8 02FM213539            02/26/04            Army                  S&C              MAS            D & S Consultants, Inc                57,430,660           (8)
9 02FM213727A           10/15/03            DOD                    S               MAS            JB Management Inc.                    24,364,294           (9)
10 02KC21102            01/25/01            DOD                    S             FAST 8(a)        Maden Tech Consulting Inc.               267,606          (10)

____________________________________
2
 Task Orders 1-5 represent those that were newly awarded during the period 3/1/04 – 5/31/04. Task Orders 6-10 represent those orders in which one or more
modifications were issued during the same period.




                                                                              B-1
                                                                               -
         SCHEDULE OF FY04 TASK ORDER AWARDS AND MODIFICATIONS
            REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                (Continued)

NOTES:

(1)   On April 27, 2004, the CSC awarded this $2,160,000 task order for off-the-shelf Linux
      operating system subscriptions and support. Out of 29 FSS schedule contractors solicited
      through GSA e-Buy, DLT Solutions, Inc. (DLT) was the sole offeror. The contracting
      officer determined that Section 803 requirements were met by virtue of having solicited
      through e-Buy. However, the task order files did not document the market research that
      resulted in those 29 contractors being recipients of the RFQ.

      DLT’s offer was submitted on March 19, 2004. Eleven days prior, on March 8, 2004, the
      client agency forwarded a revised IGCE that exactly matched the DLT offer. Thus, it
      would appear that the client agency anticipated an award to DLT. According to the ITM,
      the prices were previously negotiated by the client agency. We could not tie the proposal
      to the FSS Schedule contract, as the subscription prices for the base year uniquely
      incorporated five years of support costs.

      The task order files did not include the pre-solicitation and administration checklists.

(2)   This task order provided for the purchase of 55 Dell laptop computers. The ITM did not
      prepare a JFA and pre-solicitation checklist.

(3)   Information Systems Support, Inc. (ISS) was awarded this task order on April 21, 2004
      under a Blanket Purchase Agreement (BPA) dating back to 2001. The CSC solicited
      sixteen vendors for the BPA and received three offers, with ISS being the highest at
      $23,434,085 and BAE the lowest. While the JFA for the BPA referred to an offer
      evaluation, none was on file. In addition, the price reasonableness determination was
      only based on a labor rate comparison, as there was no IGCE.

(4)   The statement of work for this $5,170,306 task order provided for programmatic,
      technical and administrative support for the US Army Communications-Electronics
      Command/Research and Development Center/Intelligence and Information Warfare
      Directorate. The CSC issued an RFQ to five vendors on January 29, 2004. The task
      order file did not include any details concerning market research efforts that led to these
      vendors being selected to receive RFQs. Titan was the sole offeror and continued to be
      so even when the CSC extended the response time for the RFQ. Although the JFA did
      not specifically address Section 803 compliance, the client agency contended that a delay
      in awarding the contract would impede schedule milestones and potentially impact the
      delivery of a $23,000,000 system.




                                              B-2
         SCHEDULE OF FY04 TASK ORDER AWARDS AND MODIFICATIONS
            REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                (Continued)

NOTES:
(4)
     The IGCE was undated and did not identify the preparer. In addition, neither the IGCE
     nor the proposal addressed the labor mix, as both documents presented labor costs as line
     item totals for the base year and the four option years.

       Although the estimated value exceeded the $5,000,000 threshold for legal review, the
       CSC did not forward this task order to Regional Counsel. In addition, the task order files
       did not include an acquisition plan and a contract administration checklist.

(5)    The contractor’s proposal indicated that they were offering a discount. However, the
       proposed and invoiced rates tie directly to the FSS Schedule contract. In addition, the
       task order files did not include the contract administration checklist.

(6)    This task order, awarded with an estimated value of $141,424,641 over a five-year
       period, provided for systems engineering and integration services. While the RFQ was
       submitted to 23 vendors, only two (BAH and Northrup Grumman) responded with
       proposals. The JFA did not specifically address that there was an urgent and compelling
       need that would permit a waiver of the Section 803 three-bid requirement. However, in
       conjunction with the client agency representative, the contracting officer determined that
       the two proposals were sufficient, in view of deployment requirements in support of
       Operation Iraqi Freedom.

       At $141,424,641, the BAH proposal was significantly higher than both the Northrup
       Grumman proposal and the IGCE ($136,870,525) which was not on file. While awarding
       the task order to BAH based on the client’s technical evaluation, the contracting officer
       did not address the cited weakness that BAH had only proposed management level labor
       categories. In that regard, the technical evaluation noted that “The grades are over loaded
       at the high dollar and high highly technical levels- there is (sic) no documentation
       categories proposed”.

(7)    Due to time constraints and the voluminous documentation pertaining to this task order,
       our analysis was limited to a review of basic award documents and recently implemented
       internal controls. We noted that the file did not include an Acquisition Plan. In addition,
       while the latest modification incorporated the required administration checklists, the task
       order does not yet include the CSC’s revised invoice submission clause.

(8)    This task order, awarded with a potential value of $57,430,659, provided for expert
       Modeling and Simulation IT services, products and materials for the Project Manager
       Future Combat Systems (FCS) Network Systems’ Integration. The ITM researched the




                                              B-3
          SCHEDULE OF FY04 TASK ORDER AWARDS AND MODIFICATIONS
             REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                 (Continued)

NOTES:
(8)
     requirement in e-Buy but found no matches for the support required by the client. The
     JFA did not indicate what other market research was performed in selecting the eight
     vendors that ended up receiving the RFQs. D&S Consultants, Incorporated was the only
     vendor to submit a proposal. Although the JFA did not specifically address Section 803
     compliance, the contracting officer incorporated the client agency’s technical justification
     that the task order related to work that was on the critical path for the FCS program.

       The JFA incorporated a summary IGCE that was undated and did not identify the
       preparer. In addition, the ITM’s comparison of the IGCE with the proposal did not
       address the option periods and the JFA did not include an evaluation of the labor mix.

       The task order file did not include a written legal concurrence, although an internal CSC
       e-mail noted that a CSC official had received Counsel’s approval for award. The task
       order included contract material costs with an annual ceiling of $2,799,000. We noted
       that the contractor burdened the material costs with a general and administrative rate
       when invoicing GSA. While the task order called for necessary contract materials to be
       purchased through a FSS Schedule contract, it did not permit the application of an
       indirect rate to such costs.

(9)    This task order, awarded to JBM on October 15, 2003, provided for support in software
       integration, systems engineering and technical functions to the Army Central Technical
       Support Facility. Although the CSC solicited 22 FSS Schedule vendors, JBM was the
       sole contractor to submit an offer by the RFQ deadline. A second contractor indicated
       that they would have submitted a bid but they missed the deadline. After the client
       declined the contracting officer’s offer to reissue the RFQ, the contracting officer
       determined that Section 803 requirements would be waived due to the potential impact on
       overseas deployment. In an e-mail dated August 13, 2003, the ITM had anticipated both
       JBM’s participation and the need for the client to cite deployment urgency, relative to
       meeting Section 803 requirements.

       On September 4, 2003, twelve days before the issuance of the RFQ, the client forwarded
       an IGCE that mentioned JBM by name. That same day, the ITM informed the client
       representative that the IGCE “…must come from the Government, not the proposed
       contractor.” That same IGCE was apparently used as the basis for the JFA analysis;
       where the ITM performed a summary comparison with JBM’s offer, on a per CLIN basis,
       without evaluating the labor mix.




                                              B-4
         SCHEDULE OF FY04 TASK ORDER AWARDS AND MODIFICATIONS
            REVIEWED IN THE NORTHEAST AND CARIBBEAN REGION
                                (Continued)

NOTES:
(9)
     Although JBM’s proposal was well above the schedule contract’s $500,000 MOT, the
     contractor initially did not offer a labor discount for this task order. After the client
     requested that the ITM pursue a discount, the contractor responded with an offer from
     October 15, 2003 through the December 31, 2003, or only 2 ½ months out of the 3-year
     base period. The CSC accepted this nominal discount without any further negotiation.

       The awarded task order included significant costs for CLINs 1C Schedule Materials and
       1D Incidental Materials. The JFA did not address the price reasonableness of the
       proposed amounts for these items. The proposed Schedule Materials costs included non-
       material items such as computer consulting and reproduction services that would
       normally be included as an element of overhead. The proposed Incidental Material costs
       inappropriately included items such as cell phone charges and seminars/conferences. In
       addition, JBM burdened all proposed costs for both these CLINs with an inappropriate
       indirect load rate. Section H.1.2 of the task order only permitted an indirect handling rate
       on costs incurred for long distance travel.

       Although this procurement was well above the FTS $5 million dollar legal review
       threshold, legal concurrence did not occur until one week after the award. In fairness, the
       legal review policy had just been issued when the task order was awarded.

(10)   This task order is discussed in the body of the report.




                                               B-5
C-1
C-2
AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
          MID-ATLANTIC REGION
   REPORT NUMBER A040126/T/3/Z05005
            DECEMBER 9, 2004




                 III
                   AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                           CLIENT SUPPORT CENTER
                             MID-ATLANTIC REGION
                      REPORT NUMBER A040126/T/3/Z05005

                               TABLE OF CONTENTS
                                                                               Page

RESULTS OF AUDIT                                                               III-1

     Results in Brief                                                          III-1

     Inadequate Competition                                                    III-1

     Determination & Findings for Use of Time-and-Material Task Orders         III-2

     Acquisition Plans                                                         III-4

     Lack of Documentation Supporting the Proper Handling and Evaluation of
            Other Direct Costs (ODCs)                                          III-4

     Questionable Contracting Actions                                          III-5

     Contract Oversight                                                        III-6

     Task Order for National Security Work                                     III-7

     Order Better Suited for Other Than IT Funding                             III-8

     Form 300 Does Not Contain a Not to Exceed Amount                          III-9

     Causes of Inconsistent Compliance With Procurement Regulations            III-9

     Review of FTS Client Support Centers – Testing of FY 2004 Transactions   III-10

     Conclusions                                                              III-10

     Recommendations                                                          III-11

     Management’s Response                                                    III-11

INTERNAL CONTROL TESTING                                                      III-11

APPENDICES
     A. Schedule of Orders Reviewed in Mid-Atlantic Region                      A-1

     B. Management’s Response to Draft Report                                   B-1
                                     RESULTS OF AUDIT

Results in Brief
The audit identified instances where CSC officials did not consistently adhere to Government
procurement rules and regulations. We identified issues in the following areas as they pertain to
the 21 task orders reviewed: inadequate competition, file documentation (especially as it relates
to the preparation of Determinations & Findings and Acquisition Plans), lack of documentation
supporting the proper handling and evaluation of other direct costs, questionable contracting
actions, contract oversight, inadequate monitoring of task order activities, and a task order that
would be better suited for other than Information Technology (IT) funding. Details regarding the
issues identified during our review are outlined below and in Appendix A of this report.

In addition to the above, we also conducted a limited review of contracting actions that were
executed by the Regional CSC during the three-month period March 1, 2004 through May 31,
2004 as taken from a judgmental sample of 10 task orders. This was performed for the purpose
of providing further information on recent actions the CSC has taken in implementing a series of
management control improvements and, therefore, we did not perform the same level of analysis
as conducted with regard to the fiscal year 2003 task orders. The results of this review show that
the contracting actions we examined reflected the Mid-Atlantic Region CSC has instituted the
control improvements, which is an improvement when compared to the issues identified in our
review of fiscal year 2003 task orders as outlined in this report. Further, our limited review of
this sample of contracting actions did not identify any issues which would indicate the
contracting actions were not made in accordance with the FAR and the terms and conditions of
the contracts utilized. The Office of Audits will conduct a more comprehensive testing of
internal controls throughout the CSC Program during fiscal year 2005.

Inadequate Competition
Of the 21 task orders reviewed, 13 task orders were awarded under the FSS Multiple Award
Schedules (MAS) program. We determined that, for six of these 13 orders, FTS did not adhere
to the Special Ordering Procedures stipulated in FAR 8.402. These procedures were issued by
FSS and are applicable to orders placed against its schedule contracts for services requiring a
statement of work. Excerpts from these procedures follow:




                                              III-1
                             ORDERING PROCEDURES FOR SERVICES
                              (REQUIRING A STATEMENT OF WORK)15

        “FAR 8.402 contemplates that GSA may occasionally find it necessary to establish
        special ordering procedures for individual Federal Supply Schedules or for some
        Special Item Numbers (SINs) within a Schedule. GSA has established special
        ordering procedures for services that require a Statement of Work. These special
        ordering procedures take precedence over the procedures in FAR 8.404(b)(2)
        through (b)(3)….

        “The request should be provided to three (3) contractors if the proposed order is
        estimated to exceed the micro-purchase threshold, but not exceed the maximum
        order threshold. For proposed orders exceeding the maximum order threshold,
        the request should be provided to additional contractors that offer services that
        will meet the agency’s needs. (emphasis added)

        “For agency requirements in excess of the micro-purchase threshold, the order file
        should document the evaluation or Schedule contractors’ quotes that formed the
        basis for the selection of the contractor that received the order and the rationale for
        any trade-offs made in making the selection.”

The CSC did not ensure compliance with the special ordering procedures by expanding the
contractor Request for Proposal (RFP) list beyond the standard three vendors when the
anticipated order value exceeded the schedule maximum order threshold. Of the six orders not
complying with the special ordering procedures, five received only 1 bid. These five task orders
were valued at $74.4 million. As a result, the Government did not obtain the benefits of
additional competition and potentially lower costs.


Determination & Findings for Use of Time-and-Material Task Orders
We found that the CSCs frequently used time-and-materials tasks versus fixed-price task orders.
Of the 21 orders for services that we reviewed, 90 percent (19) were time-and-materials type
tasks. A time-and-materials contract provides for acquiring services on the basis of (1) direct
labor hours at specified fixed hourly rates that include wages, overhead, general and
administrative expenses, and profit and (2) materials at cost, including, if appropriate, material
handling costs as part of material costs. Time-and-materials task orders are expressly disfavored
under the FAR. The FAR states that a time-and-materials contract provides no incentive to the
contractor for cost control or labor efficiency and, thus, appropriate Government surveillance of
contractor performance is required to give reasonable assurance that efficient methods and
effective cost controls are being used.




15
  These procedures were amended to reflect the implementation of Section 803 of the National Defense
Authorization Act of 2002 requiring ordering agencies to obtain a minimum of three offers for DOD procurements
for the purchase of services over $100,000 under multiple award contracts.


                                                     III-2
FAR 16.601 states, in part:

       “A time-and-materials contract may be used only when it is not possible at the
       time of placing the contract to estimate accurately the extent or duration of the
       work or to anticipate costs with any reasonable degree of confidence, and

       “A time-and-materials contract may be used (1) only after the contracting officer
       executes a determination and findings that no other contract type is suitable; and
       (2) only if the contract includes a ceiling price that the contractor exceeds at its
       own risk. The contracting officer shall document the contract file to justify the
       reasons for and amount of any subsequent change in the ceiling price.”

Of the 19 time-and-material orders in our sample, 16 of the order files (with a total value of
$158.4 million) did not document a formal Determination and Findings (D&F) that explains the
contracting officer’s conclusion that no other contract type was suitable and, therefore, the use of
the time-and-material task order was justified. Many of the task order files do contain a
paragraph in varying pieces of the contract documentation similar to the paragraph above, which
states that, at the time of placing the contract, it was not possible to accurately estimate the
amount of work, or the anticipated costs with any reasonable degree of confidence, but no D&F
document could be found in these files.

When questioned about the lack of a D&F on these task orders, Region 3 representatives stated
that the Determination & Findings document is not a required document for a GSA schedule
procurement task order under FAR 8.404 since it is silent on the need for a D&F when time-and-
materials or labor hour task orders are contemplated.

In addition to FAR 16.601 mentioned previously, it should be noted that, included in an FSS
publication entitled, “Multiple Award Schedules Program Owner’s Manual” dated Spring 2001,
are documentation requirements for the acquisition of services requiring a statement of work.
On page 20 of this document it states, “If other than a firm-fixed priced order is placed, include
the basis for the determination to use a labor-hour or time-and-materials order.”

In addition to MAS task orders, we also identified time-and-materials task orders placed against
the Millenia Lite contract vehicle without the preparation of a D&F. Included in the Milennia
Lite Ordering Guidelines document is a discussion similar to that mentioned previously, that
time-and-materials tasks provide little incentive for cost control or labor efficiency. It also
provides a sample D&F as Appendix N to the guidelines document that includes instructions on
its preparation that requires the contracting staff to state the findings that support the particular
procurement.

Per FTS, it is now preparing D&Fs for all time-and-materials task awards, regardless of whether
they are issued based on FSS schedules, or one of the other available contract vehicles.




                                                III-3
Acquisition Plans
Seventeen of the 21 orders reviewed did not include an acquisition plan. These 17 orders had a
total value of $147.3 million. An acquisition plan is a tool used to help ensure that the
Government meets its needs in the most effective, economical, and timely manner. When
questioned about the reason behind the lack of an acquisition plan, Region 3 representatives
responded by stating that the FAR requirement for acquisition plans for GSA schedules (and
Government-wide Acquisition Contracts-GWACS) was not effective until the September–
October 2002 time period. We then questioned them about the requirement for acquisition plans
as provided in the General Service Acquisition Manual (GSAM) 507.102 that states, “All
acquisitions exceeding the simplified acquisition threshold must have, at a minimum, a limited
acquisition plan.” (This is dated September 1, 1999.)

The response from FTS stated this applied to acquisition planning for contracts above the
$100,000 threshold, not necessarily task orders. Thus, in the opinion of the Regional FTS, there
are lingering questions as to whether this requirement extends to the task order/delivery order
level.

Per FTS, it is now preparing acquisition plans for all task awards over the $100,000 acquisition
threshold.


Lack of Documentation Supporting the Proper Handling and Evaluation of Other Direct
Costs (ODCs)
Our audit found six task orders where there was a lack of documentation evidencing that the
CSC evaluated the reasonableness of the costs of the proposed ODCs. This includes three task
orders involving the leasing of office space for which no documentation was found determining
whether the lease was found to be fair and reasonable. We also noted one order that included a
facilities charge for use of contractor office space.

For example, one task order (R320020863) contained an ODC for moving a subcontractor
employee and two family members to Hawaii at an estimated cost of $25,000. The file indicates
the FTS representatives informed the client that they were not required to pay the relocation
costs and that if they did, under FAR 31.205-35, the costs would be allowable “so long as the
task is not less than 12 months.” Despite FTS’ comments, the client agency insisted that the
contractor include these relocation costs in its proposal, and FTS agreed. However, we found at
the time of the actual move of the contractor employee, the task order had less than one year of
performance left, a violation of FAR 31.205-35.

As mentioned previously, we found three task orders involving the leasing of office space for
which no documentation was found determining whether the lease was found to be fair and
reasonable. These task orders included provisions for leased office space that was required by
the statements of work and leased specifically for the task order under which the charges were
incurred. In these instances, the contractor charged the Government for office space as an ODC.

For example, we reviewed a task order (R320000232) awarded to PricewaterhouseCoopers
(PwC) LLP, valued at $60.4 million at the time of our review, on behalf of the Defense Security
Cooperation Agency in January 2000, for IT work relative to its Defense Security Assistance
Management System (DSAMS). We determined that the proposed ODCs included in the


                                             III-4
contractor’s proposal included costs for leased office space at PwC’s Skyline facility located in
Falls Church, VA. This was initially proposed by the contractor, in response to the Statement of
Work that included a line item for a facility lease, as well as additional monthly costs for
telephone equipment/service and office equipment/supplies. When compared to the total
proposed cost of the base period of $11,988,161, the facility lease cost represents a small
percentage. However, per the contractor’s initial proposal, the facility lease costs escalate
considerably for Option Year 5 (February 16, 2005 – February 15, 2006) when the total proposed
costs for this option year are only $3,302,461. As a result, the facility cost represents a
significant percentage of the Option Year 5 costs.

Per FTS, it determined the reasonableness of the facility cost by consulting with the GSA Public
Buildings Service (PBS), and conducting a realty rate examination. However, no documentation
could be found evidencing either of these efforts.

In addition to the above, as a result of this situation, the contractor proposed travel costs under
this task order associated with regular trips made from Virginia to Mechanicsburg, PA. These
trips were estimated to cost, on average, in excess of $110,000 per year. Per the FTS contracting
officer, the contractor could not recruit qualified personnel in the Mechanicsburg, PA, area (the
client’s location), and elected to recruit them in Virginia and have them work out of this leased
space.

It should be noted that the two remaining task orders involving the leasing of office space do not
represent material dollars when considering the total value of the task orders.


Questionable Contracting Actions

Restrictive Statement of Work
Our review found one task order (R320021391), valued at $491,456, which appears to have an
inadequate scope of work.

Contained within the Statement of Work for the task order issued to Powerware, Inc.
(Powerware), for circuit distribution and the integration of system sensors was the fact that
Powerware was already performing work within the facility. By including the name of the
current vendor within this scope of work, as well as the requirement that, “It is imperative that
the contractor selected for this task has personnel that hold current facility clearances . . .” at a
very restricted site, FTS is hampering its ability to foster competition because potential
contractors may understand the current vendor to have an distinct advantage of obtaining any
additional work at the facility.

Exercise of Contract Options Lack Proper Documentation
We identified two instances where task order options lacked proper documentation.

As an example, Option Year 1 was exercised under a task order (R320020147) awarded to NCR
Government Systems Corporation on behalf of the Defense Commissary Agency for
implementation and maintenance support for its Enterprise Network Management System. This
task order modification, in the amount of $899,257, was for work to be performed during the
period October 1, 2002 to September 30, 2003. However, other than identifying that funds were


                                                III-5
available, the documentation required by FAR 17 could not be found in either the ITSS or the
task order file and, thus, there is no assurance that the actions required of the contracting officer
per the FAR were appropriately conducted.

Specifically, FAR 17.207, Exercise of Options, states the contracting officer may exercise
options only after determining that funds are available, the requirement covered by the option
fulfills an existing Government need, and the exercise of the option is the most advantageous
method of fulfilling the Government’s need, price and other factors considered. The
determination of the other factors should take into account the Government’s need for continuity
of operations and potential costs of disrupting operations. After complying with the above, and
before exercising an option, the contracting officer shall make a written determination for the
contract file that the exercise is in accordance with the terms of the option, and the requirements
of this section.


Contract Oversight
FTS’ inconsistent oversight of its task and delivery orders resulted in several questionable
practices, including the lack of monitoring with regard to contractor billings under its task orders
and the lack of effective monitoring of task order deliverables. We also determined that, as a
result of awarding a task order involving national security of a highly classified nature, the FTS
contracting staff is restricted as to what task order documentation is available for their review,
thus impeding its oversight responsibility.

Improper Billings
Our review found FTS does not provide adequate oversight of contract billings. CSC officials
rely on the client agencies to review contractor billings for accuracy. During our review, we
encountered three task orders where the billings from the contractor did not adhere to the base
contract pricing terms.

One task order (R320031798), with a total value of $12.6 million at the time of our review, was
awarded to Signal Corporation, Inc., (now Veridian IT Services, Inc. - Veridian) under its
Millenia Lite Contract Number GS07T00BGD0063. Under Millenia Lite task orders,
contractors are permitted to attach an Other Direct Cost (ODC) multiplier to its other direct costs
incurred under the task order. As determined at basic contract award, each contractor has a
ceiling ODC multiplier rate that cannot be exceeded. Our review of recent invoices from
Veridian evidences that the rate applied to its ODCs is above the ODC multiplier rate established
for this vendor at the time of the basic contract award. This award was further complicated
because the vendors submitting a proposal were given mis-information by FTS regarding the
ODC multiplier rate they were allowed to bid. The documentation shows the vendors were
instructed that the cap on the multiplier rate was one percent. However, as stated above, each
vendor has its own multiplier rate they can bid. The one percent appears to represent the
Contract Access Fee allowed to be charged by the vendor under the Millenia Lite program. (The
situation involving the higher-than-permitted ODC multiplier rate was also found on a second
task order awarded to the same contractor.)

A review of an FSS schedule task order (R320020399) awarded to the Spencer Reed Group
found that, in accordance with FSS policy effective January 1, 2004, it revised its schedule labor
rates to reflect the reduction in the Industrial Funding Fee from 1% to .75%. A review of recent


                                                III-6
invoices from the contractor revealed that the task order rate for one labor category had not been
reduced to match the revised schedule contract rate resulting from this reduction. We found the
task order rate exceeded the new schedule labor rate by a minimal amount. Upon being notified
of this situation, the contracting officer for this task order contacted the vendor and resolved this
issue.

While these instances did not result in material cost impacts to their respective task orders, they
do illustrate the need for FTS to monitor billings under its task orders. It cannot rely on client
agency representatives to have detailed knowledge of the terms and conditions of the various
contract vehicles/programs under which their task orders are awarded to ensure they are being
properly billed.


Task Order for National Security Work
We reviewed a task order (R320031656) awarded to ACS Government Services, Inc. that, at the
time of review, had a total order value of $12,071,496. The task order is to provide support for
the U.S. Air Force Headquarters Air Combat Command for intelligence, surveillance, and
reconnaissance operations and planning, with emphasis on the Senior Year (U-2) Program. It
consists of national security work, the nature of which is highly classified. A review of the
Statement of Work indicates that 26 of the estimated 41-Full Time Equivalent (FTE) positions
require a Top Secret/Special Compartmented Information (TS/SCI) clearance, while the
remaining 15 FTE require a Secret Clearance. Our review resulted in several issues that warrant
inclusion in this report, the details of which follow.

Inadequate Monitoring Permitted Work to be Performed Outside of the Scope of the Base
Contract
A review of a contract deliverable, the Monthly Status Report, identified the performance of
work that is outside the scope of the base contract. This report was provided to the auditor by the
ITM for the task, and included administrative and tactical/operational activities that are not IT in
nature. Had this Monthly Status Report been effectively monitored by FTS, these activities
would have been detected and identified by the ITM for corrective action.

Per the Millenia Lite Ordering Guidelines, the “services offered under this area include a broad
range of IT related to Mission Support Services (MSS). The anticipated services require a
diversity of skills suitable to a variety of information technology environments.” A review of the
Monthly Status Report for the month of March 2004 identified numerous activities that are not
IT-related. Rather, they represent administrative and tactical/operational activities (and, in some
cases, related travel) performed by various contractor personnel holding IT positions. As these
are not IT-related functions, the Government is paying for work performed outside the scope of
the Millenia Lite base contract.

When this information was presented to FTS, the contracting officer was instructed to discuss
this matter with the contractor to determine the nature of these activities and take any necessary
corrective action.

The review of task order deliverables by FTS is an important oversight function, as they provide
an indication of level of performance by a vendor under a particular task order. Without the



                                                III-7
function, the Government is vulnerable to increased task order costs as a result of waste, fraud,
and abuse if a vendor’s activities are left unchecked.

Contract Oversight of National Security Task Order
As stated previously, this task order consists of national security work, the nature of which is
highly classified. (See “Task Order for National Security Work.”) Per a representative of the
contractor performing the work under the contract, approximately 30 percent of the
documentation generated under this task order is classified and could only be reviewed by
individuals possessing a Secret Clearance. Of this amount, 3-5 percent would require a Top
Secret Clearance before it could be examined. When asked, neither the GSA ITM nor
contracting officer responsible for this task order possess either type of clearance. As a result,
GSA does not have access to an estimated 30 percent of the documentation generated under this
task order and, therefore, cannot adequately monitor contractor performance.

The question arises whether GSA should have awarded a task order in which, as the official
ordering activity, its access to task order documentation is restricted. In the event performance
issues/disputes arise under this order, this documentation could be crucial for the contracting
staff to analyze in attempt to resolve these issues. Regional management indicated that, if that
situation occurred, there are individuals within FTS who possess the necessary clearances and
could review this documentation. However, in this instance, replacing the individuals with the
intimate knowledge of the task order would result in splitting the oversight responsibilities for
the procurement between those reviewing unclassified materials and those able to review the
sensitive materials. This may not be the most effective method of monitoring contractor
performance.


Order Better Suited for Other Than IT Funding
In one of the 21 task order awards we reviewed it was determined that the CSC procured, on
behalf of a client, services which would have been better suited for funding other than IT. 40
USC Section 322 (the statute creating the IT Fund) states that, “in operating the Fund, the
Administrator may enter into multiyear contracts, not longer than 5-years, to provide information
technology hardware, software, or services. . .” [40 USC Section 322 (e)(1)] Further, the IT
Fund is available “for expenses, including personal services and other costs, and for procurement
(by lease, purchase, transfer, or otherwise) to efficiently provide information technology
resources to federal agencies and to efficiently manage, coordinate, operate, and use those
resources. . . Information technology resources provided under this section include information
processing and transmission equipment, software, systems, operating facilities, supplies, and
related services including maintenance and repair.” [40 U.S.C. Section 322(c)(1)&(2)].

The task order (R320020295) we identified was for work performed by KPMG Consulting, LLC,
(now Bearing Point, LLC) on behalf of the Air Force Base Conversion Agency (AFBCA). At
the time of our review, this order was valued at $2.6 million. The scope of the order, as included
in the Statement of Work, is to provide services that will support AFBCA’s role and
responsibility to determine all Base Realignment and Closure (BRAC) environmental contracts
are detailed to a level to identify all unliquidated outstanding obligations by contract end date. A
review of the requirements included in the statement of work indicate the contractor is to
expedite documents through the Defense Finance Accounting System, reconcile funding
discrepancies, identify excess funds, realign funds, attend AFBCA meetings, and liquidate all


                                               III-8
unliquidated outstanding obligations within 90 days of identification. Based on this, we believe
this task order is for consulting/financial management activities rather than for IT services as
defined above. As such, this task order would have been better administered/funded using the
General Supply Fund rather than the IT Fund.

Agency Comment
      In her response, the Regional Administrator, Mid-Atlantic Region, disagrees with this
      assessment. After a detailed review of this task order, it is the Region’s opinion that the
      Information Technology Fund was appropriately utilized for this procurement. (See
      Appendix B for the agency’s comments.)

OIG Position
      Regional officials cited the need for contractor personnel to understand and manipulate
      data in a variety of automated financial information systems as the skills element that
      made this task order suited to the IT fund. We understand their position.

       Our view is based on the Statement of Work that reflects performance of financial
       management functions more than technology tasks. In addition, review of the resumes of
       the contractor personnel proposed for this work found all key staff listing extensive
       accounting or financial backgrounds while all are silent regarding any technology
       expertise. Given this orientation, we believe the project would have better fit under the
       General Supply Fund.


Form 300 Does Not Contain a Not to Exceed Amount
Of the 21 time-and-material orders in our sample, two of the order files did not define a contract
ceiling amount (not to exceed amount). This is necessary in order to identify the maximum
amount of funds available to be obligated under a particular task order.


Causes of Inconsistent Compliance With Procurement Regulations
Our audit work indicated that several factors contributed to the contracting practices identified in
this report, which include an increasing workload, an unfamiliarity with prescribed ordering
procedures, and Regional interpretations of the FARs/General Services Acquisition Regulations
on the part of Regional FTS management.

Based on statistics provided by FTS, the Mid-Atlantic Region CSC has experienced an increase
in the obligated value of its contracting actions from $141.3 million in fiscal year 2000 to $397.4
million in fiscal year 2003. Additionally, the number of contracting actions has increased from
1,726 to 2,376 for the same time periods. We believe this growth may be a contributing factor
behind some of the issues identified in this report.

We also determined that CSC personnel were not generally familiar with the special ordering
procedures for services under the schedules program, designed to ensure the Government
receives the best value. As stated previously under “Inadequate Competition,” we found
numerous instances where the contracting staff did not expand its contractor list when soliciting
requests for proposals from vendors for acquisitions over the maximum order threshold. When
asked, it was brought to our attention that their actions were in accordance with FAR 8.404.


                                               III-9
However, the FAR also states that GSA may establish special ordering procedures for services
placed against its schedule contracts, as discussed previously. When applicable, these special
ordering procedures supercede FAR 8.404(b)(2) through (b)(3). These procedures can be found
on GSA’s Website on the use of FSS schedules. GSA also published the procedures in the
Multiple Award Schedules Owner’s Manual for ordering agencies.

As stated previously regarding the preparation of Acquisition Plans and Determination &
Findings, FTS provided us with its interpretations of the FARs and the General Services
Acquisition Regulations as to why these documents were not required. However, it is our
position that the regulations support the need for these documents as well as the requirement for
their preparation.


Review of FTS Client Support Centers – Testing of FY 2004 Transactions
In June of 2004, the GSA Administrator requested the OIG conduct a review of recent task
orders processed by the regional CSCs to evaluate the impact of recent CSC control
improvements. These control improvements were to be instituted in all of the regional CSCs in
response to an audit of the Region 4, 6, and 10 CSCs, the results of which were detailed in Audit
Report Number A020144/T/5/Z04002, dated January 8, 2004. The control improvements
included: 1) a legal review policy for new contract awards over $5 million; 2) incorporating FTS
Acquisition Checklists; 3) developing a Client Support Center Management Plan; 4)
implementing Section 803 of the National Defense Authorization Act of FY 2002; 5) instituting
a Procurement Management Review program; and 6) establishing ITS contract/project closeout
guidance.

Accordingly, we have conducted a review of contracting actions that were executed by the
Regional CSC during the three-month period March 1, 2004 through May 31, 2004 from a
judgmental sample of 10 task orders. These 10 task orders had a total value of $8,431,643. This
was a limited review for the primary purpose of providing further information on recent actions
the CSC has taken in implementing those control improvements mentioned above. These
actions/orders consisted of a judgmental, rather than a statistical, sample and we did not perform
the same level of analysis on these orders as was conducted with regard to the fiscal year 2003
orders reviewed.

The results of this review show that the contracting actions we examined reflected that the Mid-
Atlantic Region CSC has instituted the control improvements. Further, this limited review did
not identify any issues which would indicate the contracting actions examined were not made in
accordance with the FAR and the terms and conditions of the contracts utilized. This represents
an improvement when compared to the issues identified in our review of fiscal year 2003 task
orders as outlined in this report. The Office of Audits will conduct a more comprehensive
testing of internal controls throughout the CSC Program during fiscal year 2005.

Conclusions
Our review of 21 task orders active during fiscal year 2003 within the Mid-Atlantic Region CSC,
worth $191.5 million, identified control issues where procurement rules and regulations were not
consistently adhered to, and on one occasion a task order was issued that would be better suited
for other than IT funding. (Our report details a number of key examples of these instances, while
Appendix A provides a snapshot of all issues noted during the review.) We identified issues in


                                              III-10
the following areas as they pertain to the 21 task orders reviewed: inadequate competition, file
documentation (especially as it relates to the preparation of Determination & Findings and
Acquisition Plans), lack of documentation supporting the proper handling and evaluation of other
direct costs, questionable contracting actions, contract oversight, inadequate monitoring of task
order activities, and a task order that would better be suited for other than IT funding. A
summary of each task order reviewed is contained in Appendix A.


Recommendations
Based on the comprehensive recommendations contained in Audit Report Number
A020144/T/5/Z04002, dated January 8, 2004, no further recommendations are deemed necessary
at this time.


Management’s Response
In her response, the Regional Administrator, Mid-Atlantic Region, concurred with the issues
raised in the draft report with the exception of the assertion that the Regional CSC processed a
task order that would have been better suited for other than IT funding. After a detailed review
of this task order, it is the Region’s opinion that the IT Fund was appropriately utilized for this
procurement.


Internal Control Testing
We assessed the internal controls relevant to the CSC's procurements to assure that the
procurements were made in accordance with the FAR and the terms and conditions of the
contracts utilized. We identified issues in the following areas as they pertain to the 21 task
orders reviewed: inadequate competition, file documentation (especially as it relates to the
preparation of Determination & Findings and Acquisition Plans), lack of documentation
supporting the proper handling and evaluation of ODCs, questionable contracting actions,
contract oversight, inadequate monitoring of task order activities, and a task order that would
better be suited for other than IT funding. We believe that an effective internal control structure,
which has the on-going endorsement of management, would have identified and prohibited many
of the issues identified during our audit.

Our limited review of the more recent sample of fiscal year 2004 contracting actions found the
CSC has implemented the management control improvements. Further, our limited review of
this sample of contracting actions did not identify any issues which would indicate they were not
made in accordance with the FAR and the terms and conditions of the contracts utilized. The
Office of Audits will conduct a more comprehensive testing of internal controls throughout the
CSC Program during fiscal year 2005.




                                              III-11
                 AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                         CLIENT SUPPORT CENTER
                           MID-ATLANTIC REGION
                    REPORT NUMBER A040126/T/3/Z05005


       SCHEDULE OF ORDERS REVIEWED IN MID-ATLANTIC REGION

1. R320031798
   This time-and-materials task order, valued at $12,593,833 at the time of our review, was
   issued on behalf of the Aerospace Expeditionary Force Center for its legacy systems
   support and migration. The following issues were noted with this order:
       • No Determinations & Findings document justifying the use of a time-and-
          materials task order.
       • No Acquisition Plan.
       • As discussed in the body of the report, mis-information was provided the
          contractor regarding the application of the Other Direct Cost (ODC) multiplier
          rate under the Millenia Lite task order.
       • As discussed in the body of the report, the lack of FTS oversight of contractor
          billings resulted in overcharges passed on to the Government. The vendor is
          currently charging a higher ODC multiplier rate than permitted under the terms of
          the Millenia Lite contract.

2. R320021148
   This time-and-materials task order, valued at $2,483,287 at the time of our review, was
   issued on behalf of the Defense Security Service for data administration/records
   management services in support of its case management and fingerprint processing
   functions. The following issues were noted with this order:
       • No Determinations & Findings document justifying the use of a time-and-
          materials task order.
       • No Acquisition Plan.
       • “Not To Exceed” amount not listed on Form 300.
       • No indication of FTS oversight with regard to contractor billings.

3. R320021391
   This time-and-materials task order, valued at $491,456 at the time of our review, was
   issued on behalf of the Department of the Army, Alternate Joint Communications Center,
   as part of its Operation and Maintenance Information Technology Program, to permit
   “control” of the entire, secured site from one central location with satellite monitoring
   available in specific locations. The following issues were noted with this order:
       • No Acquisition Plan.
       • As noted in the body of the report, we believe the Statement of Work does not
          foster competition by indicating the name of the vendor currently working in the
          facility. A potential bidder could construe that the current contractor has a
          distinct advantage when being considered for the task order award. This may
          explain the reason only one bid was received.
       • No indication of FTS oversight with regard to contractor billings.

                                          A-1
       SCHEDULE OF ORDERS REVIEWED IN MID-ATLANTIC REGION
                            (Continued)

4. R320020147
   This time-and-materials task order, valued at $2,319,395 at the time of our review, was
   issued on behalf of the Defense Commissary Agency for implementation and
   maintenance support of its Enterprise Network Management System. The following
   issues were noted with this order:
       • No Determinations & Findings document justifying the use of a time-and-
           materials task order.
       • No Acquisition Plan.
       • FTS did not comply with the Special Ordering Procedures when competing this
           procurement. FTS forwarded the Request for Task Order Proposal to three
           vendors. However, under the Special Ordering Procedures for Services Requiring
           a Statement of Work, for proposed orders exceeding the maximum order
           threshold, the requests for proposals should be provided to additional schedule
           contractors offering services that will meet the agency’s needs.
       • Documentation required by FAR 17 could not be found relative to the award of
           Option Year 1 of the task order. Other than identifying that funds were available,
           the documentation required by FAR 17 could not be found in either the ITSS or
           the task order file and, thus, there is no assurance that the actions required of the
           contracting officer per the FAR were appropriately conducted. Thus, aside from
           the funding, there is no documentation evidencing the contracting officer
           considered the following information when exercising this option year: the
           requirement covered by the option fulfills an existing Government need, and the
           exercise of the option is the most advantageous method of fulfilling the
           Government’s need, price and other factors considered.
       • No indication of FTS oversight with regard to contractor billings.

5. R320020399
   This time-and-materials task order, valued at $1,597,425 at the time of our review, was
   issued on behalf of the GSA, FTS, IT Solutions Financial Services Center (Philadelphia,
   PA) and the Greater Southwest Finance Center, FTS Accounts Receivable and Financial
   Analysis Division (Ft. Worth, TX). The objective of this procurement is to provide
   follow-on financial management and accounts payable support to the Financial Services
   Center and to provide follow-on accounts receivable support to the Greater Southwest
   Finance Center. While we recognize these functions do not appear to be IT-related, the
   organizations being supported under this task order are funded from the GSA IT Fund.
   Therefore, we do not consider this an inappropriate use of the IT Fund. Issues identified
   with this procurement are as follows:
       • A Determinations & Findings document, as well as an Acquisition Plan, were
           prepared for this procurement. However, both documents are unsigned by the
           contracting officer.




                                            A-2
       SCHEDULE OF ORDERS REVIEWED IN MID-ATLANTIC REGION
                            (Continued)

       •   FTS did not comply with the Special Ordering Procedures when competing this
           procurement. FTS forwarded the Request for Task Order Proposal to three
           vendors. (In this instance, all three vendors submitted a bid.) However, under the
           Special Ordering Procedures, for proposed orders exceeding the maximum order
           threshold, the requests for proposals should be provided to additional schedule
           contractors offering services that will meet the agency’s needs.
       •   As indicated in the body of the report, we identified a billing rate under the task
           order in excess of the revised schedule contract rate that was the result of the
           reduction in the Industrial Funding Fee from one percent to .75 percent. This
           evidences the need for some level of oversight by FTS over contractor billings
           under its task orders.
       •   No indication of FTS oversight with regard to contractor billings.

6. R320031656
This time-and-materials task order, valued at $12,071,496 at the time of our review, was
issued on behalf of the Headquarters Air Combat Command, Directorate of Operations,
Command, Control, Intelligence, Surveillance, and Reconnaissance (C2ISR) Operations
Division. The purpose of this procurement is to provide support to the Air Combat
Command in its mission to identify and manage requirements for technology systems in
support of airborne C2ISR platforms, sensors, data links, avionics subsystems, ground
support systems, spares and equipment. It also includes developing and executing high
altitude reconnaissance and intelligence data collection process for the Combat Air Force,
including identifying and managing intelligence collections system requirements for high
altitude ISR platforms. Issues identified with this task order are as follows:
        • As noted in the body of this report, this procurement involves national security
            work, the nature of which is highly classified. As a result, GSA-FTS does not
            have access to approximately 30 percent of the documentation generated under
            this task order. Neither the FTS contracting officer, nor Information Technology
            Manager, possess the clearance(s) needed to see all documentation under this task
            order.
        • As this order involves intelligence operations and national security, there is the
            open issue as to whether task orders of this nature are permitted to be funded via
            the IT Fund.
        • As noted in the body of the report, a review of the Monthly Status Report for the
            month of March 2004 identified activities that are outside of the scope of the base
            Millenia Lite contract. This illustrates a lack of effective monitoring of task order
            deliverables on the part of both GSA-FTS and the client agency representative,
            thus providing evidence to support the need for increased attention to contract
            deliverables, especially on the part of GSA-FTS.
        • No indication of FTS oversight with regard to contractor billings.




                                            A-3
       SCHEDULE OF ORDERS REVIEWED IN MID-ATLANTIC REGION
                            (Continued)

7. R320030689
   This time-and-materials task order, valued at $14,218,562 at the time of our review, was
   issued on behalf of the U.S. Army, MC4 Program Office, for the in-theater maintenance
   of MC4 hardware and software, help desk support operations, warranty support, and in-
   theater fielding and training in support of contingency operations. This program provides
   fully integrated medical products and information/communications solutions to
   effectively and seamlessly link all echelons of deployable medical care. The issues
   identified with this task order are as follows:
       • No Determinations and Findings document justifying the use of a time-and-
           materials task order.
       • It appears as if FTS defers to the client agency for review and approval of ODC
           costs. Task order language states: “Prior approval of the client representative or
           the In-Theater representative is required to execute ODC’s. Actual ODC
           documentation will be included with invoice submission.” There is no indication
           of a review of ODC information by FTS.
       • No indication of FTS oversight with regard to contractor billings.

8. R320030168
This time-and-materials task order, valued at $16,273,292 at the time of our review, was
issued on behalf of the Defense Security Service (DSS) to provide system improvement,
sustainment, and integration support to the DSS’ Case Control Management Information
System. The issues identified with this task order are as follows:
       • No Determinations and Findings document justifying the use of a time-and-
          materials task order.
       • No indication of FTS oversight with regard to contractor billings.

9. R320020391
This time-and-materials task order, valued at $13,009,924 at the time of our review, was
issued on behalf of the Air Combat Command Directorate of Aerospace Operations to (i)
design, develop and implement models and simulations for Command and Control systems,
(ii) extract and analyze data on the performance of the Command and Control systems, and
(iii) develop and maintain computerized models and training simulations, and for defining
the requirements to be used to provide realistic scenarios for battlestaff and aircrews. The
contractor is also responsible for the architecture of the IT system and providing the
Government with recommendations for hardware and system development/enhancements.
The issues identified with this task order are as follows:
         • No Determinations and Findings document justifying the use of a time-and-
             materials task order.
         • No Acquisition Plan.
         • No indication of FTS oversight with regard to contractor billings.




                                          A-4
       SCHEDULE OF ORDERS REVIEWED IN MID-ATLANTIC REGION
                            (Continued)

10. R320021505
This firm, fixed-price task order, valued at $16,428,404 at the time of our review, was issued
on behalf of the Defense Security Service to provide all needed functions for operations
support for the Case Control Management System Information System application software
and hardware servers. The issues identified with this task order is as follows:
        • No Acquisition Plan.
        • No indication of FTS oversight with regard to contractor billings.
        • This task order contains an increase in ODCs for new computer hardware and
            software maintenance of approximately $525,000. However, there is no evidence
            that FTS determined these costs to be fair and reasonable.

11. R320032061
This time-and-materials task order, valued at $2,218,808 at the time of our review, was
issued on behalf of the Medical Communications for Combat Casualty Care (MC4) Product
Management Office in Ft. Detrick, MD, to provide IT support services as they relate to
legacy systems, systems under development, operational systems along with any associated
migration efforts to include training and fielding of hardware. The issues identified with this
task order are as follows:
        • No Determinations and Findings document justifying the use of a time-and-
            materials task order.
        • No Acquisition Plan.
        • There was no “Not To Exceed” Amount listed on the Form 300.
        • No indication of FTS oversight with regard to contractor billings.

12. R320020897
    This time-and-materials task order, valued at $3,283,066 at the time of our review, was
    issued on behalf of the Defense Finance and Accounting Service to provide continuation
    of end-user support for the Uniform Microcomputer Disbursing System, the Evaluation
    and Analysis Reports System, and JUMPS Temporary Lodging Allowance application
    and other designated system interfaces. The issues identified with this task order are as
    follows:
        • No Determinations and Findings document justifying the use of a time-and-
           materials task order.
        • No Acquisition Plan.
        • As discussed in the body of the report, the lack of FTS oversight of contractor
           billings resulted in overcharges passed on to the Government. The vendor is
           currently charging a higher ODC Multiplier rate than permitted under the terms of
           the Millenia Lite contract.




                                           A-5
       SCHEDULE OF ORDERS REVIEWED IN MID-ATLANTIC REGION
                            (Continued)

13. R320030605
    This time-and-materials task order, valued at $820,366 at the time of our review, was
    awarded by the Mid-Atlantic Region CSC for the purpose of assuming administrative
    responsibility for the original task order awarded by Region 10. It was given to Region 3
    subsequent to Region 10 awarding Option Year 1. The Statement of Work describes
    engineering and technical support services required to support the H-60 Modifications
    Integrated Program Team to enhance H-60 Helicopter mission capabilities. With the
    execution of Option Year 2, this task order was assigned a new number and moved from
    the IT Fund to the General Supply Fund, as this was considered a Professional
    Engineering Services order. The issues identified with this task order are as follows:
        • No Determinations and Findings document justifying the use of a time-and-
            materials task order.
        • No Acquisition Plan.
        • The file does not contain documentation attesting to the price reasonableness of
            the ODCs. One of the ODCs represented the leasing of space, as directed by the
            Statement of Work. Other materials included in this task order are ballistic floor
            armor kits, engine upgrade brackets, and probe lighting fixtures.
        • No indication of FTS oversight with regard to contractor billings.

14. R320000232
    This time-and-materials task order, valued at $60,444,450 at the time of our review, was
    issued on behalf of the Defense Security Cooperation Agency to provide personnel to
    support various aspects of the Defense Security Assistance Management System
    (DSAMS) project. The work under this order includes software deployment of the first
    DSAMS module, and analysis, development and support of three remaining modules.
    The issues identified with this task order are as follows:
        • No Determinations and Findings document justifying the use of a time-and-
           materials task order.
        • No Acquisition Plan.
        • Only one bid was received for this procurement. FTS did not comply with the
           Special Ordering Procedures when competing this procurement. FTS forwarded
           the Request for Task Order Proposal to three vendors. However, under the
           Special Ordering Procedures, for proposed orders exceeding the maximum order
           threshold, the requests for proposals should be provided to additional schedule
           contractors offering services that will meet the agency’s needs.
        • The file did not contain documentation attesting to the price reasonableness of the
           ODCs. One of the ODCs represented the leasing of office space in Virginia. FTS
           officials stated the lease pricing was determined fair and reasonable in
           coordination with PBS and a commercial realty rate examination. However,
           documentation evidencing this could not be located.




                                           A-6
           SCHEDULE OF ORDERS REVIEWED IN MID-ATLANTIC REGION
                             (Continued)

       •   It was reported that this lease was necessary due to the contractor’s inability to
           recruit qualified personnel in the Mechanicsburg, PA area (the client’s location).
           However, because of this situation, the ODCs for the task order were further
           increased by way of travel costs for trips back and forth between Mechanicsburg
           and Virginia. These trips carried an estimated amount, on average, in excess of
           $110,000 per year.
       •   No indication of FTS oversight with regard to contractor billings.

15. R320011038
    This time-and-materials task order, valued at $5,377,180 at the time of our review, was
    issued on behalf of the Defense Supply Center Philadelphia (DSCP). The objective of
    the statement of work is to provide operations support for the DSCP Data Center and
    corporate mid-tier applications running on UNIX and NT servers. The issues identified
    with this task order are as follows:
        • No Determinations and Findings document justifying the use of a time-and-
            materials task order.
        • No Acquisition Plan.
        • Only one bid was received for this procurement. FTS did not comply with the
            Special Ordering Procedures when competing this procurement. FTS forwarded
            the Request for Task Order Proposal to three vendors. However, under the
            Special Ordering Procedures, for proposed orders exceeding the maximum order
            threshold, the requests for proposals should be provided to additional schedule
            contractors offering services that will meet the agency’s needs.
        • The Independent Government Estimate (IGE) found in the ITSS did not provide
            any detailed breakdown. FTS responded that the IGE was “generated using hi
            [sic] level historical and summary information. Detailed information was not
            input into ITSS or sent to the Contracting Officer. This was a GSA schedule
            acquisition and detailed skill levels were not appropriate for comparison purposes
            as they differ among different schedules.”
        • No indication of FTS oversight with regard to contractor billings.

16. R320010223
    This time-and-materials task order, valued at $3,776,000 at the time of our review, was
    issued on behalf of the Headquarters Air Combat Command Directorate of Aerospace
    Operations to assist the Air Force in determining the operational warfighting command
    and control utility of candidate technologies, which conforms to its mission to modernize
    force level command and control through “incubating” new technologies and associated
    processes at the operational level of warfare. The issues identified with this task order
    are as follows:
        • No Determinations and Findings document justifying the use of a time-and-
            materials task order.
        • No Acquisition Plan.




                                           A-7
       SCHEDULE OF ORDERS REVIEWED IN MID-ATLANTIC REGION
                            (Continued)

       •   Only one bid was received for this procurement. FTS did not comply with the
           Special Ordering Procedures when competing this procurement. FTS forwarded
           the Request for Task Order Proposal to three vendors. However, under the
           Special Ordering Procedures, for proposed orders exceeding the maximum order
           threshold, the requests for proposals should be provided to additional schedule
           contractors offering services that will meet the agency’s needs.
       •   No indication of FTS oversight with regard to contractor billings.

17. R320030863
This time-and-materials task order, valued at $2,891,350 at the time of our review, was
issued on behalf of the Office of Naval Research (ONR) Middle Pacific (MIDPAC) located
in Arlington, VA. It was to provide information technology support for research and
development programs, including Advanced Integrated Radar Electronics and Photonics
(AIREP) for the ONR MIDPAC locations in Virginia as well as Kauai, HI. The issues
identified with this task order are as follows:
        • No Determinations and Findings document justifying the use of a time-and-
            materials task order.
        • No Acquisition Plan.
        • The file did not contain documentation attesting to the price reasonableness of the
            ODCs. One of the ODCs represented the leasing of approximately 2,400 square
            feet of office space in Hawaii, as directed by the Statement of Work. Other than
            confirming with Defense Contract Audit Agency that the contractor had an
            approved purchasing system, there does not seem to be any indication of FTS’
            efforts in determining whether the lease price was fair and reasonable. Also, the
            ODCs included the purchase of five Dell computers for use by contract
            employees. Per the client representative, these computers were turned over to
            ONR MIDPAC at the conclusion of the task order. However, the file does not
            demonstrate how the costs for these computers were determined to be fair and
            reasonable. Lastly, we determined this order contained an ODC that was handled
            improperly. The ODC represented the cost for moving a subcontractor employee
            and two family members to Hawaii at an estimated cost of $25,000. The file
            indicates the FTS representatives informed the client that they were not required
            to pay the relocation costs and that if they did, under FAR 31.205-35, the costs
            would be allowable “so long as the task is not less than 12 months.” Despite
            FTS’ comments, the client agency insisted that the contractor include these
            relocation costs in its proposal, and FTS agreed. However, we found at the time
            of the actual move of the contractor employee, the task order had less than one
            year of performance left, a violation of FAR 31.205-35.
        • No indication of FTS oversight with regard to contractor billings.




                                          A-8
       SCHEDULE OF ORDERS REVIEWED IN MID-ATLANTIC REGION
                            (Continued)

18. EPG179772
This task order is listed in the database as being awarded on a labor hour basis and having a
value of $9,146,178. However, FTS was unable to locate this task order file, stating that it
could not be found in the office and it is possible that it was closed out and sent to the
Federal records center. The task order number, when compared to other Mid-Atlantic
Region numbers, appears to confirm it is an older task order, giving credence to the
possibility that it was sent to storage. As a result of FTS being unable to locate this file, we
could not review the details behind this procurement.

19. R320030817
    This time-and-materials task order, valued at $12,417,957 at the time of our review, was
    issued on behalf of the Air Combat Command, 480th Intelligence Group. Duties include
    network      monitoring,     configuration     management,      systems     administration,
    communications security management, and hardware/software network configuration,
    etc. The issues identified with this task order are as follows:
        • No Determinations and Findings document justifying the use of a time-and-
           materials task order.
        • No Acquisition Plan.
        • The contractor included as an ODC under this task order a facilities charge for use
           of office space in its Chesapeake, VA location. The contractor allocates the cost
           of this facility to each of its Programs/Organizations occupying the space.
           However, we could not find any documentation evidencing FTS verified these
           costs are not already included in the contractor’s already loaded labor rates as part
           of its indirect expense pool. While this facilities charge does not represent major
           dollars under the task order, this should have been verified by FTS. Of particular
           concern is the fact that two of the contractor’s other Programs/Organizations
           within this same facility are its Human Resources Staff and its Business
           Development unit (indicated on the contractor’s facilities costs allocation sheet as
           G&A). Costs associated with these types of organizations are typically included
           as a component of a company’s loaded labor rates representing overhead costs.
           Thus, this may be a situation where the Government is paying for the facilities
           costs both directly as an ODC and also via the contractor’s billable labor rates.
        • No indication of FTS oversight with regard to contractor billings.




                                            A-9
       SCHEDULE OF ORDERS REVIEWED IN MID-ATLANTIC REGION
                            (Continued)

20. R320030411
    This time-and-materials task order, valued at $3,269,061 at the time of our review, was
    issued on behalf of the Commander in Chief, U.S. Atlantic Fleet, Comptroller, to provide
    operations and maintenance support of its financial management system, to include
    enhancing/maintaining legacy modules, configuration management of software and
    hardware, implementation of software upgrades, etc. The issues identified with this task
    order are as follows:
        • No Acquisition Plan.
        • No Determinations and Findings document justifying the use of a time-and-
            materials task order was prepared at the time of the award. This order was
            awarded on December 26, 2002. The Determinations and Findings document was
            not submitted until April 2004.
        • Modification Number 2, dated September 18, 2003, exercised Option Year 1
            under the task order. However, the contracting officer’s determination to exercise
            this option was not submitted until April 2004.
        • No indication of FTS oversight with regard to contractor billings.

21. R320010841
This time-and-materials task order, valued at $982,349 at the time of our review, was issued
on behalf of the Commander in Chief, U.S. Atlantic Fleet, N7 and N8 Directorates, to
provide research, special studies, analyses and assessments. Per the Statement of Work, this
order includes IT-related tasking such as: requirements support of new training support
systems and programs, development of interfaces with established readiness systems, rapid
application development support, installation and operations support of software based
methodologies, and software development support to develop, field and test prototype
software systems based on commercial off-the-shelf products. The issues identified with this
task order are as follows:
        • No Determinations and Findings document justifying the use of a time-and-
            materials task order.
        • No Acquisition Plan.
        • Only one bid was received for this procurement. FTS did not comply with the
            Special Ordering Procedures when competing this procurement. FTS forwarded
            the Request for Task Order Proposal to three vendors. However, under the
            Special Ordering Procedures for Services Requiring a Statement of Work, for
            proposed orders exceeding the maximum order threshold, the requests for
            proposals should be provided to additional schedule contractors offering services
            that will meet the agency’s needs.
        • No indication of FTS oversight with regard to contractor billings.




                                          A-10
       SCHEDULE OF ORDERS REVIEWED IN MID-ATLANTIC REGION
                            (Continued)

22. R320020295
This fixed-price task order, valued at $2,558,822 at the time of our review, was issued on
behalf of Air Force Base Conversion Agency for the identification, compilation, and
presentation of Base Realignment and Closure (BRAC) un-liquidated outstanding obligations
environmental funds. The issues identified with this task order are as follows:
       • While this task order requires the use of various information systems, to include
           word processing, scheduling, spreadsheet, database, graphics, etc., we believe the
           overall procurement is for financial-related services.           Included in the
           “Requirements” portion of the Statement of Work are the following: 1) Expedite
           documents through the Defense Finance Accounting System (DFAS); 2)
           Reconcile funding discrepancies; 3) Identify excess funds; 4) Realign funds; 5)
           Technical Interchange, Status, Review and Other Meetings; and 6) Liquidate all
           un-liquidated outstanding obligations. Based on this, we believe this task order is
           for consulting/financial management activities rather than for IT services. As
           such, this task order would have been better administered/funded using the
           General Supply Fund rather than the IT Fund.
       • No Acquisition Plan.
       • No indication of FTS oversight with regard to contractor billings.




                                          A-11
B-1
 AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
CONTROLS AND TESTING OF THOSE CONTROLS
   FOR THE SOUTHEAST SUNBELT REGION
         CLIENT SUPPORT CENTER
    REPORT NUMBER A040191/T/5/Z05003
            DECEMBER 9, 2004




                 IV
                   AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                  CONTROLS AND TESTING OF THOSE CONTROLS
                     FOR THE SOUTHEAST SUNBELT REGION
                           CLIENT SUPPORT CENTER
                      REPORT NUMBER A040191/T/5/Z05003
                              DECEMBER 9, 2004

                                 TABLE OF CONTENTS
                                                           Page

BACKGROUND                                                 IV-1

OBJECTIVE, SCOPE, AND METHODOLOGY                          IV-2

RESULTS OF AUDIT                                           IV-2

     Central Office FTS Controls                           IV-3

        Implementation of Section 803 of the National      IV-3
        Defense Authorization Act

        Legal Review Policy                                IV-3

        Acquisition Checklists                             IV-3

        Other Controls                                     IV-3

     Review of Procurement Actions                         IV-3

        Other Direct Costs                                 IV-4

        Work Awarded to 8(a) Contractor                    IV-5

        Frequent Use of T&M Tasks                          IV-7

        Independent Government Cost Estimates              IV-8

        Service Contract Act                               IV-8

     Conclusion                                            IV-9

     Management Comments                                   IV-9

     Internal Controls                                     IV-9
            AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
           CONTROLS AND TESTING OF THOSE CONTROLS
              FOR THE SOUTHEAST SUNBELT REGION
                    CLIENT SUPPORT CENTER
               REPORT NUMBER A040191/T/5/Z05003
                       DECEMBER 9, 2004

                       TABLE OF CONTENTS
                             (Continued)



                                                                      Page

A. Schedule of FY04 Orders Reviewed in The Southeast Sunbelt Region    A-1

B. Management’s Response to Draft Report                               B-1
IV-1
The Region 4 CSC reported the following revenue:

                   Fiscal Year              Revenue

                   2003                     $896,196,400

                   2004                     $962,904,700



Objectives, Scope and Methodology

The audit objectives were to determine whether the CSC (1) has conducted
procurements in accordance with the Federal Acquisition Regulation (FAR) and the
terms and conditions of the contracts utilized, (2) has implemented controls mandated
by Central Office FTS in FY 2004, and (3) has implemented additional controls to
improve the procurement process.

To accomplish these objectives, we:

       •   Reviewed procurement documentation related to a judgmental sample of 10 task
           orders16 valued at $328,777,067;
       •   Reviewed laws, regulations, and applicable guidance; and
       •   Interviewed CSC personnel.

The audit was conducted during July and August 2004 in accordance with generally
accepted Government auditing standards.


Results of Audit

Our review showed that the CSC has implemented various controls to improve the
procurement process. In addition, our limited testing of procurements during March
through May 2004 indicated that the CSC has made substantial progress in improving
appropriate documentation for new awards.

However, our limited review also identified certain weaknesses, primarily in the
remediation of some issues relating to existing task orders. For example, we did not
always find sufficient documentation to show that the Government received fair and
reasonable pricing, and we noted frequent use of T&M task orders. We also identified
task orders that may not be in compliance with the Service Contract Act.




16
     There were 10 task orders included in our sample from the period March through May 2004. The
     sample was comprised of: (i) three new task orders; (ii) two new task orders which actually represented
     sub-tasks to existing master task orders; and (iii) five task orders which were originally awarded prior to
     March 1, 2004, but were modified during the period March through May 2004.

                                                      IV-2
Central Office FTS Controls

Since the OIG’s review of FY 2003 CSC procurements in Regions 4, 6 and 10, Central
Office FTS has initiated new policies and procedural controls to improve the CSC
control environment. We reviewed the following new controls:

Implementation of Section 803 of the National Defense Authorization Act. On March 11,
2003, in support of Section 803, FTS issued Acquisition Policy Letter No. 2003-01. The
policy affects all orders for services greater than $100,000 placed after October 25,
2002, and requires “fair notice of the intent to make the purchase” and “affords all
contractors responding to the notice a fair opportunity to submit an offer.” Posting of a
request for quotations on the GSA electronic quote system “e-Buy”
(www.gsaAdvantage.gov), is one medium for providing fair notice to all contractors as
required.

All orders in our sample were in compliance with the FTS Commissioner’s memo
implementing Section 803.

Legal Review Policy. In a memo dated October 1, 2003, FTS issued policy guidance
implementing additional legal review requirements to assure compliance with all
applicable laws, regulations, and other requirements. For example, legal concurrence is
required for new contract awards over $5 million; actions resulting in awards of Blanket
Purchase Agreements; actions resulting in the issuance of a task/delivery order that
contains leasing provisions, regardless of dollar value; and actions that result in the
issuance of a task/delivery order under existing vehicles in excess of $5 million.

The CSC awarded one new task order in our sample that exceeded $5 million and this
task order was in compliance with the legal review policy.

Acquisition Checklists. In a memo dated October 6, 2003, FTS Central Office
developed standard checklists to provide FTS associates with guidance and tools prior
to awarding contracts and task orders and to ensure consistency in the acquisition
process. Examples of required documentation include: requirement description, market
research data, acquisition plans, etc.

Our review indicated that for the three new awards, the acquisition checklists were
properly completed and acquisition plans were available.

Other Controls. FTS issued guidance establishing Procurement Management Reviews,
in a memo dated November 14, 2003, and Project Closeout Guidance, in a memo dated
May 28, 2004. The CSC was in the process of implementing these controls.

Review of Procurement Actions

Our review of regional CSC procurement actions executed during March through May
2004 showed that the CSC has made progress in improving appropriate documentation
for new awards; however, we identified some weaknesses, primarily in the remediation


                                          IV-3
of some issues relating to existing task orders awarded prior to implementation of
management controls.

Other Direct Costs

We reviewed a modification to task order 4TPB21033700 (Mod 15) which exercised an
additional option year for the contractor (Anteon) to provide labor, maintenance,
materials, supply support, and software for U.S. Army simulation centers maintained by
the FTS client, U.S. Army Program Executive Office Simulation, Training, and
Instrumentation (PEO-STRI).

The original value of the task order was $73.1 million and included other direct costs
(ODCs) of $18.6 million. The ODCs included about $17 million in computer equipment
and about $1.6 million in travel, training, program management, and repair parts. By
March 1, 2004, when modification 15 was signed, the total value of the option year had
increased to $93.3 million, which included revised ODCs of $26 million. The CSC was
unable to provide an itemization of the computer equipment, the vendor or vendors
used, or a price reasonableness determination. CSC personnel explained that their
contractual responsibilities for ordering and determining the price reasonableness of the
ODCs were delegated to Anteon and that the supporting procurement documentation
was maintained by Anteon. We reviewed the letter of delegation dated March 18, 2003,
which provided for the procurement of services, not commodities or computer
equipment.

As part of our audit of this task order, we reviewed Anteon invoices dated May 14, 2003,
and July 10, 2003, for ODC costs of $964,377 and $4,550,037, respectively. We then
reviewed the monthly financial summaries provided by Anteon in order to analyze the
supporting documentation for the ODC billings. The summaries did not provide any
listings or itemizations of the ODC equipment that was billed and shipped to PEO-STRI.
The ODCs were invoiced as single line items without detailed supporting information.
We were unsuccessful in our attempts to get either Anteon or PEO-STRI to provide us
with a breakdown of the ODCs.

Subsequent to our issuance of the discussion draft audit report, the CSC requested
Anteon to provide the requested information for the two Anteon invoices discussed
above.

Our review of this information disclosed that the FTS client, PEO-STRI directed Anteon
to request formal proposals from four firms, Dell, IBM, Hewlett Packard, and Gateway.
All the firms submitted bids except IBM. Anteon awarded the $6.7 million contract to
Dell, the high bidder, which was about $700,000 more than the low bid. Anteon’s
written award summary classified the procurement as sole source and Government
directed. The Anteon files that were provided to the auditor did not contain a sole
source justification. The award summary also stated that the determination of price
reasonableness was based on a complete program study requested by PEO-STRI.




                                          IV-4
The CSC based its delegation of authority on FAR 51.102, which allows a contractor to
use Government supply sources such as FSS schedules. We were unable to determine
if the models purchased from Dell were schedule items because of a lack of detail in the
supporting documentation.        The CSC in essence relinquished its procurement
responsibilities to the contractor.

Anteon made sole source and open market purchases for PEO-STRI. Some of the
open market purchases exceeded $100,000 and were subject to the provisions of
Section 803 of the National Defense Authorization Act, yet the summary of bids
provided by Anteon showed a response by only two bidders rather than three
respondents as required by Section 803.

In our opinion, the CSC delegated contracting functions to Anteon that are inherently
Governmental. FAR. 7.503 specifies procurement functions which are considered to be
inherently Governmental. These functions include the following:

   •   Determining what supplies or services are to be acquired by the Government
       (although an agency may give contractors authority to acquire supplies at prices
       within specified ranges and subject to other reasonable conditions deemed
       appropriate by the agency);
   •   Awarding contracts;
   •   Determining whether contract costs are reasonable, allocable, and allowable.

We also noted that the ODC costs shown on these invoices were marked up by a
general and administration (G&A) rate. Although the G&A rate may be approved by
Defense Contract Audit Agency (DCAA), we question whether the G&A rate was
appropriately applied to the ODC costs. The FTS contract with Anteon is an Answer
contract and Section G.2.2 states that the hourly rates used under this contract are “fully
loaded“ rates that include G&A. In our opinion, the fully loaded hourly rates already
provide for the recovery of G&A expenses. Since Anteon procures the ODCs from other
vendors, Anteon may be eligible to apply a material-handling rate to the ODCs. A
DCAA report dated June 28, 2004 shows that Anteon has approved material handling
rates for the year 2004. These rates are all less than the G&A rate charged on the
ODCs under this task order and vary with the division performing the work.

Work Awarded to 8(a) Contractor

Task order 4TNC17031045 procured computer storage equipment from an 8(a)
contractor, TKC Communications (TKC). The task order was for the delivery of
equipment to the Navy Personnel Command. The equipment was actually furnished by
EMC Corporation (EMC). TKC functioned as a middleman between EMC and Navy
Personnel Command. The technical proposal was prepared by EMC, not TKC. A
statement of work was not prepared by the Government. Although TKC submitted a
cost proposal, it did not itemize the costs of the various types of equipment and
software being proposed. The costs were bundled into various categories such as “total
services”, “training”, “total hardware and software” etc. The cost proposal also did not


                                           IV-5
detail the fees or services provided by TKC. The independent Government estimate
and the cost proposal were both dated March 13, 2003.

We contacted TKC representatives and determined that TKC did not manufacture any
of the equipment or provide any of the labor for this task order. TKC charged a handling
fee which was not itemized in their cost proposal. We determined through our review of
the TKC contract that TKC was allowed to charge a handling fee up to a seven percent
ceiling. TKC, as an 8(a) contractor, was required to perform at least 50 percent of the
service requirements under this contract with its own personnel in accordance with FAR
52.219-14(b)(1) which states “Services (except construction). At least 50 percent of the
cost of contract performance incurred for personnel shall be expended for employees of
the concern.” The value of services required by this task order was approximately
$687,206. They were not provided by TKC personnel.

Since the 50 percent requirement was by “contract performance,” not by individual task
order, we had to determine whether TKC provided their services under the overall FSS
contract. Therefore, we contacted GSA Federal Supply Service (FSS) contracting
personnel and found that this was the only order placed under TKC contract
GS06T02BND0587. Furthermore, we were told that the contract expired on July 21,
2004. GSA did not exercise the option year because of the lack of orders placed under
the contract. Consequently, TKC did not provide any of the personnel services required
under contract GS06T02BND0587 and made no attempt to meet the contract’s 50
percent service requirement. The purpose of this limitation is to limit subcontracting by
8(a) firms and provide small disadvantaged businesses with real work experience and,
thereby, avoid the use of 8(a) contracts as a conduit to other contractors, like EMC, to
benefit from sole source procurement.

FAR 19.805-1(a) allows sole source procurements from 8(a) contractors for non-
manufacturing orders with a value under $3 million. TKC is an Alaskan Native 8(a) firm
and is not subject to the $3 million limitation. Consequently, although the order
exceeded the 8(a) threshold , FTS was able to procure services/commodities on a sole
source basis from a large business using the preferred status of TKC.

EMC contract GS-35F-0088K has a maximum order threshold of $500,000. In our
opinion, FTS should have requested competitive bids on this task order.

Although contract GS06T02BND0587 expired, TKC is using several other Government
contracts to obtain FTS orders. The other TKC Government contracts are as follows:
GS04T03BFD0016, NBC-HD-03-0029, GS04T04DBP0303, GS06T02BND0471,
GS07T04BGM151, and a new 8(a) Stars award (GS-06F-0103Z).

During our exit conference, Regional management contended that they should not be
held responsible for an 8(a) contractor’s non-compliance with the 50 percent contract
performance requirement. However, in our opinion, there were certain “red flags” (e.g.,
the proposal was prepared by EMC, not TKC, and there was no statement of work) that
should have alerted the CSC to the potential problem.



                                          IV-6
Frequent Use of T&M Tasks

In 1991, the Office of Federal Procurement Policy issued Policy Letter 91-2, Service
Contracting, which established that “It is the policy of the Federal Government that (1)
agencies use performance-based contracting methods to the maximum extent
practicable when acquiring services, and (2) agencies carefully select acquisition and
contract administration strategies, methods, and techniques that best accommodate the
requirements.” FAR Section 37.102 states that performance-based service contracting
is the preferred method for acquiring services and requires agencies to use
performance based contracting to the maximum extent practicable. The FAR cites the
following order of precedence:

   1. A firm-fixed price performance-based contract or task order
   2. A performance-based contract or task order that is not firm-fixed price
   3. A contract or task order that is not performance-based.

The CSC frequently used T&M tasks rather than firm fixed-price tasks. Of the ten
orders for services that we reviewed, seven were T&M tasks, however only one was a
new task order. A T&M contract provides for acquiring services on the basis of direct
labor hours at fixed hourly rates and materials at cost. The FAR requires the contracting
office to prepare a written justification for use of a T&M contract. T&M contracts are the
least preferred method of acquiring services because under the FAR this type of
contract provides no incentive to the contractor for cost control or labor efficiency. FAR
16.601 states, “A time-and-materials contract may be used only when it is not possible
at the time of placing the contract to estimate accurately the extent or duration of the
work or to anticipate costs with any reasonable degree of confidence.”

Our audit sample included four task orders awarded on a T&M basis for labor intensive
service contracts that included repetitive work over a period of years. For example, task
order 4TNL17021014 provided computer personnel to support the technical operations
of the Navy Personnel Command. The task order awarded to Computer Systems
Technology Inc. had a base year of $6.6 million and eight option years at a cost of $6.8
million per option year. Labor hours were consistently projected at 189,571 man hours
per year and the labor classifications used to perform the work remained the same from
year to year. The FTS justification for the T&M contract cited “breakdowns”, “repairs”,
and “program revisions.”

FAR 37.602-5 titled “Follow-on and repetitive requirements” states that “When acquiring
services that previously have been provided by contract, agencies shall rely on the
experience gained from the prior contract to incorporate performance-based contracting
methods to the maximum extent practicable. This will facilitate the use of fixed-price
contracts for such requirements for services.” In our opinion, the Government’s needs
involved repetitive labor requirements that would have been better served by a firm
fixed price, performance-based contract for this task order.




                                          IV-7
The sample included three other labor-intensive T&M task orders that involved similar
follow-on and repetitive work, which would have been conducive to a firm fixed price
performance, based contract. These task orders are shown below:

   •   4TNL17021006, Computer Systems Technology
   •   4TWP21048340, Morgan Research
   •   4TWG21044420, Cobro Corp.

Independent Government Cost Estimates

GSA Order APD P 2800.14, dated April 22, 1988, establishes procedures and
guidelines for the use of all GSA employees in preparing the information required for an
effective and timely procurement request. The order further states that a “detailed cost
estimate must be received by the contracting officer prior to issuance of the solicitation.”

Our review disclosed that the CSC usually relies on the estimates provided by the client
agencies. In the case of four task orders, we found that the estimates were not signed
or dated by the client agency, and in the case of another task order the estimate had the
same date as was shown on the cost proposal. We also found that three of the task
orders did not have estimates.

Based on the criteria cited above, we believe that independent Government estimates
are an important part of the procurement process. The name of the estimator as well as
the date of the estimate is necessary to establish the source of the information and to
determine the estimate’s independence. This is in accordance with GSA Order APD P
2800.14 and good business practice.

Service Contract Act

Task orders issued by the CSC under the Millennia Lite contract may not be in
compliance with the Service Contract Act of 1965. The Service Contract Act provides
for minimum wages and fringe benefits for employees working under service type
contracts. Most Millennia Lite job categories cover highly technical positions that are
exempt from the Service Contract Act; however, lower level computer operators and
data entry personnel fall under the provisions of the Service Contract Act and require a
DOL wage determination.         Most of the labor hours ordered for task orders
4TNL17021014 and 4TNL17021006 were for labor categories that are subject to the
Service Contract Act.

Task orders 4TNL17021014 and 4TNL17021006 were awarded to Computer Systems
Technology, and were the only two Millennia Lite orders that were included in our audit
sample for this region. The task orders included base year labor costs for computer
operators and data entry personnel (covered labor categories) that were a significant
percentage of total base year labor costs. For task order 4TNL17021014, covered
personnel accounted for $1.5 million out of $6 million in total base year labor costs. For
task order 4TNL17021006, covered personnel accounted for $3.1 million out of $4.7
million in total base year labor costs. The CSC did not obtain a wage determination for

                                           IV-8
these job classifications, as generally required by the Act, because a provision of the
Millennia Lite contract states that the entire contract is exempt from the Service
Contract Act's provisions.

We note that other GSA-managed Government Wide Acquisition Contracts, including
ANSWER, incorporate provisions of the Service Contract Act. The clause in the
Millennia Lite contract that exempts all its labor categories from the provisions of the
Service Contract Act should be reexamined. The better practice may be to incorporate
the Service Contract Act and its related wage determinations. We have referred this
issue to the Commissioner, FSS, for appropriate action.

Conclusion

The CSC has made substantial progress in implementing controls to improve its
procurements. Specifically, the CSC has implemented various new policies and
procedural controls to improve the internal control environment. However, our testing of
procurement actions for the period March though May 2004, showed that the CSC
needs to focus not only on the integrity of new awards but existing orders that are at risk
due to actions that have occurred during the life of the task orders awarded prior to
implementation of management controls. Our review showed that while there is
evidence that the CSC has begun remediation efforts, additional work is needed to
correct weaknesses that remain.

As indicated in our January 2004 report on the FTS CSC, we believe that steps to
remedy these problems require a comprehensive, broad-based strategy that focuses on
the structure, operations and mission of FTS as well as the control environment. Based
on the comprehensive recommendations contained in that report, no additional overall
recommendations are deemed necessary at this time.

Management Comments

The Regional Administrator generally concurred with the results as presented in this
report. His written response is included as Appendix B.

Internal Controls

We assessed the internal controls relevant to the CSC’s procurements to assure that
the procurements were made in accordance with the FAR and the terms and condition
of the contracts utilized. Our review showed that the CSC has implemented various
controls to improve the procurement process. However, our limited testing of recent
procurement actions identified weaknesses, primarily in the remediation of some issues
relating to existing task orders awarded prior to implementation of management
controls. For example, we did not always find sufficient documentation to show that the
Government received fair and reasonable pricing, and we noted frequent use of T&M




                                           IV-9
IV-10
APPENDIX
                         AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                        CONTROLS AND TESTING OF THOSE CONTROLS
                           FOR THE SOUTHEAST SUNBELT REGION
                                 CLIENT SUPPORT CENTER
                            REPORT NUMBER A040191/T/5/Z05003

                                             APPENDIX A
           SCHEDULE OF FY04 ORDERS REVIEWED IN THE SOUTHEAST SUNBELT REGION


                   Order                              Contract                         Task Order
 Order Number                      Contractor                           Client           Value
                                                                                                  Notes
                   Date                                Type
4TFG57045003      05/28/04 Dell Marketing LP      Schedules      Air Force             $5,444,293   1
4TWP97043932      03/09/04 Northrop Grumman       PES            DOD (SIAP)             4,417,475   2
4THP21046034      03/29/04 AAI Engineering        Mobis          Army                   3,846,153   3
4TNC17031045      04/06/04 TKC                    Fast 8(a)      Navy                   5,518,059   4
4TWG21044420      03/12/04 Cobro                  PES            Army                   3,475,961   5
4TPB21033700/15 03/01/04 Anteon                   Answer         Army                 230.712,081   6
4TNL17021014/51 04/06/04 Computer Sys. Tech.      Millennia Lite Navy                  50,202,667   7
4TNL17021006/40 03/16/04 Computer Sys. Tech.      Millennia Lite Navy                  13,341,835   8
                  04/19/04                                       Center for Disease
4TAB75017003/16              Anteon               Answer                               11,721,037   9
                                                                 Control
4TWP21048340      04/02/04 Morgan Research        PES            Army                   2,264,950 10




                                                A-1
      Notes for Schedule of Task Orders Reviewed

      New Awards

1. The CSC requested bids on this task order through GSA e-Buy. Dell Marketing LP was the
   only bidder and was awarded the task order on May 28, 2004, on a T&M basis. An
   estimate for this procurement was available but it did not show the name of the estimator or
   the date of the estimate.

2. The CSC requested bids on this task order through GSA e-Buy. Northrop Grumman was
   the only bidder and was awarded the firm fixed price task order on March 9, 2004. An
   estimate for this procurement was available but it did not show the name of the estimator or
   the date of the estimate.

3. The CSC procured this firm fixed price task order with a sole source justification. AAI
   Engineering was awarded the firm fixed price task order on March 29, 2004. An estimate
   was available and it was signed and dated.

      Existing Task Orders With Contracting Actions Between March and May 2004

4. Task order 4TNC17031045 is discussed in the body of this report.

5. This task order, 4TWG21044420, is a sub task to master task 4TWG21034377. Both task
   orders were awarded to Cobro Corporation on a T&M basis. The bill of materials stated
   this order is a subtask to support the same requirements in the master task. The master
   task provided technical support requirements for the Army Special Operations Command in
   order to increase aircraft availability and improve operational efficiency. The master task
   was for a base year cost of $1.4 million and four option years at a cost of approximately
   $3.5 million per year. The task order procured nine technical labor classifications. The
   labor classifications and the labor hours remained the same in each option year. The hours
   for the base year differed from the option years since it was only five months in duration.
   The labor costs for each year were consistent and approximately the same. The
   Determination and Findings justifies the use of T&M by stating it is impossible “to estimate
   accurately the extent of work required.” This is a very general justification and we believe
   that a firm fixed price performance based contract would have better served the
   Government. An estimate for the procurement of the master task was available but it was
   not signed or dated.

6. Task Order 4TPB21033700 is discussed in the body of this report.

7. Task Order 4TNL17021014 is discussed in the body of the report.

8. Modification 40 to Task Order 4TNL17021006 is discussed in the body of the report.

9. Modification 16 to Task Order 4TAB75017003 provides additional funding. This T&M task
   order awarded to Anteon Corporation provided computer personnel support for a disease



                                               A-2
   control information system. A Government estimate was not available for this procurement.

10. Task Order 4TWP21048340 is a subtask to master task 4TWP21048000. Both task orders
    were awarded to Morgan Research Corporation on a T&M basis. The subtask provided for
    eight personnel. Seven of the positions were estimated at 2080 hours per year and the
    eighth position was estimated at 1040 hours per year. The labor classifications and labor
    hours remained the same in the base year as well as each of the option years. The costs
    for each year were likewise consistent. The Determination and Findings justifies the T&M
    contract based on the fact that the quantity and type of materials were unknown as of the
    beginning date of this task order. We reviewed the proposal and found the line item for
    materials did not show a description of the materials to be purchased or an estimate. In our
    opinion, a firm fixed price performance based contract for the labor costs would have better
    served the Government’s interests. A Government estimate for the procurement of the
    master task was available but it was not signed or dated.




                                               A-3
     APPENDIX B
MANAGEMENT RESPONSE




   B-1
B-2
  AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
CLIENT SUPPORT CENTER, GREAT LAKES REGION
     REPORT NUMBER A040117/T/5/Z05002
             DECEMBER 9, 2004




                   V
                    AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                  CLIENT SUPPORT CENTER, GREAT LAKES REGION
                       REPORT NUMBER A040117/T/5/Z05002

                                  TABLE OF CONTENTS
                                                                           Page

RESULTS OF AUDIT                                                            V-1

      Brief                                                                 V-1

      Results of Fiscal Year 2003 Review                                    V-1

              Inadequate Competition                                        V-1

              Misuse of Contract Vehicle                                    V-4

              Improper Contracting Actions                                  V-7

              Inappropriate Use of the IT Fund                              V-7

              Frequent Use of Time and Material Task Order                  V-8

              Lack of Support for Fair and Reasonable Pricing              V-10

              Inadequate Contract Administration and Project Management    V-11

              Equipment Replacement Without Contracting Officer Approval   V-12

              Lack of Acquisition Plans                                    V-15

              Cause of Improper Procurement Practice                       V-15

      Results of Fiscal Year 2004 Review                                   V-16

              Improper and Questionable Contracting Practices              V-16

              Central Office FTS Controls                                  V-16

      Conclusion                                                           V-18

      Management Response                                                  V-19

Internal Controls                                                          V-23

      2005 Review                                                          V-23
               AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
             CLIENT SUPPORT CENTER, GREAT LAKES REGION
                  REPORT NUMBER A040117/T/5/Z05002

                          TABLE OF CONTENTS
                                 (Continued)
                                                         Page

APPENDICES

    Appendix A. Schedule of FY 2003 Orders Reviewed       A-1

    Appendix B. Schedule of FY 2004 Orders Reviewed       B-1

    Appendix C. Management Comments                       C-1
                                 RESULTS OF AUDIT

Brief

Fiscal Year 2003 Review

The audit identified numerous improper task orders and contract awards involving
millions of dollars that failed to comply with procurement laws and regulations and on a
number of occasions were well outside the delegated authority of the FTS. Our findings
identified numerous instances of misuse of contracting vehicles, inadequate
competition, non-existent or ineffective contract administration, poor or non-existent
support for pricing, misleading descriptions of work, persistent and unsupported use of
T&M task orders, and work that was paid for but never delivered to the Government.

The factors contributing to these problems were ineffective management controls and
an environment that emphasized client agency satisfaction and FTS revenue over
compliance with proper and prudent procurement procedures.


Fiscal Year 2004 Review

We identified many of the same improper award issues identified in the FY 2003 review.

Our findings identified misuse of contracting vehicles, inadequate competition, improper
evaluation of contractor proposals in determining fair and reasonable pricing, lack of, or
ineffective implementation of various controls put in place by Central Office FTS and
task order awards that included work outside the authority of the FTS.

                         Results of Fiscal Year 2003 Review

Inadequate Competition

Of 19 FSS Schedule orders for services in our sample, the CSC awarded 16 orders
without the benefit of competition. Eighty-four percent (16 of 19) of these sole source
awards were awarded without proper justification.

FSS Schedules – FSS and DOD Ordering Procedures Require Competition. Our
sample of 30 orders included 19 FSS Schedule services orders. In 16 of the 19 cases
(84 percent), Region 5 made the awards without the benefit of competitive bids. Recent
legislation and FSS ordering procedures specify the need to obtain a minimum of three
offers for most orders to ensure fair and reasonable pricing. FSS Special Ordering
Procedures for Services (that include a statement of work) expected to exceed $2500
require the ordering office to send the statement of work to a minimum of three
Schedule contractors for competitive quotes. Orders expected to exceed the maximum
order threshold (MOT) require that the ordering office request quotes from additional
Schedule contractors that offer services that will meet the agency’s needs.

In addition, Section 803 of the National Defense Authorization Act of 2002, Public Law
107-107 requires ordering agencies to obtain a minimum of three offers for (DOD)


                                          V-1
orders for professional services expected to exceed $100,000 that are placed under
multiple award contracts. The provisions of Section 803 apply not only to orders placed
by DOD, but also to orders placed by non-DOD agencies on behalf of DOD.

Remote Video Surveillance Program. Thirteen (see Appendix A) of the 30 task
orders included in the 2003 audit sample provided services and installation work for the
Border Patrol’s RVS program.17 All of the orders were placed, without benefit of
competition, with a Schedule 58 and 70 FSS contractor, International Microwave
Corporation (IMC).18

Nine of the 13 task orders provided for installation of daytime and night vision cameras
                                 to be mounted on poles and other structures,
                                 construction of towers for microwave transmission
                                 equipment and provision and installation of monitoring
                                 equipment in Border Patrol facilities located along the
                                 U.S.-Canada and U.S.-Mexico borders. Two orders
                                 provided for a maintenance shop and repair services at
                                 an Albuquerque, New Mexico maintenance facility. The
                                 two other orders provided for management,
                                 administration and engineering (MAE) services
                                 associated with the provision of the RVS equipment at
                                 various locations along the borders. The total value of
the 13 orders included in the audit sample was $43,390,797.

Our review disclosed that the award of the initial project to IMC was not supported by
evidence that competition for the award had occurred. From records we obtained from
FTS, the award of the earliest task orders to IMC in 2000 was a result of the ratification
of an award decision made by the former parent agency of the Border Patrol, the
Immigration and Naturalization Service (INS).

INS issued a Request for Quotes (RFQ) around November or December 1998. Several
firms responded to the proposal and made oral presentations at INS Headquarters in
Washington, D.C. FTS officials stated that there was a lack of documentation regarding
the INS solicitation, evaluation, and selection of IMC for the RVS program. A review of
the RFP showed that it did not accurately represent either the full scope of the project or
the nature of the work that was to be provided. The initial award was for $2 million on
November 24, 1999. In November 2000, a BPA valued at $200 million was negotiated
and awarded to IMC. The BPA employed “bundled pricing” which featured a fixed price
for each of 22 different contract line items (CLIN). Each CLIN represented a different
size or configuration of pole, tower, or installation. Senior Central Office FTS officials
approved the BPA on December 11, 2000.



17
   The RVS program provides the ability to remotely control a camera station and communicate data and
   video back to a control room for monitoring. RVS provides for the dispatch, support, and safety of
   Border Patrol agents. RVS also provides a deterrent to illegal border crossings and evidence for
   convictions in cases where video is acceptable evidence in a court of law.
18
   IMC was acquired by L3 Communications on or about February 2003.


                                               V-2
 The BPA was presented as a teaming arrangement between IMC and five other FSS
Schedule contractors who would provide the equipment and services necessary to
furnish and install the poles, towers, cameras and related items. None of the team
members held contracts that included the construction and engineering work needed to
design and install an RVS system. For example, IMC’s contract, at the time, only
covered the furnishing of radios, microwave transmission equipment, repairs and IT
professional services.

The BPA was portrayed as offering substantial savings to the Government that would
result from additional discounts off the FSS Schedule pricelists for the equipment and
installation. No such savings occurred, however.

We obtained and reviewed the component parts list for each BPA CLIN and determined
that 96 percent of the parts could not be traced to the BPA’s FSS Schedule holders’
pricelists. When we successfully matched parts, for example, the Hitachi day camera
included in the bundled price, against the Schedule price, we found that the price had
not been discounted off the FSS Schedule price. Instead, we found the following price
relationships:

                      Hitachi model number KPD581,
                      per detail provided to support BPA CLIN          $4,465
                      Hitachi model number KPD581,
                      per FSS Schedule GS-03F-4096B                    $1,723
                      Hitachi model number KPD591,19                   Lower
                      In-house to IMC                                  Price

Likewise, the FLIR long-range infrared camera was included in the bundled price at
$48,500. During calendar year 2000, the FLIR camera was charged in-house to IMC at
a lower price 20. The FLIR cameras used for the border station were not on FLIR’s FSS
Schedule, although FLIR was a “team” member. See the report section entitled
Equipment Substitution for further information on FLIR cameras. FTS did not verify the
pricing of the components of the bundled prices and did not prepare Government
estimates to support the reasonableness of the installation cost.

Prior to expiration of the BPA, L3 Communications requested a modification to its
existing Schedule 84 Contract (GS-07F-5377P). This modification incorporated all of
the contract line items (CLINS) for monopoles and other structures from the BPA. The
CLINS increased in price on average of 20 percent with increases ranging from a
$38,000 to $55,000.

On July 14, 2004, the FSS contracting officer requested L-3 Communications to specify
whether the cost for any services (ancillary or construction) were included within the
19
   Hitachi invoices to IMC consistently stated that the model KPD591 camera was the replacement
   camera for KPD581. Hitachi officials stated that the KPD591 was never on Hitachi’s FSS Schedule.
   Hitachi officials also stated that additional lenses and other accessories would have to be ordered
   separately, which was consistent with bills of materials, invoices, and schedules reviewed.
20
   Our review noted evidence of the lower IMC price through June 2000. The BPA which included the
   bundled pricing was effective November 8, 2000.


                                                V-3
price of each item. The contractor’s response showed that most of the line items
included a cost for construction. As mentioned earlier, FSS has no authority to contract
for construction work. Schedule 84 contracts are not construction contracts.

The contracting officer also questioned the commerciality of the CLINS and requested
proof of non-Federal Government sales.         That information was not furnished.
Resolution of this matter is still underway.

BRACO. Task order 5TS2103049 for BRACO (Army’s Base Realignment and Closure
Office) required a contractor (Strategic Management, Inc.) to assist with resource
optimization and environmental restoration. The contract was awarded sole source for
$1.488 million with no documentation as to the reason no other bids were sought. FTS
stated that the client submitted the request as a directed buy (sole source) and as a
result, no other companies were afforded the opportunity to bid on the project.

Misuse of Contract Vehicle

Of the 30 task orders included in the FY2003 audit sample, 18 included work that was
outside the scope of the contract against which the order had been placed. Thirteen
orders included work that was outside the delegated authority of FTS to acquire. This
included construction work and the acquisition of real property. (e.g., leasing of space in
Albuquerque, New Mexico) ADM 5450.39C delegates construction and real property
acquisition authority to the Public Buildings Service (PBS). No such authority is granted
to either FTS or FSS. Neither the IT Fund or the General Supply Fund authorizes the
acquisition of construction work or real property.

       Nine of the task orders (FCI1500015, 5TI1503009, 5TI1503062, 5TI1503036,
       5TI1502024, 5TI1503013, 5TI1502131, 5TI1502115, 5TI1501038) issued for the
       installation of camera monopoles and transmission towers for the Border Patrol
       involved heavy construction work.
       Backhoes, cranes, bulldozers and
       boring equipment were required to
       install foundations, erect poles and
       towers and connect to utilities.
       Skilled craftsman such as heavy
       equipment operators, electricians,
       carpenters and steeplejacks were
       employed        to    operate    the
       construction equipment and install
       the components of the system.
       Engineering firms were needed to
       design the installation and define
       the specific requirements for each
       location.

       The FSS Schedule contract with IMC was a commodities contract for furnishing
       radios and microwave transmission equipment, not construction work, and
       contained none of the requisite references to construction laws and regulations


                                          V-4
          that protect employee wages, workplace safety, the environment, integrity of
          procurement, or ensure timely delivery or quality of the workmanship.

          Davis-Bacon Act wage determinations were not incorporated into the task orders,
          resulting in a potential unfunded liability to the Government. For example, if in the
          future, employees file claims seeking further reimbursement for the higher wages
          that they may have been due, the Government may need to reimburse the
          contractor to settle the claims.21

          Neither the IMC task orders nor the BPA incorporated detailed specifications,
          thereby leaving interpretation of the Government’s needs up to the contractor. An
          on-site inspection of the RVS system at the border station in Blaine, Washington
          revealed serious problems with the quality of the workmanship. Cameras and
          other pieces of equipment were not functioning and had numerous reliability
          problems resulting in significant down time and the need for frequent repairs.
          Border Patrol officials performed a technical inspection of the workmanship and
          identified numerous problems with the installation work. Remediation efforts were
          underway by the contractor at the time we made our visit.

          Border Patrol officials in Arizona, where we also made an on-site inspection,
          raised concerns about workmanship and adherence to national electrical codes
          and, in particular, protection against lightning strikes. The Border Patrol’s local
          electronic technicians were left largely in the dark as to the equipment to be
          furnished or the design of the system to be provided since no one provided them
          with design drawings or specifications for the equipment.

          Task order 5TS5703D139 was awarded for $7.856 million under the ANSWER
          GWAC based on the best value solution rather than the lowest price. This work
          was to enhance the overall effectiveness and performance of the security system
          at Offutt Air Force Base while at the same time reducing manpower
          requirements. Items that were to be addressed by the integrated system were
          area intrusion detection, access control, and alarm assessment and reporting.
          The security system was designed as a combination of electronic security
          equipment and physical barriers that would ultimately defeat a hostile force.

          Infrastructure improvements were to be made in order to accomplish this task
          order. These included erection of security fencing, drainage and erosion control,
          grading, trenching, above and below ground power and signal cabling, pedestal
          installation, physical barriers and facility modifications, none of which is IT related
          work. Labor rates were submitted for items that were clearly not IT work.
          Construction work is not included within the scope of the ANSWER contract. As
          mentioned earlier, authority to perform construction work is delegated to PBS
          through ADM 5450.39C, Chapter 17.



21
     Region 10 FTS paid over $161,000 to settle a request for equitable adjustment related to a Davis-
     Bacon wage violation. The Marine Corps client refused to pay.            See Audit Report No.
     A020144/T/5/Z04002


                                                 V-5
      Task order 5TS5703C015 was another task order in which the ANSWER
      contract was used to obtain materials and services outside the contract’s scope.
      This task order was established for IT support and software for Consolidated Air
      Mobility Planning System (CAMPS) Development Operations and Maintenance
      Support at Scott Air Force Base. We reviewed option year three of the contract,
      valued at $10,399,218, awarded to Northrop Grumman Information Technology.

      The contracting officer approved a modification to the Northrup Grumman task
      order to lease space to house employees of another contractor which was also
      providing services to the Air Force. This amount was billed as an other direct cost
      (ODC) to the contract. The modification authorized the contractor to provide
      office space for six contract personnel supporting CAMPS. The original contract
      did not authorize any leasing options and contracting officers in FTS are not
      warranted to lease or purchase real property.

      FTS acquired space in a building in Albuquerque, NM to house the Border
      Patrol’s Operations and Maintenance Support Center (O&M Center). The
      building was leased by IMC, funded by the Border Patrol’s RVS program and
      paid for via T&M task orders issued by FTS to IMC. There was no justification in
      the files to account for the decision to locate the building in Albuquerque and
      there was no evidence to show that FTS made any attempt to identify space
      under Government control that would be suitable for such a facility in
      Albuquerque or anywhere else.

      In addition to the rent, FTS paid the contractor for utilities, cleaning, and
      telephone service. The facility consisted of approximately 25,000 square feet of
      space. The rent and utility costs totaled approximately $185,000 annually. The
      files showed no evidence of a market survey, appraisal, or other comparative
      analysis that the rent paid was fair and reasonable. The contracting officers of
      PBS are responsible for leasing and purchase of real property.

      Recently, the Department of Homeland Security’s Office of Inspector General
      informed us that little, or no work, was performed by the 19 contractor and two
      Government employees at this facility during the past year. FTS issued orders to
      IMC valued at $6,726,014 to operate and man the facility during the period July
      19, 2000 through November 30, 2003.

      Our review also found that IMC added unwarranted fees in their invoicing related
      to the operation of the O&M Center and incurred unsupported camera repair
      costs. For additional details of our review of O&M Center operations, see
      Appendix A, Notes 7 and 8.

Construction Work. Congress recognized, in the passage of numerous laws that
protect construction workers’ wages, safety, and the environment and integrity of the
process, that there are inherent risks to the Government associated with construction
work. Personnel who procure construction services require specified training,
experience and access to knowledgeable professionals to perform their work.



                                         V-6
FTS associates lack that training and expertise and have placed taxpayers’ dollars and,
in the case of the RVS program, national security interests at risk when FTS undertook
projects it had neither the authority nor skills to procure and manage.

ADM 5450.39C, Chapters 13, 17, and 18 list the authorities delegated to FSS, PBS, and
FTS, respectively. Only PBS has been granted authority to perform construction work
and acquire real property by any means, not FSS or FTS.

We were unable to identify any authority that has been granted to FTS to acquire other
than the most minimal construction work.

Improper Contracting Actions

Our review noted additional examples of questionable or improper contracting actions,
including the following:

          FTS officials extended the period of performance of task orders with no
          justification. The extensions were done through a modification to a task order
          but there was no explanation as to why the period of performance was
          extended. Of the 13 task orders sampled related to the Border Patrol’s RVS
          project, there were 18 total modifications (47%) to extend the period of
          performance. On none of the 18 modifications was there an adequate
          justification or reason given for the extension. As a result, many of the RVS
          sites were not delivered and operational in a timely manner.

          Task order options were awarded without a determination that prices offered
          were fair and reasonable. Task order 5TS5702D240, which provided training
          to the Air Force on an industrial material management system called for
          option years two and three to be exercised without a determination of price
          reasonableness. FTS requested the quotes from the contractor, however the
          file does not address the adequacy of the prices offered. Additionally, FTS
          requested changes to the task’s scope, including adding training classes.
          FAR 17.207 requires that contracting officers determine whether the
          Government is continuing to get a fair and reasonable price for a task order’s
          option years.

Inappropriate Use of the IT Fund

The CSC engaged in inappropriate contracting practices to procure, on behalf of clients,
services which did not meet the intent of the IT Fund or FAR definitions. Region 5
officials misused contracts and the IT Fund to obtain other than IT services.

40 USC Section 322 (the statute creating the IT Fund) states that the IT Fund is
available “for expenses, including personal services and other costs, and for
procurement    (by lease, purchase, transfer, or otherwise) to efficiently provide
information technology resources to federal agencies and to efficiently manage,
coordinate, operate, and use those resources … Information technology resources
provided under this section include information processing and transmission equipment,
software, systems, operating facilities, supplies, and related services including

                                         V-7
maintenance and repair.” (40 USC Section 322(c)(1)&(2)). The audit sample contained
several examples of inappropriate uses of the IT Fund, including the following:

              Anteon Corporation was awarded three task orders (5TS5701D218,
              5TS5701D370, 5TS5703D434) representing three phases of a project. The
              combined value of all phases was $1,076,963 and the period of performance
              was over two years. This contract was awarded under the Millennia Lite
              contract, which is a professional IT services contract. The purpose of this
              work was to conduct and document testing of three separate, portable, hand-
              directed laser systems to determine their effectiveness at performing small
              area coating removal on test panels representing DOD aircraft and ground
              vehicle coating systems.

              The predominant work of this task order was not related to IT. The work effort
              was testing and validating the use of handheld lasers to remove paint from
              aircraft. Although a computer was used to document and test results, it
              played a minor role in the total work effort.

              Task Order 5TS5702D240, valued at $643,945, provided for development,
              updating and instruction of three industrial material management system and
              Automated Bill of Materials (ABOM) courses for the Air Force. According to
              the Statement of Work (SOW) and the contractor’s proposal, the work
              primarily involves training that covers the procurement, receiving, issuing,
              inventory, and accounting of materials.

              Strategic Management, Inc. was awarded a $1,488,484 task for the Army.
              This task order (5TS2103049) was awarded sole source under the MOBIS22
              contracting vehicle for BRACO. The work described in the scope of work was
              not IT related and the contract vehicle used (MOBIS) was not appropriate for
              this award. The order provided environmental clean-up at military bases. The
              ITM stated that he decided to use the MOBIS contract, in accordance with
              Government policy at the time of the award. He told us that under the
              “Government Reinvention” initiative, all contract types were open for use by
              anyone. He said he decided to use the MOBIS contract even though he knew
              the work was not IT related.


Frequent Use of Time and Material Task Orders

We found that the Region 5 CSC frequently used T&M tasks instead of fixed-price task
orders. Of the 30 orders for services that we reviewed, 50 percent (15 out of 30) were
time-and-materials type tasks (see Appendix A for more details). A T&M task order
provides for the acquisition of services on the basis of direct labor hours at fixed hourly
labor rates and materials at cost. The FAR discourages the use of T&M contracting. The
FAR warns that a T&M contract provides no incentive for a contractor to control costs
and operate efficiently and places all the risk on the Government.

22
     Management Organizational and Business Improvement Services (MOBIS) is an FSS contract
     schedule offering consulting, facilitation, survey and training services.


                                                V-8
FAR 16.601 states, in part:

       “A time-and-materials contract may be used only when it is not possible at
       the time of placing the contract to estimate accurately the extent or
       duration of the work or to anticipate costs with any reasonable degree of
       confidence”,

and

       “A time and materials contract may be used (1) only after the contracting
       officer executes a determination and findings that no other contract type is
       suitable; and, (2) only if the contract includes a ceiling price that the
       contractor exceeds at its own risk. The contracting officer shall document
       the contract file to justify the reasons for and amount of any subsequent
       change in the ceiling price”.

Of the 15 T&M orders in the 2003 sample, only two of the files documented a
determination and findings for T&M contracting authority. In addition, task orders for
T&M orders often did not clearly state the maximum amount of funds to be expended on
the project.

Inappropriate handling of cost overrun on a T&M project. Task order FCI1500015,
which provided and installed camera monopoles and related equipment for the Blaine,
Washington Border Patrol station, was issued as a T&M task order and modified three
times for a cumulative value of $5 million. Work continued on this task order beyond the
$5 million limit. When interviewed, the ITM told us that he was unaware that work had
exceeded the task order limit until the contractor demanded payment for the additional
monies.

Instead of submitting a claim for the additional monies, the contractor was encouraged
by FTS to create an invoice that supported the cost overrun using fixed price CLINs
from the BPA. The BPA (awarded subsequent to the Blaine task order) CLINs, however,
did not correspond to the type and size of monopoles or other equipment used at
Blaine. It was therefore, mutually agreed to create a task order that would utilize existing
CLINs that would approximate the value of the work that was provided.

Task order 5TI1503009 provided for four additional 60-foot tall single camera
monopoles at a cost of $265,500 each. When we visited Blaine, Border Patrol officials
told us that there were no such monopoles and that all of the poles had been furnished
and installed at the same time. The task order that was created, billed and paid
misrepresented the work that was actually furnished. We later confirmed this when we
obtained and reviewed the invoices from suppliers which showed that all of the
monopoles and their installation were billed and paid for at the onset of the installation.

The ITM told us, and e-mail records confirmed, that the task order was created to
expedite payment to the contractor and avoid the additional work associated with
reviewing and reconciling numerous invoices to determine and verify the amount of the
cost overrun. This would have been time consuming, but necessary to confirm the
correct amount of the cost overrun.

                                           V-9
Inappropriate billing rates on a T&M task. Task order 5TS1502076 dated April 19,
2002 was funded for $1.2 million and increased to $3.1 million by September 5, 2002.
The order was predominantly labor costs for MAE support of the Border Patrol RVS
project. The work performed under this task included program management, project
management, financial management, site selection, power and real estate support,
report preparation etc. Contract GS-35F-0425J was in effect at the time of this order
and our review of the negotiation memo dated June 29, 2001 disclosed that the BPA
wage rates were the basis of negotiation. However, when the task order was prepared,
the CSC incorporated the higher wage rates included in another IMC contract, GS-07F-
0098M, into the task order with a sole source justification.

When we asked CSC personnel about the use of the higher rates, we were told that
contract GS-07F-0098M was used in lieu of contract GS-35F-0425J to provide the
contractor (IMC) with higher billing rates. We have estimated that the use of the higher
billing rates cost the Government an additional $600,000.

On April 24, 2003 task order 5TS1503061 provided $1.8 million of additional funding for
the MAE task. Although the task order cited the BPA contract, GS-35F-0425J, the
actual billing rates used were again derived from contract GS-07F-0098M. The use of
the higher labor rates again resulted in an estimated additional cost to the Government
of $219,000. The MAE task order was performed on a T&M basis, yet the invoices
submitted to the CSC did not have the required support for hours worked and hourly
billing rates, nevertheless the CSC paid the invoices. We did not attempt to reconcile
the hours billed with the actual work performed.


Lack of Support for Fair and Reasonable Pricing

The majority of the orders for IT services that we reviewed (73%) contained insufficient
documentation supporting a fair and reasonable price.

          There was often no documentation supporting the evaluation of level of effort
          and labor mix. Task orders were issued to contractors with no review of the
          labor hours to ascertain the level of effort necessary to accomplish the work.
          There was no evaluation of the proposed mix of labor skills to determine if a
          contractor’s proposal met the needs of the Government. The contract files
          contained no independent determination (estimate) of how many hours were
          necessary to complete the task order. In task order 5TS2103049, the CSC
          used the contractor’s previous MOBIS contract to determine the price and
          never considered the number of hours required for this task.

          ODCs were not always evaluated in accordance with the FAR; see the
          example contained in Appendix A, Note 7, which discusses unsupported and
          unwarranted costs.

          FTS awarded task order options without a determination of price
          reasonableness. Task order 5TS5702D240, which provided training to the Air
          Force on the ABOM systems valued at over $1.6 million, called for option
          years two and three to be exercised without any indication of determination of

                                         V-10
               price. FTS requested the quotes from the contractor; however, there was no
               determination supporting fair and reasonable pricing. In addition to adding the
               option years, FTS requested changes to the scope, including adding training
               classes. FAR 17.207 requires that contracting officers determine whether the
               Government is continuing to get a fair and reasonable price for option years.

  Inadequate Contract Administration and Project Management

  FTS’ lack of oversight over its task orders resulted in several questionable practices
  involving customers and contractors, including payment made for shoddy work and
  payments made for work that was incomplete or never delivered to the Government.

  The following table illustrates the problems we encountered with payments made for
  work at eight of the Border Patrol Stations included in the audit sample:

                                                     Date
        Location                   Value            Issued            Date Installed            Amount Paid

Carrizo Springs, Texas        $ 4,742,500          12/09/02      Not Installed23                 $ 2,190,169
Nogales, Arizona              $ 3,048,500          11/15/01      Partial Install24                 1,758,980
Laredo, Texas                 $ 4,156,175          10/25/02      Partial Install25                 4,114,933
Naco, Arizona                 $ 3,536,550          06/29/01      Partial Install26                 2,850,649
Tucson Station, Arizona       $ 2,345,000          05/21/02      Not Installed                       623,974
Detroit, Michigan             $ 3,343,500          05/13/03      Not Installed27                     362,880
Buffalo, New York             $ 5,287,500          01/31/03      Partial Install28                 1,347,713
Blaine, Washington            $ 6,695,18229        11/24/99      Operational Problems              6,624,367
Totals:                       $33,154,907                                                        $19,873,665


                                                          Despite the almost $20 million in
                                                          payments to IMC, none of the RVS
                                                          systems for the listed Border Patrol
                                                          stations were fully operational. At three of
                                                          the locations (Carrizo Springs, Detroit,
                                                          and Tucson) no work was evident and no
                                                          equipment was delivered at the time we
                                                          made our on-site visits or contacts with

  23
       Not Installed also indicates that materials were not present at the site.
  24
       The Nogales project was significantly delayed. Refer to Appendix A, Note 9, for the results of our site
       visit.
  25
       Border Patrol personnel estimated that the work was 60 percent complete. Refer to Appendix A, Note
       10.
  26
       The Naco project was significantly delayed (see photo above). Refer to Appendix A, Note 13, for the
       results of our site visit.
  27
       IMC purchased eight cameras, billed the Government on a percentage of completion basis, and did
       not deliver the cameras to the Detroit border station. The cameras resided in IMC and vendor
       inventory as of August 4, 2004. See Appendix A, Note 3.
  28
       IMC billed the Government for 59 cameras during 2003, but only four had been installed as of June 8,
       2004. See Appendix A, Note 4.
  29
       This amount represents amounts from task orders FCI1500015 and 5TI1503009


                                                     V-11
Border Patrol officials, in June 2004. At Buffalo, only four of 59 cameras had been
installed, and only on existing structures. At Nogales, parts had been delivered and
installation work was in progress.

At Naco, we observed that some equipment had been delivered, however, there was no
evidence of installation. We found parts in storage and laying on the desert adjacent to
Border Patrol property (see photo). According to Border Patrol officials, no IMC
personnel had been on-site since the equipment was delivered about September 2003.

About 60 percent of the work had been completed at Laredo North but the system was
not operational since a microwave transmission tower had not been installed.

As discussed earlier, the installation at the Blaine, Washington Border Patrol station
was not fully operational when we made our on-site visit in March 2004 and was
undergoing remediation work.

The contractor billed the Government for cameras and other equipment as soon as it
was invoiced. We found cameras and other parts in warehouses in Virginia and
Connecticut when we made visits to those locations. Invoices and shipping records
showed other cameras held in bonded storage at the manufacturer or at a
subcontractor’s warehouse in Ohio.

From conversations with Border Patrol officials, we learned that delays were often
attributable to the acquisition of the land where the camera monopoles or transmission
towers were to be installed. The task orders required the contractor to provide
assistance to the Government in acquiring the sites. It was not apparent from the task
orders’ scopes of work what the term “assistance” meant. Border Patrol officials told us
that little assistance in acquiring the property had been provided by IMC. Instead,
Border Patrol officers were charged with identifying property owners and negotiating
leases or access rights. The MAE task orders provided for two man years of project
coordinator labor to assist in the site acquisitions at a cost of $67.48 per hour.

It made little sense for FTS to issue task orders when sites had not been acquired. Yet
that is what occurred. The contractor subsequently ordered equipment and billed the
Government for equipment that languished in warehouses. There was no provision in
the BPA for construction progress payments. Yet invoices for “percentage of
completion” were submitted to FTS by IMC and paid as a matter of routine.

Equipment Replacement Without Contracting Officer Approval

IMC did not provide thermal imaging camera equipment called for in CLINs’ (contract
line item number) bills of material. IMC often provided less expensive cameras as
replacements for cameras priced in bills of material. IMC did not always provide FSS
schedule cameras, but provided different camera part numbers under volume buying
arrangements. There was no corresponding reduction in the bundled price of the
monopoles to the Government. Approval for the change(s) was not obtained from the
FTS Contracting Officer.



                                         V-12
This created a potential for overpayments of almost $13 million for thermal imaging
cameras when medium-range cameras were provided instead of the long-range
surveillance equipment listed as a component of the CLIN.

FLIR 2x Lens Extender. IMC did not always provide a 2x lens expander/extender
(doubler lens) with FLIR (the supplier) thermal imaging MILCAM cameras. The doubler
lens, valued at $10,000, expanded the camera’s field of vision. Bills of materials used to
price the Border Patrol project provided for thermal imaging cameras with doubler
lenses.

We reviewed ten technical directives (task orders by location) in which a total of 99 FLIR
MILCAM cameras were purchased. Purchase orders and vendor invoicing related to
these orders showed that the cameras were not supplied with the doubler lens.30 Master
inventory data supplied by the Border Patrol indicated that, while 396 FLIR MILCAM
cameras31 were purchased for the project, only 78 doubler lenses (approximately 20
percent of camera total) were purchased.

We noted the absence of doubler lenses during our fieldwork in Arizona. Our inventory
of cameras (part number 17310-200) to be delivered to Naco, Arizona found that only
eight of 16 FLIR MILCAMS were to be supplied with the doubler lens.

The pricing for the thermal imaging cameras noted was as follows:

       Per bills of material supplied32, FLIR part number 15595-200,
       with doubler lens:                                                            $48,500
       Per IMC purchase order number G0057, part number 15595-                      Lower
       200, invoiced during calendar year 2000:                                     Price 33

FLIR officials stated that the FLIR MILCAM cameras sold for the project were not FSS
schedule items and that special pricing arrangements existed for IMC based on
quantity. Therefore, although FTS’ orders were placed against FSS schedule contracts,
we can not be sure of the reasonableness of individual camera prices. However, based
on the fact that up to 318 FLIR MILCAM cameras were supplied without the doubler
lens (valued at $10,000), the Government could be potentially overcharged
approximately $3,180,000 (318 x $10,000).

BAE Systems LTC 550 Cameras. IMC provided less expensive cameras for cameras
found on bills of materials used to price out the Border Patrol project. IMC used BAE
Systems (the supplier) model LTC 550 thermal imaging camera as a replacement for

30
     The doubler lens had part number 15070-000.
31
     Our review found that FLIR MILCAMS purchased for the Border Patrol project were part numbers
     15595-200 and 17310-200. Part number 17310-200 was the replacement part number for FLIR
     MILCAM part number 15595-200.
32
     The bills of material reviewed were used by IMC to develop GSA’s firm-fixed prices under BPA no.
     GS05KR01BMC0001, dated November 8, 2000.
33
     This was a 150 camera order valued at $5.1 million. IMC’s order to FLIR was dated January 7, 2000.
     We were able to locate invoicing at the lower price through June 2000. Replacement part number
     17310-200 was subsequently priced to IMC at higher amounts.


                                                 V-13
the FLIR MILCAM with doubler lens. IMC essentially replaced a cooled long-range
camera with an uncooled medium-range unit.

The pricing for the cameras noted is as follows:

       Per bills of material supplied, FLIR part number 15595-200, with
       doubler lens:                                                                     $48,500
                                                                                          Lower
       Per technical directives (orders) reviewed, BAE Systems LTC 550:                   Price

We analyzed 11 separate technical directives (task orders by location) where this
substitution occurred. The Border Patrol’s master inventory indicated that 70 BAE
Systems LTC 550 cameras were purchased. Therefore, the Government was exposed
to a potential overcharge for 70 thermal imaging cameras.

ISAP POD Cameras. IMC substituted less expensive cameras for cameras found on
bills of materials used to price out the Border Patrol project. IMC used Industrial
Security Alliance Partners (ISAP, the supplier)34 POD thermal imaging camera (part
number 22737) as a replacement for the FLIR MILCAM with 2x extender lens noted
above. IMC essentially replaced a cooled long-range camera with an uncooled medium
range unit.

The pricing for the cameras noted is as follows:

       Per bills of material supplied, FLIR part number 15595-200, with
       doubler lens:                                                                         $48,500
                                                                                            Lower
       Per ISAP master agreement with DiOP, POD part number 22737:                          Price35

We analyzed four separate technical directives (task orders by location) where this
substitution occurred. The Border Patrol’s master inventory indicated that 328 ISAP
POD cameras were purchased. Therefore, the Government was exposed to potential
overcharges for 328 thermal imaging cameras.36

Additional information on substitutions. We reviewed 16 Border Patrol technical
directives for the express purpose of identifying camera replacements and potential
overbillings. Our review of these 16 technical directives indicated potential overbillings
of over $5,800,000, with significant markups (camera price in the door compared to bills


34
      ISAP was substantially owned by IMC until IMC was purchased by L3 Communications. Therefore,
      the pricing noted in this section for POD cameras represents pricing contained in a master agreement
      between Diversified Optical Products, Inc. (DiOP) and ISAP for the period January 1, 2000 through
      December 31, 2002.
35
      The ISAP POD camera, part number 22737, was on IMC’s FSS Schedule contract no. GS-35F-0425J
      for $38,500.
36
     The Border Patrol’s master inventory also indicated that 307 ISAP HH-750 thermal imaging cameras
      (hand-held, part numbers 22718 and 22809) were purchased for the program. The camera was on
      IMC’s FSS Schedule contract no. GS-35F-0425J for $31,500.


                                                   V-14
of material price). Negotiations are underway and further information to clarify this
matter has been requested from the contractor by FTS.

Lack of Acquisition Plans

FAR Part 7.1 and the GSA Acquisition Manual establishes the need for developing a
written acquisition plan. A limited written acquisition plan must be prepared for all task
orders exceeding the Simplified Acquisition Threshold ($100,000). A written acquisition
plan should promote and provide for full and open competition, encourage offers of
commercial items, refine requirements, increase use of performance-based contracting
and fixed price contracts, facilitate competition by and among small businesses and
avoid unnecessary contract bundling.

Of the task orders included in our 2003 audit sample, none had acquisition plans.

Causes of Improper Procurement Practices

Our audit work indicated that several factors contributed to the improper contracting
practices that we identified: an ineffective system of internal management controls, CSC
personnel sacrificing adherence to proper procedures in order to accommodate
customer preferences, and an excessive focus on customer satisfaction.

Ineffective Management Controls. We determined that Region 5 did not have
adequate internal controls to protect the integrity of procurements. Our sample of task
orders showed that management did not have effective controls to ensure that
procurements were made in accordance with applicable regulations. Contracting
officers appeared to not get involved in the development of requirements or decisions
on procurement methodology until others had made those decisions. Consequently,
orders were signed that were flawed from the beginning.

          In many instances, FTS approved payment for services never inspected. In
          the 13 task orders related to the Border Patrol’s RVS program, invoices were
          based on a percentage of completion as if the contract were a construction
          contract rather than billing the contract as a whole. FTS failed to verify the
          invoice submitted to determine whether or not services charged were actually
          services rendered.

          Management controls were inadequate for many task orders because the
          contractor billed for work and no one from FTS visited the sites to verify that
          work actually had been completed.

          FTS’ management controls were ineffective in cases where FTS’ contractor
          would bill FTS for products while the products sat in the contractor’s
          warehouses or the product was never shipped and sat in manufacturer’s
          warehouses. However, the contractor would bill FTS for the products even
          though the Government did not have possession.




                                          V-15
          CSC officials were not familiar with FAR 8.4 ordering procedures and as a
          result failed to obtain a fair and reasonable price mix for the Government.
          Task orders were issued to contractors with no review of the labor hours to
          ascertain the level of effort necessary to accomplish the work. There was no
          evaluation of the proposed mix of labor skills to determine if a contractor’s
          proposal met the needs of the Government. While on many task orders the
          contractors were already on schedule (therefore labor rates were adjudged to
          be reasonable), there was no determination (estimate) regarding the hours
          needed to complete the task order.


                         Results of Fiscal Year 2004 Review

Despite a very limited review, we identified many of the same improper task order
award and modification issues as identified in the FY 2003 review in the seven task
orders included in the 2004 sample. In addition, we noted that some of the controls
implemented by Central Office FTS were not being employed on some task orders.
However, the Great Lakes Region has implemented some additional controls.

Improper and Questionable Contracting Practices

We noted that the Great Lakes Region improperly awarded task orders for construction
and other work that required the inclusion of wage determinations, did not incorporate a
liquidated damages clause and did not meet the requirements of Section 803 of the
National Defense Authorization Act (2002).

The Great Lakes Region awarded task orders for services that required wage
determinations in accordance with the Service Contract Act. Region 5 FTS did not
evaluate the level of effort or mix of labor categories for T&M task orders.

Central Office FTS Controls

Since the OIG’s review in FY 2003 of CSC procurements in Regions 4, 6 and 10,
Central Office FTS has initiated new policies and procedural controls to improve the
CSC control environment. We reviewed the following new controls.

Implementation of Section 803 of the National Defense Authorization Act. Section 803
requires that all orders for services greater than $100,000 placed after October 25, 2002
give “fair notice of the intent to make [the] purchase” and “afford all contractors
responding to the notice a fair opportunity to make an offer.” The contracting officer
must receive offers from at least three contractors or determine in writing that no
additional contractors can fulfill the requirements.

          Under task order 5TP5704D005, valued at $34 million to provide vehicle
          barriers at 150 Air Force bases, the CSC received three bids. However, one
          bid was considered non-responsive. No further effort was made to obtain
          further competition or justify the award.




                                         V-16
Legal Review Policy. In a memo dated October 1, 2003, FTS issued policy guidance
implementing additional legal review requirements to assure compliance with all
applicable laws, regulations, and other requirements. For example, legal concurrence is
required for: new contract awards over $5 million; actions resulting in awards of BPAs;
actions resulting in the issuance of a task/deliver order that contains leasing provisions,
regardless of dollar value; and actions that result in the issuance of a task/delivery order
under existing vehicles in excess of $ 5 million.

          All the 2004 orders we examined that required legal review were reviewed.

Acquisition Checklists. In a memo dated October 6, 2003, FTS developed standard
checklists to provide FTS associates with guidance and tools prior to awarding contracts
and task orders and to ensure consistency in the acquisition process. Examples of
required documentation include: requirement description, market research data, and
acquisition plans.

          In orders reviewed for 2004, six of the seven files lacked the appropriate
          checklists as required by the FTS memo.

Other Controls. FTS issued guidance establishing Procurement Management Reviews,
in a memo dated November 14, 2003, and Project Closeout Guidance, in a memo dated
May 28, 2004. The CSC was in the process of implementing these controls.

Our review noted other instances of acquisitions that could benefit from management
scrutiny:

          Task order 5TS1704A053 was awarded to L3 Communications for the US-
          VISIT programs for the Department of Homeland Security in the amount of
          $107,928,509. This was a Millennia Lite task order citing the IT Fund. The
          Millennia Lite contract procures highly skilled professional IT services, i.e.,
          systems analysts, application programmers, software systems engineers,
          LAN support technicians, and graphics specialists.

          Most of the task order’s labor categories, did not fit the scope of the Millennia
          Lite contract. Seventy-one percent of the work (3,201,277 hours costing
          $68,175,074) related to this contract was for customer service support. The
          customer service support specialists were identified as Work Station (WS)
          Technicians. The WS Technicians labor category was not a highly skilled
          professional service. The duties of the WS Technicians include providing
          preventative maintenance at the kiosks within the airport, ensure the
          workstations are operational, help the customers with technical support when
          data entry problems occur, and assisting the customers with the
          biomechanical data using the embedded document reader and fingerprint
          scanner. The labor category WS Technician was not listed in the Millennia
          Lite contract; therefore the labor category PC Systems Support Assistant was
          substituted - a classification possessing a much higher labor rate than that
          proposed for a WS Technician.



                                           V-17
             Order 5TP5704D005 was awarded to EER Systems, Inc. (now known as L3
             Communications) on April 30, 2004 by the CSC in Fairborn, OH. The task
             order original amount was for $34,102,539. The award used the vendor’s FSS
             Schedule 84 contract37 for delivering vehicle barriers to increase effectiveness
             of security at 150 Air Force bases. The vehicle barriers are shallow mount
             wedge barriers that can be deployed when activated from the entry control
             point (by the controller) or from an alternate monitoring position.

             We found that the task involves a considerable amount of construction and
             construction-related work. While FSS Schedule 84 was used as the
             contracting vehicle for the order (for the equipment), we believe that FTS
             should not have awarded the vehicle barriers order. Information we received
             and input we obtained from the DOD-OIG also revealed that FY 2003
             operation and maintenance money was misused to fund the project.

             Order number 5TS5704D173 was awarded to SMARTNET, Inc., on March 8,
             2004 for the Department of the Treasury as an 8(a) set aside and provided
             cabling services for new office space (using installation technicians). The
             CSC did not include clauses pertaining to the Davis Bacon Act, required to
             establish wage determinations for the installation technicians.


Conclusion

In the FY 2003 review, we identified improper task order and contract awards involving
millions of dollars that failed to comply with all procurement laws and regulations and on
a number of occasions were well outside the Information Technology Fund’s
legislatively authorized purposes, the scope of the contracts used and the authority of
the Federal Technology Service. Our findings involve instances of misuse of the IT
Fund, inappropriate and questionable contracting actions, and inadequate competition
and documentation supporting fair and reasonable pricing.

As a result, the Great Lakes Region did not provide reasonable assurance that client
agencies received the most cost-effective solution and best value, and the fundamental
objectives underlying the federal procurement process were not achieved. The factors
contributing to these circumstances are ineffective management controls and an
environment that emphasized client agency satisfaction and revenue over compliance
with proper and prudent procurement procedures.

Our work showed that there is a need to focus on effectively implementing the
prescribed controls, not merely creating documents that comply with a checklist. FTS
management officials should determine whether contracting officers exercise common
sense and prudence and meet their most fundamental responsibility to safeguard the
contractual relationships of the United States regardless of client agency or revenue
considerations.

37
     FSS schedule 84 provides materials and services in the areas of law enforcement, security, facilities
     management, fire, rescue, clothing, marine craft, and emergency/disaster response.


                                                  V-18
In the FY 2004 review, we identified continuing problems with procurement practices
despite efforts by FTS Central and Regional office management to put in place controls
that were developed as a result of our January 2004 report (Audit Report Number
A020144/T/5/Z04002) on the FTS CSCs.

As stated in that report, we believe that steps to remedy the CSC procurement
problems require a comprehensive, broad-based strategy that focuses on the structure,
operations, and mission of FTS as well as the control environment. Based on the
comprehensive recommendations contained in that report, no further overall
recommendations are deemed necessary at this time.

Management Response

The Regional Administrator generally concurred with the audit findings.

The Regional Administrator concurred that there were certain instances of inappropriate
contracting practices; however, he commented that the practices identified do not
appear to be specific to Region 5 but rather, consistent with FTS practices nationwide,
most notably, in practices involving the use of the IT Fund as defined in Title 40 U.S.
Code Section 322.

Regional management believes that Section 322 permits the use of the IT Fund to
acquire such items as “software systems, operating facilities, supplies, and related
services including maintenance and repair, and that IT funds may be used to make a
system or facility operable, which could include construction.” We recognize that at
times there may be a need for accompanying construction of a minor nature. However,
we believe the IT Fund statue did not anticipate that major construction projects, which
are easily segregated from the IT components of a required task, would be
reimbursable through the Fund. There are inherent risks to the Government associated
with construction work. Personnel who procure construction services require specified
training, experience, and access to knowledgeable professionals to perform their work,
and to ensure that all proper contract clauses are included. To interpret the statute as
expansively as FTS has done would, in our opinion, be at odds not only with the general
rules of statutory construction, but also with FTS’ own recognition in its internal
guidance that there are clear limits to the IT Funds permissible uses.




                                         V-19
The Regional response also commented that customer agencies that had working
partnerships with the CSC contributed to the contract administration problems cited in
the report, and that some of the contract requirements exceeded the CSC’s capabilities.
We agree with their comment; however, this does not, in our opinion, excuse
contracting officers from ensuring compliance with the terms of a contract, and
safeguarding the interests of the United States in its contractual relationships. What it
does is acknowledge that the CSC needs to reassess, in every case, its ability to
execute and manage a project before it is undertaken. Common sense and the interest
of the taxpayer should take precedence over customer satisfaction and growing the
business.

The Regional Administrator recognized the gravity of the issues discussed; however, he
disagreed with some of the issues presented in the draft report. The following
paraphrases those disagreements and provides additional information and audit
comments that support our audit position.

Results of FY2003 Review

Inadequate Competition

The Regional response acknowledged our findings regarding sole source procurements
and identified management controls that have been put in place to ensure adequate
review and documentation is provided.

Misuse of Contract Vehicle

It is the Region’s opinion that several task orders identified in the draft report under this
section are within the scope of the subject contracts.

We disagree with the Region’s opinion because the contracts utilized covered IT related
services and/or commodities, not the substantial construction and/or products that were
identified in the report that were outside the scope of the contract vehicle utilized.

•   Border Patrol BPA. The BPA established a teaming arrangement with several FSS
    commodities schedule holders. None of the team members had contracts that
    included construction work and, in many cases, even the commodities furnished
    were not covered by team members’ contracts. As a result, there was no assurance
    that the Government paid a reasonable price, there was a lack of quality control and
    oversight, work was done improperly, delays were experienced and procedures,
    established by law and regulation pertaining to construction work, were not adhered
    to.
    We had no difficulty accessing the sites where cameras were installed either along
    the Canadian or Mexican Borders. The climate is harsh; however, with proper
    installation and maintenance, the downtime for the cameras should be kept to a
    minimum. This was not the case as we observed it and as Border Patrol records
    showed.


                                           V-20
•   Task Order 5TS5703D139. This $7.8 million task provided flight line security
    upgrades at Offutt AFB, Nebraska. It was awarded using the ANSWER GWAC. This
    contract vehicle is an IT services contract and does not include a provision for
    construction work or include commodities. In our opinion, the extent to which ODCs
    were applied to commodities and the construction work purchased through this task
    order far exceeded any reasonable interpretation of allowable ODCs or incidental
    work.
    There were large amounts of surveillance equipment installed and the construction
    work included substantial infrastructure improvements such as fencing, trenching,
    outdoor lighting, building alterations and physical barriers. As in the case of the
    Border Patrol Project, the contract vehicle employed did not incorporate construction
    clauses required by law and regulation and there was no evidence that FTS had any
    knowledge of the reasonableness of pricing for either the construction costs or the
    cost of the commodities. The FAR requires preparation of a Government estimate
    for all construction work in excess of $100,000.
•   Task order 5TS5703C015. The Regional response stated that the acquisition of
    leased space was discussed with the ANSWER contracting officer and that it was
    determined to be within the scope of that contract. The ANSWER contract
    incorporates none of the requisite clauses for acquiring real property by lease or any
    other means. No one in the CSC possessed a Contracting Officer’s warrant for
    acquiring real property or met the training requirements for such a warrant. There
    was no support for the prices paid for the space and no indication that vacant
    Government space was unavailable in the local area.
•   O&M Center Lease. The Regional response stated that once the Contracting Officer
    became aware that lease costs were being billed to the Border Patrol BPA, the
    contractor and the customer were notified in writing that the practice was
    unauthorized.

Inappropriate Use of the IT Fund

Anteon Task Orders (5TS5701D218, 5TS5701D370 and 5TS5703D434). The Regional
response cited the justification for sole source awards of these task orders to Anteon
because this firm was under contract to the Air Force to operate the laboratory where
the testing was performed. In our opinion, selecting Anteon for a sole source award in
this case offered no benefit to the Government since the contract was primarily a labor
hours contract. Any qualified firm could have provided the personnel necessary to
perform the testing at this facility. There was no evidence that the firm responsible for
operating the laboratory had any unique knowledge or skill that would have precluded
the furnishing of testing personnel by another firm.

The primary purpose of the task order was to test laser powered paint strippers on
various coatings that had been applied to test panels. As in virtually all testing and
recording of results in this day and age, ADP hardware and software was used in the
testing and the recording of the results. In this case, the IT was incidental to the overall
purpose of the task orders. Millenia Lite, which is an IT service contract, was not an
appropriate contract vehicle to use to provide the testing.


                                           V-21
The provision of a 10-ton air conditioning unit is a capital improvement to the building
where the testing was conducted. The Millenia Lite contract did not incorporate the
requisite construction clauses that would cover the provision and installation of this
equipment. There was no evidence that the price paid for this work was fair and
reasonable or that laws covering the furnishing of construction work were complied with.

Task Order 5S2103049. The Regional response stated that this task order was issued
for a requirement to prepare a study for proposed environmental clean up not the clean
up it self. This sole source award was issued to Strategic Management Initiatives, Inc.
to, according to the statement of work, prepare estimates for the Government, write
specifications and requirements statements, provide technical and programmatic
oversight of clean up efforts, provide on the ground technical, analytical and program
management and develop studies and position papers. The work involved much more
than preparing a study. The work was not IT related, yet was processed through the IT
Fund.

Frequent Use of T&M Task Orders

Inappropriate handling of cost overrun on a time-and-materials project. The Regional
Administrator concurred with this finding.

Inappropriate billing rates on a T&M order. The Regional response provided further
information on the reason(s) for using higher labor rates from a Schedule 84 contract for
a task order placed against a Schedule 70 contract. It was, by FTS’ admission a way to
circumvent the Schedule 70 contracting officer who would not allow the higher rates,
and was done, apparently, at the Border Patrol’s urging.

Lack of Support for Fair and Reasonable Pricing

The Regional Administrator concurred with this finding.

Inadequate Contract Administration and Project Management

The Regional Administrator concurred with this finding.

Equipment Substitution

The Regional response stated there were repeated requests from the customer to
modify the BPA and substitute equipment. The requests were denied because the items
were not covered by BPA contractors’ schedules. The BPA modification dated
September 3, 2003 was improper because it added items that were not covered by an
FSS schedule.




                                         V-22
Lack of Acquisition Plans

The Regional response stated that FTS has complied with GSA policy guidance issued
subsequent to the task orders included in the FY2003 audit sample.

Cause of Improper Procurement Practice

The Regional response concurred with this finding and identified a number of new
processes and controls to enhance management controls.

Results of FY2004 Review

Improper and Questionable Contracting Practices

The Regional response did not concur with our assessment of construction work and
the legality of FTS authorizing this work when it is incidental but critical to an IT
requirement. See our comments regarding this matter at the onset of the Management
Response section of the report.


Central Office FTS Controls

Implementation of Section 803 of the National Defense Authorization Act.              The
Regional Administrator concurred with this finding. However, he added there were extra
steps taken to try to enhance competition and opined that the spirit and intent of section
803 was met.

Legal Review Policy. The Regional Administrator stated that legal reviews are not
limited to $5 million and are being conducted for all procurements in excess of
$100,000.

Acquisition checklists. The Regional Administrator stated that the checklist requirements
were being complied with, but were not always filled in and included in the contract files.

Task Order 5TS1704A053. The Regional Administrator concurred with our findings on
this task order.

The Regional Administrator’s comments on the draft report are included in their entirety
in Appendix D.


Internal Controls

Our substantive audit tests necessarily resulted in an assessment of the internal control
structure. It is evident from our work that the internal control structure was not effective.
We identified improper procurement practices, including improper sole source awards,
work outside the contract scope, misuse of the IT Fund, improper order modifications,
frequent use of time and material contracts, and not enforcing contract provisions or

                                           V-23
following acquisition regulations. We believe that an effective internal control structure,
which has the on-going involvement of management, would have identified and
prohibited many of the inappropriate task orders we reviewed.

Additionally, given the magnitude of the problems under review, the control environment
did not provide reasonable assurance that misapplication of customer agency funds
would be prevented. Therefore, we concluded that the internal controls that were
established were not always effective and did not provide assurance that Government
funds were reasonably protected.

2005 Review: The Office of Audits will conduct a more comprehensive testing of
internal controls throughout the CSC program during fiscal year 2005.




                                          V-24
                                                 AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                                               CLIENT SUPPORT CENTER, GREAT LAKES REGION
                                                    REPORT NUMBER A040117/T/5/Z05002

                                                        APPENDIX A
                               SCHEDULE OF 2003 ORDERS REVIEWED FOR THE GREAT LAKES REGION

Order Number               Client         Contract Type                Contractor                    Contract/BPA Number          Order Value       Notes
 FCI150001538       U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-1103D                  4,999,999       1
  5TI1503009        U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-0425J                  1,695,182       2
  5TI1503062        U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-0425J                  3,343,500       3
  5TI1503036        U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-0425J                  5,287,500       4
  5TS1503061        U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-0425J                  1,783,020       5
  5TS1502076        U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-0425J                  3,250,110       6
  5TI1501037        U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-0425J                  3,470,168       7
  5TS1503023        U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-0425J                  1,732,593       8
  5TI1502024        U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-0425J                  3,048,500       9
  5TI1503013        U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-0425J                  4,156,175      10
  5TI1502131        U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-0425J                  4,742,500      11
  5TI1502115        U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-0425J                  2,345,000      12
  5TI1501038        U. S. Border Patrol         BPA                       IMC/L3                        GS-35F-0425J                  3,536,550      13
 5TS5703C001             Air Force         Millennia Lite                  ACS                        GS07T00BGD0019                  6,346,143      14
  5TS2103049               Army               MOBIS         STRATEGIC MANAGEMENT INITIATIVES            GS-10F-0231J                  1,488,484      15
5TS17037031A               Navy            8a Set Aside      MILLENNIUM DATA SYSTEMS (MDS)            GS05T03BMM0221                  1,300,769      16
 5TS5701D218             Air Force         Millennia Lite                ANTEON                       GS07T00BGD0029                    340,937      17
 5TS5701D370             Air Force         Millennia Lite                ANTEON                       GS07T00BGD0029                  1,056,025      18
 5TS5703D434             Air Force         Millennia Lite                ANTEON                       GS07T00BGD0029                    349,911      19
5TC5703C291A             Air Force        SCHEDULE 70                 NEXTIRAONE                        GS-35F-4295D                  1,191,228      20
 5TS5703D139             Air Force          ANSWER                        EER/L3                      GS09K99BHD0005                  7,856,331      21
 5TS5703D154             Air Force        SCHEDULE 70                   DYNCORP                         GS-35F-4639H                  6,918,552      22
 5TS5701D201             Air Force        SCHEDULE 70           COMPUTER SCIENCES CORP.                 GS-35F-4381G                 35,492,551      23
 5TS5704C027             Air Force          ANSWER              COMPUTER SCIENCES CORP.               GS09K99BHD0003                  9,479,716      24
 5TS1703D002               Navy             ANSWER                      DYNCORP                       GS09K99BHD0004                  3,394,186      25
 5TS5703D150             Air Force           Millennia          COMPUTER SCIENCES CORP.                GS00T99ALD0203                15,764,443      26
 5TS5702D431             Air Force            MOBIS               KPMG (BEARING POINT)                  GS-35F-4338D                  4,608,850      27
 5TC5703D310             Air Force         8a Set Aside          CDO TECHNOLOGIES, INC.               GS05TO3BMM3243                  2,299,089      28
 5TS5702D240             Air Force            MOBIS               KPMG (BEARINGPOINT)                   GS-23F-9796H                  1,620,737      29
 5TS5703C015             Air Force          ANSWER                     NORTHROP                       GS09K99BHD0009                 12,914,170      30



   38
        We determined that the initial award to IMC (FCI1500015) was based on a ratification of earlier award decisions made by the Border Patrol and
        INS. The available documentation did not convince us that the decision to use IMC was based on full and open competition.


                                                                            A-1
Notes:

1.        Task order FCI1500015 was issued November 24, 1999 for $2,000,000 and
     subsequently increased to $4,999,999 on December 15, 2000. This was a T&M task
     for the construction of camera monopoles in Blaine, Washington. There have been
     numerous problems in the construction of the RVS system in Blaine. Some of the
     problems are as follows: the ISAP cameras do not operate properly in warmer
     weather, the direction of the cameras cannot be controlled thereby rendering them
     useless for border surveillance, and there have been an extraordinary number of
     bad splices in the optic cable - since the splices have not been protected from
     moisture, there has been unnecessary deterioration in the cable splices themselves.
     Most of the ISAP cameras have been replaced. The cameras cost about $40,000
     per unit. Network management software provided under the contract at a cost of
     $200,000 does not work. This software is a critical tool for the RVS system because
     it is used to locate problems in the fiber optic cable. This task order is discussed in
     the body of the report and the overrun on this order resulted in Task Order
     5TI1503009, which is also discussed in the body of the report.

2.      Task order 5TI1503009 is discussed in the body of this report and represents
     work at Blaine, Washington, which was represented on the task order as additional
     work but actually was a payment to the contractor for an overrun on task order
     FCI1500015 discussed above.

3.       Order 5TI1503062 was awarded to IMC for the installation of a 12-structure RVS
     system for the Detroit, Michigan border station. Border Patrol representatives stated
     that, as of June 8, 2004, no construction had begun and ground had not even been
     broken. IMC had been paid $362,880 for eight FLIR cameras purchased specifically
     for the Detroit task. However, no cameras had been delivered to the site as of June
     8, 2004. The cameras resided in IMC and vendor inventory as of August 4, 2004

     Our review also determined that GSA overpaid up to $300,000 for thermal imaging
     cameras purchased by IMC for the Detroit border station. Please refer to the section
     of the report entitled Equipment Substitution.

4.       Order 5TI1503036 was awarded to IMC for the installation of monopoles,
     repeater sites and camera systems at 16 locations for the Buffalo, New York Border
     Patrol station. Based on conversations with Border Patrol Representatives on June
     3, 2004, work had been halted as of October 2003. There are 64 cameras planned
     for the Buffalo border station. Of the 64 total cameras planned, 59 were invoiced at
     a price of about $1.1 million, but only four cameras were delivered and installed.
     These cameras were installed on existing structures.

     Our review found that GSA overpaid up to $600,000 for the cameras IMC purchased
     for the Buffalo border station. Please refer to the section of the report entitled
     Equipment Substitution.




                                         A-2
5.     Task order 5TS1503061 provided incremental funding for                               task    order
     5TS1503076, which is discussed below and in the body of this report.

6.       Task order 5TS1502076, dated April 19, 2002, was for $1.2 million and was then
     increased to $3.1 million on September 5, 2002. The task order provided for
     management, administration, and support of the RVS projects during the period May
     1, 2002 to December 31, 2002. This order is discussed in the body of this report.

7.       FTS negotiated, through a third party contractor, a lease for approximately
     24,340 square feet of office and warehouse space. The lease represented a portion
     of a 42,420 square foot building located at 7400 Meridian Place, N.W., Albuquerque,
     New Mexico. The lease was signed on September 19, 2000.39

     The purpose of the leased facility was to house the Border Patrol’s O&M Center.
     The O&M Center was to serve as a repair depot servicing the Border Patrol’s RVS
     systems and other projects.

     Lease was outside FTS’ authority. FTS issued task order number T0500BM1220
     for $1,123,750 on July 19, 2000.40 The description of supplies or services to be
     obtained stated that “This will be the operations and training center for the RVS
     project – Task 23.” Task 23 called for operations and maintenance support. The task
     was modified to $1,523,277.

     FTS had no legal authority to buy or lease real property. A review of the GSA
     Delegations of Authority Manual (ADM P 5450.39C CHGE 83) showed that only
     PBS had the authority to acquire space by lease. This authority has not been
     delegated to FTS.

     Lease was outside scope of contracts. IMC representatives negotiated the cost
     for the rent and build-out of the leased building. The selection of the facility was
     approved by the Border Patrol and IMC moved into the facility on December 6, 2000.

     FTS task order T0500BM1220 was placed against IMC’s FSS schedule contract GS-
     35F-1103D. This contract was for the provision of microwave radio equipment,
     antennas and waveguides. Therefore, the task order was completely outside the
     scope of IMC’s contract with the Government. FTS, subsequently, leased the O&M

39
     IMC, according to statements provided, leased a facility at 7601 Bluewater in Albuquerque, NM under
     task order number T0500BM1220, dated July 19, 2000. IMC moved from the Bluewater location to
     the Meridian Place location in December 2000. L3 Communications officials were unable to provide a
     copy of the Bluewater lease, but stated that the lease became void after the facility was purchased by
     the Postal Service.
40
     Task order T0500BM1220 funded operation of the O&M Center until May 16, 2001. GSA order no.
     5TI1501037, dated May 17, 2001 and valued at $3,470,167, funded operation of the O&M Center
     until December 19, 2002. GSA order no. 5TS1503023, dated December 20, 2002 and valued at
     $1,732,593, funded the O&M Center until at least November 30, 2003. Our review concentrated on
     task order T0500BM1220, unknown at the time of sample selection, since this task commenced the
     lease and provided for build-out. We noted that the Border Patrol assumed the lease and attendant
     service costs during or after November 2003.


                                               A-3
     Center (see footnote 26) under tasks citing IMC’s FSS schedule contract GS-35F-
     0425J. FTS actions were inappropriate since this contract was for the purchase of
     information technology professional services.

     Unsupported and unwarranted costs. IMC proposed costs (including the lease)
     for the O&M Center as ODCs under its FSS schedule contracts. The ODC items
     were not specifically contained under IMC’s schedule contract, but could be obtained
     as open market items if the purchase was made in accordance with current FAR
     8.402(f).41 FTS did not follow this guidance in obtaining the ODCs.

     We analyzed $1,523,254 in expenses associated with task order T0500BM1220.
     Although monthly rental costs negotiated by the contractor were supported by
     invoices, there was no evidence that the costs were fair and reasonable. Similarly,
     build-out costs (negotiated by the contractor) were supported by invoices and
     receiving reports, with no evidence that fair and reasonable prices were obtained.

     IMC assessed and invoiced the Government fees on over $1,000,000 of the costs
     associated with the rent, services, and space build-out associated with the task
     order. The fees amounted to $98,297.

     IMC assessed ODC handling fees. The fees represented a separate percentage
     charge applied to amounts contained on subcontractor invoices for the space build-
     out. GSA’s task order was issued against IMC’s FSS schedule contract GS-35F-
     1103D. As such, subcontractor costs are to be invoiced at the prime contractor’s
     rates and prices. IMC was not in the real property leasing business. The fee
     represented an unwarranted charge.

     IMC assessed a material/equipment transfer cost. The fee was applied to monthly
     rent, services, cameras purchased, and supplies. The fees also represent an
     unwarranted charge.

     Unsupported repair charges. We determined that (mainly for warranty reasons) up
     to 49 percent of the cameras purchased for the Border Patrol project could not be
     serviced by the O&M Center. Therefore the O&M Center, although employing up to
     19 people, sent many cameras to the original manufacturer for repair.

     We analyzed over $160,000 in repair costs to FLIR (the manufacturer) under GSA
     task orders related to the O&M Center. The costs were unsupported and contained
     an unspecified mark-up. The prices could not be found in the IMC FSS schedule
     contract. The contractor claimed the repairs were open market items, but we found


41
     Currently, FAR 8.402(f) states that a contracting officer may add items not found on a Federal Supply
     Service Schedule (sometimes called open market items) as long as: all applicable acquisition
     regulations for items not on the FSS schedule are followed; the contracting officer determines that the
     prices are fair and reasonable; the items not found on FSS schedule are clearly labeled as such on
     the order; and all clauses applicable to items not on the FSS schedule are included with the order.
     The other direct costs identified by IMC (including lease costs) were not on their FSS schedule.


                                                A-4
      no evidence that the repairs were procured in accordance with current FAR 8.402(f)
      (see footnote 27).

      Subsequent to the conclusion of our field work, The Department of Homeland
      Security’s Office of Inspector General provided to us an interview record in which
      Border Patrol personnel stated that “The so-called ‘OM Center’ has 2 USBP
      personnel and 19 L3 contractor employees” [however] “the OM Center hasn’t
      repaired anything in over a year, but has billed half a million.”

8.       Order 5TS1503023 represents an additional task order for the continued support
      and operation of the O&M Center for the period beginning December 20, 2002. Our
      review of the O&M Center is explained in Note 7 of this appendix.

9.        Order 5TI502024 was for the installation of one tower/repeater site and the
      retrofitting of cameras and other equipment on nine existing structures. The work
      was to be performed at the Nogales, Arizona border station.

      GSA awarded the order to IMC on November 15, 2001 (phases I, II, and III). We
      visited the Nogales border station on June 22 and 23, 2004 and met with both
      Border Patrol and IMC (L3 Communications) personnel. The installation was not
      complete; the 120 foot tower was being erected during our visit and camera and
      microwave equipment were being assembled on platforms on the ground for
      eventual installation on existing towers. The platforms had been cannibalized from
      other stations so the retrofit could proceed. A 35 kilowatt generator had not arrived
      and a new microwave shelter (present) needed to be installed.

      Border Patrol personnel complained that a completed installation had been promised
      by July 2003. We believe that part of the reason it was taking over 2.5 years to
      complete this project was delays associated with the phase I activities (real estate
      actions). The city permit necessary for the Crawford Hill (tower) installation had not
      been obtained as of June 16, 2003 and the Crawford Hill lease had not been signed
      until July 28, 2003. The task order did not clearly delineate responsibility for
      accomplishing these types of tasks.

      Our review noted a negative consequence of the delay in completing the Nogales
      installation. Due to worn equipment, the existing camera transmission (video) quality
      was so poor as to completely negate the video surveillance effort at the Nogales
      border station.

10.       Order 5TI1503013, valued at $4.2 million, represented the installation of eight
      monopoles, a repeater site and site upgrades at the Laredo North A border station.
      IMC (L3 Communications), as of July 1, 2004, had been paid nearly the full amount
      ($4,114,933), but the cameras and the repeater site were not working. This site was
      estimated at 60% complete.

11.      Order 5TI1502131 was for the installation of 13 dual camera monopoles and
      other items at the Carrizo Springs, Texas border station. FTS’ order was dated
      December 9, 2002.


                                          A-5
      Our review indicated that IMC (or L3 Communications) had purchased the required
      cameras and that the cameras resided in either IMC or vendor inventory as of
      August 4, 2004. Our review noted that GSA had been invoiced about $2.19 million
      for the Carrizo Springs project through April 13, 2004.

      Border Patrol officials representing the Del Rio, Texas sector stated that no
      installation work had been performed and no equipment was present on-site.
      Therefore, the Government was charged for product that had not been delivered or
      installed. The monopoles were ordered from a fixed price FSS schedule BPA and
      the Government should not be charged until product is delivered. IMC billed on a
      percentage of completion basis.

12.       Order 5TI1502115 was awarded to IMC for the installation of five monopoles.
      Our visit to Tucson found that there was nothing completed as of June 2004. IMC
      had been paid $623,974 for work related to this order although no installation work
      or product delivery had been performed.

13.     Order 5TI1501038 was for the installation of eight monopoles and towers at the
      Naco, Arizona border station. The task was awarded to IMC on June 29, 2001.

      Our site visit to Naco on June 24, 2004 revealed that no installation work had been
      performed. IMC had been paid over $2.8 million against this task order. Our review
      determined that a considerable amount of product had been delivered to Naco.
      Equipment was found lying on the desert floor (see picture in report) and some
      equipment had been stored in a secured storage facility since Fall 2003. We noted
      that platforms had been cannibalized from the Naco border station in order to
      complete the work at the Nogales, Arizona border station.

14.       Task order 5TS5703C001 was awarded as a follow-on task order to
      5TS5702C003. This contract was awarded using the Millennia Lite contract vehicle.
      It was awarded to ACS Government Services, Inc. The scope of the work involved
      support through a concept called Logistics Network (LOGNET). LOGNET is a
      centralized programming effort to provide information technology infrastructure and
      sustainment for logistics. The total contract value with option years is
      $41,950,847.20 including the seven option years.

      The parent task order RFQ was sent to all 11 Millennia Lite contractors, Two bids
      were received. FTS did not prepare an independent government estimate (IGE) for
      this award. This contract was awarded as a T&M contract, and a not to exceed
      amount was designated on the task order. The CO did not issue a letter of
      designation establishing the ITM’s authorities and responsibilities for the task order.
      Additionally, the contract lacked an acquisition plan, which is required for all orders
      over $100,000.

15.      Task order 5TS2103049 was awarded as a sole source (directed buy) for the
      U.S. Army and was a follow-on order to Strategic Management Initiatives under
      MOBIS contract GS-10F-023J1. This contract was awarded with a base year of



                                          A-6
      March 26, 2003 through March 25, 2004 with two option years. The value of the
      base year was $1,488,484. The order was to provide expertise associated with
      resource optimization and environmental restoration for the United States Army’s
      BRACO.

      The contract was issued without competition, as it was a directed buy from the client
      agency. The directed buy did not allow other schedule contractors to be considered
      for the task order work. Additionally, the ITM did not evaluate the level of effort or
      labor mix to determine whether the price was fair and reasonable. The file did not
      contain an acquisition plan, which is required for orders over $100,000.

      The task represented an inappropriate use of the IT Fund. The work described in
      the statement of work was not IT related.

16.       Task order 5TS17037031A was a time-and-materials task order awarded to
      Millennium Data Systems, Inc. under contract number GS05T03BMM0221 (an 8(a)
      contract). The T&M contract did have an NTE amount. The statement of the work
      was outside the scope of the IT fund and called for general office work such as
      answering phones, filing documents, sending and receiving faxes, helping
      customers fill out forms and helping with personnel actions for the Department of the
      Navy. This task order also lacked an acquisition plan.

17.       Task order 5TS5701D218 was awarded as a sole source directed buy to Anteon
      Corporation under the Millennia Lite contracting vehicle for the Air Force. This order
      is discussed in the body of the report.

18.      Task order 5TS5701D370 was awarded as a sole source directed buy to Anteon
      Corporation under the Millennia Lite contracting vehicle for the Air Force. The order
      was a follow-on to task order 5TS5701D218 (see note 17 above). This order is
      discussed in the body of the report.

19.      Task order 5TS5703D434 was awarded as a sole source directed buy to Anteon
      Corporation under the Millennia Lite contracting vehicle for the Air Force. The order
      was a follow-on to task orders 5TS5701D218 and 5TS5701D370 (see notes 17 and
      18 above). These tasks are discussed in the body of the report.

20.      Task order 5TC5703C291A was awarded under an FSS Schedule 70 contract to
      NextiraOne Federal, LLC. The contract was awarded to provide McGuire Air Force
      Base in New Jersey with an optically based backbone infrastructure capable of
      supporting current and future telecommunications and network interconnectivity
      (voice, data, and video).

      The task order lacked an acquisition plan. This contract was written as a mix of firm
      fixed price as well as T&M, however the contracting officer did not prepare a
      Determination and Findings required by FAR 16.601. Additionally, the contractor
      sent out quotes to eight companies with only two companies submitting qualified




                                          A-7
      proposals, when DOD contracts over $100,000 require a minimum of three
      proposals.42

21.       Task order 5TS5703D139 was awarded under the ANSWER contract to L3
      Communications (formerly EER Systems). The client, the Air Force, requested an
      order to provide an integrated solution that significantly enhanced the overall
      effectiveness and performance of the security system at Offutt Air Force Base while
      at the same time reducing manpower requirements.

      The task order did not have an acquisition plan. The work provided for in the order
      includes substantial non-IT related work and the ANSWER contract was not the
      appropriate vehicle to use for this order. The order calls for major construction work,
      including the installation of security fences, drainage and erosion control, grading
      and trenching, above and below ground power signal and cabling, pedestal
      installation, and other physical barriers as well as intrusion detection equipment.

22.      Task order 5TS5703D154 was awarded to DynCorp for work related to the Air
      Force under contract GS-35F-4639H. The project objectives included such items as
      development of web-based user enhancement tools. The task order did not include
      an acquisition plan.

      Current guidance for all DOD tasks placed against multiple award contracts requires
      that three bids shall be submitted for all services work over $100,000 (see footnote
      27). FTS did receive three proposals, however, two of the proposals were “no bids”,
      while the only bid with dollar amounts was by Dyncorp. The contract file does not
      include a Determination of Findings as to why a T&M task was in the best interest of
      the government, as required by FAR 16.6. The purchase order also lacked a ceiling
      or a not to exceed amount for this T&M contract.

23.      Task order 5TS5701D201 was awarded to Computer Sciences Corporation for
      the Air Force under contract GS-35F-4381G. The scope of work was for all tasks
      necessary to provide system maintenance and modification to the Stock Control and
      Distribution System, which provides key functionality to the Air Force and other
      government agencies for asset management.

24.      Task order 5TS5704C027 was awarded under the ANSWER contract to
      Computer Sciences Corporation. The contract, valued at $9,479,716, did not have
      an acquisition plan, as required for all contracts over $100,000.

25.      Task order 5TS1703D002 was awarded to DynCorp Systems and Solutions, LLC
      under the ANSWER contract. This contract was ordered for the U.S. Navy’s Naval
      Surface Warfare Center.




42
      The reference here is to guidance contained in the National Defense Authorization Act of 2002.



                                                A-8
      The proposed work was questionable as to whether or not it was IT related. The
      task file did not substantiate that the CSC evaluated the level of effort and labor mix
      in making the determination as to whether not the price was fair and reasonable.

26.       Task order 5TS5703D150 was awarded using the Millennia contract vehicle for
      the Air Force to Computer Sciences Corporation. The task provides for technical
      operations (site preparation, equipment installation and integration, acquisition and
      administration of hardware and software, and facilities engineering among other
      things).

      The file lacked a justification for the contract vehicle used. The file did not contain
      an acquisition plan. The statement of work for the order did not specify a period of
      performance. FTS also failed to document in the contract file the determination of
      fair and reasonable price.

27.      Task order 5TS5702D431 was placed against the MOBIS contract and was
      awarded to KPMG Consulting for the Air Force. The purpose of this contract was to
      provide support for accounting related improvements to the Air Force HQ Materiel
      Command Financial Management and Comptroller inventory valuation business
      environment. There was no acquisition plan for this project.

      The contract file did not include a rationale for why this particular contract vehicle
      was used, and we believe the work was not IT related. The contract also does not
      have the start dates for Parts 1 and 2. The contract was sole source. The client
      agency requested KMPG. Price reasonableness was determined by comparing the
      proposal to similar services rates published in FSS schedules.

28.      Task order 5TC5703D310 was awarded under the 8a-contracting vehicle to CDO
      Technologies, Inc. under contract number GS05T03BMM3243. The amount of the
      contract was $2,299,088.83 and was a firm fixed price contract. The contract file
      lacked a letter of designation for the contracting officers representative and also did
      not include an acquisition plan. This contract was written for the Air Force for
      procurement of Aircrew Life Support Equipment and Record Tracking System. The
      contractor was to engineer, furnish, install, and test copper cables and fiber optic
      cables and associated termination equipment within facilities located at McChord Air
      Force Base to support network connectivity and data transport capabilities.

      The award did not include a determination of fair and reasonable price.

29.       Task order 5TS5702D240 was awarded under the MOBIS contract vehicle and
      was a firm fixed price award to KPMG. The contract was for the department of the
      Air Force related to the Depot Maintenance Accounting and Production System to
      provide development, updating, and delivery of functionally and technically sound
      ABOM training to the Air Force. The task was awarded sole source to KPMG, the
      incumbent contractor.

      The work associated with this job is not IT related. The task primarily involves
      training support to the Air Force in the form of development, maintenance, and


                                          A-9
      instructions for three courses that cover the procurement, receiving, issuing,
      inventory, and accounting of materials.

30.       Task order 5TS5703C015 was awarded under the ANSWER contract to Northrop
      Grumman Information Technology, Inc. The contract was awarded for IT services
      and was a follow-on task order. The program was to modernize the Air Force
      Mobility Command and provides seamless airlift and tanker planning, scheduling
      and analysis during peacetime, crisis, contingency, and wartime operations. Much
      of this task was to be done through integration of software applications and utilities.
      The contract file did not include an acquisition plan and also lacked a letter of
      designation from the contracting officer.

      See the body of the report for additional information.




                                          A-10
                                        AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                                      CLIENT SUPPORT CENTER, GREAT LAKES REGION
                                           REPORT NUMBER A040117/T/5/Z05002

                                                            APPENDIX B

                       SCHEDULE OF 2004 ORDERS REVIEWED FOR THE GREAT LAKES REGION


Order Number        Client         Contract Type              Contractor             Contract/BPA Number   Order Value     Notes
 5TS5704C201      Air Force          ANSWER          Computer Sciences Corporation    GS09K99BHD0003          $4,584,766     1
5TS5702D309H      Air Force         Schedule 70        Veridian Engineering, Inc        GS-35F-0731J            $450,433     2
 5TS5704D148      Air Force         8a Set Aside        CDO Technologies, Inc.        GS05T04BMM3263            $290,692     3
 5TS5704D149      Air Force         Schedule 70              LOGTEC, Inc.               GS-35F-4528G          $7,636,678     4
 5TS5704D173      Treasury          8a Set Aside           SMARTNET, Inc.             GS05T04BMM3244            $197,525     5
 5TS1704A053   Homeland Security    Millennia Lite                L3                  GS07T00BGD0023        $107,928,509     6
 5TP5704D005      Air Force         Schedule 84                   L3                    GS-07F-5377P         $34,102,539     7




                                                                   B-1
Notes:

1.      Task order 5TS5704C201 was awarded under the GSA ANSWER contracting
     vehicle to Computer Sciences Corporation as contract number GS09K99BHD0003.
     The task order was awarded to assist and support mobility forces in the Air Force for
     selection, evaluation, and integration of new technology into MAF aircraft and
     support systems. The contract file did not document any negotiations for this T&M
     task order, however the ITM said negotiations did take place.

     There was only one bid on this particular task order even though all the ANSWER
     contractors were solicited. However, the solicitation included a statement of
     incumbency related to the current contractor, which happened to be Computer
     Sciences Corporation. The notice of incumbency may have discouraged contractors
     from responding to the solicitation. Computer Sciences Corporation was the only
     contractor to submit a bid.

2.      Task order 5TS5702D309H was awarded as a sub-task to 5TS5702D309 as a
     time and material task order to Veridian Engineering, Inc. under contract GS-35F-
     0731J for the Air Force. The task was to provide the Air Force ASC/HP supporting
     Simulation Analysis Facility simulations for a one-year period. The task order
     exceeded the $100,000 requiring an acquisition plan. No acquisition plan was
     prepared.

     There was no rationale in the file for the reason the Schedule 70 contract vehicle
     was used, and this task order was a sub-task to an order awarded June 28, 2002.
     According to the ITM, the current task will be phased out and the remaining work will
     be recompeted under ANSWER as cost reimbursable. The proposed rates for this
     task are at the schedule contract rates for this vendor, however, the SOW titles are
     not consistent with the proposed labor classifications. The task is a time and material
     task order, but the contract file lacked a determination and findings report.

     The CSC only solicited one bid for the initial task work because the task was a
     follow-on to work Veridian was already performing. The client provided the CSC
     justification for sole source stating that Veridian had the expertise and in the client’s
     view awarding a contract to a new company would be at least an 18 month setback
     for the learning curve and security level, as employees on this task order require at
     least a Secret clearance in order to work, which Veridian employees already
     possessed.

3.      Task order 5TS5704D148 was awarded as an open market 8(a) set-aside time
     and material order to CDO Technologies, Inc and was for the Air Force. The
     contractor held an FSS Schedule 70 contract. The work provided support for the
     overall Point-of-Maintenance initiative encompassing Automatic Identification
     Technology insertion into technicians’ scheduled and unscheduled activities to
     produce better information flow to and from the system of record and the mechanics
     on the job site for the Air Force. There was no acquisition plan in the contract file as
     required by General Services Acquisition Manual.


                                          B-2
     For 2004, the proposed labor rates for the order were at the FSS Schedule contract
     rates for the contractor however except for one labor category. The contractor’s
     proposed rates for 2005 were higher than their schedule 2005 rates. The ITM told
     us that since this was an open market award, the contractor did not have to comply
     with FSS schedule pricing. The contract file does not substantiate that the CSC
     evaluated the level of effort and labor mix to make a determination as to price
     reasonableness.

4.       Task order 5TS5704D149 was awarded to LOGTEC, Inc. for the Air Force under
     contract GS-35F-4528G. The scope of the work involved providing contractor
     support in researching business processes to be supported by the Enterprise
     Information Technical Service (EITS). The task was to facilitate workshops of
     functional experts for the purpose of discovering functional requirements pertaining
     to EITS. The task also develops process models, data models, and “ability to”
     statements for the business processes supported by EITS.

     The contract file contained an acquisition plan as well as documented a rationale for
     the contract vehicle used. The price proposal clearly states the period of
     performance and the proposed labor rates are below the contractor’s FSS schedule
     rates. The CSC solicited proposals from eight vendors and received three
     responses, meeting the DOD 803 requirements. The contract file did not have a
     FSS Schedule checklist for the task order.

5.     Task order 5TS5704D173 was awarded as an 8(a) set-aside contract to
     SMARTNET, Inc for the Department of the Treasury.

     The file did not show why an open market 8(a) set-aside was used when
     SMARTNET already held a Schedule 70 contract (GS-35F-4785G). The contract file
     lacked an 8(a) set-aside checklist. The contract file did not show that the CSC
     evaluated the level of effort to make a determination as to whether the total price
     was fair and reasonable.

6.      Task order 5TS1704A053 is discussed in the body of the report.

7.      Order 5TP5704D005 was awarded to EER Systems, Inc. (now L3
     Communications) on April 30, 2004 from the CSC in Fairborn, OH. The task order
     amount was $34,102,539. The award was placed against the vendor’s Schedule 84
     contract to the Air Force for delivering vehicle barriers to increase effectiveness of
     security at 150 Air Force bases. The vehicle barriers are shallow mount wedge
     barriers that can be deployed when activated from the entry control point (by the
     controller) or from an alternate over watch position.

     See the body of the report for further discussion of this task order.




                                          B-3
     APPENDIX C
MANAGEMENT RESPONSE




         C-1
C-2
C-3
C-4
C-5
C-6
C-7
C-8
C-9
C-10
 AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
CONTROLS AND TESTING OF THOSE CONTROLS
        FOR THE HEARTLAND REGION
    REPORT NUMBER A040191/T/6/Z05007
             DECEMBER 9, 2004




                 VI
                AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
               CONTROLS AND TESTING OF THOSE CONTROLS
                       FOR THE HEARTLAND REGION
                   REPORT NUMBER A040191/T/6/Z05007
                            DECEMBER 9, 2004

                              TABLE OF CONTENTS

                                                               Page

BACKGROUND                                                     VI-1

OBJECTIVE, SCOPE, AND METHODOLOGY                              VI-2

RESULTS OF AUDIT                                               VI-2

     Central Office FTS Controls                               VI-2

        Implementation of Section 803 of the National          VI-3
        Defense Authorization Act

        Legal Review Policy                                    VI-3

        Acquisition Checklists                                 VI-3

        CSC Management Plan                                    VI-3

        Contract/Project Closeout Guidance                     VI-4

        Tri-annual Reviews                                     VI-4

     Regional FTS Controls                                     VI-4

     Review of Procurement Actions                             VI-4

        Limited Competition                                    VI-4

        Insufficient Support for Fair and Reasonable Pricing   VI-5

        Improper and Questionable Contracting Actions          VI-6

        Inappropriate Use of the IT Fund                       VI-6

        Frequent Use of Time-and-Material Authority            VI-6

        Contract Oversight                                     VI-7
               AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
              CONTROLS AND TESTING OF THOSE CONTROLS
                      FOR THE HEARTLAND REGION
                  REPORT NUMBER A040191/T/6/Z05007
                           DECEMBER 9, 2004

                          TABLE OF CONTENTS
                                 (Continued)

                                                                  Page

    Conclusion                                                    VI-7

    Management Response                                           VI-7

    Internal Controls                                             VI-8

APPENDICES
    A. Schedule of FY04 Orders Reviewed in The Heartland Region    A-1

    B. Management Response                                         B-1
VI-1
Objectives, Scope and Methodology

The audit objectives were to determine whether the CSC (1) has conducted
procurements in accordance with the Federal Acquisition Regulation (FAR) and the
terms and conditions of the contracts utilized, (2) has implemented controls mandated
by Central Office FTS in FY 2003 and 2004, and (3) has implemented additional
controls to improve the procurement process.

To accomplish these objectives, we:

      •   Reviewed procurement documentation related to a judgmental sample of 10 task
          orders43 valued at $118,273,506;
      •   Reviewed laws, regulations, and applicable guidance; and
      •   Interviewed CSC personnel.

The audit was conducted from June through August 2004 in accordance with generally
accepted Government auditing standards.


Results of Audit

Our review indicated that the R6 CSC has made substantial progress in implementing
controls to improve its procurements. The CSC has begun to implement Central Office
FTS controls, as well as regional controls. In addition, our limited review of
procurements during March through May 2004 indicated that the CSC has made
progress in improving appropriate documentation for new awards and remediating some
issues related to existing tasks.

However, our review of procurements also indicated that some weaknesses similar to
those noted in the January 2004 audit still exist, including limited competition,
insufficient documentation to support that the Government received fair and reasonable
pricing, continued frequent use of time-and-materials tasks, and misuse of the IT Fund.
We noted that while the CSC has initiated action to remedy deficiencies found in
existing task orders, much work remains in order to remediate all major procurement
deficiencies associated with existing task orders.

Central Office FTS Controls

Since the OIG’s review of FY 2003 CSC procurements in Regions 4, 6 and 10, Central
Office FTS has initiated new policies and procedures controls to improve the CSC
control environment. These controls include the following:



43
      There were ten task orders included in our sample, which were comprised of five orders the CSC
     awarded during March through May 2004, and five orders that the CSC awarded before the March
     through May 2004 time period and subsequently modified during this time frame. Nine of the ten task
     orders were placed against Federal Supply Schedule contracts.

                                                   VI-2
Implementation of Section 803 of the National Defense Authorization Act. In
support of Section 803, FTS issued Acquisition Policy Letter No. 2003-01 on March 11,
2003. The policy affects all orders for services greater than $100,000 placed on or after
October 25, 2002, and requires “fair notice of the intent to make the purchase … ” and
“affords all contractors responding to the notice a fair opportunity to submit an offer ….”
Posting of a request for quotations on the GSA electronic quote system “e-Buy”
(www.gsa.Advantage.gov), is one medium for providing fair notice to all contractors as
required. In addition, the contracting officer must receive offers from at least three
contractors or determine in writing that no additional contractors can fulfill the
requirements.

Four of the five new orders we reviewed were in compliance with the FTS
Commissioner’s memo implementing Section 803.

Legal Review Policy. On October 1, 2003, FTS issued policy guidance implementing
additional legal review requirements to assure compliance with all applicable laws,
regulations, and other requirements. For example, legal concurrence is required for
new contract awards over $5 million (excluding task orders); actions resulting in awards
of Blanket Purchase Agreements; actions resulting in the issuance of a task/delivery
order that contains leasing provisions, regardless of dollar value; and actions that result
in the issuance of a task/delivery order under existing vehicles in excess of $5 million.

The CSC awarded one new task order in our sample that exceeded $5 million; however,
there was no documentation in the file showing that the CSC submitted the order for
legal review. R6 management affirmed that that the file was reviewed by legal;
however, it was not properly documented. Since this time, R6 management has
implemented controls to ensure that all legal reviews are fully documented in the task
order files.

Acquisition Checklists. In a memo dated October 6, 2003, FTS Central Office
developed standard checklists to provide FTS associates with guidance and tools prior
to awarding contracts and task orders and to ensure consistency in the acquisition
process. Examples of required documentation include: requirement description, market
research data, acquisition plans, etc.

Our review indicated that for one of the five new awards, the CSC did not properly
complete the appropriate checklists established by FTS Central Office. We did not
evaluate the effectiveness of the checklists in preventing procurement deficiencies.

CSC Management Plan. FTS issued guidance on November 25, 2003 establishing
national standards governing internal controls for task order acquisition activities
including pre-award and post-award oversight, training requirements, and management
controls. As required by the plan, each CSC is responsible for conducting self-
assessments of its operation on a recurring basis, and Assistant Regional
Administrators (ARAs) and Assistant Commissioners (ACs) are required to review task
orders on a sample basis to ensure that proper controls are in place. Results are



                                           VI-3
included in the annual assurance statements of the Regional Administrators, ARAs,
ACs, and the FTS Commissioner.

Regional FTS management provided us with the region’s management plan in detail.
We determined that this plan was adequate; however, we provided management with
specific informal feedback on ways to improve the effectiveness of the plan.

Contract/Project Closeout Guidance. FTS issued guidance establishing contract and
project closeout procedures on May 28, 2004. Each regional ARA and IT Solutions
National Program Director is responsible for developing and submitting written closeout
procedures for his/her region or business unit(s). The procedures are to encompass
contract, task order, project, and financial closeouts; must require regular reporting of
closeout results to the AC, IT Solutions; and must assign specific responsibilities to
specific FTS associates for ensuring closeouts are conducted in a thorough and timely
manner.

Regional FTS management provided us with closeout procedures for the region and
advised that Central Office FTS approved these procedures in October 2004.

Tri-annual Reviews. In a memo dated November 14, 2003, The FTS Office of
Acquisition announced plans to conduct tri-annual reviews to ensure that regulatory
guidance is being followed and that the integrity of the acquisition process is preserved.

Regional FTS management advised that Central Office FTS has not yet performed its
initial review of the R6 CSC.

Regional FTS Controls

R6 FTS management has implemented additional controls at the regional level in the
past several months in an effort to improve the procurement process. For example,
regional FTS management provided us with a flowchart that outlines all of the control
steps present and implemented in the procurement process. These controls are to be
included in every step of the procurement, and each individual involved in the
procurement has detailed responsibilities for ensuring the integrity of the acquisition. In
addition, the CSC has utilized a knowledge assessment tool for its associates to provide
more focused training plans and internal reviews.

Review of Procurement Actions

Our review of regional CSC procurement actions executed during March through May
2004 indicated that while the CSC has made some progress in improving appropriate
documentation for new awards and remediating some issues related to existing tasks,
significant deficiencies with the existing tasks remain.

Limited Competition. Promoting competition is an important part of the foundation of
the Federal procurement process. FSS special ordering procedures and recent
legislation (Section 803) reinforce the importance of obtaining competition, which

                                           VI-4
affords the maximum opportunity for the Government to obtain goods and services at
fair and reasonable prices. Of the ten task orders in our sample, R6 awarded seven
without the benefit of competitive bids. Five of these orders were existing tasks. For
two of these tasks, R6 has either re-competed the task or have made plans to re-
compete it after task expiration. Another one of the existing tasks has been transitioned
to another regional CSC. Two of the seven task orders with limited competition were
new awards and were governed by Section 803 of the National Defense Authorization
Act. One of these tasks was not in compliance with the Commissioner’s memo
regarding this Act.

Insufficient Support for Fair and Reasonable Pricing. For eight of the ten orders in
our sample (four new awards, four existing tasks), we did not find sufficient
documentation to support that the Government received a fair and reasonable price.
This is of particular concern because, as noted above, the CSC awarded seven of the
ten task orders in our sample without the benefit of competitive bids.

       Evaluation of Labor Rates. We identified five task orders (three new awards, two
existing tasks) that did not include evidence that the CSC determined price
reasonableness for the proposed labor. After R6 informed a client of the need to re-
compete one of these orders, the client made the decision to transition the effort to
another regional CSC. In addition, we noted two orders (both existing tasks) in which it
appeared that the CSC compared the proposed labor rates with the rates of other
vendors – generally vendors on contract under the same multiple-award contract
vehicle. However, this is not adequate to establish fair and reasonable pricing. Price
reasonableness cannot be established by evaluating only the labor rate; the labor hours
must be evaluated as well. FSS special ordering procedures for services specifically
state that the ordering office must evaluate the level of effort and labor mix to make a
determination that the total price is fair and reasonable. FTS has plans to re-compete
one of these existing orders after expiration of the current period of performance.


        Maximum Order Threshold. The Maximum Order Threshold (MOT) is the dollar
amount determined by the contracting activity that awarded the Schedule contract
where experience shows that it is advantageous for the ordering office to seek price
reductions. The Schedule user should attempt to negotiate a price reduction before
issuing any order exceeding the MOT. In addition, FAR 8.405-2 requires the ordering
office to seek additional competition when orders exceed the MOT. In five of the ten
orders reviewed (two new awards, three existing tasks), we found that the procurements
exceeded the MOT of the base FSS Schedule contracts. In all five cases, there was no
evidence that the CSC attempted to negotiate greater discounts or sought additional
competition. Although these tasks were awarded without negotiating a price reduction,
contracting personnel have the opportunity at the option year to seek additional pricing
discounts.

      Evaluation of Other Direct Costs. In most cases, if the vendor does not have a
proposed cost pre-priced under the base contract, the ordering office must determine
and negotiate a fair and reasonable price. These additional cost items are referred to as

                                          VI-5
Other Direct Costs (ODCs). We reviewed task order documentation for evidence to
support the fair and reasonable pricing of ODCs. In seven of the ten task orders
reviewed (three new awards, four existing tasks), the supporting documentation was not
included in the file or was insufficient. As mentioned previously, after R6 informed a
client of the need to re-compete one of these existing orders, the client made the
decision to transition the effort to another regional CSC. FTS has plans to re-compete
another existing order in our sample after expiration of the current period of
performance. ODCs may constitute a large portion of the total value of a task order;
accordingly, it is imperative that the ordering office (the CSC) ensures price
reasonableness. For example, for one of the new task orders we reviewed, the ODCs
comprised over 26% of the total proposed amount. In this instance, we found no
documentation in the file regarding the price reasonableness of these costs.

Improper and Questionable Contracting Actions. For one existing task order, the
CSC improperly executed contract options and improperly extended the period of
performance. While these actions took place prior to the March through May 2004 time
period, these prior instances affect the ongoing task order. These improper practices
have resulted in substantial cost growth – from $688,993 at the time of award
(November 2000) to $7.4 million as of the most recent modification executed in March
2004.

FAR 17.207 outlines specific requirements for proper exercise of options, including a
written determination that exercising the option is in the best interest of the Government.
Extensions to the period of performance should be the exception because extensions
can adversely impact contractor efficiency. When the contracting officer determines an
extension to be in the Government’s best interest, the file documentation should contain
an adequate explanation.

Inappropriate Use of the IT Fund. For two of the ten task orders we reviewed (one
new award and one existing task), the CSC engaged in inappropriate contracting
practices to procure, on behalf of clients, services which did not meet the intent of the IT
Fund. However, we noted that for the existing task order, the documentation indicated
that the CSC had already identified this order as inappropriate for the IT Fund. The
CSC informed the client for the need to re-compete the task order. The client decided
to terminate the task order and transition it to the Southeast Sunbelt Regional CSC.

Frequent Use of Time-and-Material Authority. A time-and-materials (T&M) contract
provides for acquiring services on the basis of direct labor hours at fixed hourly rates
and materials at cost. T&M task orders are disfavored under FAR 16.601 because this
type of task provides no incentive to the contractor for cost control or labor efficiency.
FAR 16.601 requires the contracting office to prepare a written justification for use of a
T&M contract. The CSC frequently used time-and-materials tasks versus firm fixed-
price tasks. Of the ten orders for services that we reviewed, eight were time-and-
materials tasks (three new awards and five existing tasks). We noted that for the three
new awards, the file contained the required justification. R6 management has taken
steps to educate FTS associates on using alternatives to T&M contracts.



                                           VI-6
Contract Oversight. In six of the ten task orders we reviewed (two new awards and
four existing tasks), we found either improper billings or lack of support for the costs
billed. For example, in two task orders we identified billings in which the vendor billed
ODCs as a lump sum amount with no supporting breakdown of the component costs.
Also, in four instances, the CSC had not reviewed the invoices, and based on a review
of two months’ invoices for one of the tasks, we identified potential overbillings of
approximately $10,000. R6 management has informed us that, with the implementation
of FTS’ new project management system (GSA Preferred), CSC associates will review
all invoices.


Conclusion

The R6 CSC has made substantial progress in implementing controls to improve its
procurements. Specifically, the CSC has begun to implement controls initiated by FTS
Central Office and has also developed its own processes and procedures designed to
protect the integrity of its procurements. However, our review of procurement actions
for the period March through May 2004 indicates that the CSC needs to focus not only
on the integrity of new awards but also existing orders that are high-risk due to improper
actions that have occurred during the life of the task. Our review indicated that while
there is evidence that the CSC has begun remediation efforts to improve existing tasks,
much work is needed to correct deficiencies that remain, including inadequate support
for fair and reasonable pricing, improper exercising of task order options, and improper
or inadequate support for contractor billings.

As indicated in our January 2004 report on the FTS Client Support Centers, we believe
that steps to remedy these problems require a comprehensive, broad-based strategy
that focuses on the structure, operations and mission of FTS as well as the control
environment. Based on the comprehensive recommendations contained in that report,
no additional overall recommendations are deemed necessary at this time. However,
the results of our review indicate that on five specific orders R6 FTS needs to take
corrective action. Please refer to the appendix notes section of this report for our
recommendations related to the subject orders.

Management Response

On November 3, 2004, GSA’s Regional Administrator for the Heartland Region
submitted a response that indicated the Region concurred with the draft audit report.
The response also noted a desire to partner with the Kansas City Field Audit Office as
the region builds an efficient and effective technology acquisition business model.
Management’s response is included in its entirety as Appendix B to this report.

Internal Controls

    We assessed the internal controls relevant to the CSC’s procurements to assure that the
   procurements were made in accordance with the FAR and the terms and conditions of the
        contracts utilized. Our review indicated that the CSC has implemented various

                                            VI-7
VI-8
                                    AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                                   CONTROLS AND TESTING OF THOSE CONTROLS
                                           FOR THE HEARTLAND REGION
                                       REPORT NUMBER A040191/T/6/Z05007

                                          APPENDIX A
                 SCHEDULE OF FY 2004 ORDERS REVIEWED IN THE HEARTLAND REGION


   Order                                 Contract                                            Contract/BPA           Task Order
                         Client                                  Contractor                                                    Notes
  Number44                                Type                                                 Number                 Value
K03AM080S00           Army            Schedule 70       Titan Corporation                 GS-35F-5396H                $2,996,586       1
                                                        DynCorp Information
K04AM042S00           Air Force       Schedule 70                                         GS-35F-4639H                       675,561   2
                                                        Systems LLC
K04JB113F00           Army            ID/IQ             Henry Ford Health System          GS06T00BND0254               2,750,000       3
K04KM017S00           Army            Schedule 70       Anteon Corporation                GS-35F-4357D                 1,377,467       4
P04KH349P00           Air Force       MOBIS             Scitor Corporation                GS-10F-0104N                19,532,072       5
                                                        TRW Systems and
K00HS012S0445 Air Force               Schedule 70       Information Technology            GS-35F-4522G                  7,363,773      6
                                                        Group
                      Defense
                                                        Electronic Data Systems
K02BN015S00           Manpower Schedule 70                                                GS-35F-0323J                65,783,647       7
                                                        Corporation
                      Data Center
K02SS312S00           Army        PES                   MESA Associates, Inc.       GS-23F-0013L                        1,543,256      8
                      Army                              EWA Information &
K03MT167S00           National    Schedule 70           Infrastructure Technologies GS-35F-0665J                      15,750,992       9
                      Guard                             Inc.
                                                        Science Applications
K03MM021S00 Army                      MOBIS                                         GS-23F-8006H                             500,152 10
                                                        International Corporation




  44
       See following pages of this Appendix for the corresponding task order numbers and detailed findings.
  45
       This review is based upon file documentation only. We were unable to hold any interviews regarding this task order.


                                                                    A-1
       Notes for Schedule of Task Orders Reviewed

       New Awards

11. Order K03AM080S00, awarded April 29, 2004, is a firm, fixed-price (FFP) task to provide
    help desk and Army Directory System support to the Defense Message System of the
    Army. The file contained no documentation supporting the price analysis of the
    travel/Other Direct Costs (ODCs) included in this task order. While the ODCs proposed are
    relatively small, Titan proposed a General and Administrative (G&A) fee on travel and a
    material handling markup plus the G&A fee on material handling. However, per the FSS
    Schedule contract, G&A fee on travel is unallowable.

12. Order K04AM042S00, awarded April 14, 2004, is a six-month time-and-materials (T&M)
    award to provide support for the development and deployment of automated travel
    solutions throughout the Air Force. The subsequent task order will require legal review and
    the Client Support Center (CSC) advised that they made this award as a bridge contracting
    action until the new task order can be properly competed and awarded. While there was a
    justification for using a T&M type task in the file, there was no ceiling price included on the
    SF300 in the file, as required by FAR 16.601.

13. Order K04JB113F00, awarded March 18, 2004, is a FFP task order for the Army to develop
    an automated platform for a research study. There was no information in the file explaining
    why FTS did not seek competition on this order and therefore, was noncompliant with DoD
    Section 803 requirements. In addition, the government estimate was lower than the
    contractor’s proposed amount (for example, the contractor’s proposal includes $704,068 in
    ODCs for hardware, travel, and supplies, but the Independent Government Estimate
    includes only ODCs for travel and supplies at $88,348), and there was no evidence in the
    file that the contracting officer made a determination of fair and reasonable pricing for the
    labor or ODCs. There was also no technical evaluation. In the absence of competitive
    bids, in our opinion, it is particularly important for there to be documentation of an adequate
    evaluation of price.

          The description of the work, per the statement of work (SOW), shows that only a
          minor portion of this work appears to be Information Technology (IT). Most of the
          work appears to be research, clinical testing and documentation. Reviewing the cost
          proposal for this task order, it appears that 36% of the total labor costs are non-IT
          (administrative managers, biostatistician, physician, principal investigator, etc.).
          Another 34% of the labor costs are questionable IT. The labor categories that are
          included within this 34% are research associates and a senior advisory
          analyst/consultant. These labor categories were not included in the vendor’s
          employment descriptions; therefore, we could not make a determination as to what
          extent of these employees’ work was IT-related. FTS should review the labor
          categories being billed to the project, along with the services being provided, to
          determine if this work is appropriate for the IT Fund.




                                                   A-2
          We determined that FTS does not receive or review the invoices for this task order.
          FTS Finance does not receive supporting documentation for the invoices billed on
          this task order. The client reviews and signs off on the invoices. FTS should
          consider obtaining breakdowns of the invoiced costs to better understand what is
          being billed to ensure that they are related to the original scope of work and that the
          prices are fair and reasonable.

          While one of the applicable acquisition checklists was included in the file, and it
          appears as if the proper checklist steps were completed in accordance with the FTS
          Commissioner's October 6, 2003 letter, the other applicable checklist and acquisition
          checklist cover page were not prepared.

14. Order K04KM017S00, awarded May 7, 2004, is a temporary T&M contract for the Army to
    support the daily operations of war fighting software. R6 CSC did not process the prior
    task; however, since this task order is critical to the wartime effort; the CSC chose to award
    this temporary task until there was adequate time for them to properly compete this effort.
    Overall, this order appears to be minimal risk since it is a short-term bridge order put in
    place until competition can be completed. However, there was no evidence supporting an
    evaluation of pricing. Also, this procurement exceeded the maximum order threshold
    (MOT) for the base contract, but there was no evidence that FTS attempted to negotiate
    additional price concessions on this order, as required by FAR 8.405-2.

15. Order P04KH349P00, awarded April 22, 2004, is a T&M task to provide professional
    services for the Air Force. FTS competed this task on e-Buy, but only one offer was
    received. In the absence of competitive offers, FTS should use an alternative method to
    establish that the total price is fair and reasonable. The file did not adequately document
    that the contracting officer made this determination. This task exceeds the Maximum Order
    Threshold (MOT) for its base contract, yet the file contained no evidence that FTS
    requested additional price concessions from the contractor, as required by FAR 8.405-2.
    According to the price analysis in the file, the contractor submitted a cost proposal showing
    a discount on the labor rates. However, neither the cost proposal in the file, nor the invoice
    reviewed included discounted rates.

          Per the FTS Commissioner’s October 1, 2003 memo, all actions that will result in the
          issuance of a task order under an existing vehicle in excess of $5,000,000 require a
          legal review. This procurement was estimated to be over $19,000,000. There was
          no documentation in the file showing that the procurement package was provided to
          legal for review.

      Existing Task Orders with Contracting Actions Between March and May 2004

      6. Order K00HS012S04, awarded November 7, 2000, is a sole source T&M task to
         provide support and development for command, control, communications,
         computers and intelligence platforms for the Air Force Command and Control
         Training and Innovation Group. For the period March through May 2004, the CSC
         processed one modification to add $28,011 to labor.



                                                  A-3
   Because of existing deficiencies over the life of the task, the CSC should have
   recognized the need to remediate the problems before continuing to administer the
   task. Based on the file documentation, we could not conclude that the CSC
   determined the prices for labor or ODCs to be fair and reasonable, either for the
   initial award or for subsequent modifications the CSC processed that added work to
   the task. There was also no evidence that the CSC evaluated whether or not the
   additional work was within the original scope of the task. Further, the value of the
   order exceeded the MOT for the Schedule contract, yet the file contained no
   evidence that FTS requested additional price concessions from the contractor, as
   required by FAR 8.405-2.

   This was a T&M task; however, there was no justification for this type of task in the
   file and no ceiling price listed on the purchase order. Also, in Modification 11,
   processed in November 2001, the file indicates that this is a multi-year task in its
   second option year; however, this was the first time the task is referred to as a multi-
   year order. The SOW does not mention option years. Options cannot simply be
   added to a task. The SOW needs to indicate if options are contemplated and pricing
   should be established at time of award. In addition, the contracting officer did not
   complete a determinations and findings in accordance with FAR 17.207, if an option
   was exercised.

   In addition, FTS has extended the period of performance (POP) six times for a total
   period of almost three years. For a portion of the POP extensions, there was
   inadequate information in the file to justify why the task should be extended.

   The original value of this subtask was $688,993. After the most recent modification
   signed in March 2004, the task order amount had grown to $7,606,000. This
   constitutes over 1,000% growth of this task since November 2000. The cost growth
   is an indicator that FTS has not closely monitored and has improperly modified the
   task well beyond its original scope. Because of the significant deficiencies over the
   life of this order, FTS should consult with Legal Counsel to determine the
   appropriate remedial actions to take at this time.

   While many of the situations outlined in this summary occurred prior to the March
   through May 2004 time period, FTS should have remedied these deficiencies before
   going forward with the task order.

7. Order K02BN015S00, awarded April 10, 2002, is a sole source T&M task to provide
   maintenance of the Department of Defense Personnel Data Repository system for
   the Defense Manpower Data Center.            There are two other task orders
   (K02BN041S00 and K02BN038S00) related to this project. Documentation indicates
   that FTS has been involved with the same client and vendor for several years.

   FTS re-competed the latest task order (K04BN001S00), which closed on July 16,
   2004. FTS solicited thirteen firms under Schedule 70, but received only one offer
   from the incumbent.



                                           A-4
     This was a T&M task; however, there was no justification for this type of task in the
     file and no ceiling price listed on the purchase order. During the March through May
     2004 time period, the CSC issued Modification 26, which added incremental funding
     and extended the POP so that the CSC could continue to support the client while the
     re-compete was being processed. While the recent re-compete is a positive sign,
     the incumbent is still the only bidder. To avoid an indefinite sole source situation,
     which is high-risk to the Government, we suggest that FTS and the client work
     toward a procurement strategy that would provide a better chance of introducing
     greater competition for this work, as the dollar value involved is significant.

     In the re-compete (to combine orders K02BN015S00 and K02BN041S00), which
     closed on July 16, 2004, Tasks 4, 7, and 10 are not included. Those tasks are being
     transferred to the Pacific Rim CSC because they are overseas tasks. Without a
     Government estimate or competitive proposals, FTS will face a challenge in
     establishing that the total price is fair and reasonable for the K04BN001S00 award.

     For K02BN015S00, the client advised they negotiated the labor rates. This discount
     is not documented in the Information Technology Solutions Shop and the task order
     file does not include the FSS Schedule rates. We found that the Schedule labor
     rates provided by the contractor did not match the proposed or invoiced rates for this
     task and that, based on invoices covering work for February and March 2004, there
     were potential overbillings of approximately $10,000. FTS should take action to
     review all task invoices for over-billings and if identified, take action to recover funds.

8.       Order K02SS312S00, awarded August 5, 2002, is a sole source T&M task to
     provide grenade fuze studies and development for the Army. It is not appropriate to
     the IT Fund. During March through May 2004, the CSC issued a modification to
     notify the contractor of intent to cancel the task, changing the POP end date from
     August 5, 2007 to May 24, 2004. The Information Technology Representative (ITR)
     advised that after implementation of new control processes, the CSC determined
     that this effort would be better suited to the professional services fund and advised
     the client that the transition would require re-competing the effort. We believe this to
     be a proper action considering the fundamental deficiencies with this order, including
     issuing the order on a sole source basis to the incumbent contractor selected by the
     client without proper justification. The client justification stated that the previous
     order (K01SS054S00) was competed; however, we determined that the previous
     award was also sole source.

     In addition, the file documentation did not support an evaluation of pricing at the time
     of award, and there was no evidence that FTS attempted to negotiate better pricing
     despite the fact that the proposal was above the MOT for the Schedule contract. A
     review of billings indicated that the contractor did not provide breakdown of ODCs
     with its invoices. FTS did not review the invoices and, therefore, had no assurance
     that the billings were in accordance with the base contract. This was a T&M task;
     however, there was no justification for this type of task in the file and no ceiling price
     listed on the purchase order. While these actions took place prior to our March



                                              A-5
      through May audit timeframe, the CSC should have remediated these deficiencies
      prior to exercising the option years.

      The ITR stated that the client was not pleased with the CSC’s decision to re-
      compete this task and chose to close the task order and transition the task to the
      Southeast Sunbelt Region.

9. Order K03MT167S00, awarded January 15, 2003, is a sole source T&M task for
   Information Operations Training Support to the Army National Guard. During the
   March through May 2004 time period, the CSC issued a modification to exercise the
   first option year and also to incrementally fund the task.

      Order K03MT167S00 exceeded the MOT for the Schedule contract; therefore, FTS
      should have requested additional discounts as required by FAR 8.405-2. There was
      no documentation to support that FTS attempted to negotiate better pricing. In
      addition, this was a T&M task; however, there was no justification for this type of
      task in the file and no ceiling price listed on the purchase order.

      Our review of billings indicated that the vendor has not provided a breakdown of
      ODCs with its invoices. FTS does not see the invoices, and we determined that
      even after FTS denied approval of ODCs pending the vendor’s completion of a
      teaming arrangement with Boise Cascade, the vendor continued to bill FTS for
      ODCs. The ITR is following up on the situation to ensure that the government is
      receiving fair pricing and that the teaming arrangement is completed. Before
      proceeding with the task, the CSC needs to remediate the task by seeking discounts
      at the option year, properly evaluating the proposed costs, and sufficiently
      documenting the actions taken.

10.       Order K03MM021S00, awarded April 7, 2003, is a T&M task for the Army to
      develop a strategy to use knowledge management as a tool to make associates
      more effective. According to the file documentation, the client sole sourced this task
      to Science Applications International Corporation.            There was inadequate
      documentation in the file to support a determination of fair and reasonable pricing for
      this task order. In addition, the original award was not accompanied by the required
      determinations and findings and ceiling price required for use of a T&M type task.
      During the March through May 2004 window, FTS extended the POP. The CSC
      executed the extension through September 30, 2004, in conjunction with its decision
      to re-compete the project. The documentation indicates that the CSC evaluated the
      task and recognized that while the project was appropriate for the IT Fund, the CSC
      used an inappropriate contract vehicle because the work was outside the scope of
      the base contract.

      Review of the contractor’s invoice dated May 27, 2004, indicates that the vendor is
      billing the Government without a breakdown of subcontract or material costs. The
      CSC should obtain a breakdown to ensure that billings are appropriate.




                                             A-6
 AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
CONTROLS AND TESTING OF THOSE CONTROLS
        FOR THE HEARTLAND REGION
    REPORT NUMBER A040191/T/6/Z05007

             APPENDIX B
        MANAGEMENT RESPONSE




                 B-1
AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
      GREATER SOUTHWEST REGION
   REPORT NUMBER A040097/T/7/Z05011
            December 10, 2004




                 VII
                          AUDIT OF FEDERAL TECHNOLOGY SERVICES
                                  CLIENT SUPPORT CENTER
                                GREATER SOUTHWEST REGION
                             REPORT NUMBER A040097/T/7/Z05011

                                             TABLE OF CONTENTS
                                                                                                                       Page

RESULTS OF AUDIT ................................................................................................ VII-1

         Results in Brief ............................................................................................... VII-1

         Testing of FY 2003 Transactions.................................................................... VII-1

                Inadequate Competition ......................................................................... VII-1

                Inadequate Support for Fair and Reasonable Pricing............................. VII-3

                Improper Use of Time and Materials Tasks Orders ................................ VII-4

                Misuse of Contract Vehicle..................................................................... VII-5

                Improper Contracting Actions ................................................................. VII-5

                Lack of Contract Oversight ..................................................................... VII-7

                Other Issues – Lack of File Documentation............................................ VII-9

                Inappropriate Use of the IT Fund............................................................ VII-9

                Causes of Improper Procurement Practices..........................................VII-10

         Testing of FY 2004 Transactions...................................................................VII-10

         Conclusions ...................................................................................................VII-11

         Recommendations.........................................................................................VII-12

         Internal Controls ............................................................................................VII-12

         Management Response ................................................................................VII-12

APPENDICES
         Schedule of 2003 Task Orders Reviewed in the Greater Southwest Region ....A-1

         Schedule of 2004 Task Orders Reviewed in the Greater Southwest Region ....B-1

         Management Response ................................................................................... C-1
RESULTS OF AUDIT

Results in Brief

In our review of 23 task orders awarded and/or modified in FY 2003 (FY 2003 task
orders), we identified instances where CSC officials did not consistently award and
administer procurements in accordance with FAR and the terms and conditions (T&C)
of the contracts utilized. Based on our limited review of controls and the procurement
process for FY 2004 task orders awarded or modified during March through May 2004,
we found the GSR had implemented the national and regional controls identified.
Although the controls were not completely adhered to in some instances, we noted that
the procurement process improved when compared to the FY 2003 audit work.

For the FY 2003 task orders reviewed, we identified the following issues: inadequate
competition; inadequate support for fair and reasonable pricing; improper use of Time
and Materials (T&M) task orders without executing determination and findings (D&F)
and establishing a ceiling price; misuse of contract vehicle, improper contracting
actions, lack of contract oversight, lack of file documentation, and improper use of the IT
Fund. Specific information relating to each task order reviewed is summarized in
Appendix A.

The FY 2004 portion of our review identified the implementation of national and regional
controls and an overall improvement in the procurement practices when compared to
practices employed in FY 2003. Our review disclosed that the CSC generally adhered
to national controls, but did not universally adhere to the regional controls. Specific
information relating to each task order is summarized in Appendix B.

Testing of FY 2003 Transactions

Inadequate Competition

Promoting competition is an important part of the foundation of the federal procurement
process. Inadequate competition existed in 17 of the 23 task orders reviewed, valued at
$536 million (87 percent of total dollars), due to issues found in at least one of the
following areas: (1) Sole-source, (2) Vendor Selection, and (3) One Bid Received.

One of the guiding principles presented in FAR Part 1.102 is that the Federal
Acquisition Regulations System (System)46 will satisfy the customer in terms of cost,
quality, and timeliness of the delivered product or service. For example: (1) maximizing
the use of commercial products and services, (2) using contractors that have a track
record of successful past performance, and (3) promoting competition. FAR Part
1.102-2 presents the performance standards for this principle, one of which is that the

46
  Established for the codification and publication of uniform policies and procedures for acquisition by all
executive agencies, which consists of the FAR, the primary document, and agency acquisition
Regulations that implement or supplement the FAR.



                                                   VII-1
primary customers for the products and services provided by the System are the users
and line managers acting on behalf of the American taxpayer. A second performance
standard is that it is the policy of the System to promote competition in the acquisition
process. (emphasis added)

For task orders placed against FSS MAS contracts, FAR Part 8.404 states that such
task orders are considered to be issued using full and open competition if the ordering
procedures in the subpart are followed.

FAR Part 8.402 recognizes that occasionally GSA may need to establish special
ordering procedures for certain FSS Schedules. In April 1998, FSS issued Acquisition
Letter FC-98-6 that established ordering procedures for those FSS Schedules that
include services with prices based on hourly rates. Further, the Acquisition Letter
explained that the ordering procedures were added to the latest contract T&C that make
up the “boilerplate” for each affected FSS Schedule, and applicable to “all Federal
Supply Schedule solicitations that include services priced on an hourly rate.” The
special ordering procedures would be included in the T&C of new contracts.47 Existing
MAS contracts were modified to include the special ordering procedures.

When ordering services, the special ordering procedures required the ordering offices to
prepare a request for quotes (RFQ) with a statement of work (SOW), and the basis that
will be used for selecting the contractor to receive the order. The ordering office “shall
transmit the Request for Quotes to Contractors.” The ordering procedures further state
“the request for quotes should be provided to at least three (3) contractors if the
proposed order is estimated to exceed the micro-purchase threshold, but not exceed
the maximum order threshold. For proposed orders exceeding the maximum order
threshold, the request for quotes should be provided to additional contractors that offer
services that will meet the agency’s needs.” Further, the ordering office shall evaluate
the responses against the factors in the RFQ and should place the order with the
contractor that represents the best value. The special ordering procedures state that
the order file should document the evaluation of contractor’s quotes received that
formed the basis for the selection and the rationale for any trade-offs made in making
the selection.

Sole-source – Twelve task orders (valued at $360 million) included in our sample were
sole-source awards. The file documentation for the 12 task orders did not substantiate
that RFQs had been sent to at least three MAS contractors as required by the special
ordering procedures contained in the T&C of the contracts.

Vendor Selection – For eight task orders (total value $160 million) the client either
suggested or selected the vendor ultimately awarded the task order. In one instance
(FH573102 Sample #13) a task order was awarded to an 8(a) vendor, eligible to accept
task orders up to $3 million without further competition. The CO split the initial
requirement into two task orders, and reduced the requirements, in order to not exceed

47
  We obtained the T&C of the contracts utilized for all MAS task orders reviewed and verified the special
ordering procedures were included in the T&C of each contract.


                                                  VII-2
the $3 million limitation, allowing the CO to grant the client’s request for a preferred
vendor.

One Bid Received – Although at least three vendors were solicited for four task orders,
only one vendor submitted a proposal for each. Receiving one bid is an indicator that
adequate competition may not have been achieved. An example of task orders being
competed where only one bid was received is presented below:

      (FS1702206 Sample #10) - We found the solicitation was sent to the
      successful bidder and two non-respondents: (1) a shipping and receiving
      manager, and (2) a company unable to accomplish the requirement due to
      its size. Further, the CO sent the one bid received to the client for
      approval prior to the response due date.

The CSC procurement services generally resulted in awards to the clients’ preferred
vendors. In our opinion, this indicates that the CSC did not emphasize the basic FAR
principle of promoting competition in their procurement activities. As a result, the
Government may not have obtained the benefits resulting from adequate competition.

Inadequate Support for Fair and Reasonable Pricing

We found 17 task orders, valued at $585 million (95 percent of the amount reviewed),
did not include adequate support for labor and/or other direct costs (ODCs). The lack of
price reasonableness determination holds true not only for the initial task order award
process, but also for modifications processed for these task orders. This issue has a
greater than normal level of significance given the lack of adequate competition
discussed above.

Labor - File documentation for 15 of 17 MAS task orders (valued at $538 million) did
not substantiate that the COs considered the level of effort and mix of labor or
determined that the firm fixed price (FFP) or ceiling price was fair and reasonable. The
special ordering procedures in the T&C of the contracts provided that GSA has
determined that the rates for services contained in the contractor’s price list applicable
to this Schedule are fair and reasonable. However, the ordering office using this
contract is responsible for considering the level of effort and mix of labor to perform
specific tasks being ordered and for making a determination that the total FFP or ceiling
price is fair and reasonable. The COs sometimes accepted brief emails from clients as
evidence that complex and detailed contractor proposals were evaluated for best value,
including price reasonableness.

An example of task orders awarded without any documentation indicating the total
proposed price was deemed fair and reasonable is presented below:

      (FS1702206 – Sample #10) - There was no analysis or evaluation by the
      CO except for an attempt to compare some labor categories and price. As
      a result, there was no assurance that the labor and ODCs were fair and



                                          VII-3
           reasonable. Further, the CO accepted the contractor’s assertion that their
           proposal represented a particular discount rate when it was actually
           another rate.

Other Direct Costs - We found 10 of 17 task orders (valued at $523 million) lacking
documentation indicating the COs evaluated the reasonableness of the proposed
ODCs. In one instance, (FU190110T1 - Sample #14) the CO approved the contractor’s
proposed unidentified ODCs estimated at $1 million for each of the 4 years proposed.
Prior to increasing the value of ODCs in the base year, the contractor purchased ODCs
totaling $4 million. This required the CO to issue a modification retroactively ratifying
those purchases made and increasing ODCs by $5.8 million (now totaling $9.8 million)
without substantiating fair and reasonable pricing.

Improper Use of Time and Materials Task Orders

We found 9 T&M task orders (valued at $152 million) where the CO did not execute the
required D&F that no other contract type was suitable and 12 T&M task orders (valued
at $398 million) where the CO did not establish a ceiling price.48 T&M task orders
provide for acquiring services on the basis of direct labor hours at fixed hourly rates and
materials at cost. T&M task orders are expressly disfavored under FAR.

FAR 16.601(b)(1) states:

           A time-and-materials contract provides no positive profit incentive to the
           contractor for cost control or labor efficiency. Therefore, appropriate
           Government surveillance of contractor performance is required to give
           reasonable assurance that efficient methods and effective cost controls
           are being used.

FAR 16.601(b) states:

           A time-and-materials contract may be used only when it is not possible at
           the time of placing the contract to estimate accurately the extent or
           duration of the work or to anticipate costs with any reasonable degree of
           confidence. (emphasis added)

FAR 16.601(c) states:

           A time-and-materials contract may be used (1) only after the contracting
           officer executes a D&F that no other contract type is suitable and (2) only
           if the contract includes a ceiling price that the contractor exceeds at its
           own risk. The contracting officer shall document the contract file to justify
           the reasons for and amount of any subsequent change in the ceiling price.
           (emphasis added)


48
     Seven task orders valued at $142.4 million were duplicated.


                                                         VII-4
An example is presented below:

      (FG2100017 - Sample # 22) - This task order was for a refinement of
      conceptual work anticipated to span a period of 2 months and was
      awarded for $203,762 with no option periods and no ceiling price.
      However, some 4 years later this task order had grown to more than $81
      million.

Although cost growth is allowable when justified, inefficient management of T&M task
orders can lead to unrestrained cost growth. Later in this report, we will discuss the
cost growth experienced for 16 of the 23 task orders we reviewed.

Misuse of Contract Vehicle

Two task orders, (valued at $23 million), where in our opinion, all or most of the work
was outside the scope of the contractor’s underlying contract are discussed below:

   1. (FH573102 – Sample #13) - This sole-source, T&M task order was improperly
      awarded to an 8(a) vendor. The client for this SOW needed privacy officers ($9.7
      million) and administrative assistants ($4.7 million) for 5 years to implement the
      Health Insurance Portability and Accountability Act (HIPAA) at 16 medical
      treatment facilities. The proposed project involved providing administrative
      support services, which are not IT type services and are not within the scope of
      the 8(a) contract.

   2. (FG173C10T2 – Sample #4) - The scope of this task order was to “Provide
      operational support for processing Energy Employees Occupational Illness
      Compensation Program Act (EEOICPA) claims, business process analysis and
      improvement, and specification and implementation of an automated records
      management system.” The majority of the work for this task order (70-75
      percent) is not IT related, but is for claims processing.

Improper Contracting Actions

Our audit identified 13 task orders (valued at $483 million) that, in our opinion, were
improper awards resulting from inadequate SOWs and/or work outside the scope of the
original SOW. They also resulted from an identified split procurement and task orders
containing leases of real property.

Inadequate Statement of Work - We noted four instances where, in our opinion, the
SOWs were vague, ill defined, and in some cases appeared to be open-ended. Well-
defined SOWs are essential to provide the basis for price proposal evaluation and for
effectively measuring receipt of services. An example follows:




                                         VII-5
      (FS1702212 – Sample #19) - This was a $96 million FFP task order with
      an ill-defined SOW that had vague deliverables making it difficult to
      evaluate whether all required services are being provided. Given the
      method in which this task order is being administered, the CO should have
      awarded this as a T&M task order.

Work Added Beyond the Original Scope of Work - We noted seven instances where,
in our opinion, work was added beyond the scope of the original SOW. Examples
follow:

   1. (LE212704T6 – Sample #8) - This task order was initially awarded to
      dismantle and remove the existing infrastructure and implement high
      bandwidth ATM and 10/100 MB switched ethernet technologies. Two
      years later, Modification 7 was issued to transition from the ATM
      infrastructure to Gigabit Ethernet network technology resulting in $3.9
      million of work outside the original SOW. This increase was awarded
      without competition.

   2. (FE211122T6 – Sample #12) - This governmentwide acquisition contract
      (GWAC) purchase was issued as a T&M task order. This task order was
      to implement a Gigabit Ethernet network. However, through modifications
      valued at approximately $1.5 million, the contractor also replaced lead
      cable, set up a wireless local area network for a convention, installed a
      voice over internet protocol network and performed other work outside the
      original scope of work.

Split Procurement - One of the task orders reviewed resulted from the CO splitting a
requirement exceeding the $3 million limitation for awarding an uncompeted task order
to the client’s “preferred” 8(a) contractor. The client submitted a single requirement with
two SOWs supporting the implementation of the HIPAA at 16 medical treatment
facilities. The CO awarded two task orders, but the client and the CO administratively
treated them as one. The CO accepted the contractor’s proposals, which did not satisfy
the client’s requirement.

      (FH573102 – Sample #13) - The SOW requirement for this task order was
      for 16 privacy officers and two program managers for 5 years. The CO
      and the client accepted the contractor’s proposal of $944,193 for one
      privacy officer for 5 years instead of the required 16 privacy officers and 2
      program managers. According to the COR, the client evaluated the
      proposal based on the amount of funding available at the time of the task
      award, September 27, 2002, rather than on the level of effort for the total
      project per the independent government estimate. Within three days after
      award, the client provided additional funding to fulfill its initial requirement
      for the remaining privacy officers and program managers.                    After
      modifications, the total value of the task order was $9.7 million.




                                           VII-6
      Although not part of our sample we noted identical actions, including
      funding, took place on the same dates for Task Order FH573100. The
      SOW requirement for this task order was for 16 administrative assistants
      for 5 years. The CO and the client accepted the contractor’s proposal of
      $512,661 for one administrative assistant over 5 years instead of the
      required 16 administrative assistants. The total value of this task order
      after modifications was $4.7 million.

      In our opinion, these task orders should have been combined as they
      were a single requirement, and competed since they exceeded the $3
      million 8(a) threshold for a non-competed award.

      Furthermore, we noted a sister organization had a requirement for its
      HIPAA program with an overall value of $5.6 million. The same CO also
      split this requirement to the same preferred vendor in order to award the
      task orders under the $3 million threshold. Again, we believe these two
      task orders should have been combined and competed.

Leases of Real Property - We found three instances where contract funds were used
to lease office space. However, MAS contract purchases are limited to the acquisition
of commercial items. The FAR Part 2.101 definition of commercial items states, “(1) as
any item, other than real property…” Consequently, real property leasing transactions
as ODCs on task orders against MAS contracts are not an authorized procurement
under FAR. Examples are discussed below:

   1. (FS1712489T2/AT1 – Sample #11) - Modification 9 was issued by the CO
      to lease office space for primarily Navy and some contractor personnel at
      a work site for 5 years and $3.4 million was charged as ODCs. The 5-
      year lease term ends September 30, 2007, while the period of
      performance (POP) for the basic task order ends 3 years earlier on
      September 30, 2004.

   2. (FU190110T1 – Sample #14) – One of the ODCs purchased included
      leasing of office space for $328,572. The contractor’s project director
      informed us the initial proposal had offsite and onsite rates, and after the
      task was under way it became apparent that 50 positions would need to
      be located offsite. As a result, the client proposed having the contractor
      direct bill the rent as an ODC and offset the lease costs by billing the
      cheaper onsite rates for the effort to be expended.

Lack of Contract Oversight

In our opinion, the CSC’s lack of contract oversight over 16 of its task orders resulted in
several questionable practices involving customers and contractors, including an
improper billing, cost growth, and extensions to the POP. Although cost growth and
POP extensions are not necessarily improper, we concluded that the CSC was not



                                          VII-7
performing the needed monitoring functions to ensure compliance with the contract T&C
for the audited task orders.

Cost Growth - There was cost growth49 on 16 task orders reviewed. The initial award
amounts for these task orders totaled $122.6 million, but the aggregate value at the time
of our audit was $352.8 million, representing cost growth of $230.2 million, or an
average growth rate of 188 percent.

In our opinion, cost growth may be a symptom of other procurement problems, such as
inadequate SOWs, improper extensions of the POP, adding work outside the scope of
the original SOW through modifications instead of issuing new awards, the absence of a
ceiling price, etc. Three examples are presented below:

      1. (FH5790001 – Sample #9) – This was a sole-source, T&M award. The
         SOW was general and open-ended, the POP was routinely changed to
         accommodate additional work, and there was no ceiling price on the
         purchase order. Also, Modifications 3 and 18, each for more than $6
         million, were treated as “subtasks” with separate proposals and periods of
         performance, rather than issuing new task orders. As a result, this task
         grew from $3.3 million to $28.5 million, or 752 percent.

      2. (FS1712489T2/AT1 – Sample #11) – The CO solicited a proposal only
         from the sole-source incumbent contractor for a T&M task order.
         However, the client requested this be a FFP-level of effort task and the
         CO awarded the task as FFP-level of effort. This was an improper use of
         this type of contract because FAR Part 16.207-3 limits the contract price to
         less than $100,000, unless the chief of the contracting office approves the
         award. This approval was not obtained. The CO routinely extended the
         POP, increased the level of effort via modifications, and added ODCs.
         Specifically, Modification 9 for $4.7 million was issued by the CO to lease
         office space for 5 years. As a result of these actions, this task order grew
         from $352,727 to $21.7 million, or 6,048 percent. (emphasis added)

      3. (FG2100017 - Sample #22) – This sole-source, T&M task order was
         awarded for $203,762 for a project anticipated to span 2 months with no
         option periods. Twenty-five days after the POP ended, the CO renewed
         the task order via Modification 1, extending the POP and adding work
         outside the scope of the original SOW. The POP was extended eight
         more times to add more work outside the scope of the original SOW. As a
         result of these actions, this task grew to $81 million or 39,675 percent.

Improper Extensions to Period of Performance – In our opinion, eight task orders
also had improper POP extensions. Further, when a contract modification extends the
POP and increases the value, the extension may be tantamount to a sole-source award
that should be justified. An example follows:
49
     Our analysis included task orders with cost growth of 25 percent or more.


                                                    VII-8
      (FS1702206 – Sample #10) – This FFP task order was awarded October
      2000 for $18,960,837 for a 1-year period. This initial SOW and the
      contractor’s proposal identified a 5-year POP, but prior to award, the client
      requested the POP be reduced to 1 year. File documentation included a
      notation that this task order should be re-competed at the end of the POP
      and re-solicited across a broader base of potential vendors. Nevertheless,
      the POP was extended numerous times through September 30, 2004.

Improper Billing - For most of the task orders reviewed, the CO relied on the
COR to monitor billings. We found one instance where the contractor had
improperly billed GSA. A discussion of the task order follows:

      (F7213228T6 – Sample #3) - During our verification of invoices, we found
      the contractor had incorrectly billed GSA $62,892 for a labor category not
      authorized for this task. Based on the results of our audit work, the CO
      requested a credit from the contractor and instructed the client
      representative to reject similar invoices.

                       Other Issues - Lack of File Documentation

We noted 18 task orders with missing and/or inadequate file documentation. Twelve
task order files did not contain an acquisition plan as required by GSAM Part 507.102
for all acquisitions exceeding the simplified acquisition threshold for task orders
awarded after September 1, 1999. Further, fifteen task order files lacked the required
letter of designation (GSAM Part 502.101) that officially sets forth the duties and
responsibilities of the COR. The COs generally relied on the CORs to prepare the
SOWs, review and evaluate proposals, analyze the level of effort and labor mix, and
administer the contract. In addition, the majority of the task orders reviewed were
awarded without competition and/or support for fair and reasonable pricing. Thus in our
opinion, the COR’s documented understanding and acceptance of their assigned duties
and responsibilities becomes even more important to ensure the Government’s best
interest is being served.

Inappropriate Use of the IT Fund

In our opinion, five task orders involved the inappropriate use of the IT fund because the
task orders involved a significant portion, if not all, of non-IT work. Some task orders
began with clearly identified IT requirements and evolved into non-IT effort. Others
were situations where staffing was being provided involving little, if any, IT effort.
Examples follow:

   1. (FH573102 – Sample #13) – This was a sole-source procurement
      awarded to an 8(a) vendor with a value of $9.7 million--previously
      discussed in the Split Procurement section.   The task order was to
      provide administrative support services, which were not IT related



                                          VII-9
      services, in the form of privacy officers to implement HIPAA at 16 medical
      treatment facilities.

   2. (FG173C10T2 – Sample #4) – This T&M task order was valued at $13.3
      million. The scope of this task order was to “Provide operational support
      for processing Energy Employees Occupational Illness Compensation
      Program Act (EEOICPA) claims, business process analysis and
      improvement, and specification and implementation of an automated
      records management system.” This project started out (in prior task
      orders) being IT work to design and implement a claims data processing
      system. The emphasis of the program switched to case production.
      Approximately 75 percent of the work for this task order is for claims
      processing, which is not IT related.

Causes of Improper Procurement Practices

Our audit work indicated that several factors contributed to the improper contracting
practices we identified: an ineffective system of internal management controls, CSC
personnel did not always adhere to proper procurement procedures in order to
accommodate client agency preferences, and a focus on customer satisfaction and
revenue growth. Also, CSC personnel generally did not comply with the ordering
procedures in the T&C of the contracts for services under the MAS program, designed
to ensure the Government receives the best value.

The CSC relied upon client agencies for proposal evaluations and task administration,
including the propriety of task modifications that increased costs and/or extended the
time period for completion of the task. We recognize that the CSCs should involve the
client during the procurement process, including proposal evaluations. However, as the
procuring office, the CSCs are still responsible for the evaluations and ensuring that
they are sufficiently supported.

Testing of FY 2004 Transactions

In response to the GSA Administrator’s concerns resulting from the prior audit, the CSC
implemented national and regional controls. Although our limited review identified
instances where the CSC did not fully adhere to the control measures implemented, we
noted improvements in the FY 2004 procurement practices when compared to FY 2003.
The Office of Audits will conduct a more comprehensive testing of internal control
through out the CSC program in FY 2005.

National Controls - The national controls implemented were to: 1) obtain a legal
review for newly awarded contracts over $5 million; 2) incorporate FTS Acquisition
Checklists; 3) develop a Client Support Center Management Plan; 4) implement Section
803 of the National Defense Authorization Act of FY 2002; 5) institute a Procurement
Management Review program; and 6) establish ITS contract/project closeout guidance.




                                        VII-10
Our review disclosed one task order that did not comply with Section 803 of the National
Defense Authorization Act for FY 2002 resulting from an apparent misunderstanding of
the requirement to compete task orders against BPAs. The task order was not
competed because the CO believed the competition requirement had been achieved
prior to award of the BPA. A letter from the FTS Commissioner dated March 11, 2003,
required “all FTS personnel, when using FSS Schedule contracts, must follow the
competition requirement (sic) when establishing orders for services exceeding $100,000
even if the orders are to be placed under existing BPAs unless the specific tasks were
identified and priced in the initial BPA competitive award process.” (emphasis added)

Regional Controls – The GSR identified and established various regional controls
since the issuance of the prior CSC audit report. The regional controls were: 1) sole-
source reviews, 2) reviews at different phases of the procurement process; 3) post
award audit and review of contract actions; 4) two people per order; 5) COR delegation
of authority; and 6) acquisition alerts sent to the ITRs and COs. In addition, the GSR
established a CMRB to review contract actions at the pre-solicitation acquisition plan
phase, the post-solicitation/pre-award market analysis phase, and the post award
modification phase. The Acquisition Director participates on the CMRB and when
unavailable designates a representative.

The limited review further disclosed the CSC did not universally adhere to the identified
regional controls. The review revealed instances where sole-source awards, acquisition
plans, market analysis, and modifications were not reviewed. Further, our review
disclosed two instances where a fully warranted CO performed the duties of ITR and
CO. See Appendix B for issues identified by task order.

Procurement Issues - Our review of the four task orders awarded during our sample
period disclosed that all four contracting actions were not completely made in
accordance with FAR and the T&C of the contracts utilized. However, the number and
types of issues identified were not as significant as those identified in our FY 2003
sample. See Appendix B for task order discussion.

Conclusions

We concluded that for the initial portion of the audit (FY 2003 task orders) the CSC did
not provide reasonable assurance that client agencies received the most cost effective
solution and best value, and the fundamental objectives underlying the federal
procurement process were not achieved. The CSC made little attempt to secure
competition, relied on the client agencies for proposal evaluations and task
administration, and improperly modified task orders. However, our limited audit of FY
2004 task orders showed that national and regional controls had been implemented and
some improvements were noted.




                                         VII-11
Recommendations

Based on the comprehensive recommendations contained in Audit Report Number
A020144/T/5/Z04002 dated January 8, 2004, no further recommendations are deemed
necessary at this time.

Internal Controls

While we did not specifically assess the overall system of internal controls over CSC
procurements, it is evident from the number of improper procurement practices
discussed above, that the internal controls were not effective up through FY 2003.

During FY 2004, the CSC implemented six national internal controls mandated by
Central Office FTS. In addition, the CSC also developed and implemented six regional
controls. We conducted limited tests to verify that both types of controls were
implemented. We concluded the internal controls implemented in FY 2004 were not
always followed and thus, did not provide assurance that government funds were
reasonably protected.

We believe an effective internal control structure, which has the on-going endorsement
of management, would have identified and prohibited many of the inappropriate
practices with the task orders reviewed.

Management Response

In his response dated November 3, 2004, the Regional Administrator (RA) stated the
audit report brought to light areas requiring the CSC’s immediate and future attention.
Over the past year the CSC has implemented effective national and regional controls in
the form of the establishment of a CMRB and an Office of Acquisition Services. These
additional controls should ensure procurements are made in accordance with FAR and
the T&C of the contracts. The internal controls and increased management attention in
place now should prevent an occurrence of acquisition issues as raised in this audit
report.

The RA also stated while this audit revealed issues requiring the CSC’s attention, the
clarification of FAR guidance, the clarification of ordering procedures, and the
implementation of national and regional control procedures provides reasonable
assurance that the issues discovered should not occur and that the fundamental
objectives of the federal procurement process will be achieved. The RA took exception
with some of our individual findings and provided other specific comments which are
discussed below.

Regarding inadequate competition, the RA maintains the CSC followed FAR 8.4, which
states that orders placed pursuant to Multiple Award Schedules are considered to be
issued pursuant to full and open competition, and ordering offices need not seek further
competition. To promote competition, the CSC now requires all Schedule service



                                        VII-12
requirements exceeding $100,000 to be placed into FSS’ e-Buy systems which allows
all schedule contractors the opportunity to see each requirement and decide whether
they want to bid. The RA further states that controls are now in place to review sole-
source justifications.

As we state in our report, FSS issued additional guidance under FAR 8.402 regarding
special ordering procedures for certain FSS Schedules. In April 1998, FSS issued
Acquisition Letter FC-98-6 that established ordering procedures for those FSS
Schedules that include services with prices based on hourly rates, which stated that the
request for quotes should be provided to at least 3 vendors if the proposed order is
estimated to not exceed the maximum order threshold, and to additional vendors if
expected to exceed. We verified that the T&C of the base contract for each task order
reviewed included the special ordering procedures language.

The RA also stated that the client should be part of the overall procurement process to
include vendor selection, and there were no instances where the client alone selected
the vendor. We agree the client should be part of the process, but not to the point
where the T&C of the contract are circumvented to satisfy the client’s request. The file
documentation showed that the COs awarded task orders FA5730020T6 (Sample #2),
FA210715 (Sample #6), LE212903T6 (Sample #7), FS1712489AT1 (Sample #11), and
FU2190021 (Sample #20) to the client’s preferred vendor without soliciting quotes from
at least 3 vendors. In addition, for task order FS1702206 (Sample #10), the client
provided a list of three contractors to receive the RFQ. However, two of the three
contractors were not viable contenders for the SOW (one was a shipping and receiving
manager and the other was a business too small to perform the task). Only the
preferred contractor submitted a proposal. Further the CSC sent the successful offer to
the client for approval before the response period ended.

The RA commented that during the time of the task order awards, FAR 8.4 was unclear
as to what was required regarding fair and reasonable price determinations for schedule
awards and there was no guidance in FAR Part 8 regarding ODCs. Further, the RA
responded that FTS Central Office has provided guidance regarding the evaluation of
level of effort and labor mix and the determination of fair and reasonable pricing. Also,
the RA indicated that FTS Central Office is currently reviewing the ODC issue and
guidance will be provided in the near future.

As we previously stated, the CSC was noncompliant with the full requirements of FAR
8.4 and the T&C of the contracts, which require an evaluation of the level of effort and
labor mix and a determination of the price reasonableness of the total price of the task
order. Although FAR Part 8 was silent regarding ODCs, the T&C of the Schedule
contracts require open market items to be clearly labeled on the order, all applicable
regulations be followed and price reasonableness to be determined by the ordering
activity for open market items.

The RA responded that due to inconsistent guidance within GSA, the CSC was not
following FAR Part 16, which required a D&F and an established ceiling price when



                                         VII-13
using a T&M type task order. However, we noted in some cases the CSC did follow
FAR 16 by preparing a D&F and establishing a ceiling price. The CSC now requires a
D&F and an established ceiling price on all delivery orders and modifications awarded
on a T&M basis. Task Order FG2100017 (Sample #22), with extreme cost growth
beyond the initial scope, is a clear example of why a T&M task order needs a D&F and
ceiling price. This task order was for a refinement of conceptual work anticipated to
span a period of 2 months and was awarded for $203,762 with no option periods and no
ceiling price. However, some 4 years later this task order had grown to more than $81
million. With regard to cost growth, the excessive percentages found were way beyond
reasonable and demonstrate the effect of inadequate competition or scope of work.
The RA stated the CSC is now conducting reviews by senior COs, team leaders, and
the CMRB to ensure this will not be an issue in the future.

Regarding our finding on the testing of the national and regional controls for the FY
2004 transactions, the RA stated the CSC determined that in all but one case the
specific internal control had been employed but not properly documented. The RA
further stated the CSC has increased emphasis on file documentation and the National
and Regional controls are now firmly entrenched in its acquisition process and should
prevent any findings in the future.

We noted that the GAO Standards of Internal Controls In The Federal Government
(Internal Control Standards), require “…all transactions and other significant events are
to be clearly documented, and the documentation is to be readily available for
examination.”     The Internal Control Standards for documentation further state
“complying with this standard requires that the documentation of internal control
systems and transactions and other significant events be purposeful and useful to
managers in controlling their operations, and to auditors or others involved in analyzing
operations.” As stated in the report, we found a lack of controls including separation of
duties and required reviews not performed or performed after solicitation issuance.

Although the RA recognized the seriousness of the issues found, he disagreed with a
number of the audit findings on specific orders, which are summarized below with our
responses.

       Management’s Response                                    Audit Comments
 F7213228T6 (Sample #3)
This task order contained work within the    The original SOW was for the design and
original scope of work.                      implementation of a patient data and tracking system.
                                             Modification 1 incorporated an addendum to the original
                                             SOW for the creation of an additional database to track
                                             and report the quality of care in the Preferred Provider
                                             Network.
 FG173C10T2 (Sample #4)
This task order is within the scope of the   This task order primarily involved providing operational
subject contract.                            support for processing health claims and required the
                                             contractor to hire registered nurses that were not part of
                                             the labor categories in the base contract.



                                              VII-14
        Management’s Response                                      Audit Comments

This task order is an appropriate use of the    This project started out (in prior task orders) being IT
IT Fund. The RA’s response stated this is       work. The emphasis of the program switched to
not an “exact science”; therefore, the CSC      medical claims case production. According to the
must rely on the judgment of the CO.            client’s Program Manager and the contractor’s Senior
                                                Project Advisor, approximately 75 percent of the work
                                                is not IT related.


This SOW was adequate and contained            The SOW allowed the contractor to provide additional
well-defined requirements.                     support resulting from performance of the identified
                                               requirements.      Specifically the SOW stated, “the
                                               contractor will continue to provide support to the current
                                               processes for processing EEOICPA claims.             This
                                               support will use the existing processes.         As new
                                               processes are established as a result of this task order,
                                               the operational support resources will support those
                                               processes as well.”       A SOW that is open-ended
                                               discourages      competition     because     new     work
                                               requirements are added to the existing task order rather
                                               than being competed as a new task order.
                                          LE212704T6 (Sample #8)

This task order contained work within the      This task order was awarded to dismantle and remove
original scope of work.                        the existing infrastructure and implement high bandwidth
                                               ATM and 10/100 MB switched Ethernet technologies.
                                               Two years later, a modification was issued to transition
                                               from the completed ATM infrastructure to Gigabit
                                               Ethernet network technology.          ATM and Gigabit
                                               Ethernet are not equal substitutes for each other as
                                               each is appropriate for specific applications.
FH579001 (Sample #9)
This SOW was adequate and contained            The objective of the task order is “to provide all the
well-defined requirements.                     necessary direction to fully develop, test, field, and
                                               implement a MADARS OFP change…The work order
                                               concept will be used to describe any additional specific
                                               task as they are identified by the customer.…” A SOW
                                               that is open-ended discourages competition because
                                               new work requirements are added to the existing task
                                               order rather than being competed as a new task order.
FS1702206 (Sample #10)
The POP extensions for this task order         The CO initially awarded the task order for one year with
were acceptable.                               no option periods. The POP was then extended by
                                               subsequent COs almost three years beyond the original
                                               POP.

This task order is an appropriate use of the   This task order was to provide support regarding project
IT Fund. The RA’s response stated this is      management, engineering, design and integration
not an “exact science”; therefore, the CSC     support throughout the Joint Theater Air and Missile
must rely on the judgment of the CO.           Defense process. Specifically, the contractor was to
                                               “draft, review and comment on draft operational and
                                               acquisition documents…, draft memoranda for the
                                               record and develop briefings for leadership as



                                                VII-15
        Management’s Response                                     Audit Comments

                                               needed…, provide a war room for meeting support,
                                               briefing development, graphics support, strategy
                                               sessions, and government off-sites.…” According to the
                                               contractor’s program manager, and the Director of
                                               Contracts for Systems Engineering, although some of
                                               the engineering work may have involved IT type work,
                                               the bulk of the work was for program support and
                                               administration.
FS1712489AT1 (Sample #11)
The POP extensions for this task order         This task order was initially awarded for a six-month
were acceptable.                               base period and a six-month option period. The POP
                                               was extended beyond the option period by over 2.5
                                               years. Further, if the task continues for the lease portion
                                               of the task order, the POP will extend another three
                                               years.
FE211122T6 (Sample #12)
This task order contained work within the      This task order was awarded with a well defined SOW to
original scope of work.                        implement a Gigabit Ethernet network constructed with
                                               fiber optic cable. However, the contractor also set-up a
                                               wireless local area network for a convention, installed a
                                               voice over internet protocol network, and replaced lead
                                               cables with new wire cabling. The COR concurred that
                                               none of this additional work was stated in the original
                                               scope of work.
FU190110T1 (Sample #14)
This task order is an appropriate use of the   This task order was awarded to provide personnel with
IT Fund. The RA’s response stated this is      technical capabilities to perform technology surveys, site
not an “exact science”; therefore, the CSC     surveys, planning and estimating, countermeasures
must rely on the judgment of the CO.           inspections,    systems      design,   testing,  staging,
                                               installation, and quality management support for the
                                               upgrades and remote monitoring of classified and
                                               unclassified access control and security equipment at
                                               foreign posts. Simply stated, the requirements of the
                                               SOW were predominately for technical security
                                               upgrades of American embassies rather than IT type
                                               efforts.
FU1900004 (Sample #16)
The POP extensions for this task order         This task order was initially awarded for a base year and
were acceptable.                               two option years. The POP was extended an additional
                                               15-months beyond the last option period.
FE212611T6 (Sample #17)
This task order contained work within the      The original SOW was to maintain existing application
original scope of work.                        systems, upgrade and enhance existing application
                                               systems and to extend and expand existing capabilities
                                               in an evolutionary manner. Modification 7 required a
                                               new SOW for entering and maintaining all individual
                                               medical readiness and historical immunization
                                               information into the Medical Protection System for the




                                                VII-16
        Management’s Response                                     Audit Comments

                                               soldiers in US Army Europe.
FU199002D (Sample #18)
The POP extensions for this task order         This task order was initially awarded for a base year and
were acceptable.                               two option years. The POP was extended over two
                                               years beyond the last option period.
FS1702212 (Sample #19)
This task order is an appropriate use of the   This task order was awarded to support Naval Sea
IT Fund. The RA’s response stated this is      Systems Command program support offices.          The
not an “exact science”; therefore, the CSC     contractor was to assist in the preparation of funding
must rely on the judgment of the CO.           execution documents, track and analyze program
                                               financial transactions, assist in the development of
                                               obligation phasing plans and numerous other program
                                               support functions.     According to the contractor’s
                                               program manager, and the Director of Contracts for
                                               Systems Engineering, although some of the engineering
                                               work may have involved IT type work, the bulk of the
                                               work was for program support, engineering, and
                                               administration, which was not IT related.
FU2190021 (Sample #20)
This task order contained work within the      The original SOW included two requirements. The
original scope of work.                        SOW was revised to add two additional requirements
                                               and subtasks.

The POP extensions for this task order         The original POP was for one year with no option
were acceptable.                               periods. The CO extended the POP for four years
                                               beyond the original POP.




                                                VII-17
                                        AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                                   GREATER SOUTHWEST REGION CLIENT SUPPORT CENTER
                                           REPORT NUMBER A040097/T/7/Z05011

                                            SCHEDULE OF 2003 TASK ORDERS
                                    REVIEWED IN THE GREATER SOUTHWESTERN REGION

       Order          Award                            Acquisition   Order                                     Value
No.    Number         Date          Client            Vehicle        Type     Contractor                       Of Task         Notes
1      FY573224T6     07/02/2003    Air Force             MAS         T&M     Science Applications Intl Corp    $    719,726     1
2      FA5730020T6    09/05/2003    Air Force             MAS         T&M     ManTech Adv Systems Intl Inc            35,868      2
3      F7213228T6     08/28/2003    Army                  MAS         T&M     ASM Research Inc                       364,336      3
4      FG173C10T2     10/01/2002    Navy              MAS/BPA50       T&M     Science & Engineering Assoc         13,369,427      4
5      FS1712615T2    10/23/2001    Navy              Open Market     FFP     Audiocare Systems                    1,712,317      5
6      FA210715       09/03/1999    Army                  MAS         FFP     Electronic Data Systems Corp         5,654,500      6
7      LE212903T6     02/04/2002    Army                  MAS         T&M     Force 3 Inc                          5,015,751      7
8      LE212704T6     08/18/1998    Army                  MAS         FFP     Force 3 Inc                         11,212,341      8
9      FH579001       07/14/1999    Air Force             MAS         T&M     OnBoard Software, Inc.              28,580,431      9
10     FS1702206      11/03/2000    Navy                  MAS         FFP     Anteon Corp                         27,094,569     10
11     FS1712489AT1   04/06/2001    Navy                  MAS         FFP     Titan / Delphin Systems             21,687,321     11
12     FE211122T6     12/27/2000    Army                 GWAC         T&M     Gov Telecommunications Inc           9,208,399     12
13     FH573102       09/27/2002    Air Force          8(a) FAST      T&M     Force 3 Inc                          9,708,695     13
14     FU190110T1     04/22/2001    Dept of State         MAS         T&M     ManTech Adv Systems Intl Inc       106,669,336     14
15     FU1920003T1    04/24/2002    Dept of State         MAS         T&M     ManTech Adv Systems Intl Inc        54,289,612     15
16     FU1900004      05/04/2000    Dept of State         MAS         T&M     ManTech Adv Systems Intl Inc        12,458,093     16
17     FE212611T6     08/21/2002    Army                  MAS         T&M     ASM Research Inc                    37,044,514     17
18     FU199002D      02/19/1999    Dept of State         MAS         T&M     ManTech Adv Systems Intl Inc        51,998,514     18
19     FS1702212      11/01/2000    Navy                  MAS         FFP     Anteon Corp                         96,786,188     19
20     FU2190021      10/01/1999    Army                  MAS         T&M     Synoptic Systems Corp                9,760,667     20
21     FU1901112T1    09/25/2001    Dept of State         MAS         T&M     ManTech Adv Systems Intl Inc        32,779,780     21
22     FG2100017      01/12/2000    Army                  MAS         T&M     Northrop Grumman Corp.              81,047,665     22
23     FJ210103T2     07/17/2001    Army               8(a) FAST      T&M     U.S. Robotech, Inc.                    866,338     23
                                                                                       Total                    $618,064,388


  50
    This is the second task order under the Memorandum of Agreement between the Department of Energy and the US Navy for the design and
  support of a DOE case management system, using the existing BPA between Science & Engineering Associates and the US Navy. This BPA
  covers up to 5 years and has a maximum order limit of $1,053 million.
                                                                     A-1
                      SCHEDULE OF 2003 TASK ORDERS
              REVIEWED IN THE GREATER SOUTHWESTERN REGION

Notes

1.    (FY573224T6) This competed task order was for T&M, but the award did not
     specify a ceiling price amount.

2.     (FA5730020T6) This was a sole-source, T&M task order. The vendor approached
     the client with an “unsolicited” proposal. The client submitted the vendor’s proposal
     to the CO for issuance of a task order in response to the vendor’s proposal. The CO
     relied on the client to evaluate the level of effort and the labor mix but did not obtain
     any documentation from the client other than the contractor’s proposal. There was
     no evidence that the CO prepared the D&F required when using T&M procurements.
     There was no file documentation substantiating that RFQs had been sent to at least
     three contractors, or that the level of effort and mix of labor had been considered in
     determining the total price was fair and reasonable, as required by the special
     ordering procedures contained in the T&C of the contract.

3.     (F7213228T6) This was a sole-source, T&M task order without any documentation
     substantiating that RFQs had been sent to at least three contractors as required by
     the special ordering procedures contained in the T&C of the contract. An Acquisition
     Plan was prepared by the ITR and reviewed and approved by the CO, but it was
     dated 2 days after the task order was issued. Modification 1 was issued to
     incorporate an addendum to the SOW. There was no proposal from the contractor
     or the client for the CO to use to determine if the pricing for this additional work was
     fair and reasonable or within the original scope of work. As a result, the evaluation
     of the level of effort and mix of labor for being fair and reasonable required by the
     special ordering procedures was not documented as being performed. This
     modification added work outside the scope of the original task order and increased
     the costs by $176,720. This task grew from $180,400 to $364,336, or 94 percent.
     During the verification of invoices, we found that the contractor had incorrectly billed
     GSA $62,892 for a labor category not authorized for this task. Based on our work
     the CO requested a credit from the contractor and instructed the client
     representative to reject similar invoices.

4.     (FG173C10T2) The scope of this task order was to “Provide operational support
     for processing Energy Employees Occupational Illness Compensation Program Act
     (EEOICPA) claims, business process analysis and improvement, and specification
     and implementation of an automated records management system.” According to
     the former director of the program, the majority of the work for this task order (70-75
     percent) is not IT related, but is for claims processing. Modification 6 adds additional
     temporary employment, extended work hours, additional personnel, and
     approximately $396,000 in ODCs. It also revises the SOW and adds over $2 million
     in funding to cover these costs. The SOW was vague and appeared to be open-
     ended. Labor categories were misleading (i.e. mailroom personnel are hired as
     Data Analysts, and Nurses were hired as Management Analysts). These employees



                                            A-2
                      SCHEDULE OF 2003 TASK ORDERS
              REVIEWED IN THE GREATER SOUTHWESTERN REGION

     were performing case production work, not IT work as described in the task
     descriptions. Therefore, this modification should not have been issued. There was
     no acquisition plan in the official contract file. This task order grew from $10,339,130
     to 13,369,427, or 29 percent.

     The Navy’s Space and Naval Warfare Systems Command, Information Technology
     Center, (SPAWAR ITC) requested that the CSC issue a BPA for support activities.
     The CSC competed the solicitation with 13 FSS MAS vendors, received two offers,
     and made the award to Science and Engineering Associates (SEA). The CSC
     previously awarded SEA a MAS contract (GS-35F-5790H) covering the period
     July 2, 1998, through October 21, 2008.              The CSC issued a BPA
     (GS07T00BGD0070) to SEA covering the base period September 1, 2000, through
     August 31, 2001, with four 1-year options, and having a maximum order limit of
     $1,053 million. On November 20, 2001, (more than a year after the BPA was
     issued,) the DOE’s Office of Environment, Safety & Health entered into a
     Memorandum of Agreement (MOA) with SPAWAR ITC to provide the initiation,
     requirement definition, design, development, and lifecycle support of an automated
     information system, and associated deliverables needed to support DOE’s execution
     of its EEOICPA responsibilities. The MOA work required the development of a
     unique system that did not use any of the systems developed, or being developed,
     by SEA for SPAWAR ITC. The MOA period of performance was for 3 years. The
     task order reviewed was the second task order under the MOA.

5.    (FS1712615T2) The CO relied on the COR for task administration. Although the
     COR was designated, the COR responsibilities and duties were not documented.

6.     (FA210715) The task order was awarded to the contractor on a sole-source basis
     without any documentation substantiating that RFQs had been sent to at least three
     contractors as required by the special ordering procedures contained in the T&C of
     the contract. The file indicates the client performed a market analysis and best
     value evaluation prior to sending requirements to GSA for a sole-source award.
     However, the file documentation did not include support for the client’s analysis and
     best value determination. The special ordering procedures require the CO to
     consider the level of effort and the mix of labor in determination that the total price
     was fair and reasonable. There was no designation letter for the COR. For
     modifications 5 and 6, the CO relied on the client for the evaluation of the
     contractor’s proposed levels of effort and labor mix. This task order grew from
     $4,235,000 to $5,654,500, or 33.5 percent.

7.    (LE212903T6) This was a sole-source, T&M task order awarded without any
     documentation substantiating that RFQs had been sent to at least three contractors
     as required by the special ordering procedures contained in the T&C of the contract.
     The contractor was selected by the client and the CO made the award without
     competition. There was no file documentation substantiating that the CO considered



                                            A-3
                       SCHEDULE OF 2003 TASK ORDERS
               REVIEWED IN THE GREATER SOUTHWESTERN REGION

      the level of effort and labor mix in determining that the total price was fair and
      reasonable, as required by the special ordering procedures. Also there was no
      documentation that the CO had prepared the D&F required when using T&M
      procurements. Further, the award did not specify a ceiling price amount. There was
      no designation letter for the COR.

8.      (LE212704T6) This task order was competed among five contractors; however,
      Modification 7 for $3,889,480 was for work that was outside the original statement of
      work. Rather than being competed, the increase was awarded without competition.
      There was a COR designation letter in the file, but the COR stated he never
      received the letter. This order grew from $7,301,476 to $11,212,341, or 53.6
      percent.

9.      (FH579001) This was a sole-source, T&M task order awarded without any
      documentation substantiating that RFQs had been sent to at least three contractors
      as required by the special ordering procedures contained in the T&C of the contract.
      There was no evidence that the CO prepared the D&F required when using T&M
      procurements. There was no evidence the CO considered the level of effort and mix
      of labor in determining the total price was fair and reasonable, as required by the
      special ordering procedures. here was no designation letter for the COR. In our
      opinion, the SOW for this task order was general and appeared open-ended. In
      addition, the task order did not specify a ceiling price amount and the POP was
      routinely changed to accommodate additional work. As a result, the cost of the task
      grew from $3,355,396 to $28,580,431, or 752 percent. Modifications 3 and 18, each
      for more than $6 million, were treated as “subtasks” with separate proposals and
      POP. It may have been more appropriate to treat these modifications as new task
      orders.

10.     (FS1702206) Initially, this project was to cover 5 years; however, the client
      requested that the scope be reduced to 1 year. As a result, the original FFP task
      order was awarded in October 2000 for $18,960,837 for a 1-year period with no
      option years. The client accepted the proposal and there was no valid price analysis
      made by the CO. There was no file documentation substantiating that the CO
      considered the level of effort and mix of labor in determining the overall FFP was fair
      and reasonable, as required by the special ordering procedures in the T&C of the
      contract. As a result, there was no assurance that the labor and ODCs were fair and
      reasonable. In our opinion, the SOW was general and appeared to be open-ended.
      Further, the CO accepted the contractor’s assertion that their proposal represented a
      particular discount rate when it was actually another rate. The solicitation process
      consisted of the CO sending the RFQs to the three contractors on a list provided by
      the client. Only the “preferred” contractor responded. One of the requests was sent
      to a shipping and receiving manager, and the other was sent to a business that was
      too small to perform the work. In fact, the CSC sent the successful offer to the
      client for approval before the response period for submitting a request had ended.



                                             A-4
                       SCHEDULE OF 2003 TASK ORDERS
               REVIEWED IN THE GREATER SOUTHWESTERN REGION

      The CO had a notation in the file that this project should be re-competed after 1 year
      and solicited across a broader base of potential vendors. Nevertheless, the POP
      has been extended several times without providing a fair opportunity to other
      vendors, and the total project value has increased to $27,094,559, or 43 percent.
      Also, the contractor submitted summary invoices without sufficient detail to evaluate
      the level of effort.
      This task order was not a proper use of the IT Fund. We discussed the types of
      services being provided with the COR, the contractor’s program manager for the
      task order, and the contractor’s Director of Contracts for Systems Engineering. They
      stated that while some of the engineering work may have involved IT type work, the
      bulk of the work was for program support and administration. The support for one of
      the current invoices reported work accomplished as: drafted a letter, attended
      meetings, updated paper for pending visit of foreign officer, and prepared
      congressional testimony documentation.

11.     (FS1712489AT1) This task order was a sole-source, FFP-level of effort task order
      awarded to the contractor identified by the client. The CO solicited a proposal only
      from the incumbent contractor without any documentation substantiating that RFQs
      had been sent to at least three contractors as required by the special ordering
      procedures contained in the T&C of the contract. Another issue in the award
      process was that the contractor’s proposal initially classified this effort as a T&M task
      order. However, the client requested that this be a FFP-level of effort task. The CO
      complied with the client’s request and advised the contractor to change their
      proposal. FAR Part 16.207 explains that FFP-level of effort procurements are
      suitable for investigation or study in a specific research area where the product is a
      report. In addition, FAR Part 16.207-3 limits the contract price to less than $100,000
      unless the chief of the contracting office approves the award. This was an
      inappropriate use of the FFP-level of effort type of task order because the initial
      proposed amount was $352,727 and there was no evidence of the required
      approval. There was no acquisition plan and no evidence the CO determined if the
      total FFP was fair and reasonable. There was no evidence substantiating that the
      CO considered the level of effort and labor mix in determining the total price was
      being fair and reasonable as required in the special ordering procedures. The file
      documentation did not include evidence that the CO evaluated the fair and
      reasonableness of subsequent proposals with ODCs.                  Also, there was no
      designation letter for the COR. The CO routinely approved extending the POP
      without obtaining the required justification from the client. The task order grew from
      $352,727 to $21,687,321, or 6,048 percent.

      The CO issued Modification 9 proposed for $4.7 million to lease office space for
      Navy and contractor personnel as a work site for 5-years. Of the proposed $4.7
      million, a significant amount was ODCs. MAS contract purchases are limited to the
      acquisition of commercial items. The FAR Part 2.101 definition of commercial items
      states, “(1) as any item, other than real property….”           Consequently, the


                                             A-5
                       SCHEDULE OF 2003 TASK ORDERS
               REVIEWED IN THE GREATER SOUTHWESTERN REGION

      Modification 9 leasing transaction was not an authorized procurement under FAR.
      Furthermore, the leasing of real property is not an appropriate use of the IT Fund.
      The 5-year period of performance for the lease ends September 30, 2007, while the
      period of performance for the basic task order ends 3 years earlier on September
      30, 2004. Since this space is already being leased, it provides an unfair advantage
      to the contractor for future work. Should this task order be completed at the end of
      the POP, GSA could be subject to settlement costs to terminate the lease.

12.     (FE211122T6) This GWAC purchase was issued as a T&M task order. This was
      not in accordance with the contractor’s existing wiring and cable services contract,
      which requires that all quotations shall be FFP. The CO solicited eight vendors and
      received only one proposal. There was no acquisition plan and no evidence that the
      CO evaluated the level of effort and labor mix, or prepared the D&F required when
      using T&M procurements. Further, the award did not specify a ceiling price amount,
      and there was no designation letter for the COR. Also, there were several
      modifications that added work outside of the original scope of work with a value of
      about $1.5 million. In addition, there was about $5.9 million of ODCs incurred on
      this task order, which according to the contractor’s WACS contract, required vendor
      quotes were to be submitted to the CO for review and selection of the most
      advantageous to the customer. None of the quotes were submitted. This task order
      grew from $3,137,130 to $9,208,399, or 194 percent.

13.     (FH573102) This sole-source, T&M task order was improperly awarded to Force
      3, Inc., an 8(a) vendor eligible to accept a task order up to $3 million without any
      further competition. The USAF Air Combat Command (ACC) needed privacy
      officers and program managers ($9.7 million) and administrative assistants ($4.7
      million) for 5 years to implement the HIPAA at 16 medical treatment facilities. The
      Air Force specifically mentioned using Force 3, Inc., if possible. The CO awarded
      Force 3, Inc., two related task orders for the ACC work. Both task orders were for
      the same type services, same SOW, same period of performance, etc. The primary
      difference was the labor category. This task order covered the privacy officer portion
      and task order FH573100 covered the administrative assistant portion. The CO
      relied on the client to evaluate the proposals. According to the COR, the client
      evaluated the proposals based on the amount of funding available at the time of the
      task order award, not on the level of effort for the total projects per the independent
      government estimate. As a result, the CO awarded the task orders without
      competition to Force 3, Inc. because the proposals were under the $3 million limit.
      The CO issued three modifications to increase the initially proposed level of effort by
      over $8.7 million. The first modification was issued 2 weeks after the initial award
      and additional funding was provided a day after the task order was awarded. The
      same actions took place on task order FH573100 raising the value to over $2.4
      million. Had the client or the CO considered the level of effort in the independent
      government estimate, the proposal would have exceeded the $3 million threshold
      and would have to have been competed.



                                             A-6
                       SCHEDULE OF 2003 TASK ORDERS
               REVIEWED IN THE GREATER SOUTHWESTERN REGION


      In addition, we noted that the USAF Space Command had a similar need for its
      HIPAA program. Again the project was spilt into two task orders: FH573104 for
      privacy officer for 5 years at a cost of $2.7 million, and FH573105 for administrative
      assistants for 5 years at a cost of $2.9 million. These two task orders had the same
      SOW and POP as the other two task orders previously discussed. If these task
      orders had been combined they would have exceeded the $3 million limit and the
      award would had to have been competed. It is evident the two task orders for ACC
      could have been combined into one and competed. Also, the two orders for the
      Space Command could have been combined and competed.

      The file documentation did not include an acquisition plan, evidence that the CO
      evaluated the level of effort and labor mix, prepared the D&F required when using
      time and material procurements, or established a ceiling price amount. Also, the CO
      did not designate a COR in writing. This task order grew from $944,193 to
      $9,708,695, or 928 percent.

      The proposed project involved providing administrative support services, which are
      not IT type services and are not within the scope of the 8(a) contract. In view of this,
      the project should not have been fully charged to the IT fund.

14.     (FU190110T1) This was a sole-source, T&M task order awarded without any
      documentation substantiating that RFQs had been sent to at least three contractors
      as required by the special ordering procedures contained in the T&C of the contract.
      However, the requirements of the SOW were predominately for technical security
      upgrades of American Embassies rather than IT type efforts. Therefore, in our
      opinion, this task order for $106.7 million should not have been fully charged to the
      IT fund.

      For this task order, there was no acquisition plan, or designation letter for the COR,
      and the POP was allowed to expire twice. However, the CO had prepared the D&F
      required when using T&M procurements, but did not set a ceiling price amount for
      the award. The client evaluated the level of effort and labor mix for the initial award,
      but there was no evidence of any type of review of modifications that increased the
      level of effort, or of ODCs, to determine if the prices were fair and reasonable. The
      special ordering procedures contained in the T&C of the contract require the CO to
      consider the level of effort and the mix of labor in determining the total price was fair
      and reasonable. The CO approved the contractor’s proposed unidentified ODCs,
      estimated at $1 million for each of the 4 years proposed. Prior to increasing the
      value of ODCs in the base year, the contractor purchased ODCs totaling $4 million.
      This required the CO to issue a modification retroactively ratifying purchases made
      and increasing ODCs by $5.8 million (now totaling $9.8 million) without determining
      fair and reasonable pricing. One of the ODCs purchased included leasing of office
      space for $328,572. The contractor’s project director informed us the initial proposal



                                             A-7
                       SCHEDULE OF 2003 TASK ORDERS
               REVIEWED IN THE GREATER SOUTHWESTERN REGION

      had offsite and onsite rates, and that after the task was under way it became
      apparent that 50 positions would need to be located offsite. As a result, the client
      proposed having the contractor direct bill the rent as an ODC and offset the lease
      costs by billing the cheaper onsite rates for the effort to be expended. MAS contract
      purchases are limited to the acquisition of commercial items. The FAR Part 2.101
      definition of commercial items states, “(1) as any item, other than real property…”.
      Consequently, this leasing transaction was not an authorized procurement under
      FAR. Furthermore, the leasing of real property is not an appropriate use of the IT
      Fund.

15.     (FU1920003T1) Although this task order was competed, we think that it was unfair
      because the proposal evaluation factors and the start-up time greatly favored the
      incumbent. The RFQs were sent to six contractors and resulted in two responses
      and one no-bid. The primary evaluation factor was Past Experience Performance
      which read as follows: “The Past Experience factor will be evaluated based on the
      offeror’s relevant past experience compared to the requirements specified in the
      above SOW. An offeror who has successfully performed the identical task as
      required in the above SOW would receive a higher rating than an offeror who has
      successfully performed a similar task.” The next important evaluation factor was the
      Phase-in Plan to discuss how to minimize disruption of on-going work, followed by
      the last factor, which was price. ManTech’s proposal pointed out that they were the
      incumbent currently doing the “identical” task required in the SOW, and that there
      would be “no” disruption of on-going work. The SOW was dated April 8, 2002, and
      had a required commencement date of May 1, 2002. In our opinion, there was no
      competition and this was an indirect way to achieve a sole-source award.

      For this task order, there was no acquisition plan or designation letter for the COR,
      and the POP was allowed to expire. The CO had prepared the D&F when using
      T&M procurements, but did not set a ceiling limit for the award. The client evaluated
      the level of effort and labor mix for the initial award. The special ordering
      procedures in the T&C of the contract require the CO to consider the level of effort
      and the mix of labor in determining the total price was fair and reasonable. Even
      though the proposal showed that a significant portion of the task order was for ODCs
      ($18 million out of $54.3 million) the CO did not review any of the actual purchases
      to determine if the prices were fair and reasonable, and if procurement requirements
      were followed.

16.     (FU1900004) This was a sole-source, T&M task order awarded without any
      documentation substantiating that RFQs had been sent to at least three contractors
      as required by the special ordering procedures contained in the T&C of the contract.
      The CO made the award without competition. There was no acquisition plan and no
      evidence that the CO evaluated the level of effort and labor mix for being fair and
      reasonable as required by the special ordering procedures. Further, the award did
      not specify a ceiling price amount. There was no designation letter for the COR.



                                            A-8
                       SCHEDULE OF 2003 TASK ORDERS
               REVIEWED IN THE GREATER SOUTHWESTERN REGION

      The CO extended the POP without obtaining the required justification. This task
      order grew from $9,167,133 to $12,458,093, or 36 percent.

17.     (FE212611T6) This task order was awarded on a sole-source basis without any
      documentation substantiating that RFQs had been sent to at least three contractors
      as required by the special ordering procedures contained in the T&C of the contract.
      This was a T&M task order for which there was no acquisition plan, and the D&F
      required when using T&M procurements was not prepared. There was no
      documentation substantiating that the CO considered the level of effort and the mix
      of labor in determining the total price was fair and reasonable as required by the
      special ordering procedures. Further, the award did not specify a ceiling price
      amount. There was a designation letter for the COR. This task order was modified
      to perform work outside of the original SOW. For example, the contractor proposed
      computer analysts where the SOW for the proposed modification called for data
      entry work. However, in our opinion data entry work was not within the scope of the
      original SOW and was not a discipline in the contractor’s MAS contract. The cost of
      this task order grew from $26,717,594 to $37,044,514, or about 39 percent.

18.     (FU199002D) This was a sole-source, T&M task order awarded without any
      documentation substantiating that RFQs had been sent to at least three contractors
      as required by the special ordering procedures contained in the T&C of the contract.
      The D&F required when using T&M procurements was not prepared. Further, the
      award did not specify a ceiling price amount. There was no documentation
      substantiating that the CO considered the level of effort and the mix of labor in
      determining the total price was being fair and reasonable as required by the special
      ordering procedures. There was no designation letter for the COR. The CO
      extended the POP without obtaining the required justification. The cost of this task
      order grew from $14,183,252 to $51,998,514, or about 266 percent.

19.      (FS1702212) This $96,786,188 FFP task order was for 5 years. Although the
      RFQ was sent to 12 companies, only one proposal was received (Anteon). The 11
      non-responsive companies were subcontractors to the successful awardee (Anteon).
      Apparently, many of these subcontractors had been working under their own
      delivery orders, and the client was attempting to consolidate orders because: “....
      administering over 20 delivery order contracts each year has become an
      administrative challenge to adequately manage.” There was no acquisition plan.
      There was no documentation substantiating that the CO considered the level of
      effort and the mix of labor in determining the total price was fair and reasonable as
      required by the special ordering procedures in the T&C of the contract. Additionally,
      there was no evidence that the CO evaluated ODC price reasonableness. We
      especially take exception to the pass-through-rate that the contractor was allowed.
      The CO was unable to explain what the charge was for stating that the client told her
      it was a normal practice. Apparently, the fee was comprised of three components:
      (1) profit to the prime for performance and risk assumption for the overall task; (2)



                                            A-9
                       SCHEDULE OF 2003 TASK ORDERS
               REVIEWED IN THE GREATER SOUTHWESTERN REGION

      the Industrial Funding Fee; and, (3) material and handling costs. In our opinion, the
      SOW was general, had vague deliverables, and appeared to be open-ended.
      Further, the order is not working as a FFP award, but rather as a T&M, or FFP level
      of effort award. This work process was specifically outlined in Anteon’s proposal
      that was accepted and incorporated into the award. The current CO admitted that a
      T&M award would have “.... been a better fit.” Further, in our opinion the work
      accomplished under the task order constituted an improper use of the IT Fund. We
      discussed the types of services being provided with the contractor’s program
      manager for the task order, and the contractor’s Director of Contracts for Systems
      Engineering. They stated that while some of the engineering work may have
      involved IT type work, the bulk of the work was for program support, engineering,
      and administration. There was no designation letter for the COR. Invoices do not
      provide detail, but rather reflect a lump-sum amount. As such, there is no assurance
      that the Government is receiving the services ordered. ODCs included at least one
      lease (and associated costs) in the amount of $476,917. The lease space was used
      to review proposals for award of the DD(x) Preliminary Design Phase Contract in
      support of the Navy DD(x) Shipbuilding Program. The space was also used to
      answer GAO questions concerning a subsequent bid protest from General
      Dynamics.

20.     (FU2190021) The original proposal was for $2,544,447 under task order
      (FU2190021) that transitioned to FU2190021AT1 and closed with a total value of
      $9,760,666, or task growth of 261 percent. This was a T&M task order awarded to
      the contractor on a sole-source basis. There was no D&F as required for a T&M
      task order. There was no file documentation substantiating that RFQs had been
      sent to at least three contractors, or that the level of effort and mix of labor had been
      considered in determining the total price was fair and reasonable as required by the
      special ordering procedures contained in the T&C of the contract. The CO relied on
      the client agency to perform the task order administration on the original award as
      well as on subsequent modifications. There was no designation letter for the COR
      and no acquisition plan in the official contract file.
      There were five modifications to the task order adding work outside the scope of the
      original task (Modifications 3, 4, 8, 9, and the transition to FU2190021AT1 under the
      Form 300). The CO stated she did not have the technical expertise to verify if the
      work was within the original scope of work and leaves that to the client to make that
      evaluation. Also, Modifications 4, 14, 22, and FU2190021AT1, Modification 3 were
      exercised to extend the POP. As option years were not included in the original
      SOW, these modifications should not have been issued.

21.    (FU1901112T1) This task order was for a T&M contract with a total task order
      value of $20,853,265, issued for a POP of September 21, 2001, through March 31,
      2004. The D&F required when using T&M procurements had been prepared.
      Solicitations were sent to five companies, but only one response was received.
      There was no acquisition plan in the file. The initial award was prepared, negotiated,


                                             A-10
                       SCHEDULE OF 2003 TASK ORDERS
               REVIEWED IN THE GREATER SOUTHWESTERN REGION

      and awarded in accordance with regulations. The Form 30 for Modification 7
      increased the ceiling by $11,926,514. An email dated April 25, 2002, from the
      contractor to the (successive) CO that IRM/EX/PST advised a recompetition, but the
      CO issued a modification to the existing task order instead. A letter to the CO from
      the Director of the DOS, Program Management and Analysis Division dated May 8,
      2002, stated there was no change in scope nor any change in the POP, but then
      states, “the requirement to make the change to Windows 2000 in the midst of an
      already challenging deployment schedule dramatically complicates the CCPII
      program execution.” Also, during an interview with the auditors, the director stated
      some of the work was out of scope. This task order grew from $20,853,265 to
      $32,779,780, or 57 percent.

      The total value of ODCs for this task order was $5,580,028. This represents 27
      percent of the proposed task order value ($20,853,265) and 17 percent of the total
      task order value ($32,129,957). The CO issued a letter to the contractor authorizing
      them to purchase ODCs for the contract. The CO did not review the procurement
      documentation on ODCs to ensure (1) the Government received the best value, and
      (2) the purchases were made in accordance with procurement laws and regulations
      as required by FAR Part 1.602-1(b) and the FSS contract.

      Also, according to a flowchart provided by the contractor, the DOS only gets one
      quote for ODCs. As a result, ODCs over $2,500 were not properly treated as an
      open market item and handled in accordance with FAR 8.401(d).

22.     (FG2100017) The task order was awarded as a sole-source without any
      documentation substantiating that RFQs had been sent to at least three contractors
      as required by the special ordering procedures contained in the T&C of the contract.
      The task order was for a refinement of conceptual work anticipated to span a period
      of 2 months, funded for $203,763, with no option periods. The CO improperly
      extended the POP nine times (Modifications 1, 2, 3, 8, 11, 13, 20, 25, and 38),
      although option years were not included in the original SOW. Therefore, all
      subsequent modifications, beginning with Modification 1 (which was issued 25 days
      after the period of performance ended), were outside the original scope of work and
      should not have been issued. This task order grew from $203,763 to $81,047,665,
      or 39,675 percent.

      The file documentation did not substantiate that the CO considered the level of effort
      and labor mix in making a determination as to whether the total price was fair and
      reasonable, as required by the special ordering procedures for the original task
      order, nor for any of the subsequent modifications. There is no documentation of
      negotiations in the file, or that the CO reviewed ODCs on any of the modifications.
      Also, this is a T&M task order, but there was no ceiling price amount on the
      Form 300.




                                           A-11
                       SCHEDULE OF 2003 TASK ORDERS
               REVIEWED IN THE GREATER SOUTHWESTERN REGION

23.     (FJ210103T2) This T&M task order was awarded to US Robotech, an 8(a)
      contractor, for routine network and computer equipment maintenance for $116,160.
      Neither the ITR nor the CO prepared the D&F and the purchase order did not
      contain a not to exceed dollar amount. Furthermore, the ITR and the CO accepted
      the contractor’s proposal without determining the percentage of the work to be
      subcontracted.      In addition, there was no acquisition plan and no formal
      documentation substantiating that the ITR or the CO considered the level of effort
      and labor mix to establish that the total price of the initial and subsequent proposals
      were fair and reasonable. The CO processed three modifications that added work to
      the task that was beyond the scope of the original SOW. In addition, three other
      modifications increased the level of effort. The POP was extended three times and
      the file documentation did not include any justification from the client. By May 2004,
      the task order had grown from $116,160 to $866,338, or 646 percent.




                                            A-12
                                     AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                                             CLIENT SUPPORT CENTER
                                           GREATER SOUTHWEST REGION
                                        REPORT NUMBER A040097/T/7/Z05011

                                      SCHEDULE OF 2004 TASK ORDERS
                              REVIEWED IN THE GREATER SOUTHWESTERN REGION

       Order          Award                           Acquisition    Order                              Value
 No.   Number         Date         Client            Vehicle         Type    Contractor                 Of Task       Notes
                                                                             Science & Engineering
  1    FO174D04T2     03/03/2004   Navy                  MAS           T&M   Assoc                       $5,977,976     1
  2    FH574009       04/08/2004   Army                  MAS           T&M   MacAulay Brown Inc             878,706     2
  3    FU1940002T1    04/07/2004   Dept of Defense       MAS           FFP   ACS Defense Inc             28,409,144     3
  4    FJT214001T1    04/01/2004   Army                  MAS           T&M   Calibre Systems Inc         57,140,434     4
                                                                             ManTech Adv Systems Intl
  5    FU190110T1     04/22/2001   Dept of State         MAS           T&M   Inc                        106,669,336     5
  6    FS1702212B04   11/01/2000   Navy                  MAS           FFP   Anteon Corp                 96,786,188     6
  7    FG2100017      01/12/2000   Army                  MAS           T&M   Northrop Grumman            81,047,665     7
  8    FJ210103T2     07/17/2001   Army               8(a) FAST        T&M   U.S. Robotech, Inc             866,338     8



Highlighted task orders were awarded during March, April or May 2004. The remaining task orders were awarded prior to
the sample period; however, a modification(s) was issued during March, April or May 2004. For purposes of management
control implementation, we tested the newly awarded task orders and modifications issued during sample period.
Procurement issues of the previously awarded task orders are included in Appendix A. Procurement issues for newly
awarded task orders are discussed on the following pages in the notes.




                                                               B-1
                      SCHEDULE OF 2004 TASK ORDERS
              REVIEWED IN THE GREATER SOUTHWESTERN REGION

Notes

1.         (FO174D04T2) This T&M task order was awarded against a fully competed
     BPA. However, the task order was awarded without fair opportunity as required by
     the FTS Commissioner’s letter dated March 11, 2003. Although the required legal
     review was performed, the approval from Legal was dated March 26, 2004, 23 days
     after the POP began. Therefore, this control, though implemented, was not timely.
     Further, the file documentation did not include a sole-source review by the FTS
     ARA. The Acquisition Director was a participant of the CMRB that conducted the
     Acquisition Plan Review. The CO completed the appropriate FTS Acquisition
     Checklists and adhered to the regional control requiring two people per order
     (separation of duties). The COR was identified in the BPA and the delegation of
     authority was established with the BPA. The Acquisition Director waived the Market
     Analysis Review since the task order was a Directed Buy against a BPA and the pre-
     solicitation and pre-award reviews are identical for this type of task. In addition,
     there were no modification reviews required since the two modifications issued for
     this task did not meet the established criteria.

2.        The CO prepared the D&F and established a not to exceed amount on the
     purchase order. The CO issued the task order without a proposal and did not
     evaluate the level of effort or labor mix as it was a “Directed Buy” and the task order
     was issued based on the independent government estimate.

3.        (FH574009) This T&M task order was appropriately competed and in
     compliance with Section 803. The SOW was sent to ten contractors, four of who
     submitted a proposal. In addition, the ITR prepared an acquisition plan and
     completed the applicable FTS acquisition checklists. The ITR also provided the
     COR delegation of authority memorandum to the client representative. Because the
     value of the task order ($878,706) was below the established criteria, the required
     legal and regional reviews were not applicable.

     The ITR prepared the D&F and established a ceiling amount on the purchase order.
     Although the ITR obtained supporting documentation, the CO and the ITR relied on
     the client’s evaluation of the labor mix and level of effort.

4.         (FU1940002T1) This T&M task order was appropriately competed and in
     compliance with Section 803. The file documentation shows that the task order
     requirements were advertised on “e-Buy” and the solicitation was made available to
     all contractors. The required legal review was conducted and the CO completed the
     applicable FTS acquisition checklists. The required regional reviews were not
     completed. A review of Modification 1 by the Team Leader was not documented in
     the file. The CO prepared the acquisition plan in November 2003, prior to the
     requirement of the pre-solicitation review; therefore, this review was not applicable to
     this task order. The sole-source review was not applicable to this task order as it



                                            B-2
                      SCHEDULE OF 2004 TASK ORDERS
              REVIEWED IN THE GREATER SOUTHWESTERN REGION

     was competed. However, the regional control requiring two people per order
     (separation of duties) was not adhered to because the same individual served as
     both the ITR and CO. The CO provided the COR delegation of authority
     memorandum to the client representative.

     The CO prepared the D&F and established a ceiling amount on the purchase order.
     The CO did not prepare a D&F for Modification 1, which exercised an option year.
     The file documentation did not substantiate an evaluation of the labor mix, level of
     effort, and ODCs proposed on the contractor’s initial proposal.

5.         (FJT214001T1) This T&M task order was appropriately competed and in
     compliance with Section 803. The file documentation shows that the task order was
     placed on “e-Buy” and fair opportunity was made available to all contractors. The
     CO obtained the required legal review, completed the applicable FTS acquisition
     checklists, and provided the COR delegation of authority memorandum to the client
     representative. Further, the lead CO, acting for the Team Leader, reviewed and
     signed a modification adding incremental funding. In this instance, the individual
     was a fully warranted CO who had the authority to approve such a modification.
     Although the CO prepared an acquisition plan and it was reviewed and approved by
     the Acquisition Director, Legal, and the CMRB, not all the required reviews of the
     acquisition plan were completed. The file documentation did not include a pre-
     solicitation review of the acquisition plan by the Regional Administrator. The ARA
     for FTS, acting for the Regional Administrator, approved the acquisition plan
     subsequent to solicitation issuance. However, the regional control requiring two
     people per order (separation of duties) was not adhered to because the CO did not
     utilize an ITR on this task order. Since this task order was competed, the sole-
     source review was not applicable.

     The CO prepared the D&F and established a ceiling amount on the purchase order.
     The CO accepted the contractor’s billings, which included G&A and material
     handling fees on ODCs.

6.        (FU190110T1) This task order was awarded prior to the sample period. Thus,
     all but the Modification Review control are not applicable specifically to this task
     order. The required post award modification reviews were performed. See
     Appendix A for procurement issues related to this task order.

7.        (FS1702212B04) This task order was awarded prior to the sample time period.
     Thus, all but the Modification Review control were not applicable specifically to this
     task order. Modification 2 identified scope of work, added work and added
     incremental funding of $1.9 million. The file documentation did not include the
     required CMRB and Team Leader review of the modification, as the modification
     was over $500,000. See Appendix A for procurement issues related to this task
     order.



                                           B-3
                      SCHEDULE OF 2004 TASK ORDERS
              REVIEWED IN THE GREATER SOUTHWESTERN REGION


8.        (FG2100017) This task order was awarded prior to the sample time period.
     Thus, all but the Modification Review control were not applicable specifically to this
     task order. Modification 44, issued February 2004, extended the POP and added
     funds. Modification 45, issued March 2004, added incremental funding. The CMRB
     reviewed and approved the Modification 44 extending the POP and adding funds;
     however, the file documentation did not include the required Team Leader review of
     Modification 45, which added incremental funding. See Appendix A for procurement
     issues related to this task order.

9.         (FJ210103T2) This task order was awarded July 17,2001, prior to the sample
     time period. Thus, all but the Modification Review control were not applicable
     specifically to this task order. Modification 9, issued in May 2004, added level of
     effort and incremental funding. In addition, Modification 10, issued in June 2004,
     added incremental funding, which fully funded the task order.             The file
     documentation did not include the required Team Leader review of the modifications
     adding incremental funding. See Appendix A for procurement issues related to this
     task order.




                                           B-4
C-1
C-2
C-3
C-4
C-5
C-6
  AUDIT OF FEDERAL TECHNOLOGY
SERVICE’S CLIENT SUPPORT CENTER,
    ROCKY MOUNTAIN REGION
REPORT NUMBER A040130/T/6/Z05010
         December 9, 2004




             VIII
                       AUDIT OF FEDERAL TECHNOLOGY
                     SERVICE’S CLIENT SUPPORT CENTER,
                         ROCKY MOUNTAIN REGION
                     REPORT NUMBER A040130/T/6/Z05010
                              December 9, 2004

                              TABLE OF CONTENTS

                                                                     Page

RESULTS OF AUDIT                                                     VIII-1

     Brief                                                           VIII-1

     Review of 2003 Procurement Actions and Controls                 VIII-1

             Limited Competition                                     VIII-1

             Lack of Support for Fair and Reasonable Pricing         VIII-4

             Improper and Questionable Contracting Actions           VIII-6

             Questionable Use of the IT Fund                         VIII-11

             Causes of Improper Procurement Practices                VIII-14

     Review of 2004 Procurement Actions and Controls                 VIII-16

     Conclusion                                                      VIII-20

     Management Response                                             VIII-20

     Audit Comments on Management Response                           VIII-21

     Internal Controls                                               VIII-21

APPENDICES

     Schedule of 2003 Orders Reviewed in the Rocky Mountain Region    A-1

     Schedule of 2004 Orders Reviewed in the Rocky Mountain Region    B-1

     Rocky Mountain Region Management Response to Report              C-1
                                          RESULTS OF AUDIT

Brief

We identified improper task order and contract awards involving millions of dollars that
breached procurement laws and regulations and on a number of occasions were well
outside the IT Fund’s legislatively authorized purposes. Our findings included limited
competition, insufficient documentation that the Government received fair and
reasonable pricing, poor contract administration, and other improper or questionable
contracting practices.

The factors contributing to these circumstances were ineffective management controls
and an environment that emphasized client agency satisfaction and revenue more than
compliance with proper and prudent procurement procedures.

At the request of the Administrator, we reviewed an additional limited sample of more
recent procurement actions. We found that R8 has begun to implement several
regional initiatives to improve the procurement process, including internal self-certified
reviews, acquisition plan reviews, additional training, and improved internal
communications. However, we identified some of the same issues identified in the
FY03 review, including improper and questionable contracting actions, inadequate
competition, insufficient documentation supporting that the Government received fair
and reasonable pricing, and lack of implementation of various controls put in place by
Central Office FTS.


Review of 2003 Procurement Actions and Controls

As a follow-up to the OIG review of CSC procurements in Regions 4, 6, and 10, we
reviewed a sample of R8 procurement actions performed in FY 2003. In our sample of
29 orders, we identified (1) limited competition, (2) lack of support for fair and
reasonable pricing, (3) improper and questionable contracting practices, (4) and misuse
of the IT Fund. The results of our task order review indicated that internal controls are
inadequate, and many of the deficiencies identified in the previous audit exist in R8
FY03 procurements.


Limited Competition

Of the 29 orders in our sample, R8 awarded 1751 (59%) without the benefit of
competitive bids. While R8 did generally seek quotes from more than one contractor
(e.g., GWACs require the ordering office to solicit all contractors under the GWAC
vehicle), for whatever reason, oftentimes only one contractor responded with an offer.
As a result, R8 had reduced assurance that it received the best value for its customers.

51
      Two orders in our sample were orders under $3 million placed against small business contracts, which
     are allowed to be issued without competition per FAR 19.8.


                                                   VIII-1
The table below shows a breakdown of the 17 orders by contract vehicle and dollar
value:

                                                                                          Percent of
                          Orders in                        One Offer
       Contract Vehicle                                                                   Value with
                           Sample           Value          Received         Value
                                                                                          One Offer
       FSS Schedules          16        $ 90,763,986           11       $ 51,833,959          57%
          GWACs               11         347,499,841            6         94,257,534         27%
                   1
           Other               2             614,916          n/a                   n/a        n/a
           TOTAL              29        $438,878,743           17       $146,091,493         33%


FSS Schedules - FSS and DOD Ordering Procedures Require Competition.
Recent legislation and FSS ordering procedures specify the need to obtain a minimum
of three offers for most FSS Schedule orders to ensure fair and reasonable pricing.
FSS Ordering Procedures for Services (that include a statement of work) expected to
exceed $2,50052 require the ordering office to send the statement of work to a minimum
of three Schedule contractors for competitive quotes. The criteria states that if an order
is expected to exceed the maximum order threshold (MOT) of the base contract, the
ordering office is required to request quotes from additional Schedule contractors that
offer services that will meet the agency’s needs and to seek additional price reductions.

In addition, Section 803 of the National Defense Authorization Act for Fiscal Year 2002,
Public Law 107-107 requires ordering agencies to obtain a minimum of three offers for
Department of Defense (DOD) orders for professional services expected to exceed
$100,000 that are placed under multiple award contracts, including Federal Supply
Service (FSS) Schedule contracts53. The provisions of Section 803 apply not only to
orders placed by DOD, but also to orders placed by non-DOD agencies on behalf of
DOD. Of the 29 orders in our sample, 24 were on behalf of DOD agencies.

Our sample of 29 orders included 16 FSS Schedule services orders. In 11 of the 16
cases (69%), representing 12% of the total sample dollars, R8 made the awards without
the benefit of competitive bids. R8 approved sole source awards for four of those
orders, valued at $19.8 million, without preparing adequate file documentation to justify
acceptance of a sole offer. Several of the schedule orders in our sample also exceeded
the MOT, but R8 did not request additional quotes or seek additional price reductions.

Competitive Bids on Orders Placed with GWACs. Of the 11 GWACs54 task orders
included in our sample, R8 received only one bid on six of the orders (55%). The six
task orders, valued at $94 million, represented approximately 21% of the cumulative
value of the entire sample of 29 orders. While R8 complied with competitive
requirements by soliciting all GWAC vendors, the lack of competitive bids coupled with



52
   The micro-purchase threshold is $2,500.
53
   The legislation affects DOD orders placed under multiple award contracts on or after October 25,
2002.
54
   Common GWACs utilized by FTS include the Millennia, Millennia Lite, and ANSWER contracts.


                                                 VIII-2
inadequate evaluation of pricing (discussed later in the report) leaves little protection
against overpricing.

R8 Did Not Always Include Qualified Vendors in the Bidding Process. During the
course of our review, we contacted vendors to find out why they did not bid on selected
tasks. We determined that in some cases, the vendors R8 solicited were not able to
perform the work.

     Order 03RT0119 is an environmental task, valued at approximately $3 million, for
     the Army placed against FSS Schedule 899 for monitoring and maintaining military
     training grounds55. R8 solicited bids from three vendors and received one bid. One
     vendor who chose not to bid on the task advised us that they did not bid because
     they are not qualified to do the work. The vendor advised that they are in the
     business of air quality modeling, not land analysis. A proper market analysis would
     have ensured that qualified vendors received the opportunity to bid.

     For a $229 million Millennia Lite (ML) order to Titan Corporation (Titan), the
     statement of work called for the development of a new enterprise system to deliver
     employee assistance program services (EAP) to military families, including providing
     call centers and counselors to serve clients. ML contract holders, who all provide IT
     services, were the only vendors allowed to bid on this project. While two other ML
     vendors bid on this order, EAP vendors excluded from the solicitation challenged the
     qualifications of the ML vendors in general and Titan to perform the counseling
     services required under the contract. Further, we determined that 90 percent of the
     task order payments were going to Titan’s EAP subcontractor, Ceridian. Titan had
     never provided EAP services or systems before. In addition, all three ML bidders
     partnered with EAP providers to meet the requirements of the contract. Despite the
     multi-level approvals R8 received from its Central Office and GSA Legal Counsel to
     proceed with the award, R8 failed to perform adequate market analysis to ensure
     that more qualified vendors could bid on the contract56.

Directed Procurements. In the course of our review, we determined that several
orders appeared to be directed to the client’s preferred vendor. We determined that R8
approved agency justifications to limit competition with little scrutiny or effort to obtain
additional sources. Following is one example:

Order 0R00015GSA1 is a FSS Professional Engineering Services (PES) Schedule task
awarded to TASC, Inc. (TASC) for IT support for the Air Force Space and Missile
Systems Center ($13,718,395). Our review indicated that R8 was aware that the Air
Force client wanted the award to go to TASC, as TASC was the incumbent vendor to
the Air Force contract that preceded 0R00015GSA1. There was no evidence in the file
that R8 formally solicited any other contractors. However, during our review, the ITM

55
    We also determined this order to be inappropriate for the IT Fund. See Inappropriate Use of the IT
   Fund section of this report.
56
    We identified additional issues with the Titan order. See other sections of this report (Improper and
   Questionable Contracting Actions and Questionable Use of the IT Fund) for details.


                                                   VIII-3
provided documentation of e-mail memos R8 submitted to four vendors to request
proposals. Only TASC submitted a bid. The total proposal amount was $13,718,395.
Despite the large dollar value, there was no market analysis, no justification for award,
and nothing in ITSS indicating that FTS solicited other vendors.


Lack of Support for Fair and Reasonable Pricing

Ninety-three (27 of 29) percent of the orders for IT services that we reviewed contained
insufficient documentation to support that the Government received a fair and
reasonable price. Specifically, we found that R8 did not:

      •   Evaluate the level of effort and labor mix to establish the reasonableness of the
          total price for labor;
      •   Evaluate the price reasonableness of additional direct costs, also known as
          Other Direct Costs (ODCs)57;
      •   Seek additional price reductions for orders exceeding maximum order thresholds
          (MOTs) established in the base contract, nor solicit additional offers for such
          orders; and
      •   Attempt to negotiate better pricing or terms in general.

This finding is of particular concern given that R8 awarded the majority of the orders in
our sample without the benefit of competitive bids (See “Limited Competition” section of
this report).

Evaluation of Labor Costs. We identified many orders in which R8 documented a
comparison of proposed labor rates with the rates of other vendors - generally vendors
on contract under the same multiple-award contract vehicle. R8 believed that because
the labor rates under the base contracts are pre-determined to be fair and reasonable
by the contracting office who awarded the base contract, such a comparison was
adequate to establish fair and reasonable pricing. However, price reasonableness
cannot be established by evaluating only the labor rate because:

      1. The labor rate is only one part of the equation. To arrive at the conclusion that
         the total price is fair and reasonable, the contracting officer must consider the
         level of effort (hours) and labor mix, as well as the labor rates.

      2. Unlike commodities, the contracting officer cannot ensure an “apples-to-apples”
         comparison when evaluating labor rates because labor rates for even identically
         titled labor categories can vary greatly. Accordingly, without convincing evidence
         or explanation as to how the rates are comparable, it is not sufficient to simply
         document the file with other contractors’ GSA Advantage! labor rates, for
         example. The chart below demonstrates the level of variance that can exist
         within the same labor category:

57
     ODCs typically include material costs and travel.


                                                     VIII-4
      Title in GSA                                                            Experience
      Advantage!                  Company                   Rate             Requirement
                                     58                                12 years progressive PM
     Project Manager     Company A                         $ 90.25
                                                                       experience in IT projects.
                                                                       Typically requires 4-5 years
     Project Manager     Company B8                        $ 87.85
                                                                       relevant PM experience.
                                                                       5 years experience as PM or
     Project Manager     Company C8                        $135.00     2 years PM experience plus
                                                                       advanced degree.

The table shows that the rate and description for the same labor category can vary
significantly; in this case, as much as $47.15 per hour.

Maximum Order Threshold (MOT). As previously stated, when a FSS Schedule order
will exceed the MOT, the ordering office is required to seek additional competition. The
MOT is the dollar value determined by the contracting activity that awarded the
Schedule contract at which the ordering office should expect to receive a price
reduction. In addition to seeking further competition above the MOT, FSS Ordering
Procedures for Services require the ordering agency to request additional discounts
from schedule contract pricing. R8 typically included a boilerplate sentence in their
solicitation for bids stating, for example, “Contractors are encouraged to provide
discounted GSA FSS IT schedule rates,” but R8 did not take additional steps to request
price concessions for orders above the MOT. We do not believe a boilerplate sentence
in the request for proposal is adequate to satisfy this requirement.

Evaluation of Other Direct Costs (ODCs). In most cases, if the vendor does not have
a proposed cost pre-priced under the base contract, the ordering office must determine
and negotiate a fair and reasonable price. For example, under FSS Schedules, ODCs
must be treated as open market procurements in accordance with FAR 8.401(d), which
requires the ordering agency’s contracting officers to make a separate determination
that ODC prices are fair and reasonable. For a majority of the orders in our sample, the
file did not contain evidence of an evaluation of ODCs. As described in the examples
below, ODC costs sometimes constituted a large portion of the total value of the order,
and if the contracting office does not negotiate ODCs, the Government is vulnerable to
unnecessary and/or unreasonable costs.

     Order 0R00015GSA1, previously described in this report, contained no evidence
     that FTS evaluated the proposed amount in ODCs included in the task. It appears
     that FTS accepted the proposed amount for ODCs, which represented a significant
     portion of the total proposed costs of $18.4 million.



58
  For confidentiality purposes, we omitted the contractor’s name; however, the information is from actual
 Schedule contract holders.




                                                 VIII-5
   In this example, R8 officials advised that FTS requested the FSS contracting office
   for the Schedule contract to issue a contract modification to the base contract (GS-
   23F-0008K) for the ODCs. Per the modification, FSS awarded such items as
   generators, nuts, bolts, wires, batteries, cables, and other ODCs that were not to
   exceed approximately $5 million per year for 2000 through 2004. The ITM advised
   that he assumed that the contractor worked with the FSS contracting officer to
   ensure fair and reasonable pricing of the ODCs.

   FSS’ contract modification was not documented in the task order file and is not (per
   FAR 8.401(d)) an acceptable practice. The FSS (base contract) contracting officer
   is not responsible for ensuring fair and reasonable pricing for open market items on
   a task order managed by FTS, and FSS has no authority to provide a blanket
   approval for non-schedule costs.

   Order 03RT0119, also described previously in this report, included ODCs in the
   original proposal. Proposed ODCs included land rehabilitation costs (trees, shrubs,
   rock dams, straw bale check dams, etc.) and reseeding costs (fuel, seeds, etc.). In
   addition to being inappropriate to the IT Fund, these items were open market items
   not included as part of the base contract. The file did not contain any documentation
   that the FTS evaluated the price reasonableness of any of the ODCs.

   Also, throughout the administration of the order, R8 continued to approve additional
   funds for ODC items. The additional funds that R8 has approved under this order
   have grown to nearly $1 million ($650,000 increase for ODCs). Invoices include
   additional ODC items not specified in the original task order or subsequent
   modifications to the task order (job materials, subcontractor non time-and-material
   costs, supplies, etc.).

Negotiations. Of the 29 orders we reviewed, we noted only one instance where there
was evidence that R8 engaged in negotiations with the vendor. In that one case,
negotiations were primarily performed by the client agency.            The absence of
negotiations is particularly disconcerting because of the issues we noted with support
for fair and reasonable pricing. R8 concurred but advised that, despite the lack of active
pursuit of additional competition and discounts for orders, R8 procurements resulted in
an average discount of five percent off the allowable billing rates. There was no
evidence, however, that these discounts were the result of negotiation efforts on the
part of R8.


Improper and Questionable Contracting Actions

R8 awarded inappropriate task orders, including pass-through procurements that
potentially increased the Government’s costs by several million of dollars. In addition,
one procurement represented a misuse of an 8(a) small business contract. R8 also
improperly modified task orders after award and approved payment for unsubstantiated
costs. Further, R8’s lack of oversight for its task and delivery orders resulted in


                                          VIII-6
questionable practices, including conflicts of interest and award of national security
orders.

Pass-through Procurements Resulted in Millions in Increased Costs.                  We
determined that R8 sometimes awarded contracts to vendors who would not be
performing the actual work. This practice resulted in the Government overpaying for the
services received.

   Order 03RT0736 is a $229 million task order awarded to Titan Corporation under
   Millennia Lite contract number GS07T00BGD0057 to provide employee assistance
   and counseling services to military families. This order represented a “pass-through”
   procurement because Titan subcontracted substantially all of the work to its
   subcontractor, Ceridian – an employee assistance services firm. We determined
   that Ceridian independently operates the systems utilized in the task. Titan, which
   adds a fee to each invoice for its involvement in the task, was unable to provide
   sufficient documentation to substantiate its contribution to the delivery of the task
   requirements. We believe that Titan’s fee could represent largely unnecessary costs
   to the Government. (See discussion of remedial actions taken on this project by R8
   later in this report under Inappropriate Use of the IT Fund.) R8 management
   advised that the pass-through award was due, in part, to inadequate market
   research. R8 maintained that had they conducted thorough market research, R8
   would have concluded that the proposed work was significantly less “IT” in nature
   than originally estimated and would have handled the procurement differently.

   R8 awarded Order 02RT0734 to Lockheed, the sole bidder after solicitation of all
   Millennia vendors, for nearly $25 million. However, the Air Force client advised that
   the contractor actually performing the work is a separate division of Lockheed that
   was not associated with the Millennia contract. Lockheed passes 100 percent of the
   work on to the other division and charges the Government an additional mark-up.

Misuse of Small Business 8(a) Sole Source Authority. FAR 19.805-1(a) allows for
sole source procurements to eligible small business 8(a) firms if the anticipated total
value of the non-manufacturing contract is under $3 million. Our sample included two
8(a) IDIQ FAST orders. We determined that one of these orders also represented a
pass-through procurement, as described in the previous section, which compromises
the intent of the 8(a) program.

R8 placed Order 02RT0955 under 8(a) contract number GS06K97BND0710 for
consulting services to assist USDA’s Forest Service by analyzing and determining an
appropriate level of fire suppression. This task represents an improper use of 8(a)
contracting authority because the 8(a) contractor, Information Systems Support (ISS),
teamed with a large business (CommonThread) that performed all the work on the
project. The ITM advised that CommonThread performed 100 percent of the work on
the project, and that CommonThread teamed with ISS in order to utilize the 8(a) status
of ISS to obtain the award. FAR 52.219-1 states that 8(a) contractors are required to
supply a minimum of fifty percent of the effort for their contracts. While we understand


                                         VIII-7
that this requirement applies over the life of the 8(a) contract versus by individual task
order, a high level of subcontracting undermines an important intent of the 8(a)
program, which is to provide small disadvantaged businesses with real work
experience. Use of 8(a) contracts as a mere conduit to other contractors is a clear
abuse of the 8(a) program.

Improper Modifications. R8 perpetuated non-competitive situations on some task
orders by processing improper modifications to task orders. In many cases, the
modifications were improper because they (1) added work and option periods that were
not consistent with the original statement of work, (2) exercised task option years
without performing the requisite analyses per FAR 17 (See “Fair and Reasonable
Pricing” section for criteria), or (3) extended the period of performance of the task
without appropriate justification. Such improper practices also often resulted in
uncontrolled cost growth.

   On order 0R000624GSA, a time-and-materials task, the statement of work indicated
   that the task was not to exceed $484,635 for a one-year period. However, within
   five months after the award, R8 had approved task costs of $678,502, an amount
   that exceeded the original estimate for the work for a twelve-month period. By
   January 2003 (less than three years into the task), when R8 approved Modification
   14, the value of the task order reached $6.1 million, which represented a 1,100%
   increase to the original task amount.

   R8 increased the scope of this order through four period of performance (POP)
   extensions and numerous modifications to approve increased labor costs.
   Extensions to the POP should be the exception and should not be executed without
   a proper justification. The Government should generally request consideration for
   performance delays. In addition, R8 improperly exercised option years in that option
   years were not included in the original statement of work. Options cannot simply be
   added to a task order. The statement of work must indicate if options are
   contemplated, and option pricing should be established at the time of award.
   Further, if the options are exercised, the CO must complete a written determination
   and findings in accordance with FAR Part 17.207.

   R8 awarded order 02RT0776, a Navy task for network and telecommunication
   technical support to Titan Support Corporation Information Solutions Group for a
   total value of $8,470,969 in July 2002 for a five-year period. However, by November
   2003 with award of Modification 28, the value of the task had more than doubled to
   $18,840,311. This was a 122% cost growth of this five-year task in only its second
   option year. R8 approved various cost increases on nine different occasions in the
   first thirteen-months of the task order. Without proper oversight in such situations,
   there is risk that vendors can freely determine labor categories to add and potentially
   increase costs by billing the Government for labor categories that were not included
   or evaluated in the initial proposal and that may not be within the scope of the task.




                                          VIII-8
Unsubstantiated Costs. We determined that R8 contracting personnel did not review
invoices, leaving billing review solely up to the client. This practice led to over billings,
other improper billings, and concerns of the propriety of some billings. For example, we
frequently found billings in which the vendor billed ODCs as a lump sum amount. In
many cases, neither R8 nor the client had a record of the specific ODCs being billed. In
one example, even the vendor could not provide an adequate record of the items it
billed to the Government.

   On order 03RT0119 for the Army’s Integrated Training Area Management division,
   we found categories of ODCs and labor costs billed to the task that were not
   included in the original proposal or subsequent modifications. Of particular interest
   were billings for the Technical Expert labor category for which the vendor (Anteon)
   has billed at a considerable rate per hour. As of January 2004, 72% (over $1
   million) of the billed labor was for Technical Expert work, which was not proposed.
   We learned from the client that the billing actually represented costs for heavy
   machinery rental and operator labor. Our review indicated that R8 was aware that
   the Technical Expert labor category included provision for equipment for a land
   erosion project.

   Army and Anteon officials advised that they arranged to bill for the heavy machinery
   projects under this IT task. Anteon advised that they determined the total cost of
   machinery and billed it at an hourly rate already approved for the Technical Expert
   category in the base contract. We determined that the qualifications required for the
   Technical Expert level IV, which represents over half the Technical Expert time
   billed, include a PhD and fifteen years of experience. Anteon advised that the
   Technical Experts billed to this project have commercial drivers’ licenses and
   knowledge of land construction.

   We also determined that Anteon was billing the Government for data entry clerks at
   rates above the proposed amount. The contract file indicates that the Army may
   have approved raises without R8’s approval, which is not within the Army’s authority.
   We determined that this resulted in cost increases of approximately $60,000. As the
   party responsible for payment, FTS should have ensured that the rates billed were in
   accordance with the contract.

   On order 02RT0734, billings as of April 2004 included approximately $7.5 million in
   ODCs (43% of the total billings). Neither R8 nor the client (Air Force) could provide
   a breakdown of the ODCs billed. We had to contact the vendor (Lockheed Martin) in
   order to obtain a list of ODCs. The fact that no one in R8 or the Air Force could
   produce a listing of the ODCs billed for the task indicates that there is poor contract
   administration associated with this task. FTS is relying on the vendor to bill the
   Government in accordance with the contract prices without requesting any support
   for the billed costs.




                                           VIII-9
National Security Orders. Of the 29 orders we reviewed, 10 of the orders involved the
purchase of IT systems for R8’s military clients that related to national security, such as
weapon systems and satellite communications systems. We noted that many of R8’s
system and equipment purchases were located in top-secret clearance areas, and that
R8 contracting personnel did not have the security clearances needed to receive
complete order information or to view the systems. R8 should not accept work where it
does not have the ability to access its own contract deliverables.

Conflict of Interest. In two cases, we determined that the successful offeror drafted or
participated in drafting the statement of work. Direct contractor involvement in this
phase of the procurement process represents a conflict of interest and gives the
appearance of directed procurement or unfair advantage in competitive procurements.
In one case, the documentation supports that the contractor’s cost proposal was
developed prior to the statement of work.

Frequent Use of Time-and-Material Authority. R8 frequently used time-and-materials
tasks versus firm fixed-price tasks. Of the 29 orders for services that we reviewed, 23
were time-and-materials tasks (see appendix for more details). A time-and-materials
contract provides for acquiring services on the basis of direct labor hours at fixed hourly
rates and materials at cost. Time-and-materials task orders are disfavored under the
FAR. The FAR states that a time-and-materials contract provides no incentive to the
contractor for cost control or labor efficiency, and thus appropriate Government
surveillance of contractor performance is required to give reasonable assurance that
efficient methods and effective cost controls are being utilized.

FAR 16.601 states, in part:

       A time-and-materials contract may be used only when it is not possible at
       the time of placing the contract to estimate accurately the extent or
       duration of the work or to anticipate costs with any reasonable degree of
       confidence,

   and

       A time-and-materials contract may be used (1) only after the contracting
       officer executes a determination and findings that no other contract type is
       suitable; and (2) only if the contract includes a ceiling price that the
       contractor exceeds at its own risk. The contracting officer shall document
       the contract file to justify the reasons for and amount of any subsequent
       change in the ceiling price.

Of the 23 time and material orders in our sample, none of the order files documented a
determination and findings for time-and-material contracting authority. In addition,
purchase orders for time-and-materials orders did not clearly state the maximum funds
to be expended on the project, as required by the FAR.



                                          VIII-10
Acquisition Plans. The GSA Acquisition Manual (GSAM) requires at least a limited
acquisition plan for all task orders exceeding $100,000. A key component of an
acquisition plan is to show how competition will be promoted. R8 awarded 27 of the
orders in our sample without the benefit of an acquisition plan.


Questionable Use of the IT Fund

We believe that 12 of the 29 task order awards we reviewed, with a cumulative value of
over $27959 million (64% of the sample value), the CSC engaged in questionable
contracting practices to procure, on behalf of clients, services which did not meet the
intent of the IT Fund.

40 USC Section 322 (the statute creating the Information Technology Fund) states that
the IT Fund is available “for expenses, including personal services and other costs, and
for procurement (by lease, purchase, transfer, or otherwise) to efficiently provide
information technology resources to federal agencies and to efficiently manage,
coordinate, operate, and use those resources…Information technology resources
provided under this section include information processing and transmission equipment,
software, systems, operating facilities, supplies, and related services including
maintenance and repair.” (40 USC Section 322(c)(1)&(2)). R8 advised us that FTS, on
a national level, has been struggling to define what is or is not IT, especially when
services are involved. We believe FTS needs a universal guideline for proper use of the
IT Fund. Despite the varying interpretations, our audit sample included numerous
examples of inappropriate uses of the IT Fund.

       Task Orders 0R00015GSA1, 03RT0135, and 04RT0378 are all task orders R8
       awarded to support the Air Force through the FSS Professional Engineering
       Schedule. Combined, these contracts have obligated the Government for over $25
       million for services and supplies to support the Air Force Space Based Infrared
       Systems (SBIRS). The scope of work is to maintain the reliability and performance
       of fielded SBIRS weapon system components. SBIRS consist of satellites linked to
       a network of worldwide mobile and fixed ground stations. Although satellite systems
       are IT in nature, we estimated that 70% of the services TASC provided under
       0R00015GSA1 are related to the maintenance, management, and revamping of
       mobile satellite trucks and support vehicles. Each mobile satellite station is housed
       in a trailer that is pulled by a diesel truck, and the Air Force uses five support
       vehicles with each satellite station truck. The support vehicles include a fuel truck,
       crew quarters truck, crew support truck, spare parts truck, and a mission van. The
       Air Force advised that the largest cost on 0R00015GSA1 is for the maintenance of
       the trucks and that a majority of the maintenance is not for station equipment.




59
     One of the orders represents $229 million of the $279 total. The eleven other orders inappropriate to
     the IT Fund represent 11% of the total sample dollars.


                                                   VIII-11
       Included in the contractor’s proposal and billings were items such as a rifle rack,
       tractor paint, fuel, pillows and mattresses, kitchen cabinets and countertops,
       windows, microwave, refrigerator, and a water purification system.

       Since 03RT0135 is a follow-on to 0R00015GSA1, many of the original proposal
       requirements transferred to 03RT0135. 03RT0135 includes services such as
       furnishing living quarters; replacing water tanks, tires, and radiator hoses; and
       painting vehicles. In addition, the monthly status reports for September and
       December 2003 included use of forklifts, loading docks, gator utility vehicles60, and
       tractors. The client advised that these items relate to a new facility in which the
       client will house a backup for a satellite ground station. These costs are not
       appropriate to the IT Fund.

       R8 processed both 0R0015GSA1 and the follow-on order 03RT0135 through the IT
       Fund. R8 subsequently opened 04RT0378 for this same effort through the General
       Supply Fund. R8 officials advised that the transition should be complete by fiscal
       year end.

       Order 03RT0736, described previously in this report, is a $229 million task order
       awarded to Titan under Millennia Lite contract number GS07T00BGD0057 to
       provide employee assistance and counseling services to military families. The IT
       Fund and the Millennia Lite contracts are for information technology (IT) products
       and services. We determined that the Department of Defense attempted to solicit
       these same services in 2002 under the FSS Human Resources Schedule. The
       statement of work that was used in the 2002 solicitation was modified to make the
       FTS solicitation for the same services appear to be IT and suitable for the Millennia
       Lite contract. In addition, the funding documents for this procurement call for the
       contractor to provide on demand information and referral support services for an
       employee assistance program, not IT services.

       To justify and support continuation of this project, R8, central office FTS officials,
       and the contractor have asserted that the largest part of the costs under this task are
       IT. They advised that when they approved the award they believed an IT
       infrastructure would be developed as part of the task. In addition, R8 maintains that
       they awarded this task in accordance with FAR 2.101, which includes significant use
       of technology in its definition of IT. However, even applying the FAR criteria,
       employee assistance services delivered to clients via an electronic infrastructure that
       the vendor developed and was using before R8 FTS awarded the subject task does
       not make use of the IT Fund or the ML contract appropriate. To date, the billings
       support that Titan’s subcontractor, Ceridian, has performed approximately 90
       percent of the work under this task. Ceridian provides employee assistance
       services, not IT services.



60
     A gator is a small utility vehicle similar to a four-wheeler and is used for hauling equipment and other
     warehouse activities.


                                                     VIII-12
Also, because FTS classified this procurement as IT and used the ML contract
vehicle, the contractors most qualified to perform the actual work did not have the
opportunity to bid. The EAP providers who partnered with the ML bidders were the
only ones who could participate in the solicitation. Use of ML effectively excluded
other EAP providers from the competition. When competition is unnecessarily
limited, there is an increased risk that the Government will not receive the best
performance at the lowest price.

On August 6, 2004, R8 awarded sole source six-month bridge contracts to Titan and
Ceridian through the General Supply Fund using a MOBIS base contract for Titan
and an FSS Human Resources Schedule contract for Ceridian. We have been
informed that R8 plans to re-compete the employee assistance services before the
bridge contract period expires. R8 management advised that they are currently
doing market research to develop an acquisition strategy for re-procurement of this
task. In order to obtain a high quality and fairly priced solution, we believe that the
strategy should ensure the solicitation of proposals from the actual employee
assistance service providers directly.

03RT0119 is a $3,006,810 FSS environmental Schedule order for the Army’s
Integrated Training Area Management division awarded the order to Anteon for
monitoring and maintaining military training grounds. As described earlier in this
report (See “Improper or Questionable Contracting Actions”), we determined that
72% of the billed labor through January 2004 was for a technical expert labor
category, which actually represented heavy machinery rental and operator labor (the
heavy machinery included a backhoe, dozer, loader, and concrete rip-rap).

The proposal also included environmental sampling drilling, reseeding and
replanting, surveying, and additional construction engineering. In addition to the
non-IT labor costs, R8 also approved land rehabilitation costs of nearly $1 million for
this task. The breakdown of other direct costs on this task order included seed mix,
plants, shrubs, fuel, straw bale check dams, rock dams, and snow fencing.

Order 02RT0185, valued at $1,075,512, is for conducting surveys for various
threatened and endangered species (such as the flycatcher bird), trapping brown-
headed cowbirds, monitoring the avian community, collecting fisheries data and
entering collected data into a database. The client is the Department of Interior,
Bureau of Reclamation. We determined that as of March 2004, 46% of the billed
labor was for field-related studies. Field related studies constitute activities such as
locating and plotting the location of the flycatchers and cowbirds and examining
avian habitat. The office related work consists of data entry, data management, data
analysis, and report writing. We have no way of calculating how much of the office
related work is for data entry and report writing (tasks not inherently IT). We believe
this task order would be better suited for the General Supply Fund.




                                      VIII-13
Causes of Improper Procurement Practices

Our audit work indicated that an ineffective system of internal management controls was
the primary cause for improper procurement practices in R8. The internal controls did
not (1) ensure adequate contracting officer participation in the procurement process or
(2) prevent R8 FTS personnel from sacrificing adherence to proper procurement
procedures in order to accommodate customer preferences, which we concluded was
due to an excessive focus on customer satisfaction and revenue growth. We also
believe that more focus on acquisition training would be of benefit.

We noted that in 2002, an FTS internal review team reported similar problems to R8.
Our findings revealed that R8 did not take effective action to address the problems.

Ineffective Management Controls. We determined that R8 did not have adequate
internal controls to protect the integrity of its procurements. Our sample of task orders
indicated that management did not have effective controls to ensure that procurements
were executed in accordance with applicable laws, regulations, and within contract
scope.

In February 2002, FTS’ Information Technology Center for Regional Operations (CRO)
completed a review of R8’s operations to determine whether R8 was operating in
compliance with regulations and was maintaining adequate file documentation. The
CRO reported conditions identical to those identified in our review. For example, the
CRO noted that R8 contracting officers were not involved early in the procurement
process. We observed the same situation during our review.

R8 management’s response to the CRO report advised that they planned to make
several procedural changes to address the discrepancies noted in the report by June
30, 2002. On February 15, 2002, R8 management issued a memo requiring more CO
involvement in acquisition process. None of the other procedural changes described in
R8’s response to the CRO review began prior to December 2002, and many of the
changes were not implemented until after our current review commenced in January
2004.

We noted that the memo regarding CO involvement was not implemented, and we
concluded that R8 management disregarded the recommendations of the CRO. R8
management stated that a management change contributed to their failure to act on the
CRO’s recommendations because the current IT Director was not aware of the CRO
review until we asked about it during the audit.

In accordance with FAR 37.103, the contracting officer is responsible for ensuring that a
proposed contract for services is proper. However, our audit revealed that R8
contracting officers did not always take appropriate steps to ensure compliance with
regulations. Based on our fieldwork, including interviews with IT Managers and
contracting officials, we believe that this occurred primarily because of (1) inadequate
involvement by contracting officers in the procurement process, and (2) an environment


                                         VIII-14
in R8 that emphasized sales and customer service more than compliance with
regulations.

Contracting Officer Participation in Procurement Process. In several cases, we
determined that the contracting officer did not become involved in the order process
until the ITM presented the complete order package to the contracting officer for
signature. When this occurred, contracting officers felt pressure from the ITM and R8
FTS management to process the order quickly without adequate time for review.

We noted that the 2002 FTS CRO report recommended numerous times that R8 COs
be involved in the procurement process at the time of formulation of the procurement
planning and execution of significant orders. This recommendation was a result of the
CRO’s findings that the ITMs did not have adequate contracting knowledge to make
contracting decisions. Documentation indicates that R8 management committed to
incorporating a policy as of June 30, 2002, requiring ITMs to submit any order greater
than $500,000 to the contracting officer accompanied by a procurement plan detailing
the methodology the ITM planned to use for the procurement and a checklist of items to
be completed at each phase of the procurement. During our review, R8 management
advised that, while they had not yet implemented this policy, they had specifically
addressed contracting officer involvement and directed the contracting officers and
ITMs to work together on larger and more complex orders. R8 management released a
memo on February 15, 2002 in which management advised that they had assigned
warrant authority to several ITMs in order to allow the senior CO’s more time for
contracting involvement.      However, our audit results indicated little evidence of
contracting officer involvement in procurement planning activities as a result of the
memo.

Emphasis on Accommodating Client Agencies and Revenue. Throughout our review of
R8 procurements, we met with several R8 clients. Client representatives advised that
R8 provides good customer service and has helped them accomplish their missions in
an expeditious manner. Military clients particularly favored FTS over their own
contracting organizations, which the clients stated were slower and required more
documentation. While R8 focused on customer service efforts, we determined that R8
frequently disregarded rules and regulations in order to meet the demands of the
customer.

We concluded that a culture within R8 emphasizing revenue growth also contributed to
the problems we identified. Several R8 personnel advised that revenue generation was
a primary focus in R8 FTS. Also, the CRO report stated that R8 management hired
associates to increase revenue, and sales generated by R8 grew dramatically to meet
that objective. The report further stated that R8 might want to consider revising their
focus and identifying ways to promote proper contracting practices and increase project
management practices. R8 management acknowledged that the customer-focused
culture existed and advised that they have undertaken steps to promote behavior that
supports proper compliance and solid management practices.



                                        VIII-15
Review of 2004 Procurement Actions and Controls

At the request of the Administrator, we reviewed an additional limited sample of R8
procurement actions for the period March through May 2004. The sample consisted of
10 task orders, five of which were new awards and five of which were existing task
orders where R8 had executed modifications during this time period. We found that
while some controls implemented by Central Office FTS were not being employed on
various task orders, R8 has begun to implement some additional controls. The results
of our limited 2004 task order review indicated that some of the same deficiencies
existed for procurement actions during this time period as did in the FY03
procurements.

Regional Controls Implemented. Regional FTS management has implemented
several regional initiatives to improve the procurement process, including internal self-
certified reviews, acquisition plan reviews, additional training, improved internal
communications, and added acquisition personnel.

Acquisition Plans. For new orders included in our FY04 sample, we noted that
acquisition plans were completed in all cases.

Contract Management Review Panel (CMRP). The CMRP has been in place in R8
since November 2003. This panel consists of regional staff, some of which are from
FTS. The CMRP reviews:

•   Any action requested by a R8 project Team Lead,
•   Contracts over $100,000 awarded without a fully completed acquisition plan,
•   Actions requiring approvals outside of FTS,
•   Actions involving cost-type, labor hour, and time-and-materials contracts over
    $100,000 prior to requesting an audit, after receipt of an audit report, or after
    conclusion of discussions prior to making an award, and
•   Terminations for convenience over $100,000 and all terminations for default, and
    interagency agreements.

R8 tracks the CMRP reviews electronically, and the panel presents a monthly summary
to the R8 FTS Assistant Regional Administrator. We reviewed comments made by the
CMRP regarding various task orders. While these orders were not included in our FY04
sample, the comments indicated that this control has been effectively implemented.

Self-Certified Reviews. R8 has a policy in place for each ITM, Team Lead, and CO to
perform reviews and monitor their own work. The ITM should have the knowledge to
identify file discrepancies and take the necessary action to correct these issues. The
Team Lead is responsible for monitoring the performance of their team associates
paying special attention to procurements over $100,000. Contracting Officers are to
review the contract files for agreement before they sign the award. These reviews are
to be documented using a Quality Review Checklist. We determined that this is a
valuable control to ensure file and procurement integrity; however, for the five newly


                                         VIII-16
awarded task orders included in our sample, we did not find any quality review
checklists included in the file documentation.

Acquisition Plan Reviews. For all procurements reviewed by the CMRP, the acquisition
plans are reviewed by the panel and then again by either the Director of IT Solutions or
the Director of Network Services. We reviewed acquisition plan reviews performed by
the CMRP and an FTS Director regarding various task orders, including five orders in
our FY04 sample. The documentation indicated that this control has been effectively
implemented.

Training and Communication. R8 is currently emphasizing additional training and has
two training plans. One addresses attendance in procurement courses such as
acquisition planning and price analysis. The other plan is more general including
classes such as project leadership and risk management. As of August 2004, 66% of
the required procurement courses had been completed or had been scheduled for
completion.

R8 is also in the process of preparing a procurement flowchart to distribute to all FTS
R8 procurement personnel to assist them in the procurement process. This flowchart
lines out the process step by step, from initial client contact to award.

To enhance internal communication, R8 FTS has implemented weekly 30-minute all-
hands meetings. These meetings cover a variety of topics from systems issues to
Central Office FTS memos. In addition, R8 FTS has developed a communication plan
to ensure that associates’ questions and concerns are addressed in a timely and
effective manner. R8 advised that FTS is implementing the plan service-wide.

Appointment of Regional Contracting Official and FTS Acquisition Director. Regional
management is in the process of hiring a regional contracting official to oversee all
procurement activities in R8. Regional management advised that this official will report
directly to the Regional Administrator and have joint supervisory responsibility over
regional contracting staff, along with regional program officials. Regional management
also stated that R8 FTS plans on hiring an Acquisition Director. We believe that these
positions will strengthen the control environment.

Task Order Review. Our review of procurement actions for the period March through
May 2004 indicated that at that time, procurement deficiencies still existed and some
Central Office FTS controls had not been fully implemented. Deficiencies noted
included lack of support for fair and reasonable pricing, non-compliance with
competition requirements, improper task order modifications, unsubstantiated costs,
continued preference for time-and-material orders, and a task dealing with national
security. As for implementation of Central Office controls, in one case, R8 legal
performed a pre-solicitation review rather than a pre-award review of a task. In addition,
R8 omitted or did not complete some acquisition checklists.




                                         VIII-17
Inadequate Competition. Of the five new awards in our FY04 sample, R8 awarded four
without the benefit of competitive bids. The total combined value of these orders is
$11,562,759. Two of the five new awards we reviewed were not in compliance with the
FTS Commissioner’s memo dated March 11, 2003 regarding Section 803 of the
National Defense Authorization Act. Per the memo, for all orders for services over
$100,000 placed under multiple award contracts on or after October 25, 2002, the
contracting officer must receive offers from at least three contractors or determine in
writing that no additional contractors can fulfill the requirements. It is important to note
that while e-Buy satisfies the requirement for fair opportunity, if the contracting officer
does not receive a minimum of three offers, the contracting officer must document in
writing that there are no other contractors that can fulfill the requirement.

Lack of Support for Fair and Reasonable Pricing. For 9 of the 10 FY04 orders we
reviewed, we did not find sufficient evidence that R8 made a determination that pricing
was fair and reasonable. For three of the existing orders, (01RT0203, 03RT0597, and
03RT0616) we determined that the risk that the Government did not receive fair and
reasonable pricing is unacceptably high. R8 management informed us that they plan to
re-compete task orders 01RT0203 and 03RT0597.

Improper Modifications. For two of the five ongoing task orders we reviewed for FY04,
R8 added work beyond the scope of the original task and/or improperly executed
contract options. For one of these task orders, these improper practices resulted in a
270% cost growth.

Unsubstantiated Costs. In two of the ten task orders we reviewed (one new award, one
existing task), we found either improper billings or lack of support for the costs billed. In
one task order, the vendor was charging the client at labor rates higher than those
proposed.

National Security Orders. None of the new orders included highly classified information;
however, one of the existing orders did include included highly classified information.
The ITM for the existing order informed us that she could not completely describe the
work being completed because she was not privy to all of the information and did not
receive the entire proposal.

Frequent Use of Time-and-Material (T&M) Authority. As in the FY03 review, the FY04
review indicated that R8 continues to frequently use time-and-materials type tasks
orders. All five newly awarded task orders services we reviewed were time-and-
material tasks. One of these orders did not have justification for using a T&M type task,
as required by FAR 16.6.

Legal Review for Orders Over $5 Million. Per the FTS Commissioner’s memo dated
October 1, 2003, for all actions that result in the issuance of a task order under an
existing vehicle in excess of $5 million, the procurement package requires a legal
review/approval/concurrence. One new task order in our sample met this criteria.


                                          VIII-18
While we determined that Legal Counsel reviewed the acquisition plan and file
documentation prior to solicitation, R8 did not present the file for legal review prior to
award, as required.

Omitted or Incomplete FTS Acquisition Checklists. Of the five new awards in our
sample, two of the task orders were accompanied by the appropriate checklists, as
required per the FTS Commissioner’s memo dated October 6, 2003. In two cases, an
acquisition checklist was not completed. For one task order, R8 created a checklist;
however, it was the incorrect checklist for that type of procurement. We did not
evaluate the effectiveness of the checklists in preventing procurement deficiencies.

Procurement Management Review (PMR) Program. The FTS Office of Acquisition is
conducting tri-annual reviews to ensure that regulatory guidance is being followed and
that the integrity of the acquisition process is preserved. R8 procurement officials
informed us that the FTS Office of Acquisition performed its first review of the CSC in
late July 2004. The draft report from this review was expected within 60 days.

CSC Management Plan.          FTS issued guidance establishing national standards
governing internal controls for task order acquisition activities including pre-award and
post-award oversight, training requirements, and management controls. As required by
the plan, each CSC is responsible for conducting self-assessments of its operation on a
recurring basis, and Assistant Regional Administrators (ARAs) and Assistant
Commissioners (ACs) are required to review task orders on a sample basis to ensure
that proper controls are in place. Results are included in the annual assurance
statements of the Regional Administrators, ARAs, ACs, and the FTS Commissioner.

Regional FTS management provided us with the region’s management plan and its
current status. We determined that this plan was adequate; however, we provided
management with specific informal feedback on ways to improve the effectiveness of
the plan.

ITS Contract/Project Closeout Guidance. FTS issued guidance establishing contract
and project closeout procedures. Each regional ARA and IT Solutions National
Program Director is responsible for developing and submitting written closeout
procedures for his/her region or business unit(s). The procedures are to encompass
contract, task order, project, and financial closeouts; must require regular reporting of
closeout results to the AC, IT Solutions; and must assign specific responsibilities to
specific FTS associates for ensuring closeouts are conducted in a thorough and timely
manner.

Regional FTS management provided us with proposed closeout procedures for the
region. R8 is currently awaiting Central Office approval of these procedures. We do not
take exception with them as written.




                                         VIII-19
Conclusion

In the FY03 review, we identified improper task order and contract awards involving
millions of dollars that breached procurement laws and regulations and on a number of
occasions were well outside the Information Technology Fund’s legislatively authorized
purposes. Our findings involve numerous instances of misuse of the IT Fund,
inappropriate and questionable contracting actions, and inadequate competition and
documentation supporting that the Government received fair and reasonable pricing.

As a result, R8 did not provide reasonable assurance that client agencies received the
most cost-effective solution and best value, and the fundamental objectives underlying
the federal procurement process were not achieved. The factors contributing to these
circumstances were ineffective management controls and an environment that
emphasized client agency satisfaction and revenue over compliance with proper and
prudent procurement procedures.

In the FY04 review, we identified some instances of improved contracting; however,
many of the issues we found in FY03 remain. We determined that R8 FTS has been
inconsistent in complying with Central Office FTS Controls developed as a result of our
January 2004 report (Audit Report Number A020144/T/5/Z04002) on the FTS Client
Support Centers. However, R8 has implemented some regional controls to improve the
procurement process. The Office of Audits is currently conducting additional testing of
internal controls in the R6 CSC.

As indicated in our January 2004 report on the FTS Client Support Centers, we believe
that steps to remedy the CSC procurement problems require a comprehensive, broad-
based strategy that focuses on the structure, operations, and mission of FTS as well as
the control environment. Based on the comprehensive recommendations contained in
that report, no further overall recommendations are deemed necessary at this time.
However, our work indicates that R8 needs to focus not only on the integrity of new
awards but also existing orders that are high-risk due to improper actions that have
occurred during the life of the task. While in some cases, R8 has identified and begun
to remediate task orders inappropriate to the IT Fund, much work remains to remediate
tasks with other serious deficiencies, such as inadequate support for fair and
reasonable pricing, improper exercising of task order options, etc. The appendices to
this report identify specific actions required for the task orders included in our audit.


Management Response

On November 23, 2004, GSA’s Regional Administrator for the Rocky Mountain Region
(RMR) submitted a response that indicated the Region concurred with the draft audit
report. The response also noted that the RMR is taking the steps necessary to perform
its acquisition role to the highest standards of customer service quality and acquisition
compliance.      For example, the RMR has initiated an aggressive training program for


                                         VIII-20
associates to bring acquisition knowledge and skills to a superior level. RMR FTS also
has instituted a number of other initiatives to improve acquisition quality, including
project management training leading to certification that encompasses training on
contract administration; hiring of additional contracting officers and an acquisition
director; a centralized “Knowledge Portal” on-line tool that provides associates with easy
access to policies and procedures; management controls have been implemented
which require reviews of acquisitions at a variety of levels; and remediation efforts are
underway on a number of tasks.

Management’s response is included in its entirety as Appendix C to this report.

                      Audit Comments on Management Response

We believe that the RMR is sincere about strengthening controls to improve
acquisitions. In general, the RMR’s response conveys acknowledgement that problems
existed and a forward focus toward improvement.

One area in which the RMR partially disagreed with the audit findings was relative to a
FY04 order that was not reviewed by legal counsel prior to award. RMR noted that
legal counsel did review the order pre-solicitation. We emphasize the importance of
legal review prior to award to ensure overall legal sufficiency before the obligation of
funds.

Internal Controls

We assessed the internal controls relevant to the CSC’s procurements to assure that
the procurements were made in accordance with the FAR and the terms and conditions
of the contracts utilized. We identified improper procurement practices including limited
competition, insufficient documentation that the government received fair and
reasonable pricing, improper or questionable contracting practices, poor contract
administration, and questionable use of the IT Fund. We believe that an effective
internal control structure would have identified and prohibited many of the inappropriate
procurement practices we noted.

Additionally, given the magnitude of the problems noted in our review of FY 2003
procurements, the control environment did not provide reasonable assurance that
misapplication of customer agency funds would be prevented. Therefore, we concluded
that for FY 2003, the internal controls were not always effective and did not provide
assurance that Government funds were reasonably protected. Our limited review of
task orders issued from March to May 2004 indicated that improvements were being
made. However, due to the limited nature of our review of 2004 procurements, we
cannot determine whether these improvements are reflected in all FY 2004 contracting
actions.

The Office of Audits will conduct a more comprehensive testing of internal controls
throughout the CSC program during fiscal year 2005.


                                         VIII-21
APPENDICES
                                AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                            CLIENT SUPPORT CENTER, ROCKY MOUNTAIN REGION
                                    REPORT NUMBER A040130/T/6/Z05010

                  Schedule of 2003 Task Orders Reviewed in the Rocky Mountain Region

                                                                                        Contract/BPA    Order Value
 Order Number     Client     Contract Type                 Contractor
                                                                                          Number       (as of 6/30/04)      Notes
   01RT0048     Defense     Answer           Tasc Inc.                               GS09K99BHD0008          $11,428,568      1
   01RT0278     Air Force   Millennia        Litton PRC, Inc.                        GS00T99ALD0206             7,642,102     2
   01RT0542     Air Force   Millennia        Litton PRC, Inc.                        GS00T99ALD0206            23,983,504     3
   01RT0566     Air Force   Millennia        Lockheed Martin Services Inc.           GS00T99ALD0205            12,839,121     4
                                             Lockheed Martin Management & Data
   01RT0677     Air Force   Schedules                                                GS-35F-0400J               6,813,714     5
                                             Systems
   02RT0185     Interior    Millennia Lite   ACS Government Services, Inc.           GS07T00BGD0019             3,438,981     6
                                             Titan Systems Corporation Information
   02RT0355     Air Force   Schedules                                                GS-35F-5396H                111,870      7
                                             Solutions Group
   02RT0437     Air Force   MOBIS            Applied Research Associates, Inc.       GS-10F-0298K                225,630      8
   02RT0724     Air Force   Answer           Computer Sciences Corporation           GS09K99BHD0003            18,429,639     9
   02RT0734     Air Force   Millennia        Lockheed Martin Services Inc.           GS00T99ALD0205            25,625,292    10
                                             Titan Systems Corporation Information
   02RT0776     Navy        Schedules                                                GS-35F-5396H              18,840,310    11
                                             Solutions Group
   02RT0895     Air Force   Millennia Lite   Computer Systems Technology Inc.        GS07T00BGD0022             6,179,327    12
   02RT0904     Air Force   Schedules        Riverside Research Institute            GS-35F-0185J                454,998     13
   02RT0955     USDA        FAST 8(a) IDIQ   Information Systems Support Inc.        GS06K97BND0710              215,536     14
   03RT0005     Air Force   Schedules        Shim Enterprises Inc.                   GS-35F-0005J               8,006,004    15
   03RT0028     Interior    Millennia Lite   SAIC, CST Group                         GS07T00BGD0022            12,421,817    16
   03RT0119     Army        Schedules        Anteon Corporation                      GS-10F-0154K               3,006,810    17
   03RT0135     Air Force   PES              TASC INC.                               GS-23F-0008K               8,831,686    18
   03RT0174     Air Force   Schedules        Dell Computer Corporation               GS-35F-4076D              15,543,629    19
   03RT0368     USDA        FAST 8(a) IDIQ   SI Enterprise Consulting Corporation    GS06K97BND0697              306,201     20
   03RT0570     HHS         Answer           Booz-Allen & Hamilton Inc.              GS09K99BHD0002             1,984,973    21
   03RT0585     Air Force   Schedules        Riverside Research Institute            GS-35F-0185J               4,148,671    22
   03RT0736     Defense     Millennia Lite   Titan Corporation (formerly BTG Inc.)   GS07T00BGD0057          229,217,209     23
   03RT0763     Air Force   MOBIS            Booz-Allen & Hamilton Inc.              GS-23F-9755H                190,476     24
   03RT0772     Air Force   Schedules        CompuCom Federal Systems Inc.           GS-35F-0351K                244,799     25
                                             Science Applications International
   03RT0992     Air Force   Schedules                                                GS-35F-4461G                325,685     26
                                             Corporation
0R00015GSA1     Air Force   PES              TASC Inc.                               GS-23F-0008K              13,718,395    27
                                             Northrop Grumman Information
0R00176GSA1     Air Force   Schedules                                                GS-35F-4340D!              4,365,775    28
                                             Technology Inc., GS
0R00624GSA1     Air Force   Schedules        Dynamics Research Corporation           GS-35F-4775G               6,108,603    29




                                                                A-1
Notes for Schedule of 2003 Task Orders Reviewed

1.        Order 01RT0048 is a task to provide on-site operational support (system maintenance, data
     collection, and report generation) for the Department of Defense (DOD). 01RT0048 is a follow-on
     task order to 0R00438GSA1. The best value determination stated that the DOD determined through
     its own justification, market research, and analysis that the use of TASC Inc.’s ANSWER contract
     vehicle benefits the work effort and is the best value for the project. The file did not include R8’s
     analysis of labor mix, labor effort, or Other Direct Costs (ODCs). The proposed ODCs included
     parking and office supplies, which may not be appropriately billed as direct costs. R8 should review
     ODCs to ensure that they are allowable and do not represent a duplicate cost recovery.

     In addition, R8 did not formally evaluate or exercise option years as required in FAR 17.207, but
     allowed option year costs to be funded. In Modification 4, R8 extended the period of performance
     (POP) to cover the option years included in the statement of work. Since R8 never formally exercised
     option years, yet R8 is still performing actions on the task, R8 should consult with Legal Counsel to
     determine the appropriate remedial actions necessary at this time to render the task legally sufficient.
     There was no documentation in the file to state why R8 extended the POP. Extensions to the POP
     should not be executed without a justification.

     Contractor invoices contained only a lump sum amount for ODCs. Without details as to what ODCs
     are being charged, there is no assurance that the amounts billed are reasonable or proper. Lack of
     FTS oversight in this area places the Government at risk of improper or irregular billings and potential
     cost and time overruns. R8 should evaluate the billings and request additional supporting
     documentation to ensure that ODCs are relevant and reasonably priced in accordance with the
     proposal.

2.        Order 01RT0278, providing software maintenance and operational support to the Air Force’s
     Global Awareness Division, is a Millennia task order competed among all Millennia contractors. Only
     the incumbent vendor, Litton PRC, submitted a proposal. There was inadequate documentation to
     support a price evaluation of labor and ODCs. The ODCs included a copier, phone, pager, and
     network support costs, which are general administrative costs typically reimbursed through fully
     loaded labor rates. Also, there was no evidence that FTS analyzed the ODCs to ensure that
     duplicate cost recovery did not occur. In addition, the total task grew approximately 66% from the
     original proposal amount. The ITM advised that the task cost increased due to the need to increase
     labor to support the original scope, as well as to fund repairs that were necessary due to a tropical
     storm. However, we determined that additions to the level of effort constituted an improper increase
     in scope. Although R8 advised that the added effort was in accordance with the statement of work,
     we concluded that such a substantial increase constitutes an inappropriate addition to scope. R8
     also did not determine the pricing of the additional work to be fair and reasonable. Since these costs
     were not included in the initial evaluation, R8 was responsible to ensure that the costs were
     reasonable. R8 also processed multiple POP extensions without justification.

     In addition, we determined that R8 authorized funding levels above the total approved funding
     amount on multiple occasions during the administration of this task. For example, Modification 7
     represented the last R8 approval of additional funding to bring the task order value to $7,343,915, yet
     R8 approved numerous extensions to costs that reached $7,786,572 by Modification 18. In addition,
     contractor invoices contained only a lump sum amount for ODCs. Without details as to what ODCs
     are being charged, there is no assurance that the amounts billed are reasonable or proper. R8
     completed and closed out this task in April 2003.

3.       Order 01RT0542 is a Millennia cost plus award fee task order to provide IT support to the Air
     Force’s Early Warning Radar (EWR) Service Life Extension Program (SLEP). Litton PRC (Litton)
     submitted the sole proposal. Contract file documentation did not adequately corroborate R8’s
     evaluation of Litton’s proposed labor and ODCs. ODCs proposed under this task were a significant
     portion of the task total; therefore, inadequate evidence of evaluation is of particular concern. Despite
     the file weaknesses, subsequent to our inquiries, R8 was able to produce documentation to


                                                     A-2
     demonstrate that an evaluation process occurred, initiated by the Air Force. Although the evaluation
     process was inadequately documented, we learned that the Air Force conducted a comprehensive
     evaluation and therefore have reasonable assurance that the task order was adequately reviewed.

     We also found an inappropriate addition of work beyond the original scope of work, as well as
     inadequate support for ODCs billed against this task. R8 should take proactive steps to ensure that
     future billings include adequate support for ODCs applied to the project and that those costs are in
     accordance with the proposal.

4.       Order 01RT0566 is a Millennia task for the Air Force to support the Space Based Infrared System
     Mission Controls Station, as well as for maintaining and managing a media library for the department.
     While we do not believe that this task is entirely IT, the majority of the efforts appear appropriate to
     the IT Fund. All Millennia vendors received the solicitation, but only the incumbent vendor, Lockheed
     Martin, responded with a bid. We determined that R8 did not evaluate the level of effort, labor mix, or
     ODCs associated with the task. Because the documentation does not support that R8 made an
     adequate determination that the pricing under this task was fair and reasonable, R8 should not
     continue the task until price reasonableness can be established and documented. On June 25, 2004,
     R8 issued a modification to extend the POP in order to allow time for re-competition of this task.

     The contract file also contained improper contracting actions including improper increases in scope
     with no evaluation of additional costs and failure to formally evaluate or exercise option years funded
     in accordance with FAR 17.207. Since no option years were ever formally evaluated or exercised,
     yet actions are still being performed on this task, R8 should consult with Legal Counsel to determine
     the appropriate remedial actions to take at this time.

     We also noted that billings did not contain adequate support for the ODCs submitted. R8 should take
     proactive steps to ensure that future billings include adequate support for ODCs applied to the project
     and that those costs are in accordance with the proposal.

5.       FTS awarded order 01RT0677 to the sole FSS Schedule bidder, Lockheed Martin, to provide
     Space Based Infrared System (SBIRS) software development and system integration for the Air
     Force. While R8 competed this task, the file documentation indicated that the Air Force “insisted and
     required” that Lockheed Martin maintain program control, and that R8 chose the Schedule contract
     vehicle in order to ensure that the Air Force could continue its relationship with Lockheed Martin.
     Accordingly, there is an appearance that the award to Lockheed Martin was a forgone conclusion,
     which compromises the integrity of the competitive process.

     This task also included improper contracting actions, including addition of work beyond the scope of
     the original task, questionable funds management, and failure to formally exercise options. R8
     improperly added $7.5 million (over 100% of the original contract value) to the task for unrelated
     research and development studies and failed to evaluate the additional costs. R8 also cancelled a
     portion of work approximately three months after Lockheed Martin proposed the costs ($527,366), but
     did not reduce the approved funding amount. By allowing the funds originally approved for the
     canceled activities to supplement other activities, FTS rendered the original proposal estimates
     meaningless. There is no evidence that FTS ever made a determination that additional funds were
     necessary for completion of the remaining tasks.

     We also determined that there was no documentation in the file to support adequate analysis of
     pricing of labor or ODCs. The best value determination in the file cited market research, cost
     comparisons, current pricing data, and professional knowledge as factors in R8’s acceptance of other
     direct costs. However, we learned that R8 did not take any steps to evaluate ODCs, as the
     evaluation components referenced were merely taken from a boilerplate document. ODCs
     represented a material portion of the contract value and included questionable mark-ups typically
     included in overhead that could indicate duplicate cost recovery. Although this task is still open, R8
     advised that they are currently in the process of closing out the order.



                                                    A-3
6.        Order 02RT0185 is a Millennia Lite task for the Department of Interior. This task includes
     activities such as conducting surveys for various threatened and endangered species and monitoring
     the avian community. As discussed in the body of the report, this task is not appropriate for the IT
     Fund. It is also inappropriate to the Millennia Lite contract vehicle. We determined that the vendor
     had to sculpt the biology-related labor into the labor categories in the information technology field. By
     limiting eligible vendors to information technology vendors authorized under Millennia Lite, R8
     eliminated the most qualified contractors from the bidding process. R8 should consult with Legal
     Counsel to determine the appropriateness of the IT Fund and contract vehicle for this task.

     We also identified several pricing issues. R8 authorized an increase to labor rates when a
     modification was signed, but advised that they were not cognizant of the increase. We also noted
     inadequate support for proposed travel costs and ODCs. The vendor applied a mark-up to travel.
     Assuming the mark-up is to cover overhead costs, the mark-up is unallowable per the Millennia Lite
     contract, which states that overhead costs are not allowable on travel and are limited on ODCs.
     Accordingly, R8 should evaluate the mark-up and recover over billings.

     In addition, the statement of work for this project was insufficient. We determined that the
     Department of Interior intentionally wrote an all-encompassing scope of work in order to
     accommodate unanticipated future projects. Statements of work are supposed to be performance-
     based and must reasonably describe the general scope, nature, complexity, and purpose of the
     services or supplies to be acquired. The requirement that orders be within scope is critical since
     protesters can be file grievances on the grounds the order increases the scope, period, or maximum
     value of the contract against which the task order is issued. We also noted a 38% growth in costs
     above the proposed amount, signifying an increase in scope. R8 should consult with Legal Counsel
     to determine the appropriate actions to remediate this task. R8 advised that they are currently in the
     process of remediation for this order.

7.        Order 02RT0355 is an Air Force schedule order for consulting work including strategic planning,
     advisory assistance in the generation of studies, and assessment of operations. We determined that
     the work is inappropriate to the IT Fund. In addition, there was no documentation in the file to support
     adequate analysis of pricing. R8’s evaluation of labor consisted of comparisons of labor category
     rates through GSA Advantage!, which is not adequate. Also, R8 did not evaluate labor mix or labor
     effort. The proposal documentation adequately supported a need for travel; however, R8 approved a
     modification to allow the vendor to switch the allotted travel funds over to labor. By allowing the
     reallocation, R8 allowed the vendor to augment their originally proposal labor costs. This order has
     been closed out as of June 2004.

8.       Order 02RT0437 is for the Air Force Space Command’s Reusable Launch Vehicle concept,
     analyzing the lethality of weapons. This effort is inappropriate to the IT Fund. R8 has taken
     corrective action and re-competed this effort through the General Supply Fund. R8 also approved
     payment for lump sum billings that did not include documentation of the labor effort, labor mix, or
     ODCs billed. Since this order has been completed, we did not recommend corrective actions for the
     issues identified.

9.        Order 02RT0724 is an Answer task for the Air Force Space Command Network Operations
     Flight’s systems. All Answer vendors received the solicitation, but only the incumbent vendor
     submitted a proposal. We determined that there was inadequate documentation in the file to support
     adequate analysis of pricing. Although the client prepared an independent cost estimate, it was only
     for the base year. Therefore, the option years that followed were not included in the price analysis at
     the time of award. R8’s evaluation of labor rates consisted of a spot check of contract rates against
     GSA Advantage!, which FSS’ ordering procedures for services do not prescribe because (1) unlike
     commodities, it is very difficult to establish that the rates are comparable, and (2) there are two
     components to price for services – rates and hours. R8 also approved ODCs without adequate
     determination of fair and reasonable pricing. The risk to the government associated with this task is
     high not only because R8 has not establish price reasonableness for the option years, but also
     because R8 only received one bid and the task has growth potential in excess of $74 million. R8


                                                     A-4
      should evaluate current pricing and consult with Legal Counsel to determine whether this task should
      be re-competed due to the absence of an adequate pricing evaluation.

      R8 has also failed to formally evaluate or exercise option years funded in accordance with FAR
      17.207. Since no option years were ever formally evaluated or exercised, yet actions are still being
      performed on this task, R8 should consult with Legal Counsel to determine the appropriate actions to
      take at this time to ensure legal sufficiency.

10.       Order 02RT0734 is a Millennia task for the Air Force’s SBIRS System Support Manager Division,
      providing services such as maintenance control, mission studies and analysis, and software
      modifications. FTS solicited the Millennia vendors for this task, but only the incumbent, Lockheed
      Martin, responded with a proposal. As discussed in the body of the report, this task represents
      inappropriate pass-through of work, resulting in additional mark-ups.

      There was no documentation in the file to support an evaluation of labor rates, level of effort, or labor
      mix. We also determined that three labor categories associated with this task are not included in
      Lockheed’s Millennia contract. The fact that R8 approved three labor categories in the proposal that
      are not in the base contract illustrates how using a specific contract vehicle does not preclude the
      vendor from adding additional labor categories into the labor mix. Further, there is no documentation
      in the file to support that these additional labor category rates were determined to be fair and
      reasonable. R8 also failed to adequately document an evaluation of ODCs, which totaled $8.5 million
      (34% of the total value). Further, R8 and the client could not provide support for ODC billings; we had
      to contact the vendor to determine what was purchased. The fact that neither R8 nor the client could
      produce a listing of the ODCs billed for the task shows that there is poor contract administration
      associated with this task. We concluded that without R8 knowing what is being purchased and billed,
      it is not possible to have determined price reasonableness of these items.

      R8 also failed to formally evaluate or exercise option years funded in accordance with FAR 17.207.
      Due to the extent of problems with this task R8 should consider re-competing the task. R8 advised
      that they are re-competing this order.

11.       Order 02RT0776 is a Schedule order to provide support services to the Navy for planning,
      engineering, implementing, operating, and maintaining select computer networks and
      telecommunication requirements. In addition to the inappropriate 122% cost growth described in the
      body of this report, R8 approved ODCs of $50,000 at the time of award, but later approved invoices in
      excess of $600,000 for ODCs. There was no documentation to support a determination of price
      reasonableness for the additional ODCs. The importance of the price reasonableness determination
      is emphasized because of the unexplained growth in ODCs. R8 should review this task to assess the
      cost growth and discrepancy in ODC costs proposed versus charged.

      R8 also approved billings for labor rates above the proposed rates. R8 should review all billings to
      date under this task to determine if over billings have occurred, and if so, take action to collect the
      over billings from the contractor.

12.         Order 02RT0895 is a Millennia Lite task to provide logistical support and technical management
      for the sustainment of the Air Force’s F-16s. For this order, we determined that R8 increased the
      scope of the order without ensuring fair and reasonable pricing or justifying the change. R8 also
      augmented client agency funding by paying the vendor for more than the allowable funding limit. R8
      should consult with Legal Counsel to determine appropriate actions that may be necessary to
      remediate this situation. We also found discrepancies between contractor timesheets and invoice
      billings, which gave the appearance that the vendor was over billing for labor costs. We recommend
      that R8 review all billings to date under this task to determine if over billings have occurred, and if so,
      take action to recover the over billings from the contractor. R8 also approved lump sum ODC billings
      with no supporting documentation. R8 should take proactive steps to ensure that future billings
      include adequate support for ODCs applied to the project and that those costs are in accordance with
      the proposal. R8 advised that they are currently in the process of remediation for this order.


                                                       A-5
13.        Order 02RT0904 is a Schedule task to provide support, including technical and programmatic
      assistance to the Air Force Institute of Technology. R8 awarded the effort to Riverside Research
      Institute on a sole source basis. We determined that the sole source justification was invalid as the
      best value evaluation stated that this task was directly related to task order 02RT0375, therefore, only
      Riverside Research was solicited. This is not a proper basis for a sole-source action.

      The task order file did not include any documentation supporting an analysis of the proposed labor
      mix or level of effort, as required by FSS Ordering Procedures. There was also no support of a price
      analysis of the ODCs proposed for this task, which represented 54% of the total proposed costs.
      Before proceeding with this task, R8 must be able to establish that the price is fair and reasonable or
      make plans to re-compete the effort. R8 also approved lump sum ODC billings with no supporting
      documentation, and accepted invoices for labor categories not included in the original proposal. R8
      should review all billings to date under this task to determine the appropriateness of the ODCs and
      the additional labor categories billed.

14.        Order 02RT0955 is an 8(a) award for consulting services for the Department of Agriculture. We
      discussed issues of misuse of the 8(a) authority, improper exercise of option year, and conflict of
      interest regarding this order in the body of the report. We also determined that use of the IT Fund
      was inappropriate, fair and reasonable pricing was not documented in the file, and ODCs not
      proposed were included in the contractor’s billings. In addition, FTS has continued to fund this task
      beyond the POP (no option years were proposed); accordingly, the contracting officer should consult
      with Legal Counsel to determine the appropriate actions to take at this time to ensure legal
      sufficiency. R8 should further consult with Legal Counsel regarding the propriety of continuing this
      task through the IT Fund, as well as the appropriateness of the subcontracting situation. R8 should
      also review all billings to date under this task to determine whether the ODCs are in accordance with
      the proposal.

15.       Order 03RT0005 is a Schedule award to provide IT services to produce CROSSTALK, the
      Journal for Defense Software Engineering for the Air Force. R8 solicited 5 contractors; only one
      responded. Because the award date was prior to October 25, 2002, there is no Section 803 violation;
      however, R8 did not perform an adequate evaluation of price reasonableness (no evaluation of labor
      effort or labor mix). Also, R8 did not comply with FSS Ordering Procedures in that R8 did not request
      additional discounts even though the order was above the Maximum Order Threshold (MOT) for the
      Schedule contract.

      In addition, the sample of invoices we reviewed revealed that all of the billed labor rates were higher
      than the vendor’s established schedule rates. This resulted in over billings in excess of $93,000 for
      the month of December 2003 alone. In addition, there was very little detail to support the invoiced
      ODCs and R8 did not have access to additional support to substantiate the costs. R8 should review
      all billings to date under this task to determine whether the proposed labor rates are in accordance
      with the base contract, whether the ODCs are in accordance with the proposal, and initiate action to
      recover over billings.

      Other improprieties we noted: R8 allowed six revisions to the SOW, adding or changing labor
      categories or subcontract work, and increased funds for labor, travel, and material. Changes to the
      SOW can leave FTS vulnerable to protests if the actual scope of work is materially different from the
      original scope of work that FTS solicited.

16.       Order 03RT0028 is a Millennia Lite task for the Department of Interior for remote sensing support.
      R8 improperly added work to the task that more than doubled the value of the original proposal. R8
      did not ensure that the scope of work was clearly defined in the statement of work, and there was no
      discernable indication that anyone considered the actual amount of effort the job required. FTS
      should evaluate the task and consider termination and re-competition with a restructured statement of
      work that clearly defines the work to be performed.



                                                     A-6
17.       Order 03RT0119 is a Schedule task for the Army to monitor and maintain training land. As
      discussed in the body of this report, this task was not appropriate to the IT Fund, included
      unsubstantiated costs for items not included in the proposal, and included unqualified vendors in the
      bidding process. In addition, there was no documentation supporting an analysis of the labor mix or
      level of effort or ODCs. We determined that R8 approved more than two times the proposed ODCs
      with no evaluation of the pricing or need for such costs. This task has increased in cost 45% since
      the original award. Due to the extent of issues with this task, we recommend that R8 consult with
      Legal Counsel to discuss termination of this task and evaluate all billings to rectify any over billings
      that occurred. R8 management has advised that they identified problems with this order prior to our
      review. Legal Counsel recommended termination or remediation in February 2004, and R8 advised
      that they are currently remediating the order. However, as of the date of the report, R8 had not
      provided any documentation to support that remediation efforts are in progress.

18.       Order 03RT0135 is a professional services task awarded to TASC, Inc. (TASC) to support the
      SBIRS program by maintaining the reliability and performance of fielded SBIRS weapon system
      components for the Air Force. As stated in the body of the report, this task is inappropriate to the IT
      Fund, and R8 improperly awarded ODCs without evaluating the costs for price reasonableness. We
      determined that the statement of work was too broad, allowing the contractor to support nearly all, if
      not all, of the Air Force’s needs, which inappropriately limits competition. We recommend that R8
      consult with Legal Counsel regarding the vast array of subtasks included in this order and the
      subsequent order, 04RT0378, to determine if the handling of this work is perpetuating a non-
      competitive environment.

      R8 also failed to formally exercise the option as required by FAR 17.207, although it allowed option
      year costs to be funded. Accordingly, the contracting officer should consult with Legal Counsel to
      determine the appropriate actions to take at this time to ensure the legal sufficiency of this task.

          We also determined that the vendor has billed for non-IT work under the premise of IT. For
          example, two invoices indicate that a Junior Technical Management IV employee actually
          represents amounts for labor to paint vehicles. R8 should evaluate the activities performed under
          this task and ensure that the vendor is supplying labor that it is appropriate to the base contract.

19.        Order 03RT0174 is a Schedule task to replace old and outdated computers for the Air Force.
      The competition appeared adequate, but we determined that the actual purchases were not in
      accordance with the original quote; accordingly, we could not determine if the invoices were in
      accordance with established rates. Since R8 is procuring items that were not priced based on the
      solicitation or proposal, this is an improper procurement and should be referred to Legal Counsel to
      determine an appropriate course of action.

      We determined that R8 improperly awarded this task as a time-and-materials task when it should
      have been a commodity buy. The use of a time-and-material vehicle requires that labor be billed at
      an hourly rate in addition to any materials; however, this order was for materials only. R8 should also
      consult with Legal Counsel on this issue to determine appropriate action.

20.        Order 03RT0368 is an 8(a) task to perform a requirements analysis for a new automated
      veterinary services information system for the USDA. The file did not contain documentation to show
      that R8 adequately analyzed the proposed pricing for the task. In addition, R8 approved additional
      work outside the scope of this task three times without establishing price reasonableness. These
      additions resulted in a 600% increase in the value of the task. The dollar value increase alone
      renders these contracting actions outside the scope. R8 also allowed five POP extensions without
      justification. POP extensions should be the exception and should always be accompanied by an
      appropriate justification. R8 advised that they are currently in the process of remediation for this
      order.




                                                     A-7
21.       Order 03RT0570 is an ANSWER task for the Department of Health and Human Services. We
      determined that the work was administrative in nature, and not appropriate to the IT Fund. R8 should
      evaluate this order for transfer to the General Supply Fund.

      We also questioned R8’s allowance for the contractor to clarify their bid after all bids were submitted
      without providing the same opportunity to the other vendors. Legal Counsel has asked that this task
      order be referred for appropriate disposition.

      We also identified contractor billings that included labor rates that were not in accordance with the
      proposed rates. R8 should evaluate the billings and recover any over billings that may have
      occurred.

22.       Order 03RT0585 is a Schedule task to provide advisory and assistance support to the Air Force
      Research Laboratory. R8 processed this task as a follow-on to 02RT0375. R8 competed the
      previous task; however, only received one offer. The price analysis for labor was inadequate in that it
      did not include an evaluation of level of effort and labor mix. In addition, this order also exceeded the
      MOT for the Schedule contract, but there was no evidence that R8 requested additional price
      concessions from the contractor, also required per FSS Ordering Procedures. Before continuing this
      task, R8 needs to establish price reasonableness.

      In regard to ODCs, the contractor proposed a general and administrative fee to be applied to travel
      and ODCs. Schedules do not allow for this markup on travel, and it is the contracting officer’s
      responsibility to ensure that no duplicate cost recovery has occurred. R8 should evaluate the
      markups and take action to recover unallowable costs.

      We also determined that this task is better suited to the General Supply Fund as professional
      services. During our review, R8 advised that they planned to re-compete this order as a professional
      services task in April 2004. However, we determined that R8 instead granted an extension to the
      POP, keeping the task in the IT Fund until August 31, 2004. R8 should review this task for
      termination or transfer to the General Supply Fund.

      Further, R8 has approved modifications to increase efforts beyond the scope of the original task. As
      stated earlier, this order is a continuation of 02RT0375 incorporated due to system migration issues.
      02RT0375 included four revisions to the statement of work to add or change labor and increase the
      ceiling price of the task. 03RT0585 included an additional five modifications to allow revisions to the
      statement of work for similar reasons, increasing the total number of statement of work changes to
      seven. The size of the task has more than doubled since the time of award, and R8 approved an
      increase in the ceiling price that will increase the effort by 630%. Due to the extent of problems with
      this task, R8 should consult with Legal Counsel and consider termination.

      We also noted unexplained POP extensions and approval of billings for labor categories not included
      in the proposal. R8 should evaluate the billings and take action to recover any over billings that have
      occurred. R8 advised that they are currently in the process of remediation for this order.

23.       Order 03RT0736 is a Millennia Lite task for the Department of Defense Education Activity
      (DoDEA) for Quality of Life to provide employee assistance services to the military. As discussed in
      the body of the report, we determined that this task is inappropriate to the IT Fund, represents a
      “pass-through” procurement to an employee assistance firm, and was procured through an
      inappropriate contract vehicle that effectively resulted in exclusion of qualified vendors from
      participation in the bidding process. As a result of our review, R8 has reviewed the task and awarded
      a six-month extension to Titan and its subcontractor, Ceridian. R8 awarded two separate six-month
      bridge contracts through the General Supply Fund to Titan (through its MOBIS Schedule contract for
      project management services) and Ceridian (through its human resources Schedule contract for
      employee assistance services). We learned that R8 intends to use the interim six-month period to
      conduct market research and prepare for re-competing the effort.



                                                      A-8
       We obtained further information suggesting that DoDEA intended for this task to be awarded to Titan
       (formerly BTG, Inc.), which further pointed to inadequate competition. After R8 received the initial
       bids for the task, Titan’s quote was more than $272 million greater than the second highest bid.
       However, in apparent disregard for the huge price differential, DoDEA submitted a recommendation
       to R8 to award this task to Titan. R8 subsequently made multiple adjustments to the statement of
       work and allowed the vendors to resubmit bids. The unsuccessful bidders claimed that the final
       statement of work significantly changed the requirement through the addition of 144,000 face-to-face
       counseling sessions. After this change, Titan’s price dropped significantly while the other bidders’
       prices significantly increased, leaving Titan bid approximately $200 million less than the second
       lowest bid. At the very least, it is evident that the bidders did not have the same understanding of the
       requirement. Based on our review, R8’s Justification for Award did not adequately address the price
       realism61 of the offers, and, therefore, does not adequately substantiate that the award represents the
       best value for the Government.

24.        Order 03RT0763 is a MOBIS task providing technical consulting services including review of
       conservation and natural resource programs, evaluation of strategic plans, and review of action plans
       pertaining to project management for the Air Force. This order was funded through the General
       Supply Fund, which is appropriate for the technical consulting services provided. The file stated that
       R8 competed the work to 16 contractors through e-Buy, but did not contain adequate documentation
       to substantiate the e-Buy transmittal. Only one contractor submitted an offer.

       We also noted that the file contained insufficient technical or price evaluation support for the
       statements made in the best value determination. In regard to evaluation of level of effort and labor
       mix, R8 advised that they worked with the client to make an evaluation. However, documentation
       was not sufficient to substantiate this. Although ODCs were minimal, there was also no evidence that
       the contracting officer established that the ODCs were fair and reasonable. R8 advised that this
       order is complete and is in the process of being closed out.

25.        Order 03RT0772 is a Schedule order to provide IT support to the Military Satellite
       Communications (MILSATCOM) Advanced Extremely High Frequency (AEHF) Program for the Air
       Force. We determined that the contractor is billing for one employee at a higher rate than proposed.
       Although ODCs were minimal, there was also no evidence that the contracting officer established that
       the ODCs were fair and reasonable. R8 should review the billings and initiate appropriate actions to
       recover any over billings.

26.        Order 03RT0992 is a Schedule order to provide legal research services to the Air Force. We
       determined that this task is not appropriate to the IT Fund. Although we had discussions with R8
       personnel regarding the applicability of various components of this task to the IT Fund, we
       determined that the primary intent of this task is to provide legal research services, not IT services.
       We recommend that R8 consult with Legal Counsel to transition this task out of the IT Fund.

       We also determined that R8 allowed the vendor to bill for two labor categories not proposed. The
       billings for the two categories constituted 47% of the total billings for labor at the time of our review.
       R8 also approved a markup on travel costs, which is not allowable on schedule orders. R8 should
       evaluate all billings to determine the extent of over billings and initiate action to recover funds.

27.         Order 0R00015GSA1 is a professional services task awarded to TASC, Inc. (TASC) to support
       the SBIRS program by maintaining the reliability and performance of fielded SBIRS weapon system
       components for the Air Force. As stated in the body of the report, this task is inappropriate to the IT
       Fund, appeared to be a directed procurement, and improperly awarded ODCs in excess of $10
       million that were not evaluated. We determined that the statement of work was too broad, allowing


61
     Realism of proposed pricing relates to whether prices are compatible with the proposal scope and effect (e.g., proposed prices
     are related to program scope being neither excessive nor insufficient for the effort accomplishment). Proposals lacking price
     realism may indicate, among other things: a lack of understanding of the requirements of the solicitation and the cost implications
     thereof, or use of inappropriate amounts of labor and materials, which unrealistically understate proposed price.


                                                                  A-9
      the contractor to support nearly all, if not all, of the Air Force’s SBIRS program needs, which
      inappropriately limits competition. R8 also failed to exercise the option, although it allowed option
      year costs to be funded.

      We also determined that the vendor was billing for non-IT work under the premise of IT. For
      example, in TASC’s base proposal, a subcontractor included in the proposal submitted their
      subcontractor bid with a disclaimer that advised that they remapped their labor to GSA schedule
      categories, and that their personnel did not necessarily meet the minimum requirements of the GSA
      Schedule. We also noted that a lot of the materials require installation, and it appears that the
      majority of the labor charges billed against this task are for performing vehicle maintenance and
      refurbishment. Since this order is closed, we did not recommend corrective action. However, we
      recommend that R8 consult with Legal Counsel regarding the vast array of subtasks included in the
      follow-on efforts to this project (03RT0135 and 04RT0378). By allowing this large scope task to
      continue for an extended period of time, R8 is fostering a non-competitive environment.

28.        Order 0R00176GSA1 is a Schedule task to provide software support for the Air Force. We
      determined that R8 inappropriately restricted competition for this procurement by soliciting only one
      vendor for the award without adequate justification. FSS Ordering guidelines require the ordering
      office to send the requirement to at least three Schedule holders if the proposed order is estimated to
      exceed the micro-purchase threshold and to an appropriate number of additional contractors when
      the order exceeds the MOT, (0R00176GSA1 exceeds the MOT). Further, there is neither a cost
      evaluation, nor a technical evaluation of the proposal in the file. R8 did not evaluate labor or ODCs to
      ensure that prices were fair and reasonable, which is of particular concern in the absence of
      competitive bids. ODCs were a portion of the total proposed costs and included a general and
      administrative fee. We also noted inadequate supporting documentation for ODCs included in the
      contractor’s billings.

      We also determined that R8 allowed this task to lapse twice between POP extensions. After the
      initial POP ended on 3/31/01, R8 allowed the task to continue without a formal POP extension until
      10/3/01. The second POP ended 1/31/02, yet R8 didn’t close the project until 12/3/02, allowing the
      task to continue 10 months longer than formally approved. This exemplifies poor task management
      and could result in harm to the Government in terms of contractor efficiency and/or increased costs to
      the task. In addition, there were no option years proposed on this task, so the task should have been
      re-competed when the initial POP expired.

29.       Order 0R00624GSA is a Schedule task to provide technical support to the Landing Gear Repair
      Center users for the Air Force. In addition to the improper modifications to the scope that resulted in
      an 1,100% increase in cost, as discussed in the body of this report, the file contained no cost or a
      technical evaluation to support fair and reasonable pricing of labor or ODCs. This is of particular
      concern because this was a sole source award with no justification. Further, this order exceeded the
      MOT for the Schedule contract, but there was no evidence that R8 requested additional price
      concessions, as required by FSS Ordering Procedures.

      We also identified labor rate billings above the contract rates, and questionable general and
      administrative markups on ODCs. R8 should review the billings and take action to evaluate all
      charges and take action to recover any overcharges.




                                                    A-10
                          AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                      CLIENT SUPPORT CENTER, ROCKY MOUNTAIN REGION
                              REPORT NUMBER A040130/T/6/Z05010

               Schedule of 2004Task Orders Reviewed in the Rocky Mountain Region

  Order                                                                Contract/    Task Order
               Client     Contract Type        Contractor
 Number                                                              BPA Number        Value       Notes
04RT0364       USDA       Schedule 70  Hewlett-Packard             GS-35F-4663G       $1,534,183     1
                                       Advanced Information
04RT0365      Air Force   Schedule 70  Engineering Services, GS-35F-0731J               831,519     2
                                       Inc.
04RT0392       USDA       FAST 8A IDIQ SI International      GS06K97BND0697            1,599,798    3
                                       Riverside Research
04RT0408      Air Force   Schedule 70                        GS-35F-0185J              6,458,447    4
                                       Institute
           Pueblo Chemical
04RT0495                   MOBIS          Tetra Tech EM Inc.       GS-10F-0016K        2,738,610    5
               Depot
01RT0048      Defense      Answer         TASC, Inc.               GS09K99BHD0008     11,410,742    6
01RT0203      Air Force    Answer         TASC, Inc.               GS09K99BHD0008     10,869,606    7
                                          Computer Sciences
01RT0691      Air Force   Answer                                   GS09K99BHD0003      5,964,960    8
                                          Corporation
03RT0597      Air Force   Schedule 70     Analytic Designs, Inc.   GS-35F-0091K        5,590,801     9
03RT0616      Air Force   Millennia       Lockheed Martin          GS00T99ALD0205     28,166,910    10




                                                   B-1
Notes for Schedule of 2004 Task Orders Reviewed

New Awards

1.       Order 04RT0364, awarded March 24, 2004, is a time-and-materials (T&M) task order to provide
     Exchange support services for the USDA. FTS solicited eight vendors for this task; however, only
     one vendor submitted a proposal. While there is a justification in the file for using a T&M type task,
     there is no ceiling amount on the purchase order, as required by FAR 16.601. Also, contrary to the
     FTS Commissioner’s October 6, 2003 letter, the wrong acquisition checklist was prepared.

2.         Order 04RT0365, awarded March 10, 2004, is a T&M task order to provide planning,
     development, and upgrades to the Global Positioning System Interference and Navigation Tool for
     the Air Force. FTS solicited twelve vendors for this task; however, only one vendor responded with a
     bid. Therefore, this procurement is in noncompliance with Section 803 of the National Defense
     Authorization Act of 2002, which requires the contracting officer to obtain three bids or document the
     file that no other contractors can fulfill the requirements. In addition, there is no documentation of an
     evaluation of the level of effort and labor mix proposed on this task. There is inadequate
     documentation to support statements made in the determination of best value/price analysis. In
     addition, there is a G&A fee charged on all ODCs and travel. On Schedule procurements, G&A fees
     are not allowed on travel costs.

     This $831,500 task order exceeds the maximum order threshold (MOT) for the Schedule contract.
     Schedules’ MOT amounts are the dollar threshold at which the ordering agency should expect and
     request additional discounts from schedule contract pricing. The file contained no evidence that the
     ITM or CO requested additional price concessions from the contractor, as required by FAR 8.405-2.
     In addition, the appropriate acquisition checklist required by the FTS Commissioner’s October 6, 2003
     letter is not in the file.

     Before processing additional actions on this task, R8 needs to remediate the deficiencies described
     above. R8 advised that they are currently in the process of remediation for this order.

3.       Order 04RT0392, awarded March 4, 2004, is a follow-on effort to task orders 03RT0368 and
     04RT0223 to provide the remaining eight modules for the development of an animal/animal product
     tracking database. There is no evidence of an evaluation of the level of effort and labor mix on this
     task, and we determined that the IGE is inadequate to support that pricing is fair and reasonable.

     Review of the April 16, 2004 invoice for this task indicated that the contractor is billing one labor
     category at a higher rate than proposed. FTS should review billings to ensure accuracy and take
     action to recover over billings.

     While there is a justification in the file for using a T&M type task, there is no ceiling amount on the
     purchase order, as required by FAR 16.601.

4.        Order 04RT0408, awarded April 16, 2004, is a T&M task to provide anti-tampering and software
     protection for the Air Force. FTS solicited eighteen vendors using e-Buy and IT Solutions; however,
     FTS received only one offer. Per the best value determination, FTS selected the contractor Riverside
     Research Institute (RRI)) because: 1) RRI had past experience with the government that was very
     satisfactory, 2) RRI was able to meet exact specifications, and 3) RRI resulted in the lowest overall
     cost alternative to meet the government’s needs. However, there is no documentation in the file to
     support these statements. The price reasonableness determination on this order for labor and ODCs
     is inadequate. There was no level of effort or labor mix evaluation performed and the labor rate
     analysis is insufficient. Further, there is a G&A fee charged on all ODCs and travel. On Schedule
     procurements, G&A fees are not allowed on travel costs.

     Per the Commissioner’s October 1, 2003 memo, all actions that will result in the issuance of a task
     order under an existing vehicle in excess of $5,000,000 require a legal review. This procurement is


                                                     B-2
     estimated to be over $6,000,000. While Legal Counsel review the acquisition plan and file
     documentation prior to solicitation, R8 did not present the file for Legal review prior to award, as
     required.

5.        Order 04RT0495, awarded May 17, 2004, is a MOBIS T&M task for the Pueblo Chemical Depot
     for treaty compliance under the Base Realignment and Closure Program. FTS sole sourced this
     procurement to Tetra Tech EM, Inc. The client prepared a sole source justification and selected the
     vendor for the project.

     Region 8 did not perform a cost or technical evaluation for this task. In addition, there is no
     documentation of a price analysis or evaluation of the level of effort and labor mix proposed.

     Also, the file does not contain a determination and findings for using a T&M type task, and there is no
     ceiling amount on the purchase order, as required by FAR 16.601. Further, no acquisition checklist
     existed for the project, as required by the FTS Commissioner’s October 6, 2003 letter.


Existing Task Orders with Contracting Actions Between March and May 2004

6.       Order 01RT0048, awarded October 10, 2000, is a T&M task order to provide system
     maintenance and conversion, data collection and correction, report generation and documentation to
     the Office of the Under Secretary for Defense related to the Comptroller Information System. This
     task order was also included in our FY 2003 review. As noted in Appendix A of this report, we
     identified numerous deficiencies over the life of this order, including inadequate support for fair and
     reasonable pricing and use of a T&M type task without proper justification. We selected the order for
     the FY 2004 review because it met critical risk factors, including large dollar value and a significant
     number of modifications. We focused our review on the modifications awarded since the time of the
     prior audit.

     During the March through May 2004 time period, FTS executed two modifications, (Modifications 24
     and 25) signed on April 8, 2004 and April 19, 2004, respectively. Modification 24 added $1.8 million
     to the task with no evidence that R8 determined the additional costs to be fair and reasonable.
     Modification 25 added a labor category with no evidence that R8 evaluated that the additional effort
     was within the scope of the task.

     Due to existing deficiencies with this order, R8 should have recognized the need for remediation
     before processing additional contracting actions. In doing so, R8 compounded the problem with
     additional improper actions that will require remediation. R8 advised that they are currently in the
     process of remediation for this order.

7.        Order 01RT0203, awarded December 29, 2000, is a T&M task to provide development of the
     Virtual Production segment of the Knowledge Prepositioning System for the Air Force. During the
     March through May 2004 time period, R8 processed one contracting action (Modification 21), which
     added additional labor to the task. There have been significant deficiencies over the life of this task
     which R8 should have recognized and addressed before processing Modification 21. These
     deficiencies include inadequate support for fair and reasonable pricing at the time of award, improper
     funding of option years without the required evaluation and documentation required by FAR 17.207,
     and lack of documentation supporting the use of a T&M task (FAR 16.601). During our review, FTS
     R8 management stated that they are currently working with the client to re-compete this order with an
     anticipated award date of November 2004.

8.       Order 01RT0691, awarded June 27, 2001, is a T&M task for Enterprise Information System
     support for Air Force. During the March through May 2004 time period, FTS increased incremental
     funding for the task option periods.




                                                    B-3
      Because of significant deficiencies over the life of this task, including inadequate support for fair and
      reasonable pricing and inappropriate processing of performance period extensions, R8 should not
      have continued to execute contracting actions. During the review, FTS R8 management stated that
      this order has received legal review and is currently under remediation.

9.         Order 03RT0597, awarded February 1, 2003, is a firm, fixed-price task to provide software
      protection management for the Air Force. During the March through May 2004 time period, R8
      processed one modification to increase incremental funding for this project. Because of significant
      deficiencies over the life of this task, R8 should have engaged in remediation efforts before
      processing further contracting actions. The deficiencies include (1) lack of evidence to support that
      R8 made a determination that the total price was fair and reasonable, (2) addition of work beyond the
      original scope of work resulting in a significant cost growth (270%), and (3) improper funding of option
      periods. Further, because the procurement is highly classified, R8 has not had access to adequate
      information needed to properly administer this task. For example, our review of the May 2004 invoice
      indicated that labor made up only 4% of the invoiced amount for this month. Another line item on the
      invoice identified as “infrastructure” costs accounted for 55% of the monthly invoiced amount. The
      ITM was unaware of the costs being billed or the support provided for them. This situation indicates a
      lack of oversight, which places the government at risk for improper or irregular billings. Without the
      ability to obtain breakdowns of the invoiced costs, FTS is unable to ensure that the billings are related
      to the scope of work and that the prices are fair and reasonable.

      FTS R8 management stated that they plan to re-compete this order. However, we do not believe that
      FTS can continue to support the project unless FTS is afforded enough information to allow for proper
      administration. R8 advised that they are re-competing this task and no option years or additional
      funds will be added to this task.

10.       Order 03RT0616, awarded April 7, 2003, is a continuation of task order 01RT0289 for software
      upgrade and maintenance for the Defense Support Program. During the March through May 2004
      time period, R8 processed 4 modifications related to the contractor’s award fee, as well as to
      incrementally fund the project.

      Because of significant deficiencies we noted over the life of the task, R8 should have initiated
      remediation efforts before processing additional actions on this task. The deficiencies included
      insufficient documentation to support that the pricing was fair and reasonable, which is of particular
      concern for a $28 million order, and lack of documentation supporting the use of a T&M task. R8
      must determine whether it can establish price reasonableness before moving forward with the task; if
      not, R8 must re-compete this task. R8 advised that they are currently in the process of remediation
      for this order and will re-compete this effort.




                                                      B-4
MEMORANDUM FOR           ARTHUR L. ELKIN
                         REGIONAL INSPECTOR GENERAL FOR AUDITING (JA-6)

FROM:                    LARRYTRUJILLO, SR REGIONAL
                         ADMINISTRATOR (8A)
SUBJECT:
                         Audit of Federal Technology Service's Client Support Center,
                         Rocky Mountain Region Report Number A040130




Thank you for the opportunity to respond to the audit report entitled "Audit of Federal Technology Service's
Client Support Center, Rocky Mountain Region." We take our acquisition role within GSA seriously, and RMR
is taking the steps necessary to perform that role to the highest standards of customer service quality and
acquisition compliance. Furthermore, we are undertaking improvements in our acquisition performance in full
support of the "Get it Right" program.

We appreciate the spirit of cooperation and professionalism exhibited by the IG Team.


Sincerely,




Larry E. Trujillo
Regional Administrator
Rocky Mountain Region




                                                   C-1
                                          Rocky Mountain Region
                                        Federal Technology Service

                      Management Response to Proposed Audit Report A040130

I. BACKGROUND

RMR FTS believes that it is crucial to acknowledge that it is not just FTS, but all of Government has
experienced an evolution of significant change over the last few years. This change encompasses the
acquisition environment for all of Government, and for FTS in particular, and RMR FTS culture. As noted
below, RMR FTS is taking positive steps to ensure the provision of quality service to our clients, and in a
compliant manner in support of the "Get it Right" program.

        Acquisition Environment

        In FTS' acquisition evolution, we have gone from creating acquisition vehicles at the CSC level to
        employing established contracts to service our customers through task orders. In the transition to
        established contract vehicles (i.e. FSS Schedules and Government Wide Acquisition Contracts), the
        "rules" associated with their use have often been vague and changing.... especially with schedules.
        Schedules themselves evolved from that of providing products only, to the inclusion of services. There
        was a lag time in incorporating procedures for using schedules into the FAR and lack of consistent
        guidance and information available on their use. This has manifested itself in many of the acquisition
        issues and irregularities noted in this report. RMR FTS fully understands the need to address these
        problems, and embraces it in the spirit of the "Get it Right" program.


         Culture

         The evolution of the RMR FTS CSC, like all the CSCs throughout FTS, has also involved substantial
         growth in its client base. As with any organization, growth is imperative. Without it, FTS could not meet
         its charter to assist our Agency Clients in the performance of their mission and service to the taxpayers.
         However, substantial growth has its problems. One problem created by substantial and rapid growth
         is the shortages and voids in talent and skills. RMR FTS understands and acknowledges that it had a
         culture of high customer service and a strong emphasis on increasing and expanding its client base. We
         believe that we must continue to have a culture of customer service while "getting it right" in our
         acquisitions.

         It is also very important to understand that the emphasis on customer service and revenues was not a
         conscious and absolute decision to NOT employ "proper and prudent procurement procedures." It is
         acknowledged by RMR FTS that a culture of high customer service did exist and still should exist,
         within proper bounds.


         WHAT WE ARE DOING TO CORRECT

         Again, RMR FTS acknowledges its evolution has had problems in acquisition quality and
         compliance. RMR FTS acknowledges that it agrees with certain finding in this report.
         Furthermore, RMR FTS has been aggressively addressing these issues.

          An aggressive training program has been under way within RMR FTS for the last year to bring
          acquisition knowledge and skills to a superior level. For example, all Team Leads have been and are
          near conclusion of a training cycle covering all courses required for a Simplified Acquisition level
          warrant. While the contracting responsibilities reside with our warranted contracting officers,




                                                    C-2
      Team Leads need this knowledge and skills for their vital role in acquisition quality and
      compliance.

      To add to this, RMR FTS has a number of other initiatives to improve our acquisition quality and
      compliance. Project Managers are undergoing project management training leading to certification. This
      training includes training on contract administration which brings acquisition skills down to the operating
      level and, as a prime objective, will allow RMR FTS Project Managers to ensure acquisition quality and
      compliance from the very beginning of the task order lifecycle. RMR FTS conducts weekly Confabs with
      many of the training sessions focusing on understanding acquisition issues and resolving acquisition
      problems. An Acquisition Day off site was also conducted August 31 and September 1, 2004. This
      training session covered a wide range of acquisition issues and topics in a highly interactive manner.

       Additional contracting officers have been hired in FY04 and we anticipate hiring additional contracting
       officers in FY05. We are in the process of hiring an Acquisition Director for RMR FTS to head up our
       acquisition efforts. Progress has been made and will continue to be made in RMR FTS' effort to achieve
       acquisition excellence.

       RMR FTS has put in place a "Knowledge Portal" accessible to all Associates. This tool provides easy
       access to policies, procedures, tools, et cetera to assist Associates in the day to day performance. The
       Knowledge Portal template has also been shared with other regions.

       Management controls have been implemented, which require reviews of acquisitions at a variety of
       levels. We have implemented a Contract Management Review Panel for compliance reviews and we
       are implementing changes to that process as we identify the need.

       We have reviewed and will continue to review tasks that have been awarded to determine if there are
       issues that require remediation. Remediation is underway on a number of tasks. Progress on those
       remediation efforts is tracked and reported to RMR FTS management and to the Regional
       Administrator's office.

II. GENERAL RESPONSE

RMR FTS takes our acquisition role seriously and is taking the steps necessary to ensure that we
perform that role in full compliance with all the appropriate rules and regulations. Towards that end
and with the exception of those noted below, we agree with the report's findings as well as its best
practices recommendations and will take actions accordingly. Those statements of findings we
disagree with and those we believe warrant an explanation of extenuating circumstances are shown
in italics below with our response immediately following in bold. Summary notes on each of the key
findings are as follows:

       Limited Competition: RMR FTS agrees that in those instances where, despite our having
       sought competition, only one bid was received we should employ a very thorough review of
       the offer received. To improve competition in our acquisitions, RMR FTS is focusing on
       improved market research to ensure that we are providing the right Industry Partners
       opportunity within an environment that encourages participation. E-Buy is being employed
       for schedule buys to ensure the widest field of schedule holders is being sought. Additional
       focus and emphasis on conducting comprehensive price analysis will strengthen our
       assurance of price reasonableness, especially in acquisitions where only one bid is received
       after seeking adequate competition.




                                                    C-3
               Lack of Support for Fair and Reasonable Pricing: In general, RMR FTS agrees.

        Improper and Questionable Contracting Actions: RMR FTS firmly embraces the GSA "Get it Right"
        program as an operational style. For example, RMR FTS has adjusted its invoice review process to
        provide the appropriate Contracting Officer involvement and a greater
        visibility to ensure that expenditure of government funds are compliant with the terms of the
        task order, policies, and regulations. Establishment of requirements are being strengthened to
        employ fixed price task orders vice Time & Material where possible. Further, RMR FTS is
        focusing on setting proper customer expectation with regard to the employment of T&M and the
        associated risks. The development of Acquisition Plans are being refined so they can serve as
        a strong acquisition foundation and guide to successful task order execution.

        Questionable use of the IT Fund: In general, RMR FTS agrees. RMR FTS, like many others, has
        had difficulty in determining the appropriateness of task orders relative to the intent of the IT
        Fund. There are many acknowledged "gray areas" where it is a matter of opinion whether a
        requirement does or does not qualify as Information Technology. Furthermore, it is important
        to note that clarity on this issue, for the most part, has come with time and a collaborative effort
        between FTS Regions and FTS Central. Management controls are in place to aggressively
        address this issue for task orders in excess of $900K and controls are being further implemented
        for task orders between $100K and $900K.

       Causes of Improper Procurement Practices. In general, RMR FTS agrees that there were
       inadequate management controls at the time of execution of many of the task orders reviewed in
       this report. However, it is important to note that RMR FTS is developing and installing
       management controls. For example, RMR FTS implemented acquisition training for its Team
       Leads covering all required training equal to the Simplified Acquisition level for a Contracting
       Officer. Additionally, new controls for finding and correcting financial issues and
       irregularities, have been implemented.

II. DIRECT RESPONSE TO SPECIFIC FINDINGS Brief

The report states: However, we identified some of the same issues identified in the FY03 review, including improper and
questionable contracting actions, inadequate competition, insufficient documentation supporting that the Government
received fair and reasonable pricing, and lack of implementation of various controls put in place by Central Office FTS.
RMR FTS embraces the need for constant improvement in all areas of acquisition and as evidenced by there
being no findings of misuse of the IT Fund in the second audit or any instances of split procurements in
either audit is demonstrating significant progress towards full compliance.

Review of 2003 Procurement Actions and Controls Limited

Competition

The report states: Of the 29 orders in our sample, R8 awarded 171 (59%) without the benefit of competitive bids. While
R8 did generally seek quotes from more than one contractor (e.g., GWACs require the ordering office to solicit all
contractors under the GWAC vehicle), for whatever reason, oftentimes only one contractor responded with an offer. As a
result, R8 had reduced assurance that it received the best value for its customers. RMR FTS agrees that in those
instances where, despite our having sought competition, only one bid was received we should employ a very
thorough review of the offer received.

Lack of Support for Fair and Reasonable Pricing

The report states: This finding is of particular concern given that R8 awarded the majority of the orders in our sample
without the benefit of competitive bids (See "Limited Competition" section of this report). RMR FTS agrees and has

1
 Two orders in our sample were orders under $3 million placed against small business contracts, which are allowed to
be issued without competition per FAR 19.8.


                                                           C-4
taken strides to ensure that the "concern" is being adequately addressed. These include issuing a policy in
March of 2004 requiring the use of FSS' E-Buy for all applicable schedule solicitations and has implemented
training to specifically address the issues of price analysis and the need for appropriate documentation of the
same. RMR FTS will also continue to monitor and implement testing of its management controls to ensure that
improvement is being achieved and will adjust accordingly to ensure continued progress.

Frequent Use of Time-and-Material Authority.

The report states: R8 frequently used time-and-materials tasks versus firm fixed-price tasks. RMR FTS agrees that
a determination and findings for time-and-materials (T&M) orders should have been documented in the
file and has implemented management controls to ensure that occurs. RMR FTS is requiring
contracting officers to work more closely with project managers to ensure that fixed priced task
orders are employed in all cases where the nature of the work allows. However, RMR FTS believes,
based upon client input and our own experience, that a significant portion of our clients' work can not
be sufficiently defined to allow a fixed price task order to be used.

It should also be recognized that when and how agencies can use time-and-material contracts has been
a source of controversy since the passage of the 1994 Federal Acquisition Streamlining Act (FASA). A
proposed rule is being drafted to clarify when agencies can pay service contractors for time and
materials as permitted by the Service Acquisition Reform Act and that should bring much more clarity
to this issue.


Review of 2004 Procurement Actions and Controls

Task Order Review.

The report states: Deficiencies noted included lack of support for fair and reasonable pricing, non-compliance with
competition requirements, improper task order modifications, unsubstantiated costs, continued preference for time-and-
material orders, and a task dealing with national security. Central Office Controls not fully implemented included non-
compliance with internal legal review requirements, and omitted or incomplete acquisition checklists. RMR FTS
partially disagrees. In the task in question a Pre Solicitation legal review was done, but not the Pre Award
legal review.




                                                          C-5
AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
         CLIENT SUPPORT CENTER
           PACIFIC RIM REGION
   REPORT NUMBER A030205/T/9/Z05009
            DECEMBER 9, 2004




                 IX
                      AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                     CLIENT SUPPORT CENTER, PACIFIC RIM REGION
                          REPORT NUMBER A030205/T/9/Z05009


                                    TABLE OF CONTENTS

                                                                        Page

RESULTS OF AUDIT                                                         IX-1

     Inadequate Competition                                              IX-1

     Improper Contracting Actions                                        IX-3

     Frequent Use of Time-and-Materials Tasks                            IX-4

     Inadequate Support for Fair and Reasonable Pricing                  IX-4

     Improper Use of the IT Fund                                         IX-5

     Misuse of Contract Vehicle                                          IX-6

     Other Issues                                                        IX-7

     Review of 2004 Task Orders and Controls                             IX-7

     Conclusions                                                         IX-8

     Recommendations                                                     IX-9

     Management’s Comments and Office of Inspector General’s Response    IX-9

     Internal Controls                                                  IX-11

APPENDICES

  A. Schedule of Task Orders Reviewed in Region 9                        A-1

  B. Schedule of Environmental Task Orders – Region 9                    B-1

  C. Schedule of Non-IT Task Orders – Region 9                           C-1

  D. Schedule of Reviewed FY 2004 Task Orders                            D-1

  E. Management’s Response to the Draft Report                           E-1
                                    RESULTS OF AUDIT

Our review of the initial sample of 32 task orders from FYs 2002 and 2003 identified several
questionable contracting practices. However, our limited review of the five newly awarded
task orders and five existing task orders with modifications authorized from March to May
2004 indicated that controls were implemented and administration of task orders has
improved.

Of particular concern in our initial sample was the awarding of multimillion-dollar task orders
without evidence of full and open competition. We also noticed improper contracting actions
such as vague statements of work and work performed outside the scope of the task order.
Further, the CSC made frequent use of Time-and-Materials orders without adequate written
justification for not awarding the orders as firm-fixed-price, often failed to document any
determination of reasonable pricing, and improperly used the IT fund and the ANSWER
contract.

Our limited review of the 2004 task orders showed that management controls had been
strengthened, but that further improvements are needed. For newly awarded task orders we
noted that in two cases the required checklists had not been signed and in one case not
completed; one task order was missing documentation to support the analysis on price
reasonableness; another task order lacked adequate analysis to conclude price
reasonableness; and no ceiling price was established for a time-and-materials task order.
For modifications made to existing task orders, we noted that two non-IT task orders were
extended to provide continuity of service while closing them out; and two unsolicited
modifications were made to another task order.

Appendix A contains the results of our review for each of the 32 task orders in our initial
judgmental sample; and Appendix D provides information on the review of the 2004 task
orders.

Inadequate Competition

Our review identified a lack of sufficient evidence to show fair competition for 18 of the 32
sample task orders. A case in point is a task order with an initial amount of $5.8 million
issued to provide IT support services for U. S. Forces, Korea for the Global Command and
Control System (GCCS-K). We believe that the selection process was questionable and
biased towards the winning contractor because FTS’ efforts appeared to go beyond what
was necessary to select Information Systems Support, Inc. (ISS) despite the Technical
Evaluation Board’s objective recommendation to proceed with Computer Sciences
Corporation. In addition, we determined that the documents supporting the award decision
did not adequately explain the reasons why FTS selected ISS over Computer Sciences
Corporation.

The task order was issued to combine services provided by four vendors who had been
providing services through four different task orders, which were staffed, as follows:
Computer Sciences Corporation provided the client with 16 employees; Logicon with one



                                             IX-1
person; International Computers and Telecommunications, Inc with 55; and Getronics with
15.

FTS issued a request for proposal under the ANSWER contract, thereby providing fair
opportunity. Proposals were received from two vendors, Computer Sciences Corporation and
ISS. A technical evaluation board, comprised primarily of military officers representing the
client agency reviewed and evaluated the proposals. Based on an assessment of the
contractors’ ability to satisfy the task order requirements, the board gave Computer Sciences
Corporation a score.          Consequently, the board recommended Computer Sciences
Corporation.

On the basis of a comparative analysis that was subjective in nature and criteria that were
not related to the technical evaluation factors listed on the Statement of Work, the client’s
selecting official disagreed with the board’s recommendation. On September 7, 2001, the IT
Manager in Korea advised the Contracting Officer (CO) in Oakland, California of the client’s
announcement.         The CO subsequently asked for additional information from both
contractors, re-evaluated the proposals, and on October 22, 2001, awarded the task order to
ISS. However, the documents supporting the award decision did not adequately explain the
reasons why FTS selected ISS over Computer Sciences Corporation.

In another instance of questionable competition, FTS awarded nine task orders, valued at
over $22 million, for the Southwest Naval Facilities Engineering Command in San Diego,
California. The first task order, for the amount of $621,081, was competed to all the
ANSWER contractors and awarded in September 1999. However, the analysis used to
select the successful bidder did not conform to the criteria delineated in the solicitation. FAR
part 15.304(a) requires that the statement of work in a solicitation list the factors to be used in
evaluating the proposals and the relative importance of those factors. The solicitation listed
the factors, but did not include the relative weight to be given to each. Consequently, FTS
was not compelled to apply weights in any particular proportion. From the analysis used to
make the selection, it was obvious the relative weights of the factors had nothing to do with
the order in which the factors were listed in the solicitation, and there was no documentation
to explain why particular factors had higher weights than others. Therefore, we could not
conclude that there was full and fair competition for this task order.

There were another eight task orders that FTS awarded as “follow-on” tasks to the above.
For each task order the file stated that the scope was a logical follow-on to the initial task
order, which was, in some cases, referred to as an “umbrella” task order. However, for each,
the scope of work was sufficiently different from the scope of work of the original that
additional competition should have been sought. For example, the initial task order was
awarded to provide consultants in support of environmental efforts. The statement of work
called for six consultants to support six teams performing environmental surveys. The scope
of another was to provide an Oracle database design and implement a “Geographical
Information System.” Yet another task order was to provide environmental remediation for a
“composite shop and a paint/strip shop.”




                                               IX-2
The value of this set of task orders grew significantly. The original task order was awarded to
Anteon Corporation with an authorized amount of $621,081. By December 2003, the total
authorized value of the nine task orders under the “umbrella” reached more than $22 million.

While reviewing a task order for the support of Navy family-housing offices, we noted that
competition was restricted so as to retain the incumbent vendor. The purpose of the task
was to continue the modernization of a family housing information system by implementing a
more current version of the system. Litton PRC was the incumbent vendor on a pre-existing
ANSWER task order. ANSWER was selected as the contracting vehicle for the new task
order, and a notification letter was issued to all the ANSWER contractors. However, the
notification stated that Litton PRC was the incumbent for the past 3 years and that its past
performance had been considered “excellent.” Only one offer was received for this
solicitation. That offer was from Litton PRC. FTS awarded the task order to Litton PRC for
$1.3 million. By May 2004, the value had grown to $25.6 million.

Improper Contracting Actions

Improper contracting actions that we noted included vague statements of work (7 task orders
totaling $264.7 million) and cases where the actual work was outside the scope of work (15
task orders valued at $147.5 million). For example, because the client could not accurately
predict the total scope of effort required for GCCS-K, the statement of work was not
sufficiently specific. The task, as described in the statement of work, was to provide IT
support services and software engineering on existing systems. This broad scope of work
facilitated the processing of inappropriate modifications, thereby, significantly increasing
costs without ensuring that the government was receiving best value or adequately providing
for competition.
Unsolicited modifications (i.e., proposals submitted by the contractor) were accepted for this
task order with little or no analysis documented in ITSS. For example, an unsolicited
modification was used to procure and install a “video wall”, which was not anticipated in the
statement of work. This equipment was initially leased for 12 months, after which the lease
was bought out for a total of $2.13 million. ITSS contained no documented analysis to show
that FTS had considered price reasonableness or “best value” for the video wall. According
to the IT Manager, the “Commanding General saw a similar video wall at another
installation…and the contractor became aware of his interest and proposed the solution.”
Another unsolicited modification, which increased the task order by $3.26 million, was offered
by ISS “…to provide for a total cost reconciliation of labor and other direct costs for this task
and provide recommendations for three additional positions and temporary technical
support...” Again, ITSS contained no documentation to show how FTS determined that this
acquisition provided the best value for the government.
We noted that in 15 instances, the actual work performed under a task order was outside of
the original scope. A case in point is a task order (9T9W300D) issued for the Southwest
Naval Facilities Engineering Command. The scope of work was hazardous material
abatement of two shops at Naval Air Station, North Island, San Diego. The scope grew to
include much more than hazardous material abatement and expanded beyond San Diego to
other naval facilities located worldwide.



                                              IX-3
To provide a degree of flexibility under the ANSWER contract, modifications can be used to
alter the scope of a task to a limited extent. However, if the proposed modification adds
significant work, or incorporates other major changes, such work should be competed under
a new task order. The modifications to the task orders described above added significant
work well beyond the original scope of work, and should have been competed separately.

Frequent Use of Time-and-Materials Tasks

We found that the CSC frequently used Time-and-Materials tasks versus fixed-price task
orders. Of the 32 orders for services that we reviewed, 28 or 88 percent were Time-and-
Materials type tasks and for 27 of those FTS did not adequately document the use of a Time-
and-Materials contract for the project (noted that no Determination and Findings was
prepared). According to FAR 16.601(c)(1), a Time-and-Materials contract may be used only
after the contracting officer executes a Determination and Findings that no other contract
type is suitable. In addition, the FAR describes Time-and-Materials as the least favored type
of award and requires documentation of the reason for using Time-and-Materials.

FAR 16.601 states, in part:

      “A Time-and-Materials contract may be used only when it is not possible at the time of
      placing the contract to estimate accurately the extent or duration of the work or to
      anticipate costs with any reasonable degree of confidence, and

      A Time-and-Materials contract may be used (1) only after the contracting officer
      executes a determination and findings that no other contract type is suitable; and (2)
      only if the contract includes a ceiling price that the contractor exceeds at its own risk.
      The contracting officer shall document the contract file to justify the reasons for and
      amount of any subsequent change in the ceiling price.”

When Time-and-Materials contracts are improperly awarded and managed, unrestrained cost
growth can occur, as illustrated in the Time-and-Materials task orders previously described.

Inadequate Support for Fair and Reasonable Pricing

In addition to the problems we identified in improper contracting actions, there was no
documentation supporting that the Government received fair and reasonable prices for either
labor or other direct costs (ODC) for a majority of the orders that we reviewed (28 of the 32
task orders or 88 percent). The documentation did not show that independent government
estimates were developed for the various costs, or that the proposed levels of effort and
labor mixes were reasonable. Of particular concern were task orders issued for the
Southwest Naval Facilities Engineering Command. The majority of the nine ANSWER task
orders were for other than IT related services. While it might be argued that some of the skill
levels employed were included in the ANSWER contract as subject matter experts and
therefore, the rates were reasonable, the CSC did not document any analysis to show that
the level of effort and the labor mix were appropriate. In addition, there were no documents
to support that ODCs were fair and reasonable.




                                                IX-4
Generally, the task orders in our sample show a lack of independent government estimates,
or other analyses to determine price reasonableness of the contractor proposals. The CSC
should have documented analyses of the proposals to ensure that the levels of effort and the
labor mixes were appropriate, and that the other direct costs were reasonably priced.

Improper Use of the IT Fund

Of the 32 task orders selected for review, 7 or 22 percent were not IT. The seven task orders
awarded, for the U. S. Navy, Facilities Engineering Command, San Diego, totaled $19.3
million and were primarily for environmental services. For example, the first in the series of
task orders was for “remediation, documentation, and analysis support” to the Environmental
Specialty Support Department. Another task order was to provide environmental ergonomic
technical support. Yet another dealt with environmental safety support. These seven task
orders were used to procure different non-IT products and services by various commands
throughout the Navy. For example, storm shutters were placed on a building in Jacksonville,
Florida; handrails were designed and installed on a dry-dock in Portsmouth New Hampshire;
and abatement of fall hazards was undertaken in China Lake, California.

While searching the IT Solutions Shop website, we noted 36 additional task orders that were
non-IT (Appendices B and C).62 About half of these tasks were for environmental services.
A case in point concerns the drilling of a sample well in Utah for the Tooele Army Depot. The
purpose was to specify the requirements for drilling, installing, developing, and monitoring a
well to sample groundwater.          Another case concerned the work required for the
Environmental Chemistry Laboratory of the Navy. The objective of the task order was to
provide assistance in the preparation and testing of samples for hazardous and toxic
chemicals. The vendor charged the government for an IT skill level (i.e. Documentation
Specialist). However, the work requirements were scientific in nature requiring chemical
analysis without IT involvement.

FTS officials stated that at the time that most of these orders were issued, it was permissible
to use the IT Fund if there was an IT component within the task. FTS GWACs were
sometimes used as a guide to determine if an order was appropriate for the IT Fund. That is,
if a GWAC listed a skill level, then an order for that skill level was allowable under the IT
Fund regardless of the purpose for employing that skill. Officials further indicated that policy
has since changed, and under current guidelines the IT Fund would be used only if the
intrinsic nature of work is IT.

FTS officials told us in January 2004, that they would terminate approximately 45-50 task
orders related to environmental services and other non-IT functions. The decision to
terminate the orders was a result of a new policy defining the limits of the IT Fund and FSS
making available to FTS the ability to place orders for professional services.




62
  The majority of these task orders selected were less than $1 million in value. Therefore, we did not further
review the contracting practices used in administering them.

                                                      IX-5
Misuse of Contract Vehicle

Most of the task orders we reviewed in detail (28 of 32) were issued under the ANSWER
GWAC. Seven of those task orders were used for work that was outside the scope of the
base contract. Noteworthy among the seven was a task order issued on behalf of the United
States Army, Pacific for an extensive installation of an emergency radio system in Alaska and
Hawaii. The task order, valued at a total of $157 million over 8 years (the base year plus
seven 1-year options), was issued on December 20, 2000. Through December 2003, total
expenditures had reached approximately $26 million; of which approximately $22 million or
85 percent were for ODCs.

ANSWER was not the correct contract vehicle for this project. The ANSWER contract is a
service contract. Although ODCs are allowable under ANSWER, those costs are to be
incidental to the primary requirement. According to the contract, “other direct costs (when
authorized by a task order) include such items as hardware, software, training subcontractor
support, travel, etc.” The $22 million (85 percent) cannot be considered incidental. The
contractor received general and administrative fees related to the $22 million in ODCs.

The $22 million in ODCs represented the purchase and installation of various repeater
stations, base and mobile radio equipment, antenna towers, etc. ODCs also included lease
payments for radio equipment and minor repairs and alterations of various facilities to house
the radio equipment.

The winning proposal showed that, for Phase I, total expenditures were expected to be $20
million, while ODCs were expected to be $15 million. This indicates that the CSC and the
client agency were aware that this project had a significant commodity component.

Since the procurement included such large amounts for equipment leases and purchases,
ANSWER was not the proper contracting vehicle. ANSWER is a service contract. It
establishes ceiling labor rates and thereby provides some assurance that the rates proposed
for a task order are reasonable. However, ANSWER does not establish any benchmark
prices for equipment leases or purchases. Therefore, it provides no assurance about the
price reasonableness for the $22 million (85 percent of the total costs) of ODCs. We noted
several instances where better pricing could have been obtained by using FSS schedules.

In addition, as provided in the ANSWER contract, the government paid general and
administrative fees on the purchases. We estimate that this amounted to possible excess
cost to the government as of December 2003. A more appropriate approach would have
been to obtain the equipment through an open-market procurement. Such an approach
could have focused negotiations on obtaining a fair price for the equipment and avoiding ISS’
general and administrative fees.

Open market procurement would have also enabled the primary provider of the equipment to
place a bid for the project. This task order was used to provide the Army with a system
produced by Motorola, and as a result much of the project was passed-through to Motorola.
This company’s involvement started when it conducted studies on “Base Support Trunked

                                            IX-6
Radio System” for Alaska and Hawaii. The reports that Motorola prepared were provided as
attachments in the statement of work section of the ITSS, which made them available to
prospective bidders. One of the prospective bidders commented in the question and answer
section of the ITSS that, “It appears that Motorola is the defacto standard…” A retired ITM
stated that Motorola complained to him about the task order being offered under ANSWER
because Motorola would not have the opportunity to bid. This ex-official stated that he
informed Motorola that it would get its share through partnering with the winning ANSWER
contractor, and that Motorola then came into line. When we questioned a Motorola
representative, we learned that Motorola understood from the onset that it would be involved
in the project.

Other Issues

We have concerns about a highly sensitive and classified task order from Combined Forces
Command/U.S. Forces Korea to develop a master plan for intelligence, surveillance and
reconnaissance (9T3APN006). Our primary concern is that due to the highly classified
nature of the work (requiring access to “TOP SECRET/SENSITIVE COMPARTMENTED
INFORMATION (SCI) material), FTS is unable to access information required to properly
determine pricing and monitor deliverables. As of August 2004, the FTS associate assigned
to this particular task has not yet received his top-secret security clearance. In addition, we
noted that the associate’s security clearance was in process since March 15, 2003.

Review of 2004 Task Orders and Controls

Discussions with regional FTS officials and our review of recently executed task orders and
modifications indicated that the new controls have been implemented. However, we noted
that although management is continuing efforts to improve, some controls are not working
effectively.

Our discussions with Regional FTS Officials indicated that the Region had developed local
guidance, which was issued in August 2003. That guidance was contained in a document
titled Acquisition Risk Management Initiative (ARMI). As the name implies, the purpose of
the guidance was to limit the inherent risk in the acquisition process. ARMI prescribes
specific procedures that are to be followed before solicitation and award to mitigate risks
throughout the acquisition process. For example, ARMI coincided with the reorganization of
Region 9 FTS. As part of that reorganization, a position for an Acquisition Oversight
Executive was established to provide acquisition assistance and oversight to area teams and
customer agencies. ARMI also prescribes various levels of reviews for procurements based
on dollar amount, and requires acquisition staff to be rotated every 36 months.

Officials also indicated that the additional controls directed by Central Office had been
incorporated into the December 2003 revision to the ARMI and disseminated to all Region 9
FTS associates. The only exception to the Central Office policy implementation was a
memorandum from the Assistant Commissioner dated May 28, 2004, on ITS Contract/Project
Closeout Guidance. Management informed us that the closeout requirements of the
memorandum had been implemented as of July 1, 2004.



                                             IX-7
We selected a judgment sample of five newly awarded task orders and five pre-existing task
orders with modifications issued during that period. We cannot be certain that the task
orders in our sample are representative of all those processed in FY 2004.

Newly Awarded Task Orders

We noted that compared to our sample from prior years, improvements in contract
administration have been made. However, further improvements are needed. For example,
we noted discrepancies in four of the five task orders:

   •   For sample 70, there was no detailed explanation for concluding that pricing was fair
       and reasonable;
   •   For sample 71, there was no documentation to support the analysis on price
       reasonableness;
   •   For sample 72, there was no established ceiling price even though a Determination
       and Findings was completed for this Time-and-Materials task and checklists were
       completed but not signed; and
   •   For sample 73, the required checklist was not completed.

Existing Task Orders with Modifications

FTS generally complied with Central Office initiatives and Regional Directives for existing
task orders with modifications except that two non-IT task orders were allowed to continue
and FTS authorized unsolicited modifications.

We noted that although contracted services did not appear to be IT-related for 9T1Y971A
(work related to environmental impact analysis) and 9T1S011FG (land acquisition project),
modifications were authorized. The modifications were issued to provide continuity of
service, and were considered by FTS to be in the best interest of the government. The
rationale was to provide time to implement an exit strategy. In discussions with FTS
associates, they indicated that these task orders should not have been authorized under the
IT Fund (299X) using today’s policy and guidelines. Furthermore, they were attempting to
close out the tasks and re-compete under a more appropriate contract/schedule.

During the 3-month review period FTS authorized two unsolicited modifications exceeding
$100,000 for 9T0Y104A. There was no established ceiling price and no documentation to
support the level of effort or price reasonableness for ODCs.

Given the exceptions noted in the sample of 2004 task orders, there is a need for
management’s continued attention to improving controls.

Conclusions

In reviewing the sample from FYs 2002 and 2003, we identified improper task order and
contract awards involving millions of dollars that breached procurement laws and regulations
and on a number of occasions, were well outside the IT Fund’s legislatively authorized
purposes. The task orders reviewed from FY 2004 indicated that Region 9 is taking

                                            IX-8
corrective actions to minimize the risks of improper contract procurement practices through
management oversight and adherence to Central Office Initiatives. However, given the
exceptions noted in the sample of 2004 task orders, there is a need for management’s
continued attention to improving controls. Therefore, the Office of Audits will conduct a more
comprehensive testing of internal controls throughout the CSC program in FY 2005.

Recommendations

Based on the comprehensive recommendations contained in Audit Report Number
A020144/T/5/Z04002, dated January 8, 2004, no further recommendations are deemed
necessary at this time.

Management’s Comments and Office of Inspector General’s Response

The Regional Administrator acknowledged and generally agreed with the findings of the
review. He noted, in particular, that his region has taken a proactive approach to minimize
inherent vulnerabilities in its acquisition processes by implementing mandatory regional
guidance (i.e., ARMI). ARMI requires an evaluation of task orders over $1 million by a
Contract Review Panel, and a legal review of complex acquisitions and those over $5 million.
In addition, the Regional Administrator provided clarification and editorial suggestions on
several points of the report that we incorporated as appropriate.

However, the Regional Administrator took exceptions to certain sections of the report as
noted below:

Report Section    Management’s Comments                         Office of Inspector General’s Response
Inadequate        The Regional Administrator disagreed          We modified the section of the report to which
 Competition      that the contracting officer for the task     the Regional Administrator took exception and
                  order involving U.S. Forces, Korea took       provided further comments that the selection
                  extraordinary steps to justify the client’s   process was questionable and bias.
                  selection of a vendor. The Regional
                  Administrator stated that the selected
                  vendor offered the most benefits at no
                  additional costs. He acknowledged that
                  the documentation did not support this.
Other Issues      Regarding a highly sensitive and              As stated in the report, we were unable to
                  classified    order   for     intelligence,   determine from the unclassified information the
                  surveillance, and reconnaissance, the         requirements of the project and the FTS
                  Regional Administrator indicated that a       associate’s role in accomplishing them. We
                  security clearance was unnecessary for        were also unable to establish, based on the
                  an associate working with a particular        Statement of Work, whether the work
                  Department of Defense order because           surrounding the project was unclassified. The
                  the information needed for the                Regional Administrator stated that the
                  associate to perform his duties was           associate now administering the task order
                  deemed unclassified.                          possesses a security clearance. We believe
                                                                that the security clearance should have been
                                                                required for all FTS associates affiliated with
                                                                this project.




                                                    IX-9
Report Section     Management’s Comments                      Office of Inspector General’s Response
Inadequate         The Regional Administrator took            The Appendix to which these comments were
Support for Fair   exception to the wording of the section    addressed has been changed, however, during
and Reasonable     heading. He stated that the pricing        our review, we did not find support documents.
Pricing            analysis was conducted on vendor bids
                   but it was inadequately reflected in the
                   acquisition files.

                   The Regional Administrator took            During our review we were unable to find
                   exception  to    using    “Inadequate      documentation showing how FTS determined
                   Support…” to describe a finding            that pricing was fair and reasonable (labor
                   common to several task orders.             and/or other direct costs) or evidence that FTS
                                                              negotiated better pricing for the majority of the
                                                              32 task orders selected for review.
FY 2004 Task       The Regional Administrator commented       We disagree that the findings were mere
 Orders            that the findings noted in the report      lapses in the level of documentation. Notable
                   were “lapses in the level of               contract deficiencies included: no established
                   documentation, as opposed to more          ceiling price for two time and material task
                   profound concerns revealed in the          orders as required by FAR 16.601 (c);
                   original audit sample.”                    inappropriate use of the IT fund was noted for
                                                              two task orders; and for five of the ten task
                                                              orders, analyses critical to determining price
                                                              reasonableness was lacking. We believe that
                                                              the review of the FY 2004 task orders revealed
                                                              serious deficiencies not merely documentation
                                                              lapses.

                   Sample 72 references a task order that     Sample 72 - Regardless of whether the project
                   will be completed in November 2004         is scheduled for an early completion, basic
                                                              procurement requirements should have been
                                                              met and documented;

                   Sample 77 entails a task order in which    Sample 77 – The appropriateness of a large
                   $21 million in other direct costs has      amount of Other Direct Costs (ODC) needs to
                   been addressed in a memorandum for         be documented early in the acquisition
                   the record and uploaded into ITSS.         process.      The project was to provide
                                                              beneficiary services and ancillary support
                                                              function to field and respond to questions,
                                                              concerns, and issues of department of defense
                                                              beneficiaries & non-beneficiaries. A significant
                                                              amount of ODCs ($20.2 million of the $21
                                                              million) were directed towards production and
                                                              postage for health care cards.

                   Sample 78 is a FY 2000 task order that     Sample 78 - Regardless of whether the project
                   will be completed in December 2004.        is scheduled for an early completion, basic
                   Documentation to support the price         procurement requirements should have been
                   reasonableness of the labor and other      met and documented;
                   direct costs for these modifications has
                   been included in ITSS.




                                                 IX-10
Report Section    Management’s Comments                         Office of Inspector General’s Response
FY 2004 Task      The report also addressed concerns            Signed Checklists (Samples 71, 72 & 75) –We
 Orders           about the lack of a signed checklists or      believe the checklists are an important control
                  the use of an outdated checklist              point to ensure procurement regulations have
                  (Samples 71, 72, and 75). While we            been followed. By not signing the checklist,
                  are in agreement with this finding, we        FTS associates are failing to take responsibility
                  note that the identity of the contracting     for the accuracy/adequacy of the procurement.
                  officer completing the checklist may be       Without the appropriate signatures, these
                  determined from the GSA Form 300. In          checklists do not achieve the full-intended
                  any event, the overall intended purpose       purpose of ensuring that FTS associates are
                  of the checklists was achieved.               appropriately and responsibly processing the
                                                                procurement.

                  Sample 70 - The Regional Administrator        Sample 70 - We disagree with the Regional
                  stated that FTS reviewed the file and         Administrator’s assessment that FTS reviewed
                  found sufficient documentation to             the file and found sufficient documentation to
                  conclude that the contracting officer         conclude that the contracting officer performed
                  performed an acceptable price analysis.       an acceptable price analysis. Although the file
                                                                contained    an    Independent      Government
                                                                Estimate and comparison of labor rates, there
                                                                was no detailed explanation for concluding fair
                                                                and reasonable pricing.

                  Sample 71 - The Regional Administrator        Sample 71 – Although the client prepared the
                  took exception to the wording “little value   IGE, FTS conducted no on-site visits, and the
                  added by GSA” in the procurement              client verified that the contractor was
                  process. He noted that GSA value              performing the work, we agree with the
                  added service included financial, billing,    Regional Administrator that FTS adds value
                  and reconciliation support functions as       through other functions such as financial,
                  well as task order management and             billing, and reconciliation support. Therefore,
                  administration.                               we modified the wording for this particular
                                                                sample.

See Appendix E for a copy of the Regional Administrator’s response.

Internal Controls

We assessed the internal controls relevant to the CSCs' procurements to assure that the
procurements were made in accordance with the FAR and the terms and conditions of the
contracts utilized. We identified improper procurement practices, including inadequately
supported sole source awards, work outside the contract scope, misuse of the IT Fund,
improper order modifications, frequent use of Time-and-Materials contracts, and not following
acquisition regulations. We believe that an effective internal control structure, which has the
on-going endorsement of management, would have identified and prohibited many of the
inappropriate procurement practices we noted.

Additionally, given the magnitude of the problems noted in our review of FYs 2002 and 2003
task orders, the control environment did not provide reasonable assurance that
misapplication of customer agency funds would be prevented. Therefore, we concluded that
for those years, the internal controls that were established were not always effective and did
not provide assurance that Government funds were reasonably protected. Our limited review


                                                   IX-11
of task orders issued from March to May 2004 indicated that although improvements were
being made, further attention by management is necessary. The Office of Audits will conduct
a more comprehensive testing of internal controls throughout the CSC program in FY 2005.




                                          IX-12
                                                                                                               APPENDIX A

                        AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                       CLIENT SUPPORT CENTER, PACIFIC RIM REGION
                            REPORT NUMBER A030205/T/9/Z05009

                   SCHEDULE OF TASK ORDERS REVIEWED IN REGION 9

Sample                  Form 300                                                  Contract   Total Value
Number    Task Order      Date                       Contractor                   Vehicle     Of Task*        Notes
   1     9T1HBP001 20-Dec-00 Information Systems Support, Inc.                    GWAC        $157,593,700      1
   2     9T2HJD053A 28-Dec-01 EMC Corporation                                       FSS           1,620,000    2
   3     9T2HJD053K 7-Nov-02       EMC Corporation                                  FSS          38,380,000    2
   4     9T1HLR004 22-Oct-01       Information Systems Support, Inc.              GWAC           40,296,911    3
   5     9T3HLR001 21-Nov-02 Information Systems Support, Inc.                    GWAC            8,588,539    3
   6      9T3H006JP 30-Apr-03      Information Systems Support, Inc.              GWAC            8,023,844    3
   7      9T3AJP001 5-Aug-03       Information Systems Support, Inc.              GWAC           12,100,702    3
   8      9T9E034A     22-Oct-99   Computer Sciences Corporation                  GWAC               92,240    4
   9      9T9E018A     25-Oct-99   Computer Sciences Corporation                  GWAC              451,470    5
  10      9T0E044A     29-Dec-99 Computer Sciences Corporation                    GWAC           22,864,843    6
  11     9T0HBP003 22-Nov-00 Computer Sciences Corporation                        GWAC            2,673,781    7
  12     9T2HBP001 27-Sep-01 Computer Sciences Corporation                        GWAC            6,179,682    8
  13     9T2HBP010 3-Oct-01        Computer Sciences Corporation                  GWAC           17,167,308    9
  14     9T3HBP010E 1-Oct-02       Computer Sciences Corporation                  GWAC           11,370,592    10
  15      9T0N414A     10-Jun-00   Northrop Grumman Information Technology Inc.   GWAC           26,596,744    11
  16     9T2HLR015 19-Jul-02       Northrop Grumman Information Technology Inc.   GWAC           11,537,537    11
  17      9T9W300A 10-Sep-99 Anteon Corporation                                   GWAC              621,081    12
  18      9T9W300B 24-Apr-00       Anteon Corporation                             GWAC            1,319,022    13
  19      9T9W300C 8-Jun-00        Anteon Corporation                             GWAC            1,867,109    14
  20      9T9W300D 21-Aug-00 Anteon Corporation                                   GWAC            7,108,787    15

  21      9T9W300E 27-Nov-00 Anteon Corporation                                   GWAC            7,472,231    16

  22      9T9W300F     7-Feb-01    Anteon Corporation                             GWAC            2,477,566    17
  23      9T9W300G 8-Aug-01        Anteon Corporation                             GWAC              538,620    18
  24      9T9W300H 11-Oct-01       Anteon Corporation                             GWAC              462,734    19
  25      9T9W300I     22-Apr-02   Anteon Corporation                             GWAC              129,749    20
  26     9T1S111DW 29-Mar-01       Litton PRC                                     GWAC           26,045,882    21
  27     9T3HRE068 10-Dec-02 Northrop Grumman Information Technology Inc.         GWAC           18,462,526    22
  28     9T3HGO076 16-Sep-03 Computer Sciences Corporation                        GWAC            8,074,425    23
  29     9T3SST001A 6-Aug-03       Northrop Grumman Information Technology Inc.   GWAC           26,288,363    24
  30     9T2Z250TSA 17-Sep-02 New Technology Mgmt, Inc.                           GWAC            9,776,974    25
  31     9T3HKL762 14-Sep-03 IBM                                                    FSS           5,373,358    26
  32     9T3APN006 14-Aug-03 Information Systems Support, Inc.                    GWAC            3,788,876    27
                                                                                     Total     $485,345,196
*Total Task Value represents either the greater of the Total Award Amount or Total Obligated Amount




                                                                  A-1
NOTES:

   1. 9T1HBP001 – Known as the PACMERS (Pacific Mobile Emergency Radio System) project, the task order,
      led by the U.S. Army Pacific in Honolulu, HI, involved an extensive installation of an emergency radio
      system in Alaska and Hawaii. The Time-and-Materials task was let under the ANSWER contract.
      PACMERS was valued at not to exceed $157 million over 8 years (base year & 7 option years).

     Procurement deficiencies included: (1) There was no support for fair and reasonable pricing for the
     significant amount of Other Direct Costs (ODCs) that was proposed in the contract. In the proposal, the
     percentage of ODCs was a percent of total contract costs; Although not required, the Independent
     Government Estimate (IGE) is a tool to establish price reasonableness. However, an IGE was not
     completed. (2) There was no evidence that FTS negotiated a better price for the significant amount of
     ODCs and skill levels for the project; (3) FTS did not adequately justify the use of a Time-and-Materials
     contract for the project (noted that no Determination and Findings was prepared); (4) The ANSWER
     contract was not the correct contract vehicle for this project because ANSWER is a service contract and
     materials/equipment should be considered incidental to the primary task requirements. The percentage of
     ODCs to total costs was a significant amount. Based on paid invoices through December 2003, actual
     ODCs to total costs increased. As a result, there may have been excessive recovery of General &
     Administrative (G&A) costs; (5) The significant amount of ODCs was due to equipment purchases and
     leases. The equipment was purchased from Motorola. Price comparisons for radio equipment &
     accessories between the contractor and FSS schedule indicated that the government might not have
     received best value. In addition, we noted that the price of the equipment offered by Motorola was
     generally less than the contractor’s list price. As a result, we question the methodology of FTS for not
     contracting directly with Motorola (Contract Number GS-35F-0004L) under the FSS schedules; (6) The
     Statement of Work was inadequate because the client agency issued work orders to manage work
     requirements under the task order. The issuance of work orders against task orders is not authorized by the
     ANSWER contract. In addition, “Best Practices” developed by the Office of Federal Procurement and
     Policy cautions agencies issuing work orders under task orders. Agencies should not award large,
     undefined task orders in an effort to expedite the award only issue subsequent sole source work orders; 7a)
     Inadequate Documentation - The Government might not have received best value regarding the leasing of
     equipment. Documentation to support savings for leasing of equipment did not exist. Acquisition
     regulations (DFAR/FAR) require documentation such as a comparative cost or cost/benefit analysis to
     support or justify the decision to lease; (7b) Inadequate Documentation - There were 3 proposals in
     response to the RFQ. The Contracting Officer stated that the task order was awarded based on best value.
     However, no documentation was available to indicate that a market analysis was performed. We noted that
     the proposal with the highest overall cost was chosen. The winning proposal was approximately 48 percent
     greater than the losing proposals, which brings to question whether the winning quote was actually best
     value; (7c) Inadequate Documentation – There was no work description noted on several Military
     Interdepartmental Purchase Request (MIPR) forms or funding documents that correlated to the actual work
     performed (i.e. no Bona Fide need written on the MIPR); (7d) Inadequate Documentation - No acquisition
     plan was completed to ensure proper competition; and (8) For each skill level identified in the ANSWER
     contract, there were two rates. The basic rate is for on-site work. For off-site work, a premium is paid. We
     noted that the proposal for this particular task order included all labor at the higher off-site rate. As a result,
     we are questioning whether all the work was performed off-site.

   2. 9T2JD053A & 9T2JD053K – The task order was awarded under the General Services Administration
      (GSA) Multiple Award Schedule as a firm-fixed-price. The project requirement was for a lease to own of IT
      equipment for the period from FY 2002 to FY 2005 (base Year 2002, with 3 option years) for nine
      Headquarter Pacific Air Force installation sites. Installation and configuration services of the IT equipment
      were also included as part of the project. Total value of the task order was $40 million.

     Procurement deficiencies included: (1) Price reductions or discounts were not offered for Special Item
     Number (SIN) 132-3 (Leasing of Product). The Maximum Order Threshold was exceeded for SIN132-3.
     According to the Solicitation FCIS-JB-980001B, the maximum order amount was $500,000; (2) FTS did not


                                                              A-2
    review submitted invoices for reasonableness and accuracy. As a result, these documents supporting the
    invoices were not available on-line. We were unable to verify whether the client agency was charged
    appropriately for labor (accuracy of billed rates and hours); (3) No documentation on the method of
    procurement (rationale for selecting Federal Supply Service (FSS) schedules, why a particular pool of
    vendors was selected to receive Request for Quotes, or how FTS and client agency happened to choose a
    particular set of vendors from the pool); and (4) The Government may not have received best value
    regarding the leasing of equipment. No documentation to support the savings for leasing the equipment.
    Acquisition regulations (Defense Federal Acquisition Regulation (DFAR) /FAR) require documentation such
    as a comparative cost or cost/benefit analysis to support or justify the decision to lease.
 3. 9T1HLR004, 9T3HLR001, 9T3H006JP & 9T3AJP001–The project provided information technology
    support for the United States Forces in Korea, primarily on the Global Command and Control System. The
    Time-and-Materials task was a combination of four existing task orders. The initial task order, 9T1HLR004
    was followed by the issuance of an additional three task order numbers due to limitation of the IT Solutions
    System, which was not designed to accommodate more than 99 funding documents per task number (i.e.
    all 4 task orders were used to fund the same continuous task).

   Procurement Deficiencies: (1) Although fair opportunity was offered under the Government-Wide
   Acquisition Contract (GWAC) (i.e. Application N’ Support of Widely diverse EndUser Requirements
   (ANSWER)), the selection and subsequent award to the contractor were questionable. FTS reevaluated
   the proposals based on other evaluation criteria to award the contract to the preferred contractor,
   Information Systems Support, Incorporated. (2) There was no support for fair and reasonable pricing for
   the significant amount of labor that was proposed in the contract. In the proposal, the percentage of labor
   was 98 percent of total contract costs. Although not required, the Independent Government Estimate (IGE)
   is a tool to establish price reasonableness. However, an IGE was not completed; (3) No evidence that
   FTS attempted to negotiate for better pricing especially for Other Direct Costs (ODCs). Although the ODCs
   were not a factor in the proposed contract, actual ODCs for the project increased significantly; (4) FTS did
   not adequately justify the use of a Time-and-Materials contract for the project (noted that no Determination
   and Findings was prepared). In addition, there was no established ceiling price or not-to-exceed amount;
   (5) The ANSWER contract was not the correct contract vehicle for this project because ANSWER should
   be used for services, and ODCs should be incidental to the primary requirement. As indicated previously,
   ODCs were unreasonably high. Of the total ODCs, a sizeable percent was for materials & equipment. As
   a result, there was excessive recovery of General & Administrative (G&A) costs paid on all ODCs.
   (Example: G&A was paid on $11 million in Living Quarters Allowance/dependent tuition/Cost of Living
   Adjustment payments alone, which involves little more than processing checks to their employees); (6) The
   Statement of Work was inadequate & misleading. The task description required IT support services and
   software engineering on existing systems. No materials or equipment needs were identified. On the basis
   of this description, proposed ODCs consisted of a small percentage of the estimated cost. However, actual
   ODCs represented 62% of total costs; (7) Due to the significant change in ODCs from the proposed to
   actual costs, work was added beyond the scope of the original scope of work; (8) There was significant cost
   growth for the project that was funded to $15 million over the original contract price, and in less than half of
   the time established. Primary causes of cost growth include lack of established ceiling price or not-to-
   exceed amount, acceptance of unsolicited modifications from the contractor, and unanticipated cost of
   Living Quarters Allowance and dependent’s tuition; and (9) No acquisition plan was completed to ensure
   proper competition.

3a. 9T3HLR001– See Note 3 for Description

   Procurement Deficiency: (1) The Contracting Officer did not comply with FAR 17.207 provisions with
   respect to exercising option years.




                                                          A-3
4. 9T9E034A – The project was awarded under the ANSWER contract as a Time-and-Materials task. The
   client agency, (Department of the Navy, Commander in Chief, U.S. Pacific Fleet, (CINCPACFLT)),
   indicated that the task order was a precursor to another related task order, 9T0E044A (Note 6). The project
   required IT support in the area of Help Desk and Automated Data Processing/Networking support
   throughout the CINCPACFLT command. Labor services were authorized on October 22, 1999 in the
   amount of $92,220.

  Procurement Deficiencies: (1) There was no support for fair and reasonable pricing for the amount of labor
  that was proposed in the contract. Although not required, the Independent Government Estimate (IGE) is a
  tool to establish price reasonableness. However, an IGE was not completed. In addition, there was no
  evidence that FTS negotiated a better price for the various skill levels for the project; (2) FTS did not
  adequately justify the use of a Time-and-Materials contract for the project (noted that no Determination and
  Findings was prepared). In addition, there was no established ceiling price or not-to-exceed amount; (3) No
  acquisition plan was completed to ensure proper contract competition; (4) The Solicitation was ambiguous
  regarding the evaluation/selection/award factors. FAR 15.304 requires that all factors and significant sub-
  factors that will affect contract award and their relative importance shall be stated clearly in the Solicitation.

5. 9T9E018A – The project was awarded under the ANSWER contract as a Time-and-Materials task. The
   client agency, (Department of the Navy, Commander in Chief, U.S. Pacific Fleet, (CINCPACFLT) indicated
   that the task order was a precursor to one other task order, 9T0E044A (Note 6). Examples of IT services
   that the project required included: IT Help Desk, IT engineering, and systems analysis and programming,
   etc. Labor services were authorized on October 25, 1999 in the amount of $451,471.

  Procurement Deficiencies: (1) There was no support for fair and reasonable pricing for the amount of labor
  and Other Direct Costs that were proposed in the contract. Although not required, the Independent
  Government Estimate (IGE) is a tool to establish price reasonableness. However, an IGE was not
  completed. In addition, there was no evidence that FTS negotiated a better price for the various skill levels
  for the project; (2) FTS did not adequately justify the use of a Time-and-Materials contract for the project
  (noted that no Determination and Findings was prepared). In addition, there was no established ceiling
  price or not-to-exceed amount; (3) No acquisition plan was completed to ensure proper contract
  competition; and (4) The Solicitation was ambiguous regarding the evaluation/selection/award factors. FAR
  15.304 requires that all factors and significant sub-factors that will affect contract award and their relative
  importance shall be stated clearly in the Solicitation.

6. 9T0E044A – According to the client agency, (Department of the Navy, Commander in Chief, U.S. Pacific
   Fleet, (CINCPACFLT)), this task order was a logical follow-on to task orders 9T9E034A and 9T9E018A
   (Notes 4 & 5) (Time-and-Materials tasks under the ANSWER contract). Examples of on-site IT services that
   the incumbent contractor provided were IT Help Desk, IT engineering, and systems analysis and
   programming; etc. Labor services and Other Direct Costs were authorized on December 29, 1999 for
   $970,398.

  Procurement Deficiencies included: (1) The task order was determined not to be a logical follow-on
  because the scope of the work for this task order had changed from the original task orders, 9T9E018A and
  9T9E034A (Hawaii site only). FTS approved numerous modifications authorizing IT work to be performed
  at additional locations in San Diego, California, Bremerton, Washington, and the Far East. The incumbent
  contractor was awarded the contract to continue work deemed not to be a continuation of the prior task
  orders. As a result, the task order was not properly competed. According to ANSWER guidelines, program
  officials should avoid situations where the requirements for the competed original task order are
  insignificant in dollar value, only to be followed by sole-source task orders that are much broader in scope
  and dollar value as in this case; (2) There was no support for fair and reasonable pricing for the significant
  amount of labor and Other Direct Costs that were proposed in the contract. Although not required, the
  Independent Government Estimate (IGE) is a tool to establish price reasonableness. However, an IGE was
  not completed. In addition, there was no evidence that FTS negotiated a better price for the various skill
  levels for the project; (3) FTS did not adequately justify the use of a Time-and-Materials contract for the
  project (noted that no Determination and Findings was prepared). In addition, there was no established


                                                          A-4
   ceiling price or not-to-exceed amount; (4) Contributing to the project’s significant cost growth from $970,398
   in December 1999 to $22.1 million through July 2002 was the additional work performed that was outside
   the scope of the original statement of work as mentioned previously. A substantial number of skill levels
   and locations were added to the project; (5) FTS did not adequately justify period of performance (POP)
   extensions; and (6) No acquisition plan was completed to ensure proper contract competition.
7. 9T0HBP003 – The project was awarded under the ANSWER contract as a Time-and-Materials task. The
   client agency, (Department of the Navy, Commander in Chief, U.S. Pacific Fleet, (CINCPACFLT)),
   indicated that the task order was a precursor to one other task order, 9T2HBP001 (Note 8). Examples of
   on-site technical services that the project required included: management and fine-tuning of existing
   systems, network and system engineering, software and database application development, etc. Total
   value of the project through 16 modifications was $2,673,781.

  Procurement Deficiencies included: (1) There was no support for fair and reasonable pricing for the
  significant amount of labor that was proposed in the contract. Although not required, the Independent
  Government Estimate (IGE) is a tool to establish price reasonableness. However, an IGE was not
  completed. In addition, there was no evidence that FTS negotiated a better price for the various skill levels
  for the project. Other Direct Costs (ODCs) were not proposed in the original contract; (2) FTS did not
  adequately justify the use of a Time-and-Materials contract for the project (noted that no Determination and
  Findings was prepared). In addition, there was no established ceiling price or not-to-exceed amount; (3)
  Contributing to the project’s significant cost growth from $300,000 on November 2000 to $2.7 million
  through September 2002 was the additional work performed that was outside the scope of the original
  statement of work. Additional skill levels and ODCs were added to the project. The majority of ODCs
  involved labor services performed by a subcontractor; (4) FTS did not adequately justify period of
  performance extensions; (5) No acquisition plan was completed to ensure proper contract competition; and
  (6) The Solicitation was ambiguous regarding the evaluation/selection/award factors. FAR 15.304 requires
  that all factors and significant sub-factors that will affect contract award and their relative importance shall
  be stated clearly in the Solicitation.

8. 9T2HBP001 – According to the client agency, (Department of the Navy, Commander in Chief, U.S. Pacific
   Fleet, (CINCPACFLT)), this task order was a logical follow-on to task orders 9T0E044A (Note 6) and
   9T0HBP003 (Note 7). As mentioned previously, both projects were Time-and-Materials tasks under the
   ANSWER contract. The incumbent contractor provided the following on-site technical services: IT planning,
   network and system engineering, database application development, & implementation of software
   enhancements.

  Procurement Deficiencies included: (1) The task order was determined not to be a logical follow-on
  because the scope of the work for this task order had changed from task orders, 9T0E044A and
  9T0HBP003. The incumbent contractor was awarded the contract to continue work deemed not to be a
  continuation of the prior task order. As a result, the task order was not properly competed; (2) There was
  no support for fair and reasonable pricing for the significant amount of labor that was proposed in the
  contract. Although not required, the Independent Government Estimate (IGE) is a tool to establish price
  reasonableness. However, an IGE was not completed. In addition, there was no evidence that FTS
  negotiated a better price for the various skill levels for the project; (3) FTS did not adequately justify the use
  of a Time-and-Materials contract for the project (noted that no Determination and Findings was prepared).
  In addition, there was no established ceiling price or not-to-exceed amount; (4) Contributing to the project’s
  significant cost growth from $592,032 on September 27, 2001 to $5.9 million through December 2003 was
  the additional work performed that was outside the scope of the original statement of work. A substantial
  number of skill levels were added to the project; (5) FTS did not adequately justify period of performance
  extensions; and (6) No acquisition plan was completed to ensure proper contract competition.

9. 9T2HBP010 – According to the client agency (Department of the Navy, Commander in Chief, U.S. Pacific
   Fleet, (CINCPACFLT), this task order was a logical follow-on to task order 9T0E044A (Time-and-Materials
   task under the ANSWER contract). The incumbent contractor provided the following IT services: included
   IT Help Desk, IT engineering, and systems analysis.


                                                          A-5
   Procurement Deficiencies included: (1) The task order was determined not to be a logical follow-on
   because the scope of the work for this task order had changed from the original task order, 9T0E044A
   (Hawaii site only). FTS approved numerous modifications authorizing IT work to be performed at additional
   locations in San Diego, California, Yokosuka, Japan, and Bremerton, Washington. The incumbent
   contractor was awarded the contract to continue work deemed not to be a continuation of the prior task
   order. As a result, the task order was not properly competed; (2) There was no support for fair and
   reasonable pricing for the significant amount of labor that was proposed in the contract. Although not
   required, the Independent Government Estimate (IGE) is a tool to establish price reasonableness.
   However, an IGE was not completed. In addition, there was no evidence that FTS negotiated a better price
   for the various skill levels for the project; (3) FTS did not adequately justify the use of a Time-and-Materials
   contract for the project (noted that no Determination and Findings was prepared). In addition, there was no
   established ceiling price or not-to-exceed amount; (4) Contributing to the project’s significant cost growth
   from $3.7 million on October 2001 to $17.2 million through October 2002 was the additional work
   performed that was outside the scope of the original statement of work as mentioned previously. A
   substantial number of skill levels and locations were added to the project; (5) FTS did not adequately justify
   period of performance extensions; and (6) No acquisition plan was completed to ensure proper contract
   competition.

10. 9T3HBP010E – According to the client agency (Department of the Navy, Commander in Chief, U.S. Pacific
    Fleet, (CINCPACFLT)), this task order was a logical follow-on to the previous task order 9T2HBP010
    (Time-and-Materials task under the ANSWER contract). The incumbent contractor provided a myriad of IT
    functions that included IT Help Desk, IT engineering, and systems analysis.

   Procurement Deficiencies included: (1) The task order was determined not to be a logical follow-on
   because the scope of the work for this task order had changed from task order, 9T2HBP010 (Note 9). The
   incumbent contractor was awarded the contract to continue work deemed not to be a continuation of the
   prior task order. As a result, the task order was not properly competed; (2) There was no support for fair
   and reasonable pricing for the significant amount of labor that was proposed in the contract. Although not
   required, the Independent Government Estimate (IGE) is a tool to establish price reasonableness.
   However, an IGE was not completed. In addition, there was no evidence that FTS negotiated a better price
   for the various skill levels for the project; (3) FTS did not adequately justify the use of a Time-and-Materials
   contract for the project (noted that no Determination and Findings was prepared). In addition, there was no
   established ceiling price or not-to-exceed amount; (4) Contributing to the project’s significant cost growth
   from $7.2 million on October 2002 to $11.4 million through March 2004 was the additional work performed
   that was outside the scope of the original statement of work. A substantial number of skill levels were
   added to the project; (5) FTS did not adequately justify period of performance extensions; and (6) No
   acquisition plan was completed to ensure proper contract competition.


11. 9T0N414A & 9T2HLR015 – The Time-and-Materials task, awarded under the ANSWER contract, was a
    combination of two task orders for the U.S. Eighth Army Seoul, Korea Morale, Welfare and Recreation.
    Due to client concerns regarding the cost and progress of the work with the initial task (9T0N414A), the
    client agency and FTS agreed to convert the remaining work from a Time-and-Materials task to a firm-fixed-
    price proposal (9T2HLR015). The project required upgrading the current cable TV system to incorporate
    Internet /Telephony systems and services.

   Procurement deficiencies included: (1) There was no support for fair and reasonable pricing for the
   significant amount of labor and Other Direct Costs (ODCs) that were proposed in the contract. In addition,
   there was no evidence that FTS negotiated a better price for the various skill levels and ODCs for the
   project. Although not required, the Independent Government Estimate (IGE) is a tool to establish price
   reasonableness. However, an IGE was not completed. In addition, there was no documented cost
   breakdown or price reasonableness support for the Firm-fixed-price portion of the project (9T2HLR015); (2)
   FTS did not adequately justify the use of a Time-and-Materials contract for the project (noted that no
   Determination and Findings was prepared). In addition, there was no established ceiling price or not-to-


                                                          A-6
   exceed amount cited on the task order; (3) The ANSWER contract was not the correct contract vehicle for
   this project because ANSWER is a service contract and materials/equipment are considered incidental to
   the primary task requirements which are services. According to the cost proposal for the project, the
   percentage of ODCs to total costs was a significant amount (i.e. 67 percent); (4) The Statement of Work
   was inadequate because the client agency issued work orders to manage work requirements under the
   task order. The primary reason given for the use of work orders was the client agency’s inability to “forecast
   with accuracy what specific support it will require”. The issuance of work orders against task orders is not
   authorized by the ANSWER contract. In addition, “Best Practices” developed by the Office of Federal
   Procurement and Policy cautions agencies issuing work orders under task orders. Agencies should not
   award large, undefined task orders in an effort to expedite the award only to issue subsequent sole source
   work orders; (5) Significant cost growth was noted for the project. A total of $19.7 million was funded and
   paid on this project. While significantly less than the $27.7 million originally proposed / estimated by the
   contractor, only two of the three anticipated project phases were completed as invoiced. The original
   proposed amount for Phase I – Design/Certification and Phase II – Upgrade/Installation was $10.9 million,
   indicating a cost growth of $8.8 million or 80% (19.7 – 10.9 / 10.9) on this project. There was no evidence
   noted in the ITSS files that Phase III – Support/Maintenance was done. Initial price has little or no relation
   to the amounts funded, and it appears that modifications are issued as needed to increase funding to cover
   work that has been requested by means of work orders; and (6) No acquisition plan was completed to
   ensure proper contract competition.

12. 9T9W300A – The project was awarded under the ANSWER contract as a Time-and-Materials task. The
    client agency, (Southwest Naval Facilities Engineering Command in San Diego, California), indicated that
    the task order was a precursor to eight other related task orders, 9T9W300B – 9T9W300I (Notes 13 - 19).
    Total value of the 9 environmentally related task orders was $21.6 million. Authorized on September 10,
    1999, this particular project involved environmental remediation with labor services totaling $621,081.

   Procurement deficiencies for the original award included: (1) Full and fair competition was not assured
   since the analysis used to select the winning quote did not conform to the criteria delineated in the
   solicitation; (2) There was no support for fair and reasonable pricing for the amount of labor that was
   proposed in the contract. Although not required, the Independent Government Estimate (IGE) is a tool to
   establish price reasonableness. However, an IGE was not completed. In addition, there was no evidence
   that FTS negotiated a better price for the various skill levels for the project; (3) Inappropriate use of the IT
   fund because contracted services did not appear to be IT related (i.e. environmental remediation); (4) FTS
   did not adequately justify the use of a Time-and-Materials contract for the project (noted that no
   Determination and Findings was prepared). In addition, there was no established ceiling price or not-to-
   exceed amount; (5) No acquisition plan was completed to ensure proper contract competition.

13. 9T9W300B – According to the client agency, (Southwest Naval Facilities Engineering Command), this task
    order was a logical follow-on to task order 9T9W300A (Note 12) (Time-and-Materials task under the
    ANSWER contract). The purpose of the task order was to add funding to increase the level of effort to the
    remediation support that was currently provided. Authorized on April 24, 2000, the project involved
    environmental remediation with labor services & Other Direct Costs (ODCs) totaling $1,319,022.

   Procurement deficiencies included: (1) The task order was determined not to be a logical follow-on because
   the scope of the work for this task order had changed from the original task order, 9T9W300A (Note 12).
   An additional skill level was added to the project. The incumbent contractor was awarded the contract to
   continue work deemed not to be a continuation of the prior task order. As a result, the task order was not
   properly competed. According to ANSWER guidelines, program officials should avoid situations where the
   requirements for the competed original task order are insignificant in dollar value, only to be followed by
   sole-source task orders that are much broader in scope and dollar value as in this particular task; (2) There
   was no support for fair and reasonable pricing for ODCs and the significant amount of labor that were
   proposed in the contract. Although not required, the Independent Government Estimate (IGE) is a tool to
   establish price reasonableness. However, an IGE was not completed. In addition, there was no evidence
   that FTS negotiated a better price for both the various skill levels and ODCs for the project; (3)
   Inappropriate use of the IT fund because contracted services did not appear to be IT related (i.e.
   environmental remediation); (4) FTS did not adequately justify the use of a Time-and-Materials contract for

                                                          A-7
   the project (noted that no Determination and Findings was prepared). In addition, there was no established
   ceiling price or not-to-exceed amount; and (5) No acquisition plan was completed to ensure proper contract
   competition.

14. 9T9W300C – According to the client agency, (Southwest Naval Facilities Engineering Command), this task
    order was a continuation of task order 9T9W300B (Note 13) (Time-and-Materials task under the ANSWER
    contract). The objective of the task order was to provide an Oracle database design and to implement a
    Geographical Information System (GIS) database in order to achieve the Environmental Specialty Support
    Department’s web page requirement of task order 9T9W300B. Authorized on June 8, 2000, the project
    involved labor service & Other Direct Costs totaling $67,987.

   Procurement deficiencies included: (1) The task order was not properly competed. Apparently, the market
   analysis indicated that the level of effort on the existing task 9T9W300B was extended to include the GIS
   database under task order 9T9W300C. The incumbent contractor was then automatically awarded
   9T9W300C to continue work that was totally unrelated to work required under task 9T9W300B; (2) There
   was no support for fair and reasonable pricing for Other Direct Costs (ODCs) and the significant amount of
   labor that were proposed in the contract. Although not required, the Independent Government Estimate
   (IGE) is a tool to establish price reasonableness. However, an IGE was not completed. In addition, there
   was no evidence that FTS negotiated a better price for the skill level and ODCs for the project; (3) FTS did
   not adequately justify the use of a Time-and-Materials contract for the project (noted that no Determination
   and Findings was prepared). In addition, there was no established ceiling price or not-to-exceed amount;
   (4) Contributing to the project’s significant cost growth from $67,987 on June 8, 2000 to $1.9 million through
   March 2004 was the additional work performed that was outside the scope of the original statement of
   work. A significant number of skill levels were added to the project; (5) FTS did not adequately justify
   period of performance extensions; and (6) No acquisition plan was completed to ensure proper contract
   competition.

15. 9T9W300D – According to the client agency, (Southwest Naval Facilities Engineering Command), this task
    order was issued as a subtask under the previously competed “Umbrella” delivery order (i.e. a logical
    follow-on) to task order 9T9W300A (Note 12) (Time-and-Materials task under the ANSWER contract).
    According to the Statement of Work, there were (2) requirements: (1) Provide hazardous abatement
    support to the Environmental Safety Office; and (2) To provide hazardous material support. Authorized on
    August 21, 2000, the project included labor services & Other Direct Costs (ODCs) totaling $201,748.

   Procurement deficiencies included: (1) The task order was determined not to be a logical follow-on because
   the scope of the work for this task order had changed from the original task order, 9T9W300A (Note 12).
   The scope of work dramatically changed from the initial order by requiring far different skill levels for the
   project. The incumbent contractor was awarded the contract to continue work determined not to be a
   continuation of the original task order. As a result, the task order was not properly competed. According to
   ANSWER guidelines, program officials should avoid situations where the requirements for the competed
   original task order are insignificant in dollar value, only to be followed by sole-source task orders that are
   much broader in scope and dollar value as in this particular task; (2) There was no support for fair and
   reasonable pricing for ODCs and labor that were proposed in the contract. Although not required, the
   Independent Government Estimate (IGE) is a tool to establish price reasonableness. However, an IGE was
   not completed. In addition, there was no evidence that FTS negotiated a better price for the skill level and
   ODCs for the project; (3) Inappropriate use of the IT fund since contracted services did not appear to be IT
   related. In the Statement of Work, environmental services were needed to address hazardous abatement of
   2 rooms: the Paint/Strip Shop and the Composite Shop in San Diego, California. In addition, the scope of
   work was significantly expanded and included projects such as assessment & engineering of fall protection
   and hazards, abatement of crane falls hazards, & installation of hurricane shutters to name a few; (4) FTS
   did not adequately justify the use of a Time-and-Materials contract for the project (noted that no
   Determination and Findings was prepared). In addition, there was no established ceiling price or not-to-
   exceed amount; (5) Contributing to the project’s significant cost growth from $201,748 on August 21, 2000
   to $7.3 million through January 2004 was the additional work performed that was outside the scope of the
   original statement of work as mentioned previously. The number of skill levels increased significantly for


                                                         A-8
   work performed throughout other naval bases in the U.S. and the world. Some examples included
   assessment of fall protection required at Naval Air Stations in Florida, New Hampshire, Virginia, & Iceland,
   and installation of hurricane storm shutters in Florida; (6) FTS did not adequately justify period of
   performance extensions; and (7) No acquisition plan was completed to ensure proper contract competition.

16. 9T9W300E – According to the client agency, (Southwest Naval Facilities Engineering Command), this task
    order was issued as a subtask under the previously competed “Umbrella” delivery order (i.e. a logical
    follow-on) to task order 9T9W300A (Note 12) (Time-and-Materials task under the ANSWER contract). The
    objective of the task order was to provide environmental remediation. Authorized on November 27, 2000,
    the project involved environmental labor services & Other Direct Costs (ODCs) totaling $66,735.

   Procurement deficiencies included: (1) The task order was determined not to be a logical follow-on because
   the scope of the work for this task order had changed from the original task order, 9T9W300A (Note 12).
   The scope of work dramatically changed from the initial order by requiring different skill levels for the
   project. The incumbent contractor was awarded the contract to continue work determined not to be a
   continuation of the original task order. As a result, the task order was not properly competed. According to
   ANSWER guidelines, program officials should avoid situations where the requirements for the competed
   original task order are insignificant in dollar value, only to be followed by sole-source task orders that are
   much broader in scope and dollar value as in this particular task; (2) There was no support for fair and
   reasonable pricing for ODCs and labor that were proposed in the contract. Although not required, the
   Independent Government Estimate (IGE) is a tool to establish price reasonableness. However, an IGE was
   not completed. In addition, there was no evidence that FTS negotiated a better price for the skill level and
   ODCs for the project; (3) Inappropriate use of the IT fund since contracted services did not appear to be IT
   related. In the Statement of Work, environmental services were needed to address remediation,
   documentation, and analysis support in San Diego, California. In addition, the scope of work was
   significantly expanded to other U.S. naval bases that included subtasks or work orders that were added to
   the scope with corresponding increase in labor support; (4) FTS did not adequately justify the use of a
   Time-and-Materials contract for the project (noted that no Determination and Findings was prepared). In
   addition, there was no established ceiling price or not-to-exceed amount; (5) Contributing to the project’s
   significant cost growth from $66,735 on November 27, 2000 to $7.6 million through June 2004 was the
   additional work performed outside the scope of the original statement of work as previously mentioned.
   The number of skill levels increased significantly for work performed throughout other U.S. naval bases.
   Examples included San Clemente Island, Hunter’s Point Shipyard, and El Centro, which were sites all
   located in California; (6) FTS did not adequately justify period of performance extensions; and (7) No
   acquisition plan was completed to ensure proper contract competition.

17. 9T9W300F – According to the client agency, (Southwest Naval Facilities Engineering Command), this task
    order was issued as a subtask under the previously competed “Umbrella” delivery order (i.e. a logical
    follow-on) to task order 9T9W300A (Note 12) (Time-and-Materials task under the ANSWER contract). The
    purpose of the task order was to provide environmental ergonomic technical support and program
    management to the Southwest Division Naval Facilities Engineering Command. Authorized on February 7,
    2001, the project involved environmental labor services & Other Direct Costs (ODCs) totaling $145,631.

   Procurement deficiencies included: (1) The task order was determined not to be a logical follow-on because
   the scope of the work for this task order had changed from the original task order, 9T9W300A (Note 12).
   The scope of work dramatically changed from the initial order by requiring different sets of skill levels for the
   project. The incumbent contractor was awarded the contract to continue work determined not to be a
   continuation of the original task order. As a result, the task order was not properly competed. According to
   ANSWER guidelines, program officials should avoid situations where the requirements for the competed
   original task order are insignificant in dollar value, only to be followed by sole-source task orders that are
   much broader in scope and dollar value as in this particular task; (2) There was no support for fair and
   reasonable pricing for ODCs and labor that were proposed in the contract. Although not required, the
   Independent Government Estimate (IGE) is a tool to establish price reasonableness. However, an IGE was
   not completed. In addition, there was no evidence that FTS negotiated a better price for the skill level and
   ODCs for the project; (3) Inappropriate use of the IT fund since the majority of contracted services did not


                                                           A-9
   appear to be IT related. According to the Statement of Work, technical and consultation services were
   required that included researching regulations, preparing and presenting ergonomic training modules, and
   performing site visits. A minor portion of the contracted services appeared to be IT-related (i.e. maintain an
   ergonomic web page and chat room); (4) FTS did not adequately justify the use of a Time-and-Materials
   contract for the project (noted that no Determination and Findings was prepared). In addition, there was no
   established ceiling price or not-to-exceed amount; (5) Contributing to the project’s significant cost growth
   from $145,631 on February 7, 2001 to $2.5 million through March 2004 was the additional work performed
   that was outside the scope of the original statement of work. The number of skill levels had increased
   significantly for work performed throughout other U.S. naval bases; (6) FTS did not adequately justify
   period of performance extensions; and (7) No acquisition plan was completed to ensure proper contract
   competition.

18. 9T9W300G – According to the client agency, (Southwest Naval Facilities Engineering Command), this task
    order was issued as a subtask under the previously competed “Umbrella” delivery order (i.e. a logical
    follow-on) to task order 9T9W300A (Note 12) (Time-and-Materials task under the ANSWER contract). The
    objective of the task order was to provide environmental safety support. Authorized on August 8, 2001, the
    project involved environmental labor services & Other Direct Costs (ODCs) totaling $111,650.

   Procurement deficiencies included: (1) The task order was determined not to be a logical follow-on because
   the scope of the work for this task order was quite different from the original task order, 9T9W300A (Note
   12). The original task was for environmental remediation; whereas, this project required engineering and
   design support for hazard abatement. In addition, various subtasks were added to the project. The
   incumbent contractor was awarded the contract to continue work deemed not to be a continuation of the
   prior task order. As a result, the task order was not properly competed. As a result, the task order was not
   properly competed. According to ANSWER guidelines, program officials should avoid situations where the
   requirements for the competed original task order are insignificant in dollar value, only to be followed by
   sole-source task orders that are much broader in scope and dollar value as in this particular task; (2) There
   was no support for fair and reasonable pricing for ODCs and labor that were proposed in the contract.
   Although not required, the Independent Government Estimate (IGE) is a tool to establish price
   reasonableness. However, an IGE was not completed. In addition, there was no evidence that FTS
   negotiated a better price for the skill level and ODCs for the project; (3) Inappropriate use of the IT fund
   since the majority of contracted services did not appear to be IT related. According to the Statement of
   Work, technical and consultation services were required that included conceptual estimation, engineering
   drawings, work plan development, project tracking, securing permits, and fabrication/construction of
   required solutions. In addition, the Monthly Status Reports noted work accomplishments that were not IT-
   related (e.g. receipt of a lift table to transport heavy antennas); (4) FTS did not adequately justify the use of
   a Time-and-Materials contract for the project (noted that no Determination and Findings was prepared). In
   addition, there was no established ceiling price or not-to-exceed amount; (5) Contributing to the project’s
   cost growth from $111,650 on August 8, 2001 to $538,620 through December 2002 was the additional work
   performed that was outside the scope of the original statement of work (i.e. subtasks were added); and (6)
   No acquisition plan was completed to ensure proper contract competition.

19. 9T9W300H – According to the client agency, (Southwest Naval Facilities Engineering Command), this task
    order was issued as an extension of the previous task 9T9W300A, i.e. a logical follow-on (Note 12) (Time-
    and-Materials task under the ANSWER contract). The purpose of the task order was to provide technical
    consulting services to the Naval Facilities Engineering Command Southwest in San Diego, California by
    developing an Oracle database a geographical information system (GIS) in conjunction with the
    development of regional data standards for environmental data. Authorized on October 11, 2001, the
    project involved environmental labor services totaling $66,990.

   Procurement deficiencies included: (1) The task order was determined not to be a logical follow-on because
   the scope of the work for this task order had changed from the original task order, 9T9W300A (Note 12).
   The scope of work dramatically changed from the initial order by requiring a different skill level for the
   project. The incumbent contractor was awarded the contract to continue work determined not to be a
   continuation of the original task order. As a result, the task order was not properly competed. According to


                                                          A-10
   ANSWER guidelines, program officials should avoid situations where the requirements for the competed
   original task order are insignificant in dollar value, only to be followed by sole-source task orders that are
   much broader in scope and dollar value as in this particular task; (2) There was no support for fair and
   reasonable pricing for the proposed labor in the contract. Although not required, the Independent
   Government Estimate (IGE) is a tool to establish price reasonableness. However, an IGE was not
   completed. In addition, there was no evidence that FTS negotiated a better price for the skill level and
   ODCs for the project; (3) FTS did not adequately justify the use of a Time-and-Materials contract for the
   project (noted that no Determination and Findings was prepared). In addition, there was no established
   ceiling price or not-to-exceed amount; (4) Contributing to the project’s cost growth from $66,990 on
   October 11, 2001 to $462,734 through December 2003 was the additional work performed that was outside
   the scope of the original statement of work (i.e. subtasks were added); and (5) No acquisition plan was
   completed to ensure proper contract competition.

20. 9T9W300I – According to the client agency, (Southwest Naval Facilities Engineering Command), this task
    order was issued as a subtask under the previously competed “Umbrella” delivery order (i.e. a logical
    follow-on) to task order 9T9W300A (Note 12) (Time-and-Materials task under the ANSWER contract). The
    objective of the task order was to provide to Southwest Naval Facilities Engineering Command project
    management assistance. Authorized on April 22, 2002, the project involved labor services & Other Direct
    Costs (ODCs) totaling $79,577.

   Procurement deficiencies included: (1) The task order was determined not to be a logical follow-on because
   the scope of the work for this task order had changed from the original task order, 9T9W300A (Note 12).
   The scope of work dramatically changed from the initial order by requiring a different skill level for the
   project. The incumbent contractor was awarded the contract to continue work determined not to be a
   continuation of the original task order. As a result, the task order was not properly competed. According to
   ANSWER guidelines, program officials should avoid situations where the requirements for the competed
   original task order are insignificant in dollar value, only to be followed by sole-source task orders that are
   much broader in scope and dollar value as in this particular task; (2) There was no support for fair and
   reasonable pricing for the proposed labor in the contract. Although not required, the Independent
   Government Estimate (IGE) is a tool to establish price reasonableness. However, an IGE was not
   completed. In addition, there was no evidence that FTS negotiated a better price for the skill level and
   ODCs for the project; (3) Inappropriate use of the IT fund since contracted services did not appear to be IT
   related. Per the Statement of Work, project management assistance involved data collection, regulation
   interface, and participation in brief; (4) FTS did not adequately justify the use of a Time-and-Materials
   contract for the project (noted that no Determination and Findings was prepared). In addition, there was no
   established ceiling price or not-to-exceed amount; (5) FTS did not adequately justify period of performance
   extensions; and (6) No acquisition plan was completed to ensure proper contract competition.

21. 9T1S111DW – The project was awarded under the ANSWER contract as a Time-and-Materials task. The
    project is to support U.S. Navy family housing offices worldwide by preparing housing management
    offices/activities for the migration from the legacy FAMIS system to a current version of the electronic
    Family Housing system. Initially awarded to Litton PRC (Litton), whose name changed to TASC,
    Incorporated (TASC), both Litton and TASC are wholly owned subsidiaries of Northrop Grumman
    Information Technology (NG).

   Procurement Deficiencies included: (1) Inadequate competition due to one bid received. A representative
   of one solicited contractor who submitted a no bid indicated that they did not submit a bid because of their
   relationship with NG and the incumbent contractor, Litton which is also a subsidiary of NG. The
   representative further stated that essentially they would be bidding against one other. In addition, the
   Notice to All ANSWER-Multiple Award Contractors was not objectively written, favoring the incumbent
   contractor by emphasizing that their performance for the past three years had been considered “excellent”;
   (2) FTS did not adequately justify the use of a Time-and-Materials contract for the project (noted that no
   Determination and Findings was prepared); (3) Contributing to the project’s cost growth from $1.3 million to
   $24.6 million was the client agency adding work and providing the funding to the task; (4a) No acquisition
   plan was completed to ensure proper contract competition. (4b) No Independent Government Estimate


                                                        A-11
   (IGE) was prepared prior to award, resulting in no means of determining or evaluating the overall project
   cost. Therefore, no ceiling price or not-to-exceed amount was established; and (5) The client agency
   accepted invoices even though the skill levels did not match the labor categories per the ANSWER
   contract, which was indicative that the client agency or FTS conducted little, if any review. For example,
   per the May 27, 2003 invoice, invoice amount for skill level 11D Info SYS ADMIN & Plan MGR. The labor
   category in the ANSWER contract was skill 11 not 11D at a ceiling rate of $136.75. As a result, there was
   an overcharge.

22. 9T3HRE068 – The project was awarded under the ANSWER contract as a Time-and-Materials task. The
    project required upgrading and modernizing the classified base network (SIPRnet) at all nine main
    operating bases, located throughout the Asia-Pacific region, in support of the Pacific Air Forces Command
    and Control standardization initiative. Authorized on December 10, 2002, the project’s proposed project
    costs totaled $89,486.

   Procurement deficiencies included: (1) Questionable Competition & Award Process- The initial bid/price
   quotes were only requested for a limited portion of the overall task (i.e., cost of conducting site surveys at
   only four of the nine bases) with a wide disparity in proposed prices for the project (ranging from $57,156 to
   the highest bid of $663,471). Given the wide disparity of the proposed bids for the project, FTS did not
   adequately document its price analysis of bid proposals and evaluation award factors. Consequently, the
   project was awarded based upon an initial bid of $89,486, from which it has increased to $13 million; (2)
   There was no support for fair and reasonable pricing for the proposed labor and Other Direct Costs in the
   contract. Although not required, the Independent Government Estimate (IGE) is a tool to establish price
   reasonableness. However, an IGE was not completed. With no completed IGE, there was no means of
   determining or evaluating the overall project cost. In addition, there was no evidence that FTS negotiated a
   better price for the skill level and ODCs for the project; (3) FTS did not adequately justify the use of a Time-
   and-Materials contract for the project (noted that no Determination and Findings was prepared prior to
   awarding the contract). In addition, there was no established ceiling price or not-to-exceed amount. This
   Time-and-Materials task order was not incrementally funded, but continually increased through
   modifications, as new work requirements were identified and proposals submitted; (4) In less than one
   year, there was significant cost growth in the project (from the initial bid of $89,486 on December 10, 2002
   to $13 million through September 2003) due to no ceiling price cited on the task; and (5) No acquisition
   plan was completed to ensure proper contract competition.

23. 9T3HGO076 – The project was awarded under the ANSWER contract as a Time-and-Materials task. Work
    was performed at the request of the Commander Navy Region in Hawaii. Examples of on-site technical
    services that the project required included: management and fine-tuning of existing systems, network and
    system engineering, software and database application development, etc. Total amount of the project
    through December 2003 (3rd modification) was $3,722,027.

   No significant contract procurement problems or issues were noted. The task order was properly awarded
   and administered; and actions and decisions were adequately documented.

24. 9T3SST001A – The project was awarded under the ANSWER contract as a Time-and-Materials task.
    Work was performed to provide network support to the Space & Missile Center, Los Angeles Air Force
    Base. A total of six task order numbers have been issued to date, primarily due to funding restrictions
    imposed by the client. Authorized on August 6, 2003, the project’s proposed cost was valued at $3.4
    million.

   Procurement Deficiencies included: (1) FTS did not adequately justify the use of a Time-and-Materials
   contract for the project (noted that no Determination and Findings was prepared). In addition, there was no
   established ceiling price or not-to-exceed amount; (2a) Inadequate documentation - Although the original
   task order was competed through Fair Opportunity under the ANSWER contract, there was no documented
   evaluation of bids/proposals or Post-Negotiation Memorandum; and FTS was unable to provide evidence of
   it. In addition, no original proposal or winning price quote was either documented in the ITSS or provided
   by the IT Manager; (2b) Inadequate documentation - There were no formally-established option years, and


                                                         A-12
   the period of performance was limited initially to only nine months. Although FTS has been “exercising
   option years” on what is considered to be a ten-year task order, no such justification has been documented
   in the ITSS or otherwise provided. Without an established ceiling price or period of performance, this is
   essentially an open-ended task order that has been funded to the extent of $28.7 million and extended over
   a five-year period with no documented analysis of pricing or decisions; and (2c) No acquisition plan was
   completed to ensure proper contract competition.

25. 9T2Z250TSA – This task order supports the U.S. Customs Service (now part of the Department of
    Homeland Security) in the design, implementation, testing and training of modern surveillance systems at
    selected Ports of Entry along the U.S./Mexican border. The project is a Firm-Fixed price task order
    awarded on September 17, 2002 under the GWAC (Millennia-Lite) over a span of 5 years (base year & 4
    option years).

   Procurement deficiencies included: (1) There was no support for fair and reasonable pricing for the
   proposed labor in the contract. FTS provided an explanation that prices compared favorably to a similar
   task performed by the same contractor. However, there was no documented evidence such as written
   crosschecks on pricing between the two tasks. Although not required, the Independent Government
   Estimate (IGE) is a tool to establish price reasonableness. However, an IGE was not completed. In
   addition, there was no evidence that FTS negotiated a better price for the skill level and ODCs for the
   project; and (2) No acquisition plan was completed to ensure proper contract competition.

26. 9T3HKL762 – This task order was awarded to International Business Machines Corporation (IBM) under
    the Federal Supply Schedule 70. Task that provided IT management and consulting services for the
    Department of Navy. The firm-fixed price contract is currently active and valued at approximately $2
    million.

   Procurement Deficiencies included: (1) There was no support for fair and reasonable pricing for the
   proposed labor in the contract. Although not required, the Independent Government Estimate (IGE) is a
   tool to establish price reasonableness. However, an IGE was not completed. In addition, there was no
   evidence that FTS negotiated a better price for labor services that was required for the project; (2) No
   acquisition plan was completed to ensure proper contract competition; and (3) Although the contract was
   firm-fixed price, the labor rates incorporated in the award exceeded the Schedule 70 contract rates.
   Individual proposed rates were not compared to the maximum rates prior to award.

27. 9T3APN006 – The task order was awarded under the ANSWER contract as a firm-fixed price. The project
    requirement was the development of an intelligence, surveillance and reconnaissance master plan in
    support of the Combined Forces Command/United States Forces in Korea. Task order valued at
    approximately $1.5 million as of August 2003.

   Procurement Deficiencies included: (1) No acquisition plan was completed to ensure proper contract
   competition; (2) Designation of the Contracting Officer Representative was not on file; and (3) Due to the
   highly sensitive and classified nature of the task order (requiring Top Secret clearance), information may
   have been limited that precluded FTS from properly performing its contracting duties. As a result, FTS was
   unable to ensure itself that the work was actually performed.




                                                      A-13
                                                                                                                                APPENDIX B

                            SCHEDULE OF ENVIRONMENTAL TASK ORDERS
                                      PACIFIC RIM REGION

           Sample            Form 300                                               Contract        Total Value
           Number Task Order   Date                        Contractor               Vehicle          Of Task            Notes
              33      9T1Y970A      30-Aug-00 URS Group, Inc.                          FSS                $4,587,795     28
              34      9T0W280A      17-Jul-00 Anteon Corporation                      GWAC                   551,524     29
              35      9T0R124A      13-Jun-00 Anteon Corporation                      GWAC                   547,787     30
                                         Science Applications International
              36     9T1N091PG 31-Aug-01                                               FSS                   441,397     31
                                         Corporation
              37      9T1S025LS     30-Jul-01 Tetra Tech, Inc.                         FSS                   405,565     32
              38     9T0H003GO 7-Sep-00 High Technology Solutions, Inc.             FAST 8 (a)               348,578     33
              39     9T1N081PG 18-Jul-01 Peer Consultants, P.C.                        FSS                   258,870     34
                                               Sullivan Environmental Solutions
              40     9T3SDS007      1-Oct-02                                           FSS                   220,721     35
                                               LLC
              41     9T3SFG014      1-Apr-03 Tetra Tech, Inc.                          FSS                   185,899     36
              42     9T3SFG015 17-Apr-03 Tetra Tech, Inc.                              FSS                   170,592     37
              43     9T1N023CM      1-Oct-01 Kleinfelder, Inc.                         FSS                   114,309     38
                                         Montgomery Watson Americas,
              44     9T1N064PG 17-Jan-03                                               FSS                   113,246     39
                                         Inc.
                                         Sullivan Environmental Solutions
              45     9T3SDS008 30-Sep-02                                            8(a) IDIQ                 80,538     40
                                         LLC
              46     9T2N048DW 19-Feb-03 Booz-Allen & Hamilton, Inc.                  GWAC                    65,897     41
                                         Science Applications International
              47     9T3SCK003 10-Feb-03                                              GWAC                    56,580     42
                                         Corporation
                                                                                            Total         $ 8,149,298


NOTES:

    28. Environmentally related task order that required responsive air quality support
    29. Environmentally related task order that required water quality protection support
    30. Task order that involved testing of hazardous and toxic chemicals
    31. Task order that was an environmental investigation and feasibility study
    32. Task order that was an environmental remediation and feasibility study
    33. Environmentally related task order that involved management of hazardous waste materials
    34. Task order that was an environmental remediation and feasibility study
    35. Environmentally-related task order that required environmental services
    36. Task order that was an environmental remediation and feasibility study
    37. Task order that was an environmental remediation project
    38. Environmentally-related task order that involved drilling, installing, & monitoring groundwater
    39. Environmentally-related task order that involved site assessment to determine soil & water contamination
    40. Environmentally related task order that involved solid waste characterizations and assessments
    41. Environmental related task order that involved scoping wild and scenic river assessment & inventory of selected timber
       stands
    42. Environmentally-related task order that required an air quality compliance audit




                                                                  B-1
                                                                                                                           APPENDIX C

                                       SCHEDULE OF NON-IT TASK ORDERS
                                             PACIFIC RIM REGION


         Sample                    Form 300                                        Contract        Total Value
         Number    Task Order        Date                Contractor                Vehicle          Of Task        Notes
                                             Gregory Edeson, PA Government
           48      9T2HKL713       14-May-02                                         FSS              $2,208,460    43
                                             Services, Inc.
                                             Gregory Edeson, PA Government
           49      9T2HKL695       25-Jan-00                                         FSS                 819,933    44
                                             Services, Inc.
           50       9T0B209A       30-Jun-00 SMF Systems                          FAST 8 (a)             698,557    45
           51       9T9E011A       18-Aug-99 Information Systems Support, Inc.      GWAC                 601,439    46
           52      9T2HG0052       16-Sep-02 Information Systems Support, Inc.      GWAC                 474,887    47
           53     9T1H660RW 27-Aug-01 Information Systems Support, Inc. FAST 8 (a)                       436,249    48
           54      9T2S038FG       25-Sep-02 Information Systems Support, Inc.      GWAC                 371,780    49
           55      9T3SBB004       19-Sep-02 Information Systems Support, Inc.      GWAC                 293,627    50
           56      9TS2DS033       17-Apr-02 Sullivan Consulting Group             8(a) IDIQ             267,520    51
           57      9T3N068AB        3-Oct-02 Onan Corporation                        FSS                 226,314    52
           58      9T3HG0056       11-Sep-02 Information Systems Support, Inc.      GWAC                 157,033    53
           59     9T1HJD059A 29-May-01 Computer Sciences Corporation                 FSS                 149,000    54
           60     9T1HJD146A        1-Oct-01 Herman Miller                           FSS                 116,433    55
           61     9T1HBP199A        2-Oct-01 SMF Systems Corporation                 FSS                 107,133    56
           62      9T2N002CM       29-Jan-02 Information Systems Support, Inc.      GWAC                 103,114    57
           63      9T3H003JP       14-Apr-03 Information Systems Support, Inc.      GWAC                 102,010    58
           64      9T2N041KF       14-Jun-02 Anteon Corporation                     GWAC                  66,571    59
           65      9T3SSS580       16-Apr-03 Herman Miller                           FSS                  62,927    60
           66      9T3SBB020       27-Mar-03 Information Systems Support, Inc.      GWAC                  50,156    61
           67      9T1S034DS      26-Sept-01 Gray Systems, Inc.                    8(a) IDIQ              31,519    62
           68      9T2N007SH       24-Jun-02 Information Systems Support, Inc.      GWAC                  17,505    63
                                                                                        Total         $7,362,167


NOTES:

    43. Task order that required a study for utilities privatization efforts
    44. Task order that required a study for utilities privatization efforts
    45. Task order that required room renovation & expansion
    46. Task order that required the hiring of a Budget Analysis
    47. Task order that required theater level exercise planning support for the military branch
    48. Task order that required the hiring of a nurse practitioner, an administrator, and an ophthalmology imaging technician
    49. Task order that required the hiring of a community development management planner
    50. Task order that required electronic input of data from various source documents
    51. Per invoice review, reimbursement of costs involved structure improvements for a hazardous waste storage facility
    52. Task order that involved the purchase of diesel generators and related components
    53. Task order that required the coordination of telecommunication, transportation, and emergency service calls for the
       Navy
    54. Task order that required room renovation
    55. Task order that involved the purchase of office furniture



                                                                     C-1
56. Task order that involved the purchase of office furniture
57. Task order that required hiring of an employee to perform mailroom functions (sorting, metering, delivering, etc.)
58. Task order that required the hiring of a management analyst
59. Based on the Statement of Work, the scope of work involved arranging for travel and conference meetings
60. Task order that involved the purchase of ergonomic office chairs for IT workstations
61. Task order that required the hiring of a document destruction officer
62. Task order that involved the purchase of a refurbished modular unit
63. Task order involved the hiring of a civil engineer




                                                                C-2
                                                                                                                                APPENDIX D

                              SCHEDULE OF REVIEWED FY 2004 TASK ORDERS

          Sample                       Form 300                                              Contract        Total Value
          Number       Task Order        Date                     Contractor                 Vehicle          Of Task           Notes
          Newly Awarded Task Orders
             69       9T4ZJKIS276      14-Apr-04 Science Applications Int’l Corporation       GWAC               $18,563,152     64
             70       9T4ZJKIS277      29-Apr-04 Prologic, Inc.                             FAST 8(a)               2,584,817    65
                                                                                            Professional
             71       9T3NML225        19-Mar-04 Exponent, Inc.                             Engineering
                                                                                                                    3,544,672    66
             72     9T4SBGIS007A 28-May-04 Computer Sciences Corporation                      GWAC                  1,857,234    67
             73       9T4TJSIS393      29-Mar-04 Digital Consulting Services                FAST 8(a)                 693,000    68
          Existing Task Orders with Modifications
             74       9T1Z280TSA       28-Sept-01 New Technology Management, Inc.             GWAC               $46,618,320     69
             75        9T1Y971A         25-Jul-00 SRS Technologies                             FSS                 13,682,383    70
             76       9T1S011FG         5-Jan-01 ITS Corporation                              GWAC                  8,301,193    71
             77       9T3NML210        14-Jan-03 Electronic Data Systems, Corp.                FSS                 58,018,949    72
             78        9T0Y104A        5-May-00 Anteon Corporation                            GWAC                  3,673,964    73
                                                                                      TOTAL          $157,537,684
         *Total Task Value represents either the greater of the Total Award Amount or Total Obligated Amount
NOTES:

  Newly Awarded Task Orders
   64. No deficiencies were noted in the administration of this task order.

   65. Deficiencies included: No explanation for conclusion that price was fair and reasonable.

   66. Deficiencies included: Missing Negotiation Memorandum; No documentation to support price reasonableness; Acquisition
       Plan deficient; and Quality control checklists on file, but no evidence of required signatures.

   67. Deficiencies included: No established ceiling price for Time-and-Materials task; & quality control checklists on file, but no
       evidence of required signatures.

   68. Deficiencies included: 8(a) Pre-Solicitation Checklist was not completed, no evidence of evaluating labor mix/level of effort, &
       the market evaluation/analysis was inaccurate due to use of incorrect information.
  Existing Task Orders with Modifications
   69. No deficiencies were noted in the administration of Modification 8 dated 4/29/04 - A no cost modification was issued in
       2004, therefore, no checklist required.

   70. Deficiencies noted in review of modifications 14 (value of $90,690), 15 ($97,087), & 16 ($91,610) dated 04/23/04, 04/29/04, &
       05/26/04, respectively, included: Work was predominately non-IT in nature, & the period of performance was extended
       beyond the initial period of performance without option years included in the initial award. A non-current Checklist was
       completed instead of the current version.

   71. Deficiencies noted in review of no cost modifications 19, 20, & 21 dated 03/02/04, 4/23/04, & 5/25/04, respectively,
       included: Work was predominately non-IT in nature, the period of performance was extended beyond the initial period of
       performance without option years included in the initial award. Modification 21 added a new labor category. However, there
       was no documentation to support cost evaluation for the added labor.

   72. Deficiencies noted in review of modification 7 for $49,020, dated 3/10/04 –In May 2004, the Contract Review Panel cited
       “need to expand & strengthen SOW to indicate that the majority of the work is in the database support.” In addition, the CRP
       cited the need to address questions on open market $21 million in other direct costs.

   73. Deficiencies noted in review of modifications 36 ($147,140), 37 ($47,465), & 38 ($370,142) dated 03/30/04, 04/29/04, &
       5/21/04, respectively, included: FTS authorized two unsolicited modifications exceeding $100,000. There was no established
       ceiling price and no documentation to support the level of effort or price reasonableness for other direct costs.




                                                                      D-1
                                                                                                 APPENDIX E



                                                                   GSA Pacific Rim Region

October 7, 2004


MEMORANDUM FOR: JOSEPH J. BREWSTER
                REGIONAL INSPECTOR GENERAL FOR AUDITING
                PACIFIC RIM REGION (JA-9)




FROM:                     PETER G. STAMISON
                          REGIONAL ADMINISTRATOR
                          PACIFIC RIM REGION (9A)


SUBJECT:                  Draft Report: Review of Client Support Center, Region 9
                          Federal Technology Service (FTS) Assignment Number A030205


This memorandum is in response to the subject FTS, Region 9, Client Support Center (CSC) Draft Audit
Report.

The first portion of the report entails a review of 68 task orders, some which were traced back to FY99
although the majority of task orders were awarded in FY00 and FY01. It is emphasized that more than 85%
of these task orders have been completed or have articulated exit strategies. We acknowledge the overall
findings delineated in the draft audit; however, there are areas in the report, which the FTS organization
believes require additional explanation and comment to enhance its overall clarity. These comments are
provided in the attachment to this memorandum.

FTS has taken a proactive approach to minimize the inherent vulnerabilities in its acquisition processes.
FTS has infused quality and compliance with regulations relative to its acquisitions. In addition to FTS
mandated measures, the Pacific Rim Region implemented the Acquisition Risk Mitigation Initiative (ARMI)
in August 2003, specifically for the purpose of reducing acquisition risk. ARMI prescribes specific
procedures that are to be followed before solicitation and award to mitigate risks throughout the acquisition
process. A critical aspect of the ARMI is the required Contract Review Panel process where a senior level
group reviews all contract actions over $1 million. In addition, a legal review is conducted for complex
acquisitions and all acquisitions over $5 million. ARMI is an evolving document and is currently
undergoing its third iteration.
                                                                               U.S. General Services Administration
                                                                                          450 Golden Gate Avenue
                                                                                    San Francisco, CA 94102-3434
                                                                                                      www.gsa.gov


                                                    E-1
The second section of the report reviewed 10 task orders dated from March to May 2004.
The main focus of this reply is to provide contextual clarification in response to the findings from the review
of the 2004 task orders. It is our position that the findings for the 2004 sample are of a nature which can be
considered primarily lapses in the level of documentation, as opposed to the more profound concerns
revealed in the initial audit sample. Management has taken steps to strengthen documentation of award
decisions and emphasized proper documentation to support each acquisition.

Thank you again for the opportunity to garner valuable information as a result of the audit. Should you have
further questions, please contact Mr. Paul Galassi of my staff at 415-436-8202.

Attachment




                                                     E-2
                                                       -2-

                                      PACIFIC RIM REGION
                         FTS REPONSE TO AUDIT REPORT NUMBER A030205


The following comments, clarifications, and recommendations are provided as responses to the subject draft
audit report.

•   Pages 6 – Inadequate Competition

    FTS Response: The observation of the audit report is duly noted. FTS has emphasized the importance
    of documenting and filing acquisition information to provide sufficient evidence of fair competition for
    all procurements. In August 2003, FTS Pacific Rim Region implemented surveillance and oversight
    procedures through Acquisition Risk Mitigation Initiative (ARMI) to improve the quality of
    documentation supporting its fair competition practices.

    With regard to the two projects identified in this section to illustrate instances of inadequate competition,
    we would like to provide the following points of clarification. First, our review did not support the audit
    finding that the contracting officer took “extraordinary steps” to justify the client’s selection to provide
    IT Services for U.S. Forces Korea for the Global Command and Control System. The contracting officer
    indicated that the award could have been made to either vendor, CSC or ISS. ISS was selected because
    they offered the most benefits at no additional costs as delineated in their proposal; however, we
    recognize that the documents supporting the award decision did not adequately capture this point.

    In the second example, the report noted that the task order notification letter to support Navy family-
    housing offices stated that Litton PRC was the incumbent contractor for the past three years on the
    project and its past performance was excellent. This information was a statement of fact; however the
    incumbent’s level of performance should not have been disclosed. The requirement was solicited
    amongst all the ANSWER vendors, and it is common practice to specify the incumbent contractor in the
    RFQ letter since it is a frequently asked question whenever a requirement is solicited. Furthermore, the
    ordering guide for ANSWER recommends that incumbent information be included in solicitations to
    permit contractors to make informed decisions about proposing and/or developing teaming arrangement
    on requirements.

•   Page 8 – Improper Contracting Actions

    FTS Response: FTS acknowledges the importance of remaining within the scope of the original task
    orders. Proper documentation of acquisition files has been emphasized and implemented through
    instituted FTS and regional management controls.




                                                      E-3
•   Page 8 – Frequent Use of Time and Material Tasks

    FTS Response: Management understands that Time and Materials (T&M) is the least preferred
    contracting method and acknowledges the requirement to properly document the use of T&M task
    orders. To that end, it has taken steps to ensure that in such instances the Determination and Findings
    necessary to justify T&M task orders are properly documented in the acquisition file. FTS has put in
    place a structure that addresses this issue through the implementation of management controls as
    prescribed by the regional ARMI document.

•   Page 9 – Inadequate Support for Fair and Reasonable Pricing

    FTS Response: FTS concurs that the fair and reasonable determinations were not sufficiently
    documented in the acquisition files. To ensure compliance with this acquisition requirement, FTS has
    implemented management controls and processes to monitor the fair and reasonable analysis and to
    ensure that the process is properly documented in the acquisition file.

•   Page 9 – Improper Use of the IT Fund

    FTS Response: FTS has developed and distributed policy and guidelines outlining what constitute
    Information Technology (IT) and the proper use of the IT Fund. Discussions on a task order by task
    order basis are now presented to management in cases where an IT opportunity may be in question.
    Task orders that were outside of current guidelines have been terminated or have a planned exit strategy.
    IT scope will remain a major area of review by managers and contracting officers alike.

•   Page 10- Misuse of Contract Vehicle

    FTS Response: FTS has an increased emphasis in acquisition planning in light of the issuance of the
    GSA Order OGP 2800.1 dated January 1, 2004. The Acquisition Plan documents the rationale and
    decision process used to determine the type of contract vehicle best suited for each procurement.
    Through surveillance procedures outlined in ARMI, the acquisition strategy and contracting vehicle are
    evaluated as part of a sound and viable acquisition plan.

•   Page 12 – Other Issues

    FTS Response: This section addressed concerns about highly sensitive and classified support services
    for a USFK intelligence organization in Korea. The concern was whether an FTS associate without a
    Top Secret, Sensitive Compartmented Information security clearance could access information required
    to properly determine pricing and monitor deliverables. FTS is aware of the critical nature of our
    national security clients and the importance of properly administering acquisitions in a secure
    environment. For the task order in question, scope, pricing, skill levels,
    performance criteria, and task order management information are unclassified. It should be noted that
    the associate currently assigned to administer this task order (since October 2003) possesses a Top Secret
    (SCI) clearance. The associate originally initiating the task order currently is pending a Top Secret
    clearance.


                                                     E-4
•   Page A-1 – Appendix A: Schedule of Orders Reviewed in Region 9
    Section: “Inadequate Support for Fair/Reasonable Pricing”

    FTS Response: The section entitled “Inadequate Support for Fair/Reasonable Pricing” and its subsection
    “No Attempt to Negotiate Better Pricing” may be misconstrued in that it incorrectly implies that a fair
    and reasonable pricing analysis for labor and material was not conducted in the reviewed task orders.
    Based upon inquiries from operational managers and contracting officers, a price analysis is conducted
    on vendor bids as part of the award process. Our assessment confirmed that the acquisition files
    inadequately reflected our process and findings. FTS has instituted management controls and a review
    structure to ensure that fair and reasonable pricing is documented in the acquisition file. We request
    these titles be changed to: “Inadequate Documented Support for Fair/Reasonable Pricing” and
    “Negotiated Better Pricing” respectively.

•   Page D-1 – Appendix D: Schedule of Reviewed 2004 Task Orders
    A subsequent evaluation was performed by FTS with regard to the audited items delineated in Appendix
    D, entitled, “Schedule of Reviewed 2004 Task Orders.” We note that 2 of the 10 task orders possessed
    no deficiencies. We are in general agreement with the audit findings enumerated for the task order
    samples with the following clarifications and exceptions:

       General response:
       o Sample 72 references a task order that will be completed in November 2004.
       o Samples 75 and 76 are FY01 task orders, which have exit strategies and have expiration dates of
          September and October 2004 respectively. While the samples contain a significant IT
          component, we acknowledge that professional services would be more in consonance with the
          requirements.
       o Sample 77 entails a task order in which $21 million in other direct costs has been addressed in a
          memorandum for the record and uploaded into ITSS.
       o Sample 78 is an FY00 task order will be completed in December 2004. Documentation to
          support the price reasonableness of the labor and other direct costs for these modifications has
          been included in ITSS.
       o The report also addressed concerns about the lack of a signed checklists or the use of an outdated
          checklist (Samples 71, 72, and 75). While we are in agreement with this finding, we note that
          the identity of the contracting officer completing the checklist may be determined from the GSA
          Form 300. In any event, the overall intended purpose of the checklists was achieved.




                                                   E-5
Specific response:
o Sample 70

   FTS Response: The analysis provided by the Contracting Officer (CO) was performed in
   accordance with FAR 19.806 (b) and sufficiently determined that the price is fair and reasonable
   relative to the existing market price conditions.

   Pursuant to FAR Part 15.402, the CO made the determination that certified cost and pricing data
   were not required. The prime contractor’s general and administrative (G&A) expenses on the
   subcontractor’s total cost, including the subcontractor’s G&A, are allowable and allocable.

   From our assessment of the documentation, the CO performed an acceptable price analysis; and
   his/her determination as to the level of detail necessary relative to specific elements of cost and
   price to justify award was sufficient.

o Sample 71

   FTS Response: The price negotiation memorandum was incorrectly titled, but was located in
   ITSS, under the Market Analysis. The CO made a determination that the final price was fair and
   reasonable. The acquisition plan was updated and inserted into ITSS. The audit report did not
   provide specific information to support the phrase “little value added by GSA in the procurement
   process.” It should be noted that a part of the GSA value added service includes financial,
   billing, and reconciliation support functions in addition to task order management and
   administration. Therefore we request that this statement be deleted from the report.

o Table of Reviewed 2004 Task Orders

   FTS Response: We recommend that a column be inserted adjacent to the Total Value of Task,
   which would be titled, “Dollar Value of Modification.” The table does not include the dollar
   amount of the task orders modifications under review. The information, as provided, can be
   misleading, for example, Sample 76 shows the task dollar value at $8.3M, yet the task order’s
   modifications being reviewed consisted of “no cost” mods necessary to exercise the exit strategy
   on this FY01 task order; and Sample 75, terminated in September 2004, shows the task dollar
   value at $13.7M, yet the task order’s modifications necessary to complete this FY01 task were
   less than $100K each.




                                             E-6
AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
        CLIENT SUPPORT CENTER
       NORTHWEST/ARCTIC REGION
   REPORT NUMBER A040191/T/9/Z05008
            DECEMBER 9, 2004




                 X
                 AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                         CLIENT SUPPORT CENTER
                        NORTHWEST/ARCTIC REGION
                    REPORT NUMBER A040191/T/9/Z05008
                             DECEMBER 9, 2004

                             TABLE OF CONTENTS

                                                                       Page

INTRODUCTION                                                            X-1

OBJECTIVE, SCOPE, AND METHODOLOGY                                       X-2

RESULTS OF AUDIT                                                        X-3

     Conclusions                                                        X-3

     Recommendations                                                    X-4

     Management’s Comments                                              X-4

     Internal Controls                                                  X-4

APPENDICES

     Schedule of Reviewed Task Orders in the Northwest/Arctic Region    A-1

     Management’s Response                                              B-1
X-1
Objective, Scope, and Methodology

The objective of this review was to provide information to FTS officials on recent actions
the CSC has taken in implementing control improvements. We performed a limited
review of a judgmental sample of ten task orders (five newly authorized task orders and
five modifications to existing task orders) authorized from March to May 2004. We did
not perform all of the audit steps for this review that were completed in our prior audit,
such as the contract procurement administration for pre-existing task orders. Instead,
we:

      Discussed the implementation of Central Office Initiatives and locally mandated
      controls with Regional FTS officials; and

      Performed limited tests of contract administration for the ten task orders to
      determine compliance with the new initiatives and directives.

This review was conducted from June to August 2004 in accordance with generally
accepted Government auditing standards.




                                           X-2
RESULTS OF AUDIT

Our review indicated that the Central Office Initiatives, as well as Regional Directives
have been implemented, and administration of task orders has improved. However, we
noted instances of noncompliance with the mandatory initiatives and exceptions in the
contract administration for the newly awarded task orders. As a result, continued
management oversight is needed to ensure adherence to the initiatives and to minimize
the risks of improper contract procurement practices.

Regional Directives were initiated to enhance controls over contract procurement. In
October 2003, acquisition officials established a Contract Review Board for the purpose
of creating an internal review process to ensure that IT acquisitions and administration
are in compliance with FAR and terms and conditions of the contracts. In addition, to
ensure that three quotes are obtained for Department of Defense acquisitions in excess
of $100,000 as required by Section 803, FTS associates are required to post any
requests for quotations on the agency’s electronic quote system (E-Buy), whereas,
Central Office guidance merely suggests this option. Region 10 also requires FTS
associates to obtain three bids electronically for civilian clients.

FTS management, including the Assistant Regional Administrator, have initiated
quarterly reviews of sample task orders to provide further assurance that contract award
and administration are proper and that Central Office Initiatives are followed.

Although the initiatives appear to have led to improvements since our prior audit, the
required pre-solicitation checklist was not completed for any of the five newly awarded
task orders. For four of the five task orders, the Independent Government Estimate was
inadequate. In addition, for two of these four task orders (those valued in excess of $5
million each), we noted no evidence that the required review for legal sufficiency was
performed; and there was no formal designation of the contracting officer’s
representative.

For the five modifications to pre-existing task orders, FTS generally complied with
Central Office Initiatives and Regional Directives. However, we noted areas of concern
that did not affect the modification under review but was disclosed to FTS (See Notes
6 – 9, Appendix A).

Appendix A provides information on the results of review of the ten task orders.

Conclusions

The task orders reviewed from 2004 indicated that the Northwest/Arctic Region is taking
corrective actions to minimize the risks of improper contract procurement practices
through management oversight and adherence to Central Office Initiatives. Our limited
review of task orders issued from March to May 2004 indicated that improvements were
being made, but we identified some of the same issues as found in our January 2004
audit report. Given the exceptions noted in the sample of 2004 task orders, there is a




                                          X-3
need for management’s continued attention to improving controls. The Office of Audits
will conduct a more comprehensive testing of internal controls throughout the CSC
program in FY 2005.

Recommendations

Based on the comprehensive recommendations contained in Audit Report Number
A020144/T/5/Z04002, dated January 8, 2004, no further recommendations are deemed
necessary at this time.

Management’s Comments

The Regional Administrator concurred with the results as presented in this report, but
stated the Statement on Internal Controls was somewhat confusing and unclear. We
have reworded this section to clarify that we will be performing a more comprehensive
analysis in FY 2005 (See Appendix B for Management’s Comments).

Internal Controls

We assessed the internal controls relevant to the CSC procurements to assure that they
were made in accordance with the FAR and the terms and conditions of the contracts
utilized. In our prior review of the Northwest/Arctic Region, we identified improper
procurement practices such as the inappropriate use of the IT Fund, improper
contracting actions such as sole source procurements and split procurements, and non-
compliance of acquisition regulations. We believe that an effective internal control
structure, with the on-going endorsement of management, would have identified and
prohibited many of the inappropriate procurement practices we noted.

Our limited review of contracting actions from March to May 2004 did not identify any
significant issues that would indicate that the procurements were not in accordance with
the FAR and terms and conditions of contracts utilized. Although the Region has taken
action to strengthen controls over procurements in order to minimize the risks of
improper contracting practices, we found instances in which controls were not followed.
Consequently, the Region must maintain vigilance and continue to improve controls
over CSC procurements to ensure that risks over improper contracting actions are
minimized. The Office of Audits will conduct a more comprehensive testing of internal
controls throughout the CSC program in FY 2005.




                                          X-4
X-5
                                                                                                                          APPENDIX A
                                   SCHEDULE OF REVIEWED TASK ORDERS
                                    IN THE NORTHWEST/ARCTIC REGION

               Sample
               Number/                      Form 300                                              Contract       Total Value
                                                                                                          63
                Notes       Task Order        Date                    Contractor                  Vehicle         Of Task*
              Newly Awarded Task Orders
                                                         Northrop Grumman Information
                   1       A4S17B0286       07-Apr-04                                              MOBIS                $190,452
                                                         Technology, Incorporated
                   2       A4S17S0187       31-Mar-04 Total Resource Management                   FSS – IT              5,957,553
                                                      Technology Associates International
                   3      A4S17S0187A       31-Mar-04                                             FSS – IT              7,971,984
                                                      Corporation
                   4       A4S47B0262       23-Mar-04 3H Technology, LLC                          FSS – IT                602,092
                   5       A4S47B0326       03-May-04 Soza & Company Ltd.                         FSS - IT                286,162
              Existing Task Orders with Modifications
                   6       A1S97B0181       27-Jul- 01 Anteon Corporation                         FSS - IT            $3,053,198
                   7       A3S17B0317       27-Mar-03 Anteon Corporation                            PES                 1,464,154
                                                      Information Systems Support,
                   8       A3S68E0280       03-Dec-02                                            FAST 8(a)              1,062,775
                                                      Incorporated
                   9       A3S69S0420       13-Feb-03 LEXISNEXIS Group                            FSS - IT              1,951,465
                  10       A3S97B0376       02-Apr-03 Grey Hawk Systems, Incorporated             FSS - IT            45,794,732
                                                                                                       Total          $68,334,567
             *Total task order value represents (1) initial established price including all options; plus (2) any funding increases
     due to added scope requirements or period of performance extensions (i.e., cost growth)

         NOTES:
         Newly Awarded Task Orders

           1. The pre-solicitation checklist was not completed as required.

           2. The acquisition, which was in excess of $5 million, was not reviewed for legal sufficiency as required. The Independent
              Government Estimate prepared by the client was inadequate because it did not address the same requirements or period of
              performance as the contractor’s proposal. The pre-solicitation checklist was not completed as required. And the duties of the
              contracting officer’s technical representative were performed by the client with no formal (written) delegation.

           3. The acquisition, which was in excess of $5 million, was not reviewed for legal sufficiency as required. The Independent
              Government Estimate prepared by the client was inadequate because it did not address the same requirements or period of
              performance as the contractor’s proposal. The pre-solicitation checklist was not completed as required. And the duties of the
              contracting officer’s technical representative were performed by the client with no formal (written) delegation

           4. The Independent Government Estimate prepared by the client was inadequate; it was identical to the contractor’s proposal.
              In addition, the pre-solicitation checklist was not completed as required.

           5. The Independent Government Estimate prepared by the client was inadequate; it consisted of lump sum (firm-fixed price)
              amounts, and not in sufficient detail to be useful in evaluating the contractor’s proposal. In addition, the pre-solicitation
              checklist was not completed as required.
     .




63
 Legend
MOBIS (Management, Organization, and Business Improvement Services) – Federal Supply Schedule 874
FSS-IT - General Purpose Commercial Information Technology Equipment, Software, and Services – Federal Supply Schedule 70
PES (Professional Engineering Services) – Federal Supply Schedule 871
FAST 8(a) (Federal Acquisition Services for Technology) – A Multiple Award Indefinite Delivery/Indefinite Quantity contract
Schedule for small, disadvantaged businesses
                                                                    A-1
Existing Task Orders with Modifications

  6. Modification 5 dated March 31, 2004, was issued to de-obligate funds and initiate closeout, 21 months after the task expired
     on June 30, 2002.

  7. Modification 1 dated April 7, 2004, was issued to add incremental funds to the task order, after the period of performance for
     the base year expired on March 30, 2004 (i.e. the task order was no longer in force after March 30, 2004). The first option
     year was not exercised, and the task order is being closed-out.

  8. Modifications 9 and 10 were dated March 31, 2004 and May 19, 2004, respectively. Modification 10 was issued to extend the
     period of performance to “cover” a lapsed period of 19 days. The task order was initially awarded under a FAST 8(a) contract
     for a one-year term, and extended numerous times for additional 6-month periods. It was inadvertently allowed to lapse on
     April 30, 2004 and is in the process of being closed-out.

  9. Modification 3 dated March 12, 2004 was a no cost modification to extend the period of performance for 30 days. FTS is
    currently in the process of initiating closeout procedures.

 10. No deficiencies were noted in the administration of Modification 5 dated March 31, 2004.




                                                          A-2
      APPENDIX B




B-1
B-2
GSA/OIG/A040102/T/W/Z05004




               AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                       CLIENT SUPPORT CENTER
                      NATIONAL CAPITAL REGION
                  REPORT NUMBER A040102/T/W/Z05004
                           DECEMBER 9, 2004




                                XI
GSA/OIG/A040102/T/W/Z05004


               AUDIT OF FEDERAL TECHNOLOGY SERVICE’S
                       CLIENT SUPPORT CENTER
                      NATIONAL CAPITAL REGION
                  REPORT NUMBER A040102/T/W/Z05004
                           DECEMBER 9, 2004

                             TABLE OF CONTENTS
                                                                    Page

Results of Review                                                   XI-1

      Inappropriate Use of the IT Fund                              XI-1

      Extending the Task Performance Period Without Justification   XI-2

      Work Performed Outside Scope of Base Contract                 XI-2

      File Documentation – Time and Material Type Tasks             XI-2

      File Documentation – Other                                    XI-3

      Lack of Support for Fair and Reasonable Pricing               XI-4

      Causes of Improper Procurement Practices                      XI-5

      Conclusion                                                    XI-6

      Recommendations                                               XI-7

      Management’s Comments                                         XI-7

      Internal Controls                                             XI-7

APPENDICES

      Management’s Response to Draft Report                         A-1

      Schedule of FY03 Task Order Sample with Notes                 B-1

      Schedule of FY04 Task Order Sample with Notes                 C-1
GSA/OIG/A040102/T/W/Z05004




RESULTS OF REVIEW
Our sample of 30 task orders identifies significant, but relatively isolated instances of
procurement irregularities. All task orders examined were deficient with respect to
documentation. Other irregularities included inappropriate use of the IT Fund, excessive
period of performance extensions, work performed outside the scope of the base contract,
and inadequate price analysis. These irregularities were confined to four unique
requirements, one of which, for the State Department, is the common source for five of the
task orders included in our sample.

Several factors contributed to the problems we identified. One is a tendency to accept
client-driven solutions. Client drivers, such as expediency, flexibility and the ability to
deal with a known source can at times be at odds with the tenets of good procurement
design. Another is the absence of formal review procedures, which over time leads to a
degradation of procurement quality as omissions and shortcuts develop into the standard
practice. Finally, we observed a tendency to relegate procurement design to a rote
administrative action; contracting officers were not routinely party to the initial acquisition
planning process. Taken as whole, the control environment within the CSC’s was in need
of improvement, because it permitted and did not detect the procurement lapses identified
in this review. However, we found nothing inherent to that environment that discouraged
good procurement practices by conscientious contracting officers.

The region has instituted significant control enhancements, which began to take effect
approximately March 2004. At the Administrator’s request, we attempted to assess the
impact of these changes and include that assessment in this report. As of the close of
fieldwork, there were too few examples on which to base a conclusion. See Appendix C
for a detailed discussion of this aspect of our review.

Inappropriate Use of the IT Fund
In 23%, or seven out of thirty of the task order awards we reviewed, the CSC engaged in
inappropriate contracting practices to procure, on behalf of clients, services which did not
meet the intent of the IT Fund or FAR definitions.

Task Order Number 11LWM212049 (FY03, #28) in the amount of $555,275 was issued on
2 July 2002 to Cameron Consulting Group, Inc. for the National Guard. The main purpose
of this task order, the production of a youth symposium on emotional intelligence, is
clearly not IT related. The task order was closed at its completion.

Six task orders in our sample were issued to Advanced Resource Technologies. Five of
the task orders were for the State Department, Bureau of Diplomatic Security. The SOW
for these task orders include such items as firearms instructors, medical technicians,
warehouse personnel, etc. Additional details and problems regarding these task orders are
shown in the next section. The sixth is Task Order 11BJG6930001 (FY03, #20) for
$3,339,096 for the Department of Transportation, Federal Highway Administration. This

                                             XI-1
GSA/OIG/A040102/T/W/Z05004


SOW included a Logistics Coordinator, Records Aides, and Librarian. None of the
services procured through any of these task orders were IT related. Upon completion of its
own internal review, the CSC opted to extended the task orders for the State Department
through 30 September 2004, to allow the client time to find another contract vehicle. The
task order for the Department of Transportation was also in the closeout process and will
be re-competed.

Extending the Task Performance Period Without Justification
The five task orders issued to Advanced Resource Technologies, Inc. for the State
Department, Bureau of Diplomatic Security, have included numerous period of
performance extensions. There is no documented justification for these extensions
explaining why the additional effort was/is required, nor was the contracting officer able to
provide one. There were no option periods included in the Statement of Work or
Proposals. The same statement of work was used for all five task orders. We attempted to
contact the client, but were unable to do so. These extensions resulted in significant cost
growth. They are summarized as follows:

 Task Order      Original Period of    Current Period of
  Number           Performance           Performance       Original $    Current $    % Growth
11LDF0010       5/26/1999-4/11/2000       12/31/2004        $14,514       $909,990     6170%
11LDF0011       5/26/1999-4/11/2001       1/15/2004         436,402      2,999,952     587%
11LWM191002     8/31/2001-12/31/2001      9/15/2004         191,280      2,121,341     1009%
11LWM191003      9/24/2001-7/5/2002       7/31/2004         598,955      2,999,968     401%
11LWM192022     8/15/2002-7/31/2003       9/15/2004         84,468        545,814      546%
                                            Total          $1,325,619    $9,577,065

Both Acquisition Solutions and the National Capital Region’s in-house review panel
examined these task orders. As a result, the CSC has decided to close them out by 30
September 2004, allowing the State Department time to find an alternate contract vehicle.

Work Performed Outside Scope of Base Contract
Advanced Resource Technologies had an 8(a) contract for IT services against which six
task orders in our sample were awarded. However, none of the job categories on the task
order were IT related. The task orders include services for firearms instructors, medical
technicians, warehouse personnel, etc. These task orders are neither IT related or within the
scope of their 8(a) contract. These task orders totaled $12,916,161 ($9,577,065 plus Task
Order 11BJG693001 (FY03, #20) for $3,339,096).

File Documentation - Time and Material Type Tasks
We found that the CSCs frequently used time-and-materials type task orders (T&M). Of
the 30 orders for services that we reviewed from a judgmental sample, 24, or 80 percent
were T&M. A T&M contract provides for acquiring services on the basis of direct labor


                                            XI-2
GSA/OIG/A040102/T/W/Z05004


hours at fixed hourly rates and materials at cost. These task orders have documentation
requirements specified in FAR 16.601:

       “A time and materials contract may be used (1) only after the contracting
       officer executes a determination and findings that no other contract type is
       suitable; and (2) only if the contract includes a ceiling price that the
       contractor exceeds at its own risk. The contracting officer shall document
       the contract file to justify the reasons for the amount of any subsequent
       change in the ceiling price.”

Of the 24 T&M orders in our sample, none of the order files included documented
determination and findings (justification for their use) or defined a contract ceiling amount
(not to exceed amount).

File Documentation - Other
There were considerable documentation deficiencies with Task Order 11DL10045 (FY03,
#3). The CSC issued this task order to OAO Corporation on 30 June 2000 in the amount
of $2,464,204, followed by multiple modifications to extend the period of performance.
The original task order was to be completed by 30 December 2000. As of the end of our
fieldwork, OAO was working under modification number 29, scheduled to end on 15 July
2004. The aggregate value of the task order has increased from $2.4M to $16.1M.

The history of this procurement as viewed from the official contract file gives the
appearance of a procurement that had substantially outgrown its initial scope, both in terms
of the specific work to be performed as well as the period of performance. However,
information attained from a client interview suggests there is adequate justification for
multiple period-of-performance extensions and related cost growth: the extensive
modifications resulted from unanticipated technical difficulties that delayed both the
integration project that was the core of this task, as well as a related but separate task to
replace the Integrated Task Order Management System (ITOMS). Further, because the
OAO task was awarded as a time and materials type order, all performance risk factors are
borne by the client. Accordingly, after differentiating project issues from procurement
issues, we have classified our findings primarily as a failure to document pertinent
information. We comment further on the issue of price reasonableness as it relates to cost
growth in the following section.

ITOMS is a custom application used to manage order funding that had been developed and
supported by Lockheed Martin, formerly OAO, for several years. ITOMS was originally
developed by OAO. The current task order administered by NCR supports (1) operations
and maintenance of the legacy standalone, (2) the major reengineering effort underway to
integrate ITOMS with ITSS via the Common Oracle Data Base (CODB) to improve data
reliability that was a recurring issue with the stand-alone ITOMS and ITSS, and (3) for
ongoing operations of the integrated ITOMS since the regional deployment was
incremental. Planned implementation was early 2001. As explained below,
implementation was delayed, as is implementation of a system slated to replace ITOMS


                                            XI-3
GSA/OIG/A040102/T/W/Z05004


(referred to below as “3GS” and/or “GSA Preferred”). As such, ITOMS support remains
an essential task for a currently indeterminate future period.

As explained by the client:
       “This effort ran into technical challenges both from the applications
       integration perspective and data conversion perspective and took longer
       than planned. This development was completed in the Spring of 2002 and
       the Deployment (to include extensive data conversion efforts) was started in
       the Summer of 2002 and completed in Summer of 2003. It made no sense
       during this time to re-compete since it would have jeopardized a critical
       complex initiative at the worst possible time. After integrated ITOMS
       development and deployment was completed, it was six months until the
       3GS was to have been fully deployed. Since ITOMS was to be retired after
       3GS was fully deployed, it did not make sense to re-compete a contract for
       a short period especially since resources were being phased out to ramp
       down support of the legacy system. The incremental funding approach was
       a conscious one in order to periodically review resources to see what could
       be further transitioned off the project.
       NCR has started activities to re-compete ITOMS support. It is uncertain at
       this point when ITOMS will be completely retired since it may be needed on
       a very small scale for reference and research even after all regions cut over
       to GSA-Preferred.”

Our understanding is that dialog between the client and CSC was ongoing but not formally
documented or integrated into the procurement files. The discussion appears to have
bypassed the contracting officer, as the files did not support, nor was the contracting
officer able to explain the basis for his actions.

Lack of Support for Fair and Reasonable Pricing
For six of the orders for IT services that we reviewed, there was insufficient documentation
to support that the Government received a fair and reasonable price. According to FAR
15.402, Contracting Officers must purchase supplies and services from responsible sources
at fair and reasonable prices. If this cannot be determined through competition, an analysis
of the contractor’s proposal should be performed on the cost elements. The technical
element of this analysis is discussed in FAR 15.404-1(e)(2) which states, “At a minimum,
the technical analysis should examine the types and quantities of material proposed and the
need for the types and quantities of labor hours and the labor mix. Any other data that may
be pertinent to an assessment of the offeror's ability to accomplish the technical
requirements or to the cost or price analysis of the service or product being proposed
should also be included in the analysis.”

The following six task orders contained no evidence that anyone evaluated the level of
effort and labor mix to ensure that the labor categories and hours proposed were necessary:



                                           XI-4
GSA/OIG/A040102/T/W/Z05004




•   11DL10045 (FY03, #3) to OAO Corporation (FSS MAS Contract)
•   11BJG693001 (FY03, #20) to Advanced Resource Technologies, Inc. (Fast 8(a))
•   11LWM191002 (FY03, #23) to Advanced Resource Technologies, Inc. (Fast 8(a))
•   11LWM191003 (FY03, #24) to Advanced Resource Technologies, Inc. (Fast 8(a))
•   11LWM192022 (FY03, #25) to Advanced Resource Technologies, Inc. (Fast 8(a))
•   11VAM0026 (FY03, #26) to Seta Corporation (Fast 8(a))

In addition, there is no documentation to support an evaluation of Other Direct Costs on
task orders 11DL10045 (FY03, #3) to OAO Corporation and 11BJG693001 (FY03, #20)
to Advanced Resource Technologies, Inc. The details of these task orders are provided in
previous sections.

Causes of Improper Procurement Practices
Several factors contributed to the problems we identified. One is to some extent a cultural
phenomenon, and that is an FTS tendency to prioritize client satisfaction, on the surface a
very positive thing. In some cases though, this may lead FTS to accept client-driven
solutions arrived at without due consideration to the procurement requirement itself. The
client comes to FTS for its procurement and technical expertise, motivated more by
expediency, flexibility and in some cases a desire to deal with a known or proven source of
services. Unfortunately, the client’s goals may be at odds with the tenets of good
procurement design. It is not the case that good procurement design and customer
satisfaction are naturally at odds, but in the extreme there can be conflict. A balance must
be achieved. Customer satisfaction is a relevant concept only if it occurs within the
boundaries of the procurement regulations.

Another identified cause is the absence of formal review procedures or a meaningful
oversight function. Shortcuts or omissions never detected, such as the contracting officer’s
failure to execute a required determination and finding, become standard practice through
repetition. We found for example the same type of deficiencies repeated by the same
contracting officer on different procurements.

Finally, we observed a tendency to relegate procurement design to a rote administrative
action; contracting officers were not routinely party to the initial acquisition planning
process. Contracting Officers did not become involved until late in the procurement
process, usually after the ITM had already made some of the more significant procurement
decisions such as selecting the vendor, or deciding which contract vehicle to use.
However, the ITM’s do not have the same level of training and experience as the
Contracting Officers. The late involvement often left the CO with an incomplete picture of
the acquisition (having to rely primarily on the information in ITSS) and limited
timeframes in which to perform their functions.

Taken as a whole, the control environment within the CSC must be considered deficient to
the extent that it permitted and did not detect the procurement lapses identified in this
review. However, we found nothing inherent to that environment that discouraged good


                                           XI-5
GSA/OIG/A040102/T/W/Z05004


procurement practices by conscientious contracting officers. To address these internal
control weaknesses the National Capital Region revised its procedures for awarding and
administrating task orders. The region established acquisition teams made up of
contracting officers, ITM’s, management officials, and legal representation in the second
quarter of FY04. The team works through procurement issues including whether to the use
the Information Technology or General Supply Fund, what is the appropriate type of
contract vehicle, and what is an appropriate timeline for the acquisition. The CO does now
have a major role as part of the acquisition teams from the beginning of the procurement.
The Contracting Officer assigned to the task order and the acquisition team makes
decisions jointly. All acquisitions undergo legal review if they exceed $100,000. Also,
CO’s are encouraged to present the advantages of competition to their clients, unless the
requirement is unique. At this point, it is too soon to evaluate the effectiveness of the
changes, but based on very limited observations, we are encouraged. Please refer to
Appendix C for details of our efforts to assess the efficacy of the control enhancements.

Conclusion
We found that the NCR Client Support Center did not make and administer procurements
in accordance with some significant aspects of the Federal Acquisition Regulation (FAR)
or the terms and conditions of the contracts utilized. The practice does not appear to be
widespread in this region. There were instances of inappropriate use of the IT Fund,
excessive period of performance extensions, work performed outside the scope of the base
contract, and inadequate price analysis. Task order documentation, however, was
uniformly deficient.

As a result, the clients that depend on the CSC for its procurement expertise may not have
received the level of service, assurances of regulatory compliance and fund stewardship to
which they were entitled. The factors contributing to these circumstances were several
weak aspects of internal control, a procurement process that minimized the contracting
officer’s involvement at the critical project planning phase and a tendency to over-
accommodate client preferences even at the cost of good procurement practice.

Prior OIG audit work completed in other regions64 has identified a solution that entails a
comprehensive strategy focused on the structure, operations and mission of the CSC as
well as the control environment. Recommendations from that report target the global
aspects of FTS' CSC program. Each region, however, operates with a great deal of
autonomy. In NCR, FTS has taken the initiative to identify procurement vulnerabilities
and has modified its procedures accordingly. As of the cutoff point for fieldwork under
this review, it is premature to assess the impact of these changes. In fact, only one task
order in our FY04 sample (see Appendix C) is truly representative of a wholly new
procurement action executed under the revised procedures. That single example was well
documented and exhibited no procurement irregularities.



64
  GSA Office of Inspector General; Audit of Federal Technology Service’s Client Support Centers; issued
January 8, 2004; report number A020144/T/5/Z04002.

                                                 XI-6
GSA/OIG/A040102/T/W/Z05004


Recommendations
 Based on the comprehensive recommendations contained in Audit Report Number
A020144/T/5/Z04002, dated 8 January 2004, no further recommendations are necessary at
this time.

Management’s Comments
Management concurred with our findings and conclusions. In Appendix A they discuss the actions they have
taken to improve operations in the CSC including reengineering work flow to leverage associates’
specialized expertise, enhanced internal controls, more associate training, and developing a tool using ITSS,
Pegasys and NEAR to control procurements.

Internal Control
Our review provided the basis for a limited assessment of internal control relevant to the
CSC's procurements made in accordance with the FAR and the terms and conditions of the
contracts utilized. In light of the findings presented above, we question the efficacy of the
overall control environment as it failed to bring these items to the attention of
management. We believe that an effective internal control structure, which has the on-
going endorsement of management, would have identified and prohibited or at least served
to deter the inappropriate procurement practices we noted. The Office of Audits will
conduct a more comprehensive testing of internal controls throughout the CSC program
during fiscal year 2005.




                                                   XI-7
GSA/OIG/A040102/T/W/Z05004


APPENDIX A
Management’s Response To Draft Report




                                        A-1
GSA/OIG/A040102/T/W/Z05004


APPENDIX A
Management’s Response To Draft Report




                                        A-2
             GSA/OIG/A040102/T/W/Z05004


             APPENDIX B
                                            Schedule of FY03 Task Order Sample with Notes




                                                                                  Original Order Date
                                                          Contracting Officer




                                                                                                          Date of Latest Mod




                                                                                                                                                   Initial Order Value




                                                                                                                                                                              Final Order Value
                    Contractor Name




                                                                                                                                                                                                   Growth in Value




                                                                                                                                                                                                                                       Other GWAC
                                                                                                                                                                                                                           FAST 8(a)
                                              Customer




                                                                                                                                                                                  Recorded
Sample #




                                                                                                                                     Years




                                                                                                                                                                                                                     MAS
1          Andersen Consulting State Dept                CO#7                   Jun-00                  Apr-03                       2.8     $ 18,508,396                $    18,508,396                       0%    X

2          Anteon                     FEMA               CO#1                   Dec-99                  Jun-03                       3.5     $    1,424,994              $    28,473,908          1898%              X

3          OAO                        GSA                CO#3                   Jun-00                  Apr-04                       3.8     $    2,464,204              $    16,101,290          553%               X

4          Anteon                     Army               CO#3                   Sep-00                  Oct-02                       2.1     $    9,269,123              $       9,604,380                     4%    X

5          Next Generation            State Dept         CO#7                   Nov-00                  Sep-03                       2.9     $ 18,200,034                $    18,200,034                       0%    X

6          BearingPoint               HUD                CO#6                   Dec-01                  Jul-04                       2.6     $ 15,676,885                $    16,917,411                       8%    X

7          SNVC L.C.                  Army               CO#3                   Sep-02                  Feb-04                       1.4     $ 27,810,576                $    27,810,576                       0%    X

8          Dynamics Research          Air National Guard CO#5                   Sep-02                  Sep-03                       1.0     $ 36,602,927                $    36,961,327                       1%    X

9          NGIT                       DHS                CO#6                   Mar-03                  Oct-03                       0.6     $ 12,690,672                $    21,558,628               70%           X

10 NGIT                               DHS                CO#6                   Sep-03                  Nov-03                       0.2     $      413,757              $             413,757                 0%    X

11 PEC Solutions                      NAVY Litigation    CO#1                   Sep-03                  Apr-04                       0.6     $ 12,072,867                $    12,162,278                       1%    X

12 Technology TEAM                    DOT Maritime       CO#1                   Sep-03                  Apr-04                       0.5     $      849,950              $             681,123     -20%              X

13 FCN                                USA Community      CO#3                   Sep-03                   N/A                         N/A     $      132,541              $             132,541                 0%    X

14 CACI                               Army               C0#4                   Jan-01                  May-04                       3.4          $3,329,416 $                13,286,605          299%                                  X

15 ACS                                Labor              CO#7                   Jun-02                  Feb-04                       1.7     $    4,958,795              $    19,019,266          284%                                  X

16 CACI                               Navy               CO#1                   Oct-00                  May-03                       2.6     $ 143,064,634               $   143,064,634                       0%                       X

17 Sterling Software                  Naval CIS          CO#1 May-01                                    Jan-04                       2.6     $    9,028,666              $       7,826,334         -13%                                 X

18         Anteon                     Walter Reed        CO#3                   Jul-03                  Jan-04                       0.6     $      599,539              $             599,539                 0%                       X

19 Abacus Technology                  DOT - RSPA         CO#3                   Sep-03                  Mar-04                       0.6     $      178,310              $             178,310                 0%                       X

20 ARTI                               FHA                CO#2                   Feb-03                  Apr-04                       1.2     $    3,339,096              $       3,339,096                     0%           X

21 ARTI                               State Dept         CO#1 May-99                                    Jul-04                       5.2     $               14,514      $             909,990    6170%                     X

22 ARTI                               State Dept         CO#1 May-99                                    May-03                       4.0     $      436,402              $       2,999,952        587%                      X

23         ARTI                       State Dept         CO#3                   Aug-01                  May-04                       2.7     $      191,280              $       2,121,341        1009%                     X

24 ARTI                               State Dept         CO#3                   Sep-01                  May-04                       2.7     $      598,955              $       2,999,968        401%                      X

25 ARTI                               State Dept         CO#3                   Aug-02                  May-04                       1.8     $               84,468      $             545,814    546%                      X

26 SETA                               USAID              CO#1                   Jun-00                  Jul-03                       3.1     $      400,000              $             742,308         86%                  X

27 SETA                               USAID              CO#1                   Feb-01                  Feb-04                       3.0         $47,244,530 $                47,244,530                       0%           X

28 Cameron Consulting National Guard                     CO#3                   Jul-02                  Sep-02                       0.2     $      555,275              $             528,604            -5%               X

29 Cameron Consulting National Guard                     CO#3                   Mar-03                  Sep-03                       0.5     $      320,964              $             850,096    165%                      X

30 Cameron Consulting National Guard                     CO#3                   Mar-03                  Sep-03                       0.5          $2,500,000 $                   1,146,369         -54%                     X

           Total                                                                                                                             $ 372,961,769               $   454,928,404               22%            13      11                6
           Average                                                                                                                   2.06    $ 12,432,059                $    15,164,280               22%           43% 37% 20%




                                                                                                                               B-1
GSA/OIG/A040102/T/W/Z05004


APPENDIX B
              Schedule of FY03 Task Order Sample with Notes
General Notes to Matrix:
      The matrix lists the task order included in our FY03 sample. It identifies the
      sample ID number and corresponds to summary by sample number given below,
      along with the associated prime contractor and client name. A number identifies
      each FTS contracting officer. The initial order date and date of the latest mod
      available at the time of our fieldwork is provided, along with a measure of how long
      the procurement has been in effect to date. The “final” order value is also a value to
      date, and the growth in value measures the change from the initial order value. The
      last three columns identify the contract vehicle.

Federal Supply Schedule Orders:
      FY03 Sample Number 1          Task Order 11BEC0126 is a Time and Materials
      (T&M) type contract for the State Department for the Global Employment
      Management Systems’ operation and maintenance. This task order was awarded to
      Anderson Consulting. Only one bid was received, but adequate competition was
      attempted. The documentation for 11BEC0126 does not record an adequate
      justification for being a T&M type contract, a ceiling was not determined, nor was
      an acquisition plan prepared. The proposal was over the Maximum Order
      Threshold (MOT) and additional discounts were not negotiated.

      FY03 Sample Number 2          Task Order 11HVS0135 is a T&M type contract for
      the Federal Emergency Management Agency for the design, development, test, and
      integration of the National Emergency Management Information System (NEMIS)
      and support of existing software. This task was awarded to the Anteon Corporation.
      Only one bid was received, but adequate competition was attempted. The
      documentation for 11HVS0135 does not record an adequate justification for being
      a T&M type contract, a ceiling was not determined, nor was an acquisition plan
      prepared, and there was no attempt to negotiate better pricing. The proposal for this
      task order was over the MOT and additional discounts were not negotiated.

      FY03 Sample Number 3            Task Order 11DL10045 is a T&M type contract for
      the General Services Administration (Region 9) for the migration of the Access
      version of the Integrated Task Order Management System to a Common Oracle
      Database. This task order was awarded to the OAO Corporation. The
      documentation for 11DL10045 does not record an adequate justification for being a
      T&M type contract, a ceiling was not determined, nor was an acquisition plan
      prepared. The task order is considered a logical follow-on contract with adequate
      justification. The proposal was over the MOT and additional discounts were
      negotiated. Additional information regarding issues surrounding this task order is
      available in the body of this report.


                                            B-2
GSA/OIG/A040102/T/W/Z05004


APPENDIX B
              Schedule of FY03 Task Order Sample with Notes
      FY03 Sample Number 4         Task order 11HVS0008 is a T&M type contract for
      the United States Army for providing technical support for the Tactical
      Management Information Systems. This task was awarded to the Anteon
      Corporation. Only one bid was received, but adequate competition was attempted.
      The documentation for 11HVS0008 does not record an adequate justification for
      being a T&M type contract, a ceiling was not determined, nor was an acquisition
      plan prepared. The proposal was over the MOT and additional discounts were
      negotiated.

      FY03 Sample Number 5           Task Order 11BEC0153 is a T&M type contract for
      the State Department in support of the Integrated Personnel Management Systems.
      This task was awarded to Next Generation Consulting. Only one bid was received,
      but adequate competition was attempted. The documentation for 11BEC0153 does
      not record an adequate justification for being a T&M type contract, a ceiling was
      not determined, nor was an acquisition plan prepared. The proposal was over the
      MOT and additional discounts were not negotiated.

      FY03 Sample Number 6           Task Order 11BEC861003 was a Firm Fixed Price
      (FFP) Award Term Task Order for IT support for the Department of Housing and
      Urban Development (HUD) to perform funds control and implement the FHA
      Subsidiary Ledger. This task was issued to BearingPoint, Inc. Five proposals were
      received with regards to this task order and adequate competition was attempted.
      An acquisition plan was not prepared for this task order. The proposal was over the
      MOT and additional discounts were not negotiated.

      FY03 Sample Number 7           Task Order 11DDW212024 is a T&M type contract
      for the U.S Army Material Command (AMC) providing project management,
      planning, and technical support for the AMC Chief Information Officer’s Public
      Key Enabling Program. This task was issued to SNVC L.C. Although only one bid
      was received, adequate competition was attempted. The documentation for
      11DDW212024 does not record an adequate justification for being a T&M type
      contract, a ceiling was not determined, nor was an acquisition plan prepared. The
      proposal was over the MOT and additional discounts were not negotiated.

      FY03 Sample Number 8           Task Order 11RNS572054 is a FFP type contract for
      the Air National Guard (ANG) to provide the GUARDIAN Program Office with
      information technology and systems design, development, maintenance and
      sustainment expertise to allow the ANG to achieve its primary objectives. This task
      was awarded to Dynamics Research Corporation. Requests For Quote went out to
      four contractors, yet only one bid was received. Adequate competition was
      attempted. The proposal was over the MOT and additional discounts were not
      negotiated.


                                           B-3
GSA/OIG/A040102/T/W/Z05004


APPENDIX B
              Schedule of FY03 Task Order Sample with Notes
      FY03 Sample Numbers 9 and 10         Task Orders 11DL1153002 and
      11DL1153002H represent two Contract Line Item Numbers (CLINs) issued under
      the same Blanket Purchase Agreement (BPA) GS00TO2ACA2582. This BPA was
      awarded, after adequate competition, to Northrup Grumman Information
      Technologies (NGIT) for the Department of Homeland Security. Task Order
      11DL1153002 is for the Sustainment of Integrated Help Desk/Network Operations
      Center and Task Order 11DL153002H is for Information Technology Training. The
      documentation for 11DL1123002 and 11DL1123002H do not record an adequate
      justification for being a T&M type contract, a ceiling was not determined, nor was
      an acquisition plan prepared. Both task orders are over the MOT for Federal
      Supply Schedule contracts.

      FY03 Sample Number 11          Task order 11MSB171046 is a T&M type contract
      for the Navy Litigation Office for Iran Litigation Management Support. This task
      was awarded to PEC Solutions, Inc. This task is governed by Section 803 of the
      National Defense Authorization Act of 2002. This Act states that all task orders
      issued for the Department of Defense (DOD) are required by law to receive a
      minimum of three offers. However, the Act allows Contracting Officers to make a
      determination to accept only one offer if sufficient attempts have been made to
      obtain three. Multiple vendors were solicited for 11MSB171046, yet only one
      response was received. File documentation disclosed that nine of the vendors who
      did not respond were called and asked why they chose not to bid on this task order.
      Most cited time constraints or inadequate personnel to perform the work. Due to
      Legal obligations and timeframes that could not be changed, the Contracting
      Officer for 11MSB171046 made the decision to go with the only offer received.
      This offer was evaluated and determined to be technically responsive. A T&M task
      was issued with a justification and ceiling. An acquisition plan was not prepared
      11MSB171046. This task order is over the MOT and additional discounts were not
      negotiated.

      FY03 Sample Number 12        Task order 11DJB6903321 is FFP type contract for
      the Department of Transportation’s Maritime Administration for the
      implementation and maintenance of an Information Technology Program
      Management Office that supports the Maritime Administration Enterprise
      Architecture Office of Ship Operations. This task was awarded to Technology
      Team Inc. An acquisition plan was not prepared for 11DJB6903321. This task
      order is over the MOT and additional discounts were not negotiated.

      FY03 Sample Number 13        Task order 11CAE2130203 is a commodity order for
      the U.S. Army Community and Family Support Center. This task was awarded to
      FCN, Inc. An acquisition plan was not prepared for 11CAE2130203. This task
      order is also over the MOT and additional discounts were not negotiated.


                                           B-4
GSA/OIG/A040102/T/W/Z05004


APPENDIX B
              Schedule of FY03 Task Order Sample with Notes
Government Wide Acquisition Contract Orders:

      FY03 Sample Number 14        Task Order 11DL12111 is a T&M type contract for
      the U.S. Army Material Command (AMC) for enhancing and maintaining the AMC
      Resource Management Online System. This task was awarded to CACI, Inc.
      11DL12111 was competed among Millennia Lite contract holders (Functional Area
      4). Only one bid was received, but adequate competition was attempted. The
      documentation for 11DL12111 does not record an adequate justification for being a
      T&M type contract, a ceiling was not determined and an acquisition plan was not
      prepared.

      FY03 Sample Number 15         Task Order 11MES162040 is a T&M type contract
      for the Department of Labor, Office of Workman’s Compensation for medical bill
      processing. This task was awarded to ACS Government Services, Inc.
      11MES162040 was competed among Millennia Lite contract holders (Functional
      Area 3). Only one bid was received, but adequate competition was attempted. The
      documentation for 11MES162040 does not record an adequate justification for
      being a T&M type contract, a ceiling was not determined, an acquisition plan was
      not prepared, nor were any attempts made at negotiating lower rates.

      FY03 Sample Number 16         Task order 11SLM0002 is a T&M type contract for
      the Navy, Military Sealift Command (MSC) for specific technical support
      requirements for the Configuration Data Management Program support for the
      MSC Program Managers, MSC Headquarters Logistics Directorate, MSC field
      activities, MSC ships and other activities as directed. This task was awarded to
      CACI, Inc. 11SLM0002 was competed among Millennia Lite contract holders
      (Functional Area 4). Only one bid was received, but adequate competition was
      attempted. The documentation for 11MSLM0002 does not record an adequate
      justification for being a T&M type contract, a ceiling was not determined, an
      acquisition plan was not prepared, nor were any attempts made at negotiating lower
      rates.

      FY03 Sample Number 17          Task order 11SLM171002 is a T&M type contract
      for the Naval Criminal Investigative Services for support for the Defense
      Counterintelligence Information Systems. This task order was awarded to Sterling
      Software (now Northup Grumman Information Technologies). 11SLM171002 was
      competed among Millennia Lite contract holders (Functional Area 4). Only one bid
      was received, but adequate competition was acheived. The documentation for
      11SLM171002 does not record an adequate justification for being a T&M type
      contract, a ceiling was not determined, an acquisition plan was not prepared, nor
      were any attempts made at negotiating lower rates.


                                           B-5
GSA/OIG/A040102/T/W/Z05004


APPENDIX B
              Schedule of FY03 Task Order Sample with Notes
      FY03 Sample Number 18          Task order 11REL213007 is a T&M type contract for
      the Walter Reed Army Institute of Research in support of the LAMBS database.
      This task was awarded to the Anteon Corporation. The documentation for
      11REL213007 does not record an adequate justification for being a T&M type
      contract, a ceiling was not determined, an acquisition plan was not prepared, nor
      were any attempts made at negotiating lower rates. This task order was completed
      properly with nine Requests for Quote, and two bids received and evaluated.

      FY03 Sample Number 19          Task order 11SLC693003 is T&M type contract for
      the Dept. of Transportation, Research and Special Programs Administration for the
      development of their IT Strategic Plan. The task was awarded to the Abacus
      Technology Corporation. The documentation for 11SLC693003 does not record an
      adequate justification for being a T&M type contract, a ceiling was not determined,
      an acquisition plan was not prepared, nor were any attempts made at negotiating
      lower rates. Competition was adequate for this task order, with six Requests for
      Quote and two bids received and evaluated.


FAST 8(a) Orders:
      FY03 Sample Number 20          Task order 11BJG6930001 is T&M type contract for
      Dept of Transportation, Federal Highway Administration for specific support
      services in the operation of the Research Development and Technology Products
      distribution center. This task was awarded to Advanced Resource Technologies,
      Inc. The documentation for 11BJG693001 does not record an adequate justification
      for being a T&M type contract, a ceiling was not determined, an acquisition plan
      was not prepared, nor were any attempts made at negotiating lower rates.
      11BJG693001 is a Directed Buy with a client-selected vendor with a FAST 8(a)
      contract. This task order is not for IT-related work, and consequently the Federal
      Technology Service (FTS) has developed an exit strategy. Currently FTS has
      prepared an action plan to complete a final modification for 11BJG693001, then
      “close-out” the task order, and re-compete it. Additional information regarding
      issues surrounding this task order is available in the body of this report.

      FY03 Sample Numbers 20 through 25             Task Orders 11LDF0010,
      11LDF0010, 11LWM191002, 11LWM191003, and 11LWM192022 are all T&M
      type contracts for the Department of State, Bureau of Diplomatic Security for
      providing security-related and application support. This task was awarded to
      Advanced Resource Technologies, Inc. The documentation for these task orders do
      not record an adequate justification for being T&M type contracts, ceilings were
      not determined, acquisition plans were not prepared, nor were any attempts made at
      negotiating lower rates. They are all Directed Buys with a client-selected vendor


                                           B-6
GSA/OIG/A040102/T/W/Z05004


APPENDIX B
              Schedule of FY03 Task Order Sample with Notes
      with a FAST 8(a) contract. Additional information on these task orders is
      discussed in the body of this report.

      FY03 Sample Number 26           Task order 11VAM0026 is a T&M type contract for
      the US Agency for International Development for the design and implementation of
      a data communication strategy for the Republic of Georgia’s nationwide tax
      registration and administration system. This task was awarded to the SETA
      Corporation. The documentation for 11VAM0026 does not record an adequate
      justification for being a T&M type contract, a ceiling was not determined, an
      acquisition plan was not prepared, nor was any attempt made at negotiating lower
      rates. It is a Directed Buy with a client-selected vendor with a FAST 8(a) contract.
      Additional information regarding issues surrounding this task order is available in
      the body of this report.

      FY03 Sample Number 27          Task order 11VAM0067 is a T&M type contract for
      the United States Agency for International Development. This task was awarded to
      the SETA Corporation. The documentation for 11VAM0027 does not record an
      adequate justification for being a T&M type contract and a ceiling was not
      determined.

      FY03 Sample Numbers 28 through 30              Task Orders 11LWM212049 (FFP),
      11LWM213018 (FFP), and 11LWM213019 (T&M) are contracts for the National
      Guard Bureau. These task orders were awarded to Cameron Consulting. The
      documentation for 11LWM213019 does not record an adequate justification for
      being a T&M type contract and a ceiling was not determined. All of the contracts
      in question were Directed Buys with a client-selected vendor with an 8(a) contract.
      No attempts were made at negotiating lower rates for Task Orders 11LWM212049,
      11LWM213018, and 11LWM213019. Additional information regarding issues
      surrounding these task orders is available in the body of this report.




                                           B-7
GSA/OIG/A040102/T/W/Z05004


APPENDIX C
                 Schedule of FY04 Task Order Sample with Notes
Objectives, Scope and Methodology
Specific to FY04 Sample Task Order
        Based on past audit work, congressional concerns, and proposed restrictions on
        DOD procurements, the Administrator asked the Office of the Inspector General
        (OIG) to review recent task orders processed by the CSCs to evaluate the impact
        from recent CSC control improvements.

        The sample consisted of ten task orders with a procurement action of record during
        the approximately three-month period ended May 31, 2004. This relevant date
        range is narrow because the new controls were not in effect prior to March and our
        fieldwork cutoff necessitated the May end date. The national audit control point
        drew the FY04 sample selections for each regional audit. The sample methodology
        is judgmental, based on the application of known procurement risk factors that can
        be identified within the FTS automated procurement system: ITSS. This is the
        same methodology used to derive the FY03 task order sample. A shortcoming of
        this methodology is that while it is effective at identifying problematic
        procurements, it fails to exclude actions for which the substantive award activity
        predates the relevant date range. (The CSC procurements tend to be rather long-
        lived and subject to modification, much of which is of an administrative nature and
        therefore not germane to our purpose at hand.)

        The orders utilized the following contract vehicles:
             •   2 task orders     Fast 8(a)
             •   5 task orders     FSS multiple award schedule contracts (IT Services)
             •   1 task order      FSS multiple award schedule contract (MOBIS65)
             •   2 task orders     Other GWACs

        Eight of the ten are time and material type task orders.

        Our review methodology was to essentially replicate the audit tests applied to the
        FY03 sample, but only for that aspect of the task order that falls within the relevant
        date range. Any improvement would be ascribed to the control revisions. This is
        not a substitute for a review of internal controls, but it can be an effective means of
        obtaining preliminary feedback.


65
  Management, Organizational and Business Improvement Services (MOBIS) is designed to provide
agencies with expert advice in all areas of management and management improvement. FSS advises that
when tasking under MOBIS, “agencies shall not use this vehicle for the acquisition of supplies other than
that integral to the task and incidental to its central role of management improvement. Typical examples of
services that are not appropriate for purchase under a MOBIS task include…IT systems integration, network
services, volume purchase of IT hardware, software or software development, data base planning….”

                                                   C-1
GSA/OIG/A040102/T/W/Z05004


APPENDIX C
              Schedule of FY04 Task Order Sample with Notes
Results of Review Specific to
FY04 Sample Task Orders
      Only one task order in our sample contained a true procurement action that fell
      completely in the relevant date range of this review. For various reasons, none of
      the other task orders served as means to evaluate the effectiveness of the revised
      controls. One was a procurement action but was substantially completed just prior
      to the control changes. The CSC issued two of the sampled task orders as a
      replacement for two task orders that had been closed because they incorrectly used
      the IT Fund instead of the General Supply Fund. Two task orders were issued
      against previously established BPAs. One task order simply extended the period of
      performance at no additional cost, two were simply funding increases, and the last
      was a modification that exercised an option.

      Our review did identify two task orders where the contracting officers incompletely
      documented their justification for some of the contracting actions:

      •   Task order number 11CFS214001 (FY04, #1) in the amount of $1,842,559 was
          awarded to Thorpe International, Inc. for the United States Army Center of
          Military History on 25 February 2004 for digital archiving. As a DOD
          component, Section 803 applies requiring a minimum of 3 proposals. However,
          the contracting officer only received two. While there is a provision for the CO
          to accept fewer than three, there has to be adequate documented justification.
          There was no justification documented in the file and the CO could not provide
          one to us. We note that, since this task order was awarded in February 2004,
          the actions taken by the contracting officer would have occurred prior to the
          time frame (March through May) the new internal controls were to be
          evaluated.

      •   Task Order 11LWM693001 (FY04, #9) was awarded to Maden Tech
          Consulting for the Federal Railroad Administration for Help Desk and LAN
          support services. We evaluated this task order for Modification number two
          only. We noted that the modification under review exercised an option but did
          not include a Determination and Findings. A D&F is required stating that
          exercising the option is in the best interest of the government (FAR 17.207(d)).
          The option for the period ending July 31, 2004, was priced and evaluated at the
          time of the initial contract award.

      Documentation was adequate for the balance, but as stated above, our review was
      limited to just that aspect of the task order completed during the relevant date
      range.



                                           C-2
GSA/OIG/A040102/T/W/Z05004


APPENDIX C
              Schedule of FY04 Task Order Sample with Notes
Conclusion
      In our opinion, while we were unable to assess the impact of the new internal
      controls based on our review of the ten 2004 task orders, we believe that the NCR
      is taking the necessary steps to implement the controls developed by FTS for
      nationwide implementation. We note that some of the controls NCR established
      are stricter than the controls promulgated by FTS nationwide. All task orders
      greater than $100,000 undergo legal review; a materially lower threshold than the
      $5M the FTS established. Additionally, all task orders issued in Fiscal Year 2003
      were reviewed and corrective actions taken, as evidenced by the two task orders in
      our sample which corrected the funding from the IT Fund to the General Supply
      Fund. The Procurement Board has been set up and meets regularly. NCR also has
      a procurement team with a representative from Regional Counsel that meets twice a
      week to review new actions.




                                         C-3
  GSA/OIG/A040102/T/W/Z05004


  APPENDIX C
                                Schedule of FY04 Task Order Sample with Notes




                                                                                                                                                                s)
                                                                                   te
                                                                                  er




                                                                                                                                                             ce
                                                                                 od




                                                                                                          lue




                                                                                                                           rd alue
                           me




                                                                                                                                                            r)
                                                                                                                                                          lue
                                                                                Da
                                                               fic




                                                                                                                                                         rvi

                                                                                                                                                        the
                                                                              tM




                                                                                                                                                          C
                                                                                                       Va
                        Na




                                                            Of




                                                                                                                                                         )
                                                                                                                                                      Va




                                                                                                                                                     WA
                                             r




                                                                                                                             ed
                                                                             er




                                                                                                                                                      Se
                                                                                                                     R e er V




                                                                                                                                                     8(a
                                          me




                                                                                                                                                     (O
                                                                          t es


                                                                         ars




                                                                                                     er
                                                                          rd
                  tor




                                                         ng




                                                                                                                                                   in
        #




                                                                                                                                                rG
                                                                                                                                                 (IT
                                      st o




                                                                                                                                                AS
                                                                                                   rd
                                                                        La




                                                                                                                                                ST
                                                                                                                        rd
     ID




                                                                       lO




                                                                                                                        co
                                                                       Ye
                                                        cti
                   ac




                                                                                                                                               th
                                                                                                 lO




                                                                                                                     lO




                                                                                                                                              he
                                                                                                                                             AS

                                                                                                                                            SM

                                                                                                                                             FA
                                    Cu




                                                                     of
                                                                     na




                                                                                                                                            ow
                                                         a
               ntr




                                                      ntr




                                                                                                                                           Ot
                                                                                                tia




                                                                                                                      a




                                                                                                                                         SM
                                                                igi


                                                                  te




                                                                                                                   Fin




                                                                                                                                         Gr
            Co




                                                                                                                                         FS
                                                                                               Ini
                                                                Da
                                                    Co


                                                              Or




                                                                                                                                      FS
                  US Army Center of
1 Thorpe          Military History
                                                 CO#3 Feb-04          N/A     N/A    $     1,842,559      $       1,842,559          0%   X



2 OAO             GSA                            CO#3 Jun-00 Apr-04           3.8    $     2,464,204      $      16,101,290    553%       X


                  National Guard
3 SAIC            Bureau
                                                 CO#3 Sep-03 Mar-04           0.5    $     2,847,207      $       7,266,169    155%       X



4 NGIT            Homeland Security              CO#6 Nov-03 Aug-04           0.7    $    24,558,404      $      42,886,769     75%       X


   Encore         Administration for
5 Mngmt           Children and Families
                                        CO#4 Apr-04 Aug-04                    0.3    $     4,914,494      $       4,914,494          0%       X



6 Anteon          Homeland Security              CO#4 Mar-04         Jul-04   0.4    $    11,249,235      $      11,249,235          0%                 X


                  Office of Naval
7 SAIC            Intelligence
                                                 CO#1 Dec-01 Apr-04           2.3    $    15,037,179      $      15,037,179          0%                 X


   Columbia
8 Services        DC Public Schools              CO#1 May-04 Jul-04           0.2    $     1,012,949      $       1,012,949          0%            X


   Maden          Federal Railroad
9 Tech            Administration
                                                 CO#3 Feb-03 Aug-04           1.5    $     2,049,870      $       2,049,870          0%            X


                  Office of Social Work/
10 SAIC           Family Advocacy
                                         CO#4 May-04                  N/A     N/A    $      752,003       $        752,003           0%       X



   Total                                                                             $   66,728,103       $ 103,112,517        55%        4   2    2    2

   Average                                                                    1.22   $    6,672,810       $     10,311,252     55% 40% 20% 20% 20%




  Federal Supply Schedule Orders:

                 FY04 Sample Number 1           Task Order 11CFS214001 is a Firm Fixed Price
                 (FFP) type task order for the United States Army Center of Military History for
                 digital archiving. This task has been awarded to Thorpe International Incorporated.
                 This order is a Department of Defense (DOD) order, requiring a minimum of three
                 offers. However, only two offers were received, and the Contracting Officer could
                 not explain, and did not document his justification for awarding without three
                 offers. The documentation for 11CFS214001 did not include an acquisition plan.
                 This task order was awarded on 2/25/04, which is prior to the time frame the new
                 internal controls were to be evaluated.

                 FY04 Sample Number 2         Task Order 11DL10045 is a Time and Materials
                 (T&M) type contract for the General Services Administration (Region 9) for the

                                                                                         C-4
GSA/OIG/A040102/T/W/Z05004


APPENDIX C
              Schedule of FY04 Task Order Sample with Notes
      migration of the Access version of the Integrated Task Order Management System
      to a Common Oracle Database. This task order was awarded to the OAO
      Corporation. We evaluated this task order for Modification Number 28 only.
      Modification Number 28 extends the Period of Performance through 30 April 2004
      at no additional cost to the government. This modification does not increase task
      value and does not exercise an option. Because this modification was only to
      extend the Period of Performance at no additional cost to the government, we are
      unable to draw a conclusion regarding the implementation of improved internal
      controls as it applies to this task order.

      FY04 Sample Number 3             Task Order 11DDW213011 is a T&M type contract
      for the National Guard Bureau for the provision of products and services, and gives
      the National Guard Bureau the ability to acquire a Distributive Technology
      Training Project and Information Technology (IT) Support. This task order was
      awarded to Science Applications International Corporation (SAIC). We evaluated
      this task order for Modification Number 4 only. Task Order 11DDW213011 is part
      of a Blanket Purchase Agreement (BPA) that was the result of a competitive award.
      Modification Number 4 executes the Bill of Materials for 32 State Polycom
      Multipoint Conferencing Units for video teleconferencing. This modification does
      not exercise an option, nor does it extend contract period of performance, therefore
      we are unable to draw a conclusion regarding the implementation of the improved
      internal controls as it applies to this task order.

      FY04 Sample Number 4          Task Order 11DL1704001B represents a Contract
      Line Item Number (CLIN) issued under BPA GS00TO2ACA2582. This BPA was
      awarded, after adequate competition, to Northrop Grumman Information
      Technologies for the Department of Homeland Security for Deskside Server
      Support. We have evaluated this task order for Modification Number 2 only. This
      modification does not exercise an option, nor does it extend contract period of
      performance. Modification Number 2 only served to add incremental funding to the
      task order. Therefore, we are unable to draw a conclusion regarding the
      implementation of improved internal controls as it applies to this task order.

      FY04 Sample Number 5           Task Order NP7500036049 is a T&M type task order
      for the Administration for Children and Families for administrative and clerical
      support. This task was awarded as a directed buy to Encore. Competition was
      accomplished under task order 11JBJ752264. The purpose of this new task is to
      align the professional services provided under the correct fund code, General
      Supply Fund 295X. Prior to this, the professional services provided were
      incorrectly charged to the IT Fund 299X. The schedule used for this task order was
      not one of the professional services contracts that the Federal Technology Service
      (FTS) was authorized to use. Therefore, a one-time waiver was requested for
      authorization for FTS to use this professional services schedule. This waiver was

                                          C-5
GSA/OIG/A040102/T/W/Z05004


APPENDIX C
              Schedule of FY04 Task Order Sample with Notes
      obtained from the Assistant Commissioner, Office of Professional Services, on
      March 8, 2004. The waiver allows for the use of the schedule in order to transition
      the customer to another contract vehicle. We evaluated this task order for
      Modification Number 2 only. This modification fully funds the task order until its
      completion on March 31, 2005. Because the purpose of this task was simply to
      transition an existing task order from the IT Fund to the General Supply Fund until
      its completion, we are unable to draw a conclusion regarding the implementation of
      improved internal controls as it applies to this task order.


Government Wide Acquisition Contract Orders:

      FY04 Sample Number 6           Task Order 11HVS704005 is a T&M type contract
      for the Department of Homeland Security for the design, development, integration,
      fielding and maintenance of the National Emergency Management Agency’s
      Disaster Assistance Systems. This task has been awarded to the Anteon
      Corporation. We evaluated this task order for Modification Number 1 only.
      Modification Number 1 funds this task order through 30 June 2004 and attaches
      Anteon’s work proposal for 1 April through 30 June 2004, considered work
      directive 01. This modification does not increase task value, it does not exercise an
      option, nor does it extend contract period of performance, therefore we are unable
      to draw a conclusion regarding the implementation of improved internal controls as
      it applies to this task order.

      FY04 Sample Number 7             Task Order 11GAP172015 is T&M type contract for
      the Office of Naval (ONI) Intelligence for support systems analysis, software
      development, and integration of ONI’s end-to-end process of acoustic intelligence
      production from data acquisition through publication and dissemination of
      products. This task has been awarded to SAIC. We evaluated this task order for
      Modification Number 18 only. The documentation (Determination and Findings)
      does contain adequate justification for it being a T&M type contract and the
      contract ceiling is clearly stated. The purpose of Modification Number 18 was to
      add funding to the task order that fully funded the task through the end of the
      period of performance, and attached a statement of work. This modification does
      not increase task value, it does not exercise an option, nor does it extend contract
      period of performance, therefore we are unable to draw a conclusion regarding the
      implementation of improved internal controls as it applies to this task order.


FAST 8(a) Orders:
      FY04 Sample Number 8          Task Order NI9908040020 is a T&M type task order
      for the District of Columbia Public Schools for a Systems integrator to provide
                                           C-6
GSA/OIG/A040102/T/W/Z05004


APPENDIX C
              Schedule of FY04 Task Order Sample with Notes
      ongoing management acquisition, installation, and maintenance support for
      identified District of Columbia Public School facilities. This task was awarded to
      the Columbia Services Group, Inc. The documentation includes an acquisition plan,
      rationale for the contract vehicle used, and an agreed-upon Period of Performance.
      The Determination and Findings for this task order includes a justification for being
      T&M, and the purchase order details a Not to Exceed amount. This task order
      serves as evidence that improved internal controls have been implemented. All
      required documentation was completed and was included in ITSS.

      FY04 Sample Number 9          Task Order 11LWM693001 is a FFP type task order
      for the Federal Railroad Administration for Help Desk and LAN support services.
      This task was awarded to Maden Tech Consulting. We evaluated this task order for
      Modification Number 2 only. This Modification provides additional funding and
      exercises a six-month option. The option period was priced and evaluated at the
      time of the initial award. A Determination and Findings was not prepared prior to
      exercising this option.


Management Organizational and Business Improvement Services Orders:
      FY04 Sample Number 10           Task Order NP210004HVS0 is a T&M type task
      order for the United States Army Office of Social Work/ Family Advocacy
      Consultant for providing qualified psychotherapists trained in marriage and family
      therapy to augment social work services within the Army’s European Theatre of
      operations. This task was awarded to SAIC. NP210004HVS0 provides the
      transition of an existing order (K1100BJ3064) from the IT Fund to the Professional
      Services, General Supply fund. This is a Management Organizational and Business
      Improvement Services (MOBIS) order and is not IT Related. FTS was improperly
      using the IT Fund for this order. Because the purpose of this task was simply to
      transition an existing task order from the IT Fund to the General Supply Fund until
      its completion, we are unable to draw a conclusion regarding the implementation of
      improved internal controls as it applies to this task order.




                                           C-7
